<html>
<title> - ELECTION REFORM: VOLUME 1</title>
<body><pre>[Senate Hearing 107-1036]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 107-1036
 
                       ELECTION REFORM: VOLUME 1

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                        RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                       FIRST AND SECOND SESSIONS

                             Together with

             ADDITIONAL STATEMENTS SUBMITTED FOR THE RECORD

                             VOLUME 1 OF 3


             MARCH 14, JUNE 27, JUNE 28, AND JULY 23, 2001

                               __________

    Printed for the use of the Committee on Rules and Administration




                   U.S. GOVERNMENT PRINTING OFFICE
82-483                       WASHINGTON : 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001









                 COMMITTEE ON RULES AND ADMINISTRATION

               CHRISTOPHER J. DODD, Connecticut, Chairman
ROBERT C. BYRD, West Virginia        MITCH McCONNELL, Kentucky, Ranking 
DANIEL K. INOUYE, Hawaii                 Member
DIANNE FEINSTEIN, California         JOHN W. WARNER, Virginia
ROBERT G. TORRICELLI, New Jersey     JESSE HELMS, North Carolina
CHARLES E. SCHUMER, New York         TED STEVENS, Alaska
JOHN B. BREAUX, Louisiana            THAD COCHRAN, Mississippi
TOM DASCHLE, South Dakota            RICK SANTORUM, Pennsylvania
MARK DAYTON, Minnesota               DON NICKLES, Oklahoma
RICHARD J. DURBIN, Illinois          TRENT LOTT, Mississippi
                                     KAY BAILEY HUTCHISON, Texas
                                 ------                                
            Kennie L. Gill, Staff Director and Chief Counsel
                Veronica M. Gillespie, Elections Counsel
            Carole J. Blessington, Administrative Assistant
            Tamara S. Somerville, Republican Staff Director
                 Brian Lewis, Republican Chief Counsel
                  Leon R. Sequeira, Republican Counsel
















                            C O N T E N T S

                              ----------                              

                                VOLUME 1
                            ELECTION REFORM
                             March 14, 2001

Opening statement of:
                                                                   Page
    Hon. Mitch McConnell, Chairman, a U.S. Senator from the State 
      of Kentucky................................................     1
    Hon. Christopher J. Dodd, Ranking Member, a U.S. Senator from 
      the State of Connecticut...................................     3
    Hon. Charles E. Schumer, member, a U.S. Senator from the 
      State of New York..........................................     6
    Hon. Mark Dayton, member, a U.S. Senator from the State of 
      Minnesota..................................................    26
Testimony and Statement of:
    A panel consisting of:
        James Gashell, Director of Governmental Affairs, National 
          Federation of the Blind, Baltimore, MD.................     8
        R. Doug Lewis, Executive Director, The Election Center, 
          Houston, TX............................................    12
    A panel consisting of:
        Todd F. Gaziano, Senior Fellow in Legal Studies, The 
          Heritage Foundation, Washington, DC....................    29
        Hilary O. Shelton, Director, Washington Bureau, NAACP, 
          Washington, DC.........................................    39
        Juan A. Figueroa, President and General Counsel, Puerto 
          Rican Legal Defense & Education Fund, Inc., New York, 
          NY.....................................................    45
        Steven Knack, Professor, Bethesda, MD....................    49
A panel consisting of:
    John Samples, Director, Center for Representative Government, 
      Cato Institute, Washington, DC.............................    76
    Robert R. Williams, Special Policy Advisor, United Cerebral 
      Palsy Associations, Inc., Washington, DC...................    85
    Linda Chavez-Thompson, Executive Vice President, AFL-CIO, 
      Washington, DC.............................................    93
    Deborah M. Phillips, Chairman, The Voting Integrity Project, 
      Arlington, VA..............................................    97

  REPORT OF THE U.S. COMMISSION ON CIVIL RIGHTS ON THE NOVEMBER 2000 
                 ELECTION AND ON ELECTION REFORM ISSUES
                             June 27, 2001

Opening statement of:
    Hon. Christopher J. Dodd, Chairman, a U.S. Senator from the 
      State of Connecticut.......................................   113
    Hon. Mitch McConnell, Ranking Member, a U.S. Senator from the 
      State of Kentucky..........................................   117
    Hon. Daniel K. Inouye, member, a U.S. Senator from the State 
      of Hawaii..................................................   117
    Hon. Dianne Feinstein, member, a U.S. Senator from the State 
      of California..............................................   132
    Hon. Robert G. Torricelli, member, a U.S. Senator from the 
      State of New Jersey........................................   133
    Hon. Charles E. Schumer, member, a U.S. Senator from the 
      State of New York..........................................   148
Testimony and statement of:
    A panel consisting of:
        Hon. Mary Frances Berry, Chairperson, U.S. Commission on 
          Civil Rights...........................................   120
        Hon. Abigail Thernstrom, Commissioner, U.S. Commission on 
          Civil Rights...........................................   134
Testimony and statement of:
    A panel consisting of:
        J. Kenneth Blackwell, Secretary of State, the State of 
          Ohio, Columbus, OH.....................................   161
        Hilary O. Shelton, Director, Washington Bureau, National 
          Association for the Advancement of Colored People, 
          Baltimore, MD..........................................   166
        Raul Yzaguirre, President, National Council of La Raza...   176
    A panel consisting of:
        Carolyn Jefferson-Jenkins, President, League of Women 
          Voters of the U.S., Washington, DC.....................   196
        Larry Sabato, Director, University of Virginia, Center 
          for Government Studies, Charlottesville, VA............   208
        James C. Dickson, Vice President for Governmental 
          Affairs, American Association of People with 
          Disabilities, Washington, DC...........................   216

   MEMBERS OF THE HOUSE OF REPRESENTATIVES ON ELECTION REFORM ISSUES
                             June 28, 2001

Opening statement of:
    Hon. Christopher J. Dodd, Chairman, a U.S. Senator from the 
      State of Connecticut.......................................   233
    Hon. Mitch McConnell, Ranking Member, a U.S. Senator from the 
      State of Kentucky..........................................   239
Testimony and statement of:
    A panel consisting of:
        Hon. John Conyers, Jr., Ranking Member, House Committee 
          on the Judiciary, a Representative in Congress from the 
          State of Michigan......................................   240
        Hon. Robert W. Ney, Chairman, House Administration 
          Committee, a Representative in Congress from the State 
          of Ohio................................................   246
        Hon. Steny H. Hoyer, Ranking Member, House Administration 
          Committee, a Representative in Congress from the State 
          of Maryland............................................   255
        Hon. Robert Wexler, a Representative in Congress from the 
          State of Florida.......................................   261
        Hon. Roy Blunt, a Representative in Congress from the 
          State of Missouri......................................   267
Testimony and statement of:
    A panel consisting of:
        Hon. Eddie Bernice Johnson, a Representative in Congress 
          from the State of Texas................................   278
        Hon. Xavier Becerra, a Representative in Congress from 
          the State of California................................   279
        Hon. Corrine Brown, a Representative in Congress from the 
          State of Florida.......................................   296
        Hon. Peter Deutsch, a Representative in Congress from the 
          State of Florida.......................................   315
        Hon. Carrie P. Meek, a Representative in Congress from 
          the State of Florida...................................   318
    A panel consisting of:
        Hon. Dale E. Kildee, a Representative in Congress from 
          the State of Michigan..................................   337
        Hon. Maxine Waters, a Representative in Congress from the 
          State of California....................................   344
        Hon. Silvestre Reyes, a Representative in Congress from 
          the State of Texas.....................................   349
        Hon. Charles A. Gonzalez, a Representative in Congress 
          from the State of Texas................................   353
    A panel consisting of:
        Hon. Mark Foley, a Representative in Congress from the 
          State of Florida.......................................   357
        Hon. John E. Sweeney, a Representative in Congress from 
          the State of New York..................................   363
        Hon. Sheila Jackson Lee, a Representative in Congress 
          from the State of Texas................................   373

         FIELD HEARING IN ATLANTA, GA ON ELECTION REFORM ISSUES
                             July 23, 2001

Opening statement of:
    Hon. Christopher J. Dodd, Chairman, a U.S. Senator from the 
      State of Connecticut.......................................   395
    Hon. Max Cleland, a U.S. Senator from the State of Georgia...   398
Testimony of:
    A panel consisting of:
        Hon. Anil Lewis, President of the Atlanta Metropolitan 
          Chapter of National Federation of the Blind, Atlanta, 
          GA.....................................................   403
        Diane Smith, voter, Rex, GA..............................   412
        Juanita Sanders Cribb, voter, Stone Mountain, GA.........   414
    A panel consisting of:
        Vernon Jones, Chief Executive Officer, De Kalb County, 
          Decatur, GA............................................   426
        Hon. A. Von Spakovsky, vice chairman, Fulton County Board 
          of Registration and Elections, Altanta, GA.............   434
        Hon. Cathy Cox, Secretary of State, State of Georgia, 
          Altanta, GA............................................   443
        Reverend Doctor Joseph E. Lowery, Chairman, Georgia 
          Coalition for the People's Agenda, Atlanta, GA.........   453

                                VOLUME 2
                               appendices

Material submitted for the record on March 14, 2001:
    Appendix 1. ``2000 Professional Practices Papers,'' presented 
      by The Election Center, submitted for the record by 
      Chairman McConnell.........................................   479
    Appendix 2. ``Elections: the Scope of Congressional Authority 
      in Election Administration,'' U.S. General Accounting 
      Office, (March, 2001; GAO-01-470), submitted for the record 
      by Ranking Member Dodd.....................................   577
    Appendix 3. ``Elections the Brazilian Way,'' submitted for 
      the record by Ranking Member Dodd..........................   610
    Appendix 4. Statement of the Hon. Shelia Jackson Lee, a U.S. 
      Representative from the State of Texas, submitted for the 
      record by Ranking Member Dodd..............................   611
    Appendix 5. Attachments to the statement of Deborah M. 
      Phillips, Chairman, Voting Integrity Project, submitted for 
      the record.................................................   628
    Appendix 6. Statement of Barbara R. Arnwine, Executive 
      Director, Lawyers' Committee for Civil Rights under Law, 
      March 14, 2001, submitted for the record by Ranking Member 
      Dodd.......................................................   648
    Appendix 7. Statement of Raul Yzaguirre, President, National 
      Council of La Raza, submitted for the record by Ranking 
      Member Dodd................................................   681
    Appendix 8. Statement of Todd A. Cox, Assistant Counsel, 
      NAACP Legal Defense and Educational Fund, submitted for the 
      record by Ranking Member Dodd..............................   688
Materials submitted for the record on June 27, 2001:
    Appendix 9. ``Motor Voter Out of Control,'' by Christopher S. 
      ``Kit'' Bond, The Washington Post, June 27, 2001, submitted 
      for the record by Ranking Member McConnell.................   692
    Appendix 10. ``Supplemental Statement on USCCR Procedures 
      Pertaining to the Florida Voting Rights Report,'' submitted 
      for the record by the Hon. Mary Frances Berry, Chairperson, 
      U.S. Commission on Civil Rights............................   693
    Appendix 11. ``Report on the Racial Impact of the Rejection 
      of Ballots Cast in the 2000 Presidential Election in the 
      State of Florida,'' by Allan J. Lichtman, Professor, 
      Department of History, American University, Washington, 
      D.C., June 2001, submitted for the record by the Hon. Mary 
      Frances Berry, Chairperson, U.S. Commission on Civil Rights   722
    Appendix 12. ``The Florida Election Report: Dissenting 
      Statement by Commissioner Abigail Thernstrom and 
      Commissioner Russell G. Redenbaugh,'' submitted for the 
      record by the Hon. Abigail Thernstrom, Commissioner, U.S. 
      Commission on Civil Rights.................................   817
    Appendix 13. ``Non-Voted Ballots and Discrimination in 
      Florida,'' by John R. Lott, Jr., School of Law, Yale 
      University, June 25, 2001, submitted for the record by the 
      Hon. Abigail Thernstrom, Commissioner, U.S. Commission on 
      Civil Rights...............................................   875
    Appendix 14. ``Whose Votes Don't Count?: An Analysis of 
      Spoiled Ballots in the 2000 Florida Election,'' by Philip 
      A. Klinkner, Associate Professor of Government, Hamilton 
      College, submitted for the record by Chairman Dodd.........   891
    Appendix 15. Statement of Marisa J. Demeo, Regional Counsel, 
      Mexican American Legal Defense and Education Fund, June 27, 
      2001, submitted for the record by Chairman Dodd............   915
    Appendix 16. Statement of Leadership Conference on Civil 
      Rights, June 27, 2001, submitted for the record by Chairman 
      Dodd.......................................................   925
    Appendix 17. Statement of Barbara R. Arnwine, Executive 
      Director, Laywers' Committee for Civil Rights under Law, 
      June 27, 2001, submitted for the record....................   927
    Appendix 18. Statement of Margaret Fung, Executive Director, 
      Asian American Legal Defense and Education Fund, submitted 
      for the record.............................................   973
    Appendix 19. Statement of LaShawn Warren, Legislative 
      Counsel, American Civil Liberties Union, submitted for the 
      record.....................................................   977
    Appendix 20. Statement of American Association of People With 
      Disabilities, submitted for the record.....................   979
    Appendix 21. Statement of Gerald W. McEntee, President, 
      AFSCME, submitted for the record...........................   980
    Appendix 22. Statement of General Board of Church and 
      Society, United Methodist Church, submitted for the record.   981
    Appendix 23. Statement of United Cerebral Palsy Association, 
      submitted for the record...................................   983
    Appendix 24. Statement of American-Arab Anti-Discrimination 
      Committee, submitted for the record........................   986
    Appendix 25. Statement of Religious Action Center of Reform 
      Judaism, submitted for the record..........................   987
    Appendix 26. Statement of National Asian Pacific American 
      Legal Consortium, submitted for the record.................   989
    Appendix 27. Statement of Consortium for Citizens with 
      Disabilities, submitted for the record.....................   990
    Appendix 28. Statement of Alan Reuther, Legislative Director, 
      International Union, United Automobile, Aerospace & 
      Agricultural Implement Workers of America, submitted for 
      the record.................................................   993
    Appendix 29. Statement of Organization of Chinese Americans, 
      submitted for the record...................................   995
    Appendix 30. Statement of Joan Claybrook, President, Public 
      Citizen, submitted for the record..........................   996
    Appendix 31. Statement of United Church of Christ Justice and 
      Witness Ministries, submitted for the record...............   998
    Appendix 32. Statement of William McNary, President, US 
      Action, submitted for the record...........................  1000
    Appendix 33. Statement of NAACP, submitted for the record....  1001
    Appendix 34. Statement of William Samuel, Director, AFL-CIO, 
      submitted for the record...................................  1004
    Appendix 35. Statement of Ralph G. Neas, President, People 
      for the American Way, submitted for the record.............  1005
    Appendix 36. Statement of William F. Welsh II, Chairman, 
      Election Systems & Software, submitted for the record......  1007
    Appendix 37. Statement of the Hon. John Conyers, Jr., a U.S. 
      Representative from the State of Michigan, submitted for 
      the record.................................................  1011
    Appendix 38. Statement of the Hon. Christopher J. Dodd, 
      Chairman, a U.S. Senator from the State of Connecticut, 
      submitted for the record...................................  1012
    Appendix 39. ``Finding Racial Bias Where There Was None.'' 
      National Journal, June 9, 2001, submitted for the record by 
      Ranking Member McConnell...................................  1013
    Appendix 40. ``The Florida Travesty, Cont.,'' The Weekly 
      Standard, June 18, 2001, submitted for the record by 
      Ranking Member McConnell...................................  1015
    Appendix 41. ``Boxing With Ballots,'' US News and World 
      Reports, June 16, 2001, submitted for the record by Ranking 
      Member McConnell...........................................  1017
    Appendix 42. ``Spoiled,'' The New Republic, June 25, 2001, 
      submitted for the record by Ranking Member McConnell.......  1018
    Appendix 43. Additional questions for the record from Members 
      and answers submited by witnesses..........................  1019

                                VOLUME 3

    Appendix 44. ``Voting Irregularities in Florida During the 
      2000 Presidential Election,'' United Commission on Civil 
      Rights, June 2001, submitted for the record................  1057
Materials submitted for the record on June 28, 2001:
    Appendix 45. Statement of Hon. James R. Langevin, a U.S. 
      Representative from the State of Rhode Island, submitted 
      for the record.............................................  1205
    Appendix 46. [Deleted.]
    Appendix 47. ``Advancing Election Reform,'' New York Times, 
      July 8, 2001...............................................  1208
Materials submitted for the record on July 23, 2001:
    Appendix 48. Statement of Hon. Max Cleland, a U.S. Senator 
      from the State of Georgia, submitted for the record........  1210
    Appendix 49. Letter from the Consortium for Citizens with 
      Disabilities, submitted for the record.....................  1212
    Appendix 50. Statement of American Society for Quality, 
      submitted for the record...................................  1215
    Appendix 51. ``A Record of Police Intimidation and Arrest of 
      Minority Voters in Cobb County, Georgia on November 7, 
      2000.'' by Laura M. Lester, submitted for the record.......  1221
    Appendix 52. ``NAACP Voters Public Hearing,'' Atlanta City 
      Council Chambers, Atlanta, Georgia, November 21, 2000, 
      submitted for the record in support of testimony by Diane 
      Smith......................................................  1224
Business meeting.--August 2, 2001:
    Appendix 53. Business Meeting, Thursday, August 2, 2001, 
      Committee on Rules and Administration......................  1525
Opening statement of:
    Hon. Christopher J. Dodd, Chairman, a U.S. Senator from the 
      State of Connecticut.......................................  1525
    Hon. Robert G. Torricelli, member, a U.S. Senator from the 
      State of New Jersey........................................  1559
    Hon. John B. Breaux, member, a U.S. Senator from the State of 
      Louisiana..................................................  1560
    Hon. Charles E. Schumer, member, a U.S. Senator from the 
      State of New York..........................................  1562
    Hon. Mark Dayton, member, a U.S. Senator from the State of 
      Minnesota..................................................  1583
    Hon. Robert C. Byrd, member, a U.S. Senator from the State of 
      West Virginia..............................................  1590
    Hon. Tom Daschle, Majority Leader, a U.S. Senator from the 
      State of South Dakota......................................  1593
    Hon. Richard J. Durbin, member, a U.S. Senator from the State 
      of Illinois................................................  1603
    Hon. Dianne Feinstein, member, a U.S. Senator from the State 
      of California..............................................  1604
    Hon. Daniel K. Inouye, member, a U.S. Senator from the State 
      of Hawaii..................................................  1605























                            ELECTION REFORM

                              ----------                              


                       WEDNESDAY, MARCH 14, 2001

                              United States Senate,
                     Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SR-301, Russell Senate Office Building, Hon. Mitch 
McConnell, (chairman of the committee) presiding.
    Present: Senators McConnell, Dodd, Schumer, and Dayton.
    Staff Present: Tamara Somerville, Staff Director; Andrew 
Siff, Chief Counsel; Kennie L. Gill, Democratic Staff Director 
and Chief Counsel; Veronica M. Gillespie, Democratic Elections 
Counsel; Carole Blessington, Democratic Administrative 
Assistant; Lory Breneman, Chief Clerk and Jill Szczesny, Deputy 
Chief Clerk.

  OPENING STATEMENT OF HON. MITCH McCONNELL, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF KENTUCKY

    The Chairman. Good morning, everyone. Welcome to the Senate 
Rules Committee.
    The election of the first President of the 21st century was 
a sobering experience for Americans. As we watched the counting 
and recounting of the punch cards, people learned about the 
shortcomings of the punch card systems. As the process dragged 
on, other questions arose. Many ballots were cast by people not 
eligible to vote. So many dead people registered to vote and 
apparently cast ballots--along with many dogs, cats, and other 
non-humans--that this election seemed like a sequel to ``The 
Night of the Living Dead.'' Eligible voters who had lawfully 
registered were unable to vote because their registrations were 
never transferred from the motor vehicle authorities to the 
election authorities. Safeguards designed to prevent such 
problems failed miserably due to a lack of resources, 
personnel, and training for those tasked with operating polling 
places.
    People were outraged as American servicemen and women 
deployed abroad to defend our democracy were denied their right 
to participate in it. Cunning lawyers, bizarre State and local 
regulations on absentee registration and voting, as well as 
inexcusable failures by the military postal services, combined 
to prevent the counting of many ballots cast by members of our 
Armed Forces. These were not ambiguous votes with hanging, 
dimpled, or pregnant chads. The intent of these voters was as 
clear as the intent of some people to deny their votes.
    As the process continued, people were mystified by the many 
different, subjective standards selected by election officials 
across the State of Florida to recount ballots. Many of the 
ballots were manhandled during the process to the point that 
chads were falling onto the floors in the counting rooms, 
creating further confusion as to the intent of the voters. 
Eventually, the Supreme Court found this process so unreliable, 
unfair, and chaotic that it declared the recounts 
unconstitutional. Although subsequent analyses by news 
organizations, such as the Miami Herald, have confirmed that no 
amount of recounting under any standard could have changed the 
outcome, the haphazard and partisan nature of the recount 
certainly left its mark on the collective psyche of the body 
politic.
    Regrettably, we have also come to learn that the problems 
were not limited to Florida. In Wisconsin, there were reports, 
subsequently confirmed by investigators, of party operatives 
inducing homeless people to take advantage of same-day 
registration and vote in exchange for cigarettes. While I 
generally cheer the promotion of one of my home State's 
products--cigarettes, that is--I draw the line at exchanging 
cigarettes for votes.
    In St. Louis, an election day lawsuit was brought to extend 
poll closing times. In his court pleadings, the plaintiff, who 
was registered to vote even though he had been deceased for 
quite some time urged expanded polling hours so that he and 
others ``similarly situated'' could cast their ballots in the 
November elections. This fact did not deter the trial judge 
from granting the plaintiff a short-lived victory that was 
reversed just a few hours later, but not before thousands of 
illegal votes were cast throughout the city after the polls 
should have been closed. More recent problems in the St. Louis 
mayoral race have brought to light that many of the after-hours 
votes cast in November were based on bogus voter registrations 
filed just before the Presidential election. Thus, it is not 
surprising that people openly question the outcome of some of 
the close elections in Missouri.
    In addition to dead people not only registering and voting 
but bringing lawsuits to protect their franchise, there were 
serious problems with felons and non-citizens registering and 
voting in direct contravention of the laws of Florida and many 
other States. As the Washington Times and other sources have 
made clear, the ballots of murderers, child molesters, drug 
dealers, and thieves were counted while many of the votes of 
our men and women in uniform were not.
    The despicable state of voter rolls and the lax enforcement 
of voter eligibility laws were not unique to Florida and 
Missouri. Equally serious problems with the voter rolls in 
California, Indiana, Georgia, and Oklahoma were also 
documented. Hundreds of counties across the country have more 
people registered to vote than they have residents of voting 
age.
    As we continue to examine the shortcomings of election 
administration in America, attention is also turning to the 
unintentional but nevertheless disturbing disregard of the 
challenges disabled and elderly voters face in going to the 
polls. Many seniors and disabled voters are unable to access 
polling places. Among them are the last members of the 
``greatest generation'' and other disabled veterans who have 
shed their blood on battlefields across the world to protect 
our country.
    Often, even when elderly, blind, and disabled voters are 
able to access polling places, they are unable to use the 
voting equipment inside. Some elderly, blind, and disabled 
Americans are so discouraged by these barriers that they do not 
vote at all. Some of those who do vote have no choice but to 
have someone else mark their ballot for them. When this occurs, 
these citizens must hope, but can rarely verify, if their 
ballots were counted according to their wishes and without 
error. Others are forced to use absentee ballots.
    Such barriers to participation by elderly, blind, and 
disabled Americans must be addressed as part of the effort to 
bring America's election processes into the 21st century. I am 
committed to finding workable solutions that will give these 
citizens access to polling places and polling methods.
    Many members of this committee, including myself along with 
Senator Torricelli, Senators Dodd and Daschle, Senator Schumer, 
Senator Hutchison, and Senator Stevens, have offered serious 
and thoughtful legislation aimed at remedying many of the 
problems that I have just discussed. And we meet here today not 
as Democrats or Republicans, but as public servants committed 
to learning about ways to address these issues in a responsible 
and bipartisan manner.
    To those who have alleged that their vote was diluted by 
fraud and to those who allege that their right to vote was 
frustrated by the actions of election supervisors, county 
officials, and poll workers, I plan to with work all of you. I 
ask you to join me in supporting legislation I will be 
introducing to guarantee that for the 2002 elections Federal 
officials will monitor all polling sites where irregularities 
are alleged to have occurred. This will ensure that if there is 
any improper or illegal conduct during the next election, it 
will be documented and prosecuted to the full extent of the 
law. My legislation will also mandate stiff criminal penalties 
for vote fraud and voter intimidation. Such a bill is necessary 
to eliminate any perception that the right to vote can be 
abridged by fraud or the misconduct of local officials.
    The American people will not forgive us if our efforts to 
solve the problems plaguing our democracy degenerate into 
partisan maneuvering, sound bites, epithets, and inaction. We 
must work together to ensure that everyone who is legally 
entitled to vote is able to do so and everyone who does vote is 
legally entitled to do so, and does so only once. We can do 
this if we distinguish facts from fiction, appreciate the 
complexity of the elections process, and agree that any 
solutions must in equal parts promote fairness, openness, 
honesty, and accuracy in American elections.
    I now welcome my colleague and ranking member, Senator 
Dodd, for any opening statement he might like to make.

OPENING STATEMENT OF HON. CHRISTOPHER J. DODD, RANKING MEMBER, 
          A U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Dodd. Well, thank you very much, Mr. Chairman, and 
let me begin by expressing my appreciation to you for holding 
this hearing at an early date. The issues of last fall and 
other elections, but particularly last fall, which received so 
much attention, clearly warrant our attention. The Commerce 
Committee has already held some hearings. There is a number of 
bills that have been introduced, including one by our colleague 
from New York, among others. Yesterday John Conyers and I 
introduced a piece of legislation along with the support of a 
number of people whom I will mention in my opening statement. 
There is a deep sense that while everyone has paid attention to 
what happened last fall, and particularly what happened in 
Florida, this has been an ongoing problem for some time and it 
warrants, it seems to me, our attention.
    Thomas Paine once said that elections are of paramount 
interest because they are the cornerstone of our democracy. 
They are what makes democracy work.
    At any rate, I am encouraged by the interest in this topic 
among our colleagues on the committee. No fewer than 14 bills, 
I am told, providing for various approaches of election reform 
have been referred to this committee for consideration, and six 
of our own members are sponsors of such legislation. And I am 
hopeful that we can schedule some sort of a business meeting to 
consider legislation on this in the not too distant future.
    The right to vote is, of course, a cornerstone right in a 
democracy. In the words of Paine, as I mentioned, it is the 
primary right by which all other rights are protected. Thirty-
six years ago tomorrow, on March 15, 1965, President Lyndon 
Johnson convened a joint session of the United States Congress 
to call for the passage of what ultimately became the Voting 
Rights Act. He spoke plainly and forcefully on that evening 
before a joint session of Congress. ``All Americans,'' he said, 
``must have the right to vote, and we are going to give them 
that right. All Americans must have the privileges of 
citizenship regardless of race, and we are going to give them 
those privileges of citizenship regardless of race.''
    Yet the sad message of this last election is that the 
privileges of citizenship have yet to be fully guaranteed to 
all Americans. Nor are the barriers to exercising this 
fundamental right limited to race. Inaccessible polling places 
and visual ballots disenfranchise the disabled and the blind 
across this country. Complicated instructions and a lack of 
trained personnel discourage language minorities and the 
elderly from fully exercising their right to vote. And even if 
voters were able to get to the polling place, read the ballot, 
and cast it, antiquated technology and insufficient machinery 
denied Americans of all races, languages, and physical 
abilities the right to have their vote counted.
    Mr. Chairman, I am not here to point fingers or suggest 
that these problems were isolated to just one State or one type 
of voting system, or even just the last Presidential election. 
But what happened last November set off alarms across the 
Nation that threaten to undermine the integrity of our system 
of democracy.
    The fact is there is a fundamental flaw in our Federal 
election system, and that flaw is the lack of Federal 
direction, leadership, and resources provided to the States and 
localities to meet their responsibility as the administrators 
of Federal elections.
    What we learned last November is that it is not good enough 
to guarantee the right to vote if procedures and technology 
prevent individuals from exercising that right. And it will 
take more than just a new mousetrap to fix the problem.
    It is time for this committee, this Congress, and this 
President to establish the minimum requirements necessary to 
ensure that all Americans who register to the vote and go to 
the polling place to vote are able to cast their ballots and 
have their votes counted in Federal elections.
    To secure the rights of all Americans to participate in our 
democracy, I am introducing the Equal Protection of Voting 
Rights Act of 2001, which establishes three simple national 
requirements for Federal elections: one, that voting machines 
and technology meet national standards; two, that States 
provide for provisional voting; and three, that States provide 
sample ballots and voting instructions to voters prior to 
Election Day.
    These requirements must be implemented by the 2004 Federal 
elections, and our bill provides funding to States and 
localities to achieve that. This legislation also creates a 
temporary commission to study numerous election reform issues, 
such as voter intimidation, the feasibility of a national 
holiday, and alternative methods of voting to facilitate 
participation.
    Finally, the legislation provides grant money to States and 
localities to replace voting equipment and technology, to make 
it accessible to those with disabilities, the blind, and those 
with limited English proficiency, to implement new 
administrative procedures, to increase participation and reduce 
disenfranchisement of minorities, to educate voters and train 
election personnel and volunteers, and to implement 
recommendations of the commission.
    Companion legislation is being introduced in the House by 
Congressman John Conyers, and our bill is supported by numerous 
groups, including the National Association for the Advancement 
of Colored People, the AFL-CIO, the National Federation for the 
Blind, the National Council of La Raza, the American Civil 
Liberties Union, and the Leadership Conference on Civil Rights.
    The issues highlighted in the last election are not a 
Democratic or Republican problem. They are an American problem. 
And I submit to this committee that the solutions to these 
problems must be appropriately nonpartisan if they are going to 
succeed.
    As the chairman knows, I stand ready to work with him, 
others on this committee, and our colleagues in the Senate on 
both sides of the aisle, to fashion bipartisan legislation to 
ensure that all Americans can participate more fully in this 
democracy. But such an effort must address the real problems 
faced by real Americans who felt shut out and were shut out of 
the polling place or disenfranchised.
    The witnesses we have invited to testify today are here to 
tell us about the barriers that they and their constituents 
have faced across this country. It is important to hear their 
stories and understand the very real obstacles Americans are 
facing in attempting to exercise their vote. This hearing is a 
strong start on what I hope will be a thorough review of 
Federal election practices in this Nation. There were numerous 
witnesses who could not be accommodated here today. In 
particular, I received requests from over 10 House Members, who 
in some cases are closer to these issues than members of the 
United States Senate are and who wish to be heard. I strongly 
would encourage the Chair and the committee to schedule some 
additional hearings--and he has indicated that will be the 
case--once the campaign finance debate has concluded.
    Again, Mr. Chairman, I commend you for holding this 
hearing. I know there are a lot of issues and the Senate is 
busy, but no matter could be more important than seeing to it 
that Americans can exercise their right to vote and participate 
fully in the election process in this country. For that reason 
I think this is a very important issue for us to consider.
    The Chairman. Thank you, Senator Dodd.
    I think there is no issue that I can recall recently where 
hearings have been more important than this one because there 
is great uncertainty on the part of Members of the Senate and 
House as to just what ought to be done. So I think the hearings 
will be very educational for us.
    It has traditionally been the practice of this committee to 
only have the chairman and the ranking member making opening 
statements, but I am encouraged by the fact that there is only 
one other Senator here at the moment, and Senator Schumer has a 
bill of his own. So I am going to take a risk here that we 
don't get stampeded with all the members, each of them wanting 
to make an opening statement, and call upon him for what I hope 
will be a brief opening statement so we can get to the 
witnesses.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, MEMBER, A U.S. 
               SENATOR FROM THE STATE OF NEW YORK

    Senator Schumer. Well, thank you, Mr. Chairman, and I 
appreciate the opportunity to make an opening statement. As you 
know, I have been involved in this issue since the week after 
the election, and before that, and I want to thank you and 
Senator Dodd for holding this hearing, which is, of course, of 
critical importance to our democracy.
    In 1787, Noah Webster, a leading pamphleteer in support of 
the Constitution, cautioned his new countrymen that elections 
stood as the ``principal bulwark of freedom. Americans,'' he 
exhorted us, ``never resign that right. It is the Magna Carta 
of our Government.''
    In our time, when many have also had to struggle for the 
right to vote, Justice Hugo Black echoed that sentiment and 
wrote that, ``No right is more precious in a free country than 
that of having a voice in the election of those who make the 
laws under which, as good citizens, we must live.''
    Sadly, Mr. Chairman, our last election demonstrated that 
this precious, fundamental right now rests precariously on a 
foundation of rusting equipment, human error, and official 
neglect. I look forward to hearing from our witnesses about 
some of the problems we encountered last November, but many of 
these issues have been perfectly apparent for quite a while, 
long before the Florida election.
    It is not news that the machines and techniques by which we 
record our votes are embarrassingly antiquated. In my own State 
of New York, lever machines, first invented in the 19th century 
and long out of production, frequently break down, leaving long 
lines of fuming and frustrated voters of the way we vote.
    I voted first in 1969, and I used the same type of machine, 
maybe the exact same machine itself, this year. The agony of 
voters in New York who wait on line for a half hour, 45 
minutes, get to the desk and then are told they are at the 
wrong table, go to another one, and then walk out because they 
have to go home to take care of the kids or get to work--you 
see it on their faces--is palpable.
    And the punch card machines, which we have heard about in 
Florida, too, leave many voters without a choice. And, again, 
this is not news to us. In 1975 and 1988, Roy Saltman at the 
National Bureau of Standards reported that punch cards were 
exceedingly inaccurate and should be scrapped.
    Nor is it news that other problems have plagued our 
elections: inadequately maintained lists, ballots that are 
poorly designed, phone lines too jammed, undertrained and 
overwhelmed poll workers who make avoidable mistakes, voters in 
the dark about basic things like where to go, what the ballot 
looks like, how to use the machines, and what to do if they 
have questions.
    As one member of Governor Jeb Bush's task force said--and 
Florida is far alone from this; this is astounding to me--``The 
State spends $30 million annually to instruct people on how to 
buy lottery tickets''--$30 million dollars on how to buy 
lottery tickets--``but allocates nothing for statewide voter 
education programs.''
    So, Mr. Chairman, I think all of us believe we can improve 
this lamentable situation, and I want to briefly describe the 
bipartisan bill that Senator Sam Brownback of Kansas and I have 
introduced with 11 other Republican and Democratic cosponsors. 
Our bill, the Federal Election Modernization Act, creates an 
independent blue-ribbon panel to study the way we vote and make 
recommendations on better voting machines, mail-in voting, and 
other new ideas about how to vote. The commission will 
recommend how we can make sure that the polls are accessible to 
everyone, including disabled voters and people serving overseas 
in the Armed Forces, and how we can guarantee that the lists at 
polling sites include all registered voters so no one is turned 
away.
    To make voting easier for people who work or care for 
families, the commission will explore whether to expand the 
days and hours we vote and whether to have an election day 
holiday, as many other countries do. And it will also consider 
how to best educate voters in election equipment and other 
aspects of voting.
    When the commission finishes its study, which will be by 
the end of this year, the bill provides for grant funding to 
help States and localities implement the commission's 
recommendations and upgrade their systems. Every year for 5 
years we will offer the States up to $500 million in matching 
funds to buy new equipment, train poll workers, educate voters, 
and implement other changes. This is a lot of money, $2.5 
billion, although it is estimated that to upgrade all of our 
machines would cost $9 billion. And what could be more 
important than what was rightly called the Magna Carta of our 
Government? You can't put a price tag on it.
    Because, Mr. Chairman, we recognize the constitutional 
prerogatives of States in this area, and States in all but nine 
cases have devolved the task of voting to the localities, the 
bill does not force anything on any States or counties but lets 
them choose what aspects of the system they want to reform and 
makes funds available. They could only use money for the 
recommended systems, so they will not be using money on things 
that won't work. But at the same time, if they don't choose to 
apply for the matching funds, which would be on a first-come, 
first-served basis, they won't get them. They won't be forced 
to do something they don't want to do.
    Any bill, Mr. Chairman, that places mandates, Federal 
mandates, on the States of how to vote I fear will, at the very 
minimum, go through years of litigation and not update our 
system by 2004, which I think is all of our goal.
    So, Mr. Chairman, I want to thank you and Senator Dodd and 
others who have introduced bills on voting reform for their 
commitment to the issue. All of our bills are works in 
progress, and I think everyone here has their hearts in the 
right place, and we all want to get something done about it.
    Let me close, Mr. Chairman, by saying I look forward to 
debating the merits of all our bills, because what is most 
important here is that we decide on the best legislative course 
and then act quickly and rapidly to repair our system. When it 
comes to voting, the hard work has already been done. It was 
done in 1775 at Lexington and 1863 at Gettysburg and 1965 at 
Selma. By comparison, Mr. Chairman, this is easy. We have to 
make sure it happens.
    Thank you.
    The Chairman. Thank you, Senator Schumer.
    I would like to ask our new member of the committee, 
Senator Dayton, if he has an opening statement, if he would 
simply put it in the record if he has one.
    Senator Dayton. Thank you, Mr. Chairman. I don't have an 
opening statement.
    The Chairman. Thank you very much.
    All right. We will move ahead with the first panel: James 
Gashel, Director of Governmental Affairs for the National 
Federation for the Blind, from Baltimore, and R. Doug Lewis, 
Executive Director of The Election Center in Houston. I would 
like to ask both of you to confine your opening statement to 5 
minutes, and, Mr. Gashel, I will alert you as to when that 5 
minutes is up. The red light will go off, and we would like for 
you to stop at that point and give us a chance to ask you 
questions. And we will lead off with Mr. Gashel.

  TESTIMONY AND PREPARED STATEMENTS OF A PANEL CONSISTING OF 
   JAMES GASHEL, DIRECTOR OF GOVERNMENTAL AFFAIRS, NATIONAL 
   FEDERATION OF THE BLIND, BALTIMORE, MARYLAND; AND R. DOUG 
 LEWIS, EXECUTIVE DIRECTOR, THE ELECTION CENTER, HOUSTON, TEXAS

                   STATEMENT OF JAMES GASHEL

    Mr. Gashel. Thank you very much, Mr. Chairman. My name is 
James Gashel, and I am representing the National Federation of 
the Blind here today. I have submitted my written statement for 
the record, and I am just going to briefly summarize it.
    Issues surrounding blindness and voting are often very 
sensitive and, frankly, they tend to arise in virtually every 
election cycle. I have been Director of Governmental Affairs 
for the National Federation of the Blind for about 27 years, 
and these issues come to my office for some form of assistance 
or resolution.
    This problem happens because the technology now in general 
use in voting forecloses the possibility that most blind people 
can vote and cast a secret ballot independently. I have never 
been able to do that, and I started voting in 1968.
    I say this is so for approximately 1 million people in our 
country who, as in my case, are blind, and for an estimated 7 
million more who can see some but can't see enough to read a 
visual display screen on a voting machine or to read the 
printed ballot.
    I should note that many people in this larger group often 
just stay away from the polls because they don't think they can 
really participate effectively in the process. We don't want 
that to happen anymore.
    So how do we vote? Well, the most common method is to use 
an assistant chosen by the voter. An amendment to the Voting 
Rights Act, which was passed in 1982--and the National 
Federation of the Blind requested that at that time--has 
established the practice of voter assistance as the law of the 
land. Prior to that, observation of a vote for persons who are 
blind, and the observation was conducted by election judges 
from each party, was the common practice in many jurisdictions. 
So the vote certainly wasn't private.
    Use of voter assistants personally chosen by the blind or 
disabled voter is certainly more private, and it is the best 
method when the technology involved permits nothing else. The 
voter assistance method is definitely not perfect though, Mr. 
Chairman; so it should not be abandoned as a matter of right. I 
say that because, no matter the technology, many people are 
just going to find using an assistant--that is, someone they 
trust--to help them with things is more accommodating to them 
than using technology that they don't necessarily trust. And 
the point is we want people to vote.
    As to technology, voting systems are changing along with 
all the electronic and information technology that we are 
coming to use every day. Electronic systems with push buttons 
and touch screens are now replacing the mechanical voting 
machines that Mr. Schumer talked about, and the punch card 
system that has been talked about, and also replacing paper 
ballots. No matter what the Congress does, I would predict that 
this trend toward electronic voting systems will accelerate 
because of the 2000 election.
    Mr. Chairman, there are several bills before you which have 
been referred to, and I particularly want to commend you for 
expressing your support for a strong disability and nonvisual 
access provision in this legislation. This is absolutely 
essential. I also want to commend Senator Dodd, Senator 
Schumer, and Senator Brownback for including in their bills 
requirements that contain specific criteria for access to 
voting technology by persons who can't see, as well as for 
persons who can see. The important thing about this legislation 
is that it makes these requirements specific in the bill and 
applicable to all voting technology, as first included in 
Senator Schumer's bill, and we thank all of you for embracing 
that principle.
    Your bills may be at odds in certain respects that are 
broad public policy issues, but we very much appreciate the 
fact that they are right in line with each other in terms of 
nonvisual access. And when I say nonvisual access, I want to 
emphasize the fact that this is good for everyone: people who 
can see as well as people who can't see. Many people, 
especially senior citizens, just can't read the small print on 
the ballot anymore or the voting machine. Some people just 
can't read at all. And other people are just confused by the 
layout of the ballot, as we have heard. So a presentation which 
is audio and visual together will help everyone.
    For blind people, having a voting machine that will talk to 
me will mean that I will be able to cast a secret ballot for 
the first time ever. This is really an important principle, and 
it is important that we establish this principle in all of the 
legislation passed concerning voting technology.
    In the spirit of legislation sponsored by Senator Dodd, 
Federal employees and the public are now able to have 
accessible electronic and information technology when they work 
or obtain services from Federal agencies. The principle I am 
talking about--nonvisual access in voting--is simply an 
extension of Senator Dodd's legislation originally passed as 
part of the Rehabilitation Act amendments in 1998. This is an 
extension of that principle to voting, which is our most 
important civic responsibility. of citizenship, and that is, 
casting our vote. I wait for the day when I will be able to do 
that both independently and secretly. And with your help, that 
day will come about.
    I thank you.
    The Chairman. Thank you very much, Mr. Gashel.
    [The prepared statement of Mr. Gashel follows:]

 Prepared Statement of James Gashel, Director of Governmental Affairs, 
                  the National Federation of the Blind

    Good morning, Mr. Chairman. My name is James Gashel. I am Director 
of Governmental Affairs for the National Federation of the Blind. My 
address is 1800 Johnson Street, Baltimore, Maryland 21230; telephone, 
(410) 659-9314. On behalf of the Federation and the blind people I 
represent, I want to begin by expressing my sincere thanks to you and 
this Committee for the opportunity to participate in this important 
hearing today.
    I believe I last appeared before this Committee in 1984--or perhaps 
it was 1983--when Congress was considering a bill which later became 
the Voting Accessibility for the Elderly and Handicapped Act. Several 
months before that, the National Federation of the Blind was very much 
involved in the process which led up to the 1982 enactment of 
amendments to the Voting Rights Act of 1965. The members of the 
National Federation of the Blind have a strong interest in any 
legislation affecting the voting process in this country, and we have a 
proud history of advocacy on behalf of full participation by the blind 
in our nation's electoral process.
    To say that the Presidential election of 2000 is apt to become the 
catalyst for lasting changes in the way Americans vote is simply to 
state the obvious. Politics aside, the election of November, 2000, 
demonstrated to everyone that the most fundamental right and 
responsibility of citizens in our democracy--choosing our elected 
representatives--is vulnerable to antiquated methods and technology, 
especially in closely fought elections. The integrity of the process 
demands a solution, and the technology now available and becoming 
available, makes it possible.
    Several bills are before you for consideration, but all of them 
have a common thread. The technology being used to cast and count 
ballots throughout the United States is not as reliable as we thought 
it was and certainly not as reliable as it could be. This means that 
changes in voting technology, already being made in the natural course 
of events, will be accelerated. It also means that the changes which do 
result from the present situation are apt to be in place for many 
decades to come.
    This latter point--that the new technology which will emerge will 
be with us for many years to come--is particularly important to the 
blind. In 1982, when Congress passed amendments to the Voting Rights 
Act, we advocated very strongly for a national standard to ensure that 
persons unable to read the printed ballot or the instructions on the 
voting machine would be able to have assistance provided by another 
person of the disabled voter's own choosing. We asked for this standard 
because of the widespread and objectionable practice of having election 
judges from each party physically present in the booth to assist a 
blind voter and monitor the casting of the ballot. It is an 
understatement to say that this process was both intimidating and 
demeaning to the blind voter, leading far too many to stay away from 
the polls on election day.
    Congress agreed with us in finding that it is wrong to subject 
blind people to the scrutiny of election judges, but the voter 
assistance provision which was passed with the Voting Rights Amendments 
of 1982, was only a partial solution. However, it was really the best 
and most appropriate solution available at that time. That is no longer 
the case since microchip and digital technology will undoubtedly change 
the way Americans vote--not only in the next election but far beyond.
    In the wake of the 2000 election, states and political subdivisions 
are scrambling to update their antiquated voting machines with 
electronic and computer-based voting systems. Arizona is already 
testing internet voting, and many jurisdictions have purchased touch-
screen digital voting machines. Under present law, individual states 
develop and apply their own standards to approve or ``certify'' voting 
systems used in local jurisdictions. This is precisely why Congress 
must become involved in helping to set the standards applied to voting 
in the future.
    In the case of technology, for example, the needs of blind voters 
are rarely understood or considered by the states in establishing 
criteria for certification of new voting systems. Consequently, the 
principle of ``equivalent visual and nonvisual access'' has not been 
adopted as a standard. As a result, virtually all electronic voting 
technology is unusable by as many as one million people who are blind 
and millions more who cannot see enough to read a printed ballot or 
visual display screen on a voting machine.
    Section 508 of the Federal Rehabilitation Act as amended in 1998, 
requires Federal departments and agencies to ensure that their 
electronic and information technology is accessible to individuals with 
disabilities. This provision resulted from legislation introduced by 
Senator Dodd. It means that all electronic and information technology 
purchased by the federal government must be equipped and configured for 
effective use by anyone with or without a disability. This law also 
applies to technology (such as information kiosks) intended for public 
use.
    At this point, Section 508 only has limited applicability to 
states. Therefore, it really has no direct applicability to voting. 
However, the principle of section 508-- equivalent access--is sound. If 
section 508 did apply to all governmental entities, including states 
and local jurisdictions, then equivalent access would be required. In 
fact, only one state that I know of presently has a law requiring all 
voting equipment to be accessible to individuals with disabilities. 
That law was signed by the then Governor of Texas, George W. Bush. 
Therefore, I guess I can safely claim to have the support of the 
President of the United States for the point we are making here today.
    According to the National Center on Policy Analysis, low voter 
turnout is primarily due to inconvenient voting procedures. Confirming 
this, an Ohio study pointed to intimidating'' voting methods as a 
significant reason why people don't vote. For blind people these 
factors are compounded by voting systems which are not only 
``inconvenient'' but unusable. Inaccessible voting systems discourage 
blind voters from exercising the most fundamental right of 
citizenship--the right to vote.
    Modern technologies (such as synthesized speech and speech 
activated software) allow electronic information to be accessed through 
visual and non-visual means. Using these technologies, blind people 
would be able to vote privately and independently. This is a step 
beyond the voter assistance provision presently in the Voting Rights 
Act, which will remain for years to come as the method most preferred 
by some blind people. However, with the advent of new technology, we 
can do better. This is especially important for those of us who are 
becoming accustomed to communicating by means of the computer. This is 
something we do every day; so why not communicate independently and 
effectively when we vote.
    Mr. Chairman, the expectations and possibilities are changing for 
all Americans in regard to virtually everything we do. That includes 
the way we vote, as well. Blind people are not excluded from these 
advancements. With the possibility now upon us for voting independently 
and privately--with or without sight--the provision for voter 
assistance will not be good enough.
    Fortunately, this principle has been embraced by most of the bills 
which address voting process reform. This includes the companion bills 
introduced by Senator Dodd and Representative Conyers, as well as an 
the earlier bill introduced by Senators Schumer and Brownback. Each of 
these bills has important provisions relating to standards for voting 
technology. And, most important of all, the standards called for in 
these bills would require nonvisual access, so blind people could cast 
their ballots both independently and in private. Enactment of these 
requirements as a part of legislation on voting process reform would 
extend the convenience and benefits of electronic voting systems to 
sighted and blind voters alike. This is the most important principle 
for blind Americans, Mr. Chairman, and we also appreciate the support 
you have expressed for it. Therefore, on behalf of the National 
Federation of the Blind, I thank you.

    The Chairman. Mr. Lewis, we will hear from you now.

                   STATEMENT OF R. DOUG LEWIS

    Mr. Lewis. Thank you. Rather than me reading the statement 
that I handed out, which we will obviously stand behind, I 
would like to spend just a few minutes----
    The Chairman. Could you pull the mike a little bit closer?
    Mr. Lewis. Sure. I would like to spend just a few minutes 
with you going over how complex some of this is and the fact 
that there are so many things that can go wrong in an election, 
and we obviously got witness to that in the year 2000.
    Certainly, in terms of me testifying to you, you know, 
there is a tendency to want to do too much here, to try to get 
too many of the areas covered and to try to go through those, 
and certainly, to get to the complexities of the election 
process itself, to explain the technologies that are used in 
elections, to state unequivocally that elections have to be 
fair and that all qualified voters have a right to participate 
in this process, regardless of their race, their age, their 
health, their education, their disabilities, or their service 
to our Nation's military.
    There is a need to review the media's coverage of election 
2000 and how it differs from what actually happened. There is a 
need to dispel myths that resulted from this election. There is 
a need to admit that certain of our procedures and policies had 
not been in our awareness in the past and that we have to do 
something about that in terms of fixing the problems.
    There is a need to examine the reasons for the errors in 
this process. There is a need to find the appropriate role for 
each level of government in fixing the problems discovered in 
this. There is a need to help you understand the barriers that 
the Nation's elections administrators face in trying to fix 
these problems. And, most importantly, there is a need to 
reassure Americans that this process has integrity, that it is 
administered fairly and responsibly to accurately reflect the 
public's will.
    Elections are so complex in terms of understanding that we 
have as elections administrators within the Nation authority 
over not much of this. When you look at it, we have voter 
registration agencies that don't report to us, don't have to 
report to us, or are not under our jurisdiction, and yet we 
have to live with any inequities that they make.
    We have buildings that we have to use that are not under 
our authority, and we have no responsibility, no funding, in 
order to be able to fix them and make them right and make them 
do what should be done. And, in fact, most of the time even the 
ones that are loaned to us, people try to shove us to the most 
inconvenient place in the building.
    We have huge numbers of poll workers who, at most, get one 
hour or two hours of training, and anything beyond that and 
anybody who expects that we are going to give more than that is 
probably sadly mistaken. And when we take a look at it, Los 
Angeles County, 27,000 poll workers on election day, my home, 
Houston, Texas, 8,500 poll workers on election day, you are 
going to get an uneven application of the law. You are going to 
get an uneven application of service when you get that. We try 
to teach them to have the right attitude toward all voters, and 
yet sometimes that fails miserably.
    The voters themselves, we try to explain that they ought to 
know and they should know and they should read and they should 
see and we send out sample ballots, and yet when they get to 
the polls, they still don't know what to do. Now, I don't want 
to blame the fault of the election process on the voters. That 
is not the point. The point is that we have no control over 
them, either. And if we were holding education schools for 
voters, they are probably not going to come.
    We might be able to try to change our attitude some and see 
if we can't fix a way that we can educate voters in 3 minutes 
or less while they are in the polling place on how to use the 
polling device itself, the voting device.
    Certainly, our budgets come from other authorities, and 
most of the time those authorities have little or no 
understanding of how this process works, and they don't have 
the time in their own meetings to allow you to explain program 
budgets so that you can understand them and understand why 
certain pieces are needed. And certainly some of the problems 
that came about in this election came as a result not of us not 
caring, not of us not wanting to do the right thing. Some of 
them we have been talking to all kinds of authorities about for 
20 years, trying to get the systemic problems fixed.
    I want you to know that the Nation's elections 
administrators want to do the right thing. They want to include 
every voter. They want to make this process work for every 
voter. These are people who are dedicated to this process so 
much that they make it work on very little budget, very little 
understanding, and certainly no ``atta boy's.'' The only time 
they get called attention to is when it is negative attention.
    We are here to help you. We are here to make it work for 
America's voters. But we are going to need a lot of help from 
every level of government to do so.
    [The prepared statement of Mr. Lewis follows:]

  Prepared Statement of Doug Lewis, Executive Director, The Election 
                                 Center

    Senators: I am appreciative of the invitation to appear before you. 
As the director of a nonpartisan, nonprofit organization that 
specializes in voter registration and election administration issues, 
we work with the nation's elections administrators at all levels of 
government to make democracy work.
    Our organization, The Election Center, is the premiere elections 
training organization in America and we offer seminars annually to 
train election and registration administrators how to do this process 
better. We train between 600 and 1,000 elections administrators every 
year in our sessions.
    We have been doing this since 1985 when two former staff members of 
the Federal Election Commission's Clearinghouse for Elections 
Administration left the FEC to start The Election Center because they 
felt that the Federal government was never going to put the resources 
into training better elections administrators. Thanks to a three-year 
grant of significant funds from the Ford Foundation in those early 
years, the Center has been able to establish itself as the principal 
training organization for the nation's elections administrators.
    Additionally, we keep state and local governments informed on new 
trends in elections, we track federal legislation for them, we track 
court decisions related to elections and we serve as a resource to 
state and local governments for research issues related to state 
election laws and local procedures. We have done surveys for the 
committees of jurisdiction for the U.S. Congress and have worked 
closely for many years with the Senate Rules Committee and the House 
Administration Committee (and its predecessors and subcommittees). We 
have served as a resource to the U.S. Department of Justice, the 
General Accounting Office, the U.S. Postal Service, and to the court 
appointed masters chosen to oversee the Teamsters election. Our work 
with the U.S. Postal Service resulted in the Postal Service granting a 
postal logo for identifying Official Elections Mail to the only 
organization outside of the postal service in its history.
    We have trained election officials from other governments 
throughout the world and, additionally, they have attended conferences 
and workshops sponsored by us. We also offer a Professional Education 
Program in conjunction with Auburn University in Alabama where the 
Auburn master's in public administration faculty teaches most of our 12 
core courses which leads to certification of elections professionals 
with the highest designation that can be earned in our profession: 
Certified Elections/Registration Administrator (CERA). We started a 
program six years ago to recognize the best professional practices with 
our Professional Practices Papers program, a copy of which I have had 
distributed to you this morning.
    And, we serve as the day-to-day management organization 
(secretariat) for the National Association of State Election Directors 
(NASED) voting systems program. We work with the voting systems 
manufacturers and the states to test voting equipment and its software 
used for tabulating votes and reporting results. We don't do the actual 
testing, we find and work with Independent Testing Authorities (ITAs) 
to perform this testing so that voting systems in America meet or 
exceed the Federal Voting Systems Standards. Hardware and firmware 
testing are performed by Wyle Laboratories in Huntsville, Alabama. 
Software testing was performed previously by Nichols Research Labs and 
when they were purchased by Computer Sciences Corporation, who 
determined not to continue the voting software testing, all the people 
who were performing that service at Nichols Research have since moved 
to PSINet, also in Huntsville, which is our newest software testing lab 
although with all the same people who did the work for the last four 
years.
    There is a tendency to want to do too much in this testimony to 
you:
          There is a need to explain the complexities of the 
        administration of elections;
          There is a need to explain the technologies used in 
        elections;
          There is a need to state unequivocally that elections have to 
        be fair and that ALL qualified voters have a right to 
        participate in this process regardless of their race, their 
        age, their health, their education, or their disabilities;
          There is a need to review the news media's coverage of 
        election 2000 and how it differs from what actually happened;
          There is a need to dispel myths that have occurred as a 
        result of this election;
          There is a need to admit that situations occurred that had 
        not been a part of our procedures and awareness in the past and 
        examine some new information that came about as a result of 
        this election;
          There is a need to examine the reasons for errors in the 
        process;
          There is a need to find the appropriate role for each level 
        of government in finding solutions to the problems;
          There is a need to indicate our willingness to assure 
        citizens of both our intent and our practices to make sure this 
        process is fair to all Americans, including African Americans, 
        Hispanic Americans, the disabled, the elderly and our nation's 
        military and overseas citizens;
          There is a need to help you understand the barriers that face 
        the nation's elections administrators in conducting elections; 
        and
          Most importantly, there is a need to reassure Americans that 
        this process has integrity--that it is administered fairly and 
        responsibly to accurately reflect the public's will in casting 
        and counting ballots.
    But the simple fact is that in the time allotted to me to make this 
presentation, there is not enough time to cover all those issues in 
sufficient depth so that you can reach good policy decisions related to 
elections. I will have to hope that the work we have done with your 
committee staff and, in some cases, with your state staff will begin to 
show all who are interested that this is a far more complex process 
than appears to the casual observer.
    Elections officials have made this process look simple. In fact, 
most of you, before this election, had no knowledge of just how 
complicated and involved it is to make this all come together on 
election day so that voters can participate. In the past, most people 
just thought that we opened up the polls on election day, that voters 
came and voted and that we counted the votes and reported them and then 
that we had nothing else to do until the next election. Most people 
have wondered what elections administrators did with the rest of their 
time. And before this election, almost no one was willing to listen to 
just how many months of planning, recruiting, training goes into the 
process of conducting an American election. Not many of you thought 
very much about how difficult it is to find suitable polling sites that 
are accessible to voters, easy enough to find, open enough for the 
disabled and close enough to the voters that they will actually come.
    Not many of you ever considered how difficult it is to recruit 
enough people to work at the polls on election day. Most of you didn't 
even know the tremendously large numbers of people that we need to make 
this process work. For instance, how many of you knew that Los Angeles 
County, California, has to find, recruit, train, supervise and evaluate 
27,000 election day workers? Or that Harris County, Houston, Texas, has 
to involve more than 8,500 people.
    How many of you know what it takes to recruit people to work on 
election day when the average pay for a 14 to 16-hour day is $5.00 per 
hour, and that no matter what we do to find and recruit them, that it 
is never enough? How many of you know that we are STILL looking for 
poll workers on election day? And some of the proposals from people who 
really don't understand the process, want us to extend the number of 
hours we have those folks work. And, some who really don't understand 
the process blithely suggest that we just keep the polls open for 48 
hours without ever really understanding what that means and what 
complications it brings to the election.
    Has anyone considered that it doubles (24 hours) or quadruples (48 
hours) our tasks of staffing the polling site? At a time when we find 
it exceedingly difficult to staff the polls for 12 or 14 hours? Do you 
know that our poll workers work an hour before the polls open and 
usually at least one hour after the polls close? And, almost all of 
them in the U. S. have to be there all day on the theory that if you 
change the personnel at the polling site that you might have a 
different interpretation or administration than other voters received. 
We don't, in most states, allow for 'shift' changes.
    Before I spend too much of the allotted time in the details of 
running elections, I just want to make you aware that not all of this 
has an easy solution. And to make you aware that casual suggestions of 
how to make improvements are very neat, plausible but most often wrong.
    Almost everyone who is not steeped in the administration of 
elections has incorrectly focused on technology as both the problem and 
the solution. Let me make this very clear. Had we had the most advanced 
technology in place in Florida in this election, it too would have been 
attacked. And there still would have been voter errors. Maybe not the 
same ones and maybe the proportions of errors would have been somewhat 
different, but the mistakes would still have been there. The problems 
in this election have their roots in laws, policies and procedures--or 
the lack of them--and then the application of technology in effecting 
those laws, policies or procedures.
    Had Florida had a solid definition of what constitutes a vote by 
each voting system and then had an established recount procedure that 
would be followed uniformly throughout the state by all the counties, 
90 percent of the problems of this election would have disappeared. 
Chaos can only happen when the laws, the policies and procedures are 
not set and in place before you have an election.
    Many folks, including some with us today, have blamed the election 
officials of Florida for the chaos. And I will say to you that such a 
judgement is patently unfair. Legislative bodies are the only entities 
that can make sure chaos does not exist. Legislative bodies usually 
write election law and they usually write it to suit their own 
elections, not the administrative offices. The legislature of Florida 
and many other states have no set standards of what an election 
official is to count as a vote.
    How can there be even an appearance of fairness in purely 
subjective judgement? In Florida we had 67 counties using widely 
varying standards of what constituted a vote and, in a recount, we had 
canvassing boards making decisions that election officials under normal 
circumstances would not define in the same way. But the state 
legislatures can fix that and it is not as hard as some would believe.
    Recount procedures have to be uniform throughout a state according 
to the type of voting system they use so that the candidates and the 
election officials know how a recount is to be conducted. Considering 
the size of some of our jurisdictions, it is absolute insanity to order 
a hand recount of all ballots in races with many thousands of ballots. 
Voting systems in America were created to handle counting of 
significant numbers of ballots in less time and with far greater 
accuracy than humans. Use voting equipment to do the first part of the 
recount for all ballots it can count for each office. Then use humans 
to count anything the machines cannot read as a vote including 
overvotes (where the voter has cast a vote for too many candidates for 
a given office) or undervotes (where the voter has not voted for enough 
candidates for a given office) or any unresolved ballots that may not 
fit any other definition.
    Again, state legislatures can fix this problem with state 
legislation. In fact, The Election Center's National Task Force on 
Election Reform, will make specific recommendations to the states for 
language they can adapt and adopt as their own based on what some of 
the states already do.
    But even here, I am beginning to talk to a level of specifics that 
I cannot sustain due to time limitations in this hearing. In future 
hearings, I hope you will invite some of the elections administrators 
from our National Task Force (36 elections administrators from state 
and local levels) to discuss detailed solutions. That task force 
includes liberals and conservatives; Democrats and Republicans and 
unaffiliated administrators; is multicultural as to race, age, gender, 
sexual preference and size of communities and states represented from 
the very small to the giant size of LA.
    Let me approach today's testimony from a different method. I have 
worked with each and every level of government in this process and 
there is a role in it for each level including federal, state and 
local.
    The federal government, in 225 years, has never spent one dime in 
the cost of American elections. Isn't it about time it did so? Why 
should the cost of elections remain solely at the local level? Why 
should the townships, cities and counties of America be forced to bear 
the entire burden of elections?
    I am NOT advocating the federal government try to take over the 
administration of elections because I don't really believe that is in 
the federal government's interest and would be such a radical departure 
from our 225 year history that it would not work very well. We want to 
keep the administration of elections at the local level because that is 
where most of our elections are held. And because that is where we have 
the people and staff knowledgeable enough to conduct elections.
    The federal government certainly has a role in establishing in law 
the Federal Voting Systems Standards and the funding of those standards 
and the continuous update of those standards. The federal government 
certainly has a role in the establishment and funding of voluntary 
Election Management Practices Standards that states can adapt and 
adopt. The federal government should continue the Office of Elections 
Administration and the functions that it performs whether in the 
current Federal Elections Commission or in a new Federal Electoral 
Administration Commission. The federal government needs to be the 
clearinghouse for information related to voting systems and tracking 
overvotes, undervotes and system anomalies that can be reported 
throughout the nation.
    Certainly, if we are to modernize the voting systems in place now, 
the federal government must be responsible for a major portion of the 
funding of that modernization effort. Local governments simply do not 
have the resources to do this in any quick timespan.
    Certainly, it seems to me, the federal government ought to have the 
ability to offer states and localities on-going funding beyond the one-
time replacement of voting equipment. Shouldn't it be worth $10 per 
voter per year to fund the cost of maintaining voter databases; finding 
and securing accessible polling sites; advertising, staffing, 
conducting and assuring the integrity of elections; voter education and 
training; poll worker education and training; and election/registration 
administrator training? At the very least, these ought to be included 
as items worth funding on top of voting systems. Without necessary 
funds for doing these exceedingly important activities, most local 
jurisdictions simply will ignore these crucial but costly programs.
    Shouldn't the federal government want to make elections mailings a 
priority of keeping in contact with all election age voters and to make 
it easier for them to stay on our active rolls as potential voters? We 
now have a national Postal Logo for sending out official elections 
mail. Now all we need is for the Congress to authorize the Postal 
Service to establish an elections class of mail and then Congress fund 
a portion of that mail so local jurisdictions can mail official voter 
registration notices, official voter information, notices of poll 
sites, notices of official elections, voter registration cards, and all 
the other things that help to keep voters in this process. This is an 
appropriate role for the federal government.
    State governments also have specific functions that they need to 
take and without going into all the details of what we will recommend 
to them, it is important that they equally accept responsibility for 
improving this process. They must give us clear laws on elections 
procedures or allow their chief elections officials at the state level 
set these procedures in administrative rules with the force of law. 
They have to establish that local governments must let their elections 
administrators travel out of state to get additional and better 
training and get exposure to what other states do as solutions to some 
of the age old problems. As one local administrator said ``You don't 
learn anything new sitting at home talking to yourself.''
    Local governments and local election administrators will still need 
to carry the burden of conducting fair, honest and open elections. But 
they too, have to become more aware of the importance of this function 
to their citizens and to the process of maintaining a government that 
has the faith of the people. About one quarter of America's elections 
offices are funded adequately. The rest have been underfunded for far 
too long--and some local budget authorities have been negligent to the 
point of extreme. Part of that comes because few in the budget process 
even understand the needs and complexities of elections and haven't 
taken the time to learn. But this election may have been a wakeup call 
to them and other Americans that this process is too important to 
ignore. My fear is that complacency will rapidly descend on us and that 
locales will go back to underfunding and ignoring the elections 
offices. Education is critical to the continued success of elections: 
education of voters on how to participate in the system; education of 
poll workers on having the right attitude of assisting voters; 
education of election and voter registration administrators to improve 
their ability to conduct elections and to do so with a fairness to all 
voters.
    Before I make my final statement to you, I want to assure you of 
this. There were serious problems identified in election 2000 but 
before we believe the whole process has failed, look around America to 
see that 98.5% of elections went well in most states and locales. We 
have been doing this process for 225 years and not all elections 
administrators suddenly became stupid in one election. Some of the 
flaws and problems in elections are ones that we have been warning you 
and local authorities about for more than 20 years and yet our warnings 
have gone unheeded. As an elections community, we want to work with you 
to make this process better.
    It is always our desire to have voters feel welcome and that we 
need them in this process. Of all the government officials involved in 
all the functions of government, I will say to you that my belief is 
that elections administrators are the most ``customer oriented'' of all 
government officials. They work harder and longer at trying to 
accommodate their constituency than any other office I know. Frankly, 
they are, as a class of people, far more customer oriented than most 
American businesses.
    And they make elections in this country work despite the lack of 
funds. With almost no resources, with almost no understanding by the 
public of what they do, with very little public recognition (except the 
negative kind when something goes wrong), these people we know as 
elections officials work hundreds of hours of overtime for which they 
will never be paid--nor can they even take the compensatory time they 
earn because if they do so their office would have to close.
    The fact of the matter is that we get a much better administration 
of the elections process than we pay for and maybe even better than we 
deserve for the neglect that we have given to their profession.
    Be cautious in your judgment of these folks. I know of no election 
administrator in America who wants to deny anyone the opportunity to 
participate in this process. We want all qualified voters in this 
process and we will do whatever it takes to make this experience a 
positive one for the voters. That is our commitment to our profession 
because we believe it is necessary for the preservation of democracy 
and even of freedom itself.
    We are well aware that if a voter doesn't believe the process is 
fair and honest, then it is virtually impossible to believe in the 
resulting government. We will do our part to continue to insure that 
the process is fair and that it has integrity so that voters can feel 
that it is an honest process that accurately reflects the public's 
will.
    Let me end with these statements: We want and need your 
participation in this process. Know that we will do our best to make 
this process work for you and dignify your participation for the parts 
of this process that are our responsibility and over which we can have 
any influence.
    And to the nation's voters, know that we take our responsibilities 
very seriously. We strive to perfection--and even though we may not be 
able to achieve that level of perfection--we want to assure you that 
elections are run competently and fairly and they do indeed accurately 
reflect your votes as you cast them.

    The Chairman. Thank you very much, Mr. Lewis.
    Mr. Gashel, let me ask you, are there States that are 
moving forward with buying new election technology systems that 
will meet the needs of the elderly, blind, and disabled voters? 
Are there some States that are moving ahead in this area?
    Mr. Gashel. Yes, there are certain areas that are doing 
this. Texas has actually passed a law which requires accessible 
voting equipment, and so I think that Texas will definitely be 
moving forward with this in the next election cycle.
    I am very concerned about Florida, though, incidentally, 
Mr. Chairman, because at least of the news reports I have 
heard, they are talking about touch screen technology for every 
polling place for the 2002 election. If that happens, blind 
people won't be able to use that technology. There would have 
to be modifications. The modifications are quite simple, but I 
am afraid that states will scramble toward the touch screen 
technology, which is really not usable. And no matter what 
happens on the rest of this legislation, I think it is 
important that we need to get the signal out that states should 
not rush into technology at this point that is not accessible.
    The Chairman. There is no modification of the touch screen 
technology that you are aware of that can accommodate----
    Mr. Gashel. Oh, there can be. In fact, there is one company 
that virtually has. It is like a television remote that you can 
hold in your hand that attaches to a touch screen voting 
terminal, and then the blind person could operate that remote 
rather than touching the screen. I am at least aware of that 
company, and there are probably some others that are going to 
be doing this. The important thing is this sort of thing has to 
be the standard. Touch screens alone won't work.
    The Chairman. Other than friendly technology, are there 
other issues that you think need to be addressed related to the 
voting of the group that you are here to testify on behalf of?
    Mr. Gashel. No. Frankly, this is the major issue that comes 
up. You know, there may be some efforts made toward voter 
registration means--you know, and I am not sure I am prepared 
to get into a full discussion of that, except to say that if 
all you can do is fill out a card or something like that to 
register to vote, most blind people can find somebody to help 
them do that. It is not a very difficult process to do. But 
registration over the Internet or some other means might be a 
little bit more accommodating as the technology evolves. But 
the most problems arise for us in the area of actually casting 
the vote.
    The Chairman. Mr. Lewis, in Florida--you mentioned that in 
every State it is sort of different in terms of what level of 
government has which authority over which part of the problem. 
In Florida, are decisions about ballot design, such as whether 
or not to use a so-called butterfly ballot that we heard so 
much about, the type of voting system used, the way voting 
places are staffed, the design of instructions for voters, and 
decisions such as whether or not to have card readers available 
for people to double-check their ballots, are those centralized 
in the hands of State officials in Florida or are they the 
responsibility of county election officials or county 
canvassing boards?
    Mr. Lewis. Like almost all of America, they are in the 
hands of the local officials.
    The Chairman. So those in Florida, those issues were 
entirely in the hands of local county officials.
    Mr. Lewis. Correct.
    The Chairman. Do you think the use of butterfly ballots, 
the lack of safeguards such as card readers for punch card 
ballots, the inconsistent decisions poll workers made to allow 
some people who could not be verified as eligible, registered 
voters to vote, but not others, and the unusual number of 
invalid and illegal registrations and ballots in certain 
Florida counties were the result of intentional racial 
discrimination and election fraud schemes?
    Mr. Lewis. I know of no election official in America--and I 
know most of them. It is not a large community, Senator, and I 
go around to the States and talk to the States, and I have met 
most of these folks. I know of no election official in America 
who would intentionally deny the right to vote to any qualified 
voter in America. We want people to participate. We are 
measured unfairly by whether or not they participate.
    And so it is our intent to make sure that they have a good 
experience in this. That doesn't always come through, and 
because some voters don't understand the process, they begin to 
believe that you are trying to dissuade them from voting when 
they simply just do not understand.
    In some cases, we obviously have a disconnect between NVRA 
agencies and the voter registration office, and we are going to 
try to find ways to solve that problem so that doesn't occur 
anymore. We certainly have got a disconnect in terms of the 
voters not knowing that in many instances they have to be 
registered to vote before they can actually come vote.
    And so I know of no election official in America that 
intentionally tries to preclude any qualified voter from 
participating in this process.
    The Chairman. In fact, I have not heard of any evidence to 
that effect. Have you?
    Mr. Lewis. Well, to the best of my knowledge, no.
    The Chairman. Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman.
    Let me begin by thanking both of our witnesses. Mr. Lewis, 
I don't know you very well, but I appreciate your testimony. It 
was very helpful. And Jim Gashel and I have known each other 
for a long time. I suppose for truth in advertising here, I 
ought to report that I have a sister who is a member of the 
National Federation of the Blind, and she has worked closely 
with Jim Gashel and the Federation over the years. She is a 
teacher in Connecticut, and so I get an earful about issues 
affecting the blind.
    Mr. Gashel. She is the president of one of our local 
chapters.
    Senator Dodd. Yes, she is. She does a tremendous job, as a 
teacher as well as someone who is active on these issues 
affecting the blind. So I have grown up, with my older sister 
being visually impaired, so I have more than just a passing 
familiarity with the issues that affect this constituency and 
community. But I am deeply appreciative of your testimony, both 
of you here this morning.
    I want to just briefly hear, if you might, Jim, beginning 
with you, if you could maybe just elaborate a bit more on what 
you think the appropriate role would be for the Congress in 
legislating for elections. Obviously, as has been said here 
this morning, there is a great deal of respect for localities 
and States to utilize and to be sensitive to the various 
differences that exist in the country so as not to apply a one-
size-fits-all solution on what mechanisms people ought to use 
in voting. But I make a distinction between that, choosing a 
particular method of voting, and standards, basic standards 
that ought to be applied in terms of what rights people have 
and what access is available.
    As I counted--and Mr. Lewis can correct me if I am wrong 
here--I think there are some 192,000 polling places in the 
United States. Is that right, Mr. Lewis, roughly?
    Mr. Lewis. Give or take a few thousand.
    Senator Dodd. And you mentioned there were some 27,000 
people in Los Angeles alone who were asked to volunteer, 
basically, and 8,000, I think you said, in your hometown of 
Houston, is it? I gather that with the number of 192,000 
polling places, we are talking several hundreds of thousands of 
people on election day who are asked to, in effect, become 
officials.
    Mr. Lewis. Actually, about 1.4 million.
    Senator Dodd. About 1.4 million, with about an hour's worth 
of training at best in some places.
    Mr. Lewis. Yes, sir.
    Senator Dodd. So on that one issue, I don't have any 
question whatsoever that someone in your capacity, Mr. Lewis, 
and your intent to make sure that people have the right to 
vote. But you and I both appreciate the fact that when you are 
dealing with 1.4 million people out there who are acting as 
officials, sometimes people bring different motivations. You 
are nodding your head yes. Is that a yes?
    Mr. Lewis. Yes, sir.
    Senator Dodd. Okay.
    Mr. Lewis. Absolutely.
    Senator Dodd. I am going to ask both of you the same 
question, so if you might think about this, as well, Mr. Lewis, 
what is the proper role here for Congress in Federal elections? 
Now, as a Federal legislative body looking at Federal 
elections, where there are, at least in my view, some gaps that 
need to be filled, what recommendations, Jim, would you make?
    Mr. Gashel. Well, first of all, I think that there is an 
important distinction to be made between the administration of 
the voting system and the actual counting of the ballots, which 
is absolutely a local responsibility, and at least in my 
opinion. For what it is worth, I believe it ought to remain a 
local responsibility. Between that on the one hand, here 
standards which ought to be overarching and should apply across 
the board throughout our country--whether you are voting in Los 
Angeles, California, or Hartford, Connecticut, or Baltimore, 
Maryland. And there are certain kinds of standards. The one I 
believe in most fervently is that you ought to be able to use 
the technology even if you can't see to read the print. 
Additionally there are other certainly civil rights issues that 
are covered in the Voting Rights Act, and, again, there is our 
provision for the voter assistance legislation. This ought to 
be an overarching standard. There are other areas that I 
wouldn't even begin to know about, but I am simply making the 
point that the method that people use to vote should 
essentially be universal. I don't mean that all of the 
technology has to be precisely the same, but there are clearly 
standards that should apply to the use of the technology. And 
there is no rational basis for having those standards be one 
thing in Connecticut, another thing in Maryland, and another 
thing in California.
    There is a rational basis for having the administration and 
the actual counting of the vote and the conduct of the election 
being local.
    Senator Dodd. I think you said that very well, and I have 
got another question for you, Mr. Gashel. But let me jump to 
Mr. Lewis so there is some continuity in this. Do you have 
anything you would add to that, or would you----
    Mr. Lewis. You bet.
    Senator Dodd [continuing]. Disagree with that?
    Mr. Lewis. No, no. You know, it depends on what we 
obviously mean. The devil is in the details. But reality is 
that the Federal voting system standards is certainly a role 
that the Federal Government needs to promulgate, fund the 
development of, the update of, so that we can do that. I mean, 
we did it once under the Federal Election Commission, and they 
did it basically out of funds they had. And since then we 
haven't done anything to them, and, you know, we have been 
asking for a long time to get those funded.
    Certainly, we all know in the elections profession, we have 
been asking for 8 years now for the development of the 
management practices standards, and those certainly ought to be 
funded by and promulgated by the Federal Government as 
voluntary standards for the States to adapt and adopt. 
Certainly, that needs to be there.
    In terms of elections mail, it seems to me that we now have 
a national logo from the Postal Service to identify official 
elections mail. It seems to me the Federal Government needs to 
be able to at least subsidize a portion of that so that we can 
reach every voter in America with information about elections 
and, if necessary, with sample ballots and other kinds of 
information. But all of that is expensive, and all of that 
requires a lot of mailings. And so certainly we need that.
    Certainly we need probably a beefed-up Office of Elections 
Administration, whether it stays in the FEC or some new agency. 
We certainly need to be tracking at the Federal level anomalies 
in voting systems and imperfections in voting systems, and 
knowing what voting systems do to voters themselves. This was 
all brand-new information to us this time around.
    So those are things that absolutely the Federal Government 
has a role in, and an appropriate role.
    Senator Dodd. Yes. And I presume you might add to that the 
training of the 1.4--did you say 1.4?
    Mr. Lewis. Yes, 1.4 million poll workers.
    Senator Dodd. Who are these people, generally? Give me a 
profile of an average poll worker.
    Mr. Lewis. The average poll worker is a retired citizen who 
does this basically out of--I guess a need for income, but 
probably more as a sense of duty. We average pay them 
nationwide about $5 an hour for a 14-hour day. In some States, 
it is a little longer than that. If you add on the fact that, 
in addition to the voting poll hours that they are open, you 
have got at least one hour before and at least one hour 
afterwards that they are still working. And so they tend to be 
volunteers. They tend to be people who do this once or twice or 
three times a year. They may or may not pay attention to the 
training you give them.
    I will say this: If we know, if we ever hear, if we ever 
learn that any one of them has been discourteous to a voter, 
has treated a voter incorrectly, has maltreated a voter, or 
shown any racial prejudice or prejudice of any kind, we remove 
them. We do not allow it. And yet, at the same time, we do that 
in the face of the fact that we never have enough of them.
    Senator Dodd. And do you have any screening method at all, 
other than when someone may bring a report to you about 
someone? Is there any way in which you determine----
    Mr. Lewis. Once they bring a report to us, it doesn't take 
usually but about one or two, and if we can even come close to 
confirming it--and in a lot of cases we don't even confirm it. 
If the complaint has been made, they are history.
    Senator Dodd. Yes. But other than that, people come and 
basically you reach out through public service announcements 
and ask people? I say ``you.'' I mean this is how it is done.
    Mr. Lewis. Right, exactly.
    Senator Dodd. So pretty much if you show up you get the 
job?
    Mr. Lewis. It used to be, you know, the political parties 
provided these. But the political parties are not really strong 
organizations anymore at the local levels, and so they don't 
really provide enough bodies to do this.
    Senator Dodd. So it is people who show up, basically.
    Mr. Lewis. Basically. And, in fact, on the morning of 
election, we are recruiting people to come to work for us. So 
they have had no training.
    Senator Dodd. Well, I have a couple more, but I have used a 
lot of time here.
    The Chairman. Senator Schumer.
    Senator Schumer. Thank you very much, Mr. Chairman. I, too, 
want to thank the witnesses both for their excellent and 
erudite and very helpful testimony as we try to craft a bill 
here.
    I would just ask you, Mr. Gashel, just tell us your 
personal history in voting and what it is like to have to vote 
with another person or a poll worker in the voting booth with 
you. Has it gotten better? Have people become more sensitive 
over the--you have voted for about as long as I have.
    Mr. Gashel. Yes.
    Senator Schumer. You said 1968.
    Mr. Gashel. Right.
    Senator Schumer. Tell us also the worst problem you have as 
you actually try to vote, not the registration process.
    Mr. Gashel. Right. One time I went to the polls, and I 
inadvertently hadn't registered, and I didn't get to vote. But 
that was my fault, so I blame that one on myself, not the 
system.
    But I would say, Senator Schumer, that every single time I 
go to the polls on election day, I go there with some degree of 
trepidation about what will happen to me in interacting with 
the system. And, you know, I am a reasonably savvy guy about 
dealing with systems. But it is not comfortable, and I am not 
overdramatizing that. This is what many blind people tell me, 
because you are going there, you are thinking about doing your 
citizenship duty, and the last thing you want to have to do is 
to fight with somebody who is administering the system. And, 
mostly, the poll workers are well-intentioned people, but I am 
coming there and I am different. I don't fit the mold. 
Therefore, they don't know what to do with me.
    A lot of times they make me sign an affidavit that I am 
being assisted by another person. I object to that. I don't 
want to do that. I don't want to sign some affidavit. To me it 
is irrelevant. I want to go and cast my vote.
    The affidavit process that I just described has been 
outlawed in Maryland, but still at my polls they don't know it 
has been outlawed. And so I had to do that at the last 
election.
    These things are annoyances at one level, but they tell us 
as blind people that the election process is not really 
welcoming. And we don't want to send that message in the 
election process.
    If the voting machine will talk to me, and if the poll 
workers won't hassle me, I will cast my vote and I will feel 
like I am a welcome part of this democracy.
    Senator Schumer. Thank you, Jim. And just one other. Do you 
think the percentage of people who are visually impaired who 
vote is much less than the rest of the public? Do people use 
absentee ballots? I mean, tell me just a little about that.
    Mr. Gashel. I think some people may tend to use absentee 
ballots a bit more. Perhaps that may be true more of senior 
citizens who have difficulty getting out and don't have the 
mobility that I have. I have never used an absentee ballot 
because I am blind. And I frankly think that blind people may 
tend to participate in the election process somewhat less 
because it is often viewed as somewhat of a hassle to do so.
    Senator Schumer. Thanks. I just have three questions for 
Mr. Lewis. In the interest of time, I will ask them all 
together, and he can answer them seriatim.
    The first is: You have been quoted as saying that the cost 
of replacing old voting machines, like the ones we have in New 
York, and other outdated technology could rise as high as $6 to 
$9 billion. That was a couple of months ago, as I remember. Do 
you still think that is correct or might not standardization of 
computer technology on voting, interchangeable PCs, laptops and 
all of that, you know, just the technology not the actual way 
of voting, might reduce the cost? That is question one. Just 
give us a little more flesh on how expensive.
    Second, we have terrible problems with the poll workers. I 
know that both Mitch and Chris have talked about that. In New 
York, let me tell you, you don't get--you often go to a polling 
place where there should be two or four workers. We have a 
bipartisan system where each major party chooses one. And there 
is one because the others--they can't get them. It is a long 
day. As you say, the pay is low. I think we might even be a 
little lower than your per hour figure. We are open a long 
time, 6:00 in the morning until 9:00 at night. And you just see 
people not coming. They just can't get them. They beg people.
    So what about the idea of having--and it is an idea, and, 
again, I wouldn't want a Federal mandate on this--but of having 
the poll workers, people called for poll place duty like they 
get called for jury duty, maybe even part of the same type of 
system? It is an obligation. It is a similar obligation. Maybe 
you could do it once at your polling place. You don't get 
called for jury for several years. Something like that, what do 
you think of that idea? That is question number two.
    And, finally, all of the systems you mentioned, the Federal 
ones, are voluntary. They set standards. They are sort of, you 
know, like the UCP or something. It is a model that States and 
localities can adapt. They don't have to. And my question is: 
What is your view--do we now have any mandates other than--
under the Voting Rights Act, which obviously is an important 
one. But do we have any other election-driven mandates on local 
or State governments on how they ought to conduct voting?
    Those are the three questions. Do you want me to repeat----
    Mr. Lewis. Number one, I am trying to remember what it was. 
I can remember two and three, but what was number one, again?
    Senator Schumer. I have got to remember it, too. It was on 
the cost.
    Mr. Lewis. Oh, yes. Well, it is my fault--and this gives me 
a perfect opportunity to clear up some of that. Originally, 
when we were talking to the vendors, they were estimating that 
in order for us to come up with systems that would be compliant 
for many of the disabilities, not for all of them but for many 
of the disabilities, that their original estimates on that 
equipment range between $13,000 and $15,000 a unit.
    Since the election, we have gone back to the vendors and 
asked them to recalculate, and certainly we are now down to 
where we are probably talking more like $4,500 to $5,000 per 
unit. And so that number--and that number is not for the 
disability groups themselves. That number is what the cost of 
the unit is and then add in disability and language-minority 
features to the units, which adds anywhere from--depending on 
the manufacturer, anywhere from $500 to $1,000 per unit. And so 
these are not massive costs being added to it.
    Realistically, we are probably now down in the range of 
$3.5 to $5 billion, you know, in the----
    Senator Schumer. $3.5 to $5 billion?
    Mr. Lewis. Right. If you replaced every voting system in 
America and made it all do the following things--I am not sure 
that we have to go that far.
    Senator Schumer. Aren't about 20 percent of them in pretty 
good shape?
    Mr. Lewis. Absolutely. And, certainly, you know, you don't 
have to go through and replace every cotton-picking voting 
system in America. And, certainly, it seems to me that the 
costs that we need to bear in terms of at least making some of 
those systems available in every polling place, you know, we 
may not have to make all of them, but certainly we need to make 
some of them so that we can take care of the blind, so that we 
can take care of quadriplegics and low motor skill and low 
education skill and maybe even mental impairments. I mean, 
those are things that we need to look at and to make some----
    Senator Schumer. Right. But those figures you give are, as 
you mentioned, the machinery.
    Mr. Lewis. Right.
    Senator Schumer. Making it handicapped friendly.
    Mr. Lewis. Right.
    Senator Schumer. As Mr. Gashel said. But not all the other 
costs that might be associated.
    Mr. Lewis. No.
    Senator Schumer. Polling workers and all this other stuff.
    Mr. Lewis. No. Those are additional costs that go along.
    Senator Schumer. So a $5 billion number total might not be 
out of the ballpark. It is large.
    Mr. Lewis. Exactly.
    Senator Schumer. Okay. Next question.
    Senator Dodd. Let me just say, it was interesting. We had 
the General Accounting Office do an assessment. They have 
roughly your numbers, about 3.5.
    Mr. Lewis. Yes, about 3.5
    Senator Schumer. Was that just machines?
    Senator Dodd. Just machines.
    Mr. Lewis. Just the equipment alone.
    Senator Dodd. Just the equipment.
    Mr. Lewis. Just the equipment alone.
    Senator Schumer. Okay. Right. Now, we have forgotten, you 
and I both--jury duty.
    Mr. Lewis. Yes. I am have--oh, jury duty. It at least 
sounds like an intriguing idea. Let me say to you, I met just 
before coming here for 2 days--actually, 3 days, with our 
national task force on elections reform. I sit on virtually 
every one of these things that was formed by anybody anywhere, 
and so it is always interesting to hear the ideas.
    This one was elections administrators, both State and 
local, and we asked this very question. And most of them said, 
while it sounds like a good idea, you don't really want 
somebody who doesn't want to be there in the polling place 
trying to work with voters and interacting with voters, because 
then you don't know what you are getting.
    Senator Schumer. What I was thinking is it could be a 
voluntary substitute for jury duty. In other words, there are a 
lot of people who would rather say, okay, I'll get up at 5:00 
in the morning, serve all day, get home at 11:00 at night on 
election day, but I dread being called when I have to work or I 
have to watch the kids or something like that. So all the 
people who would come would do it at least under less coercion 
than if you just----
    Mr. Lewis. Right. And at this point, quite frankly, I think 
in order to regain faith with America's voters that we may have 
to try some things and just find out. We may discard them, you 
know, but at least we need to try some things to make sure that 
we can at least get more and better quality. You know, when 
people tell me they need better quality poll workers, you know, 
that connotes surplus. And, I mean, we don't have that 
situation.
    Senator Schumer. Not in my State. The last one was: Are 
there any, other than Voting Rights Act, Federal mandates on 
how the localities and States ought to conduct elections as of 
now?
    Mr. Lewis. Well, there are certainly, at least in terms of 
the Americans with Disabilities Act, there are conscriptions 
that we do follow based on what those guidelines are. 
Unfortunately, it is not--there is a national law that covers 
it. It leaves the States to apply it, and sometimes the 
definitions within the State differ from State to State.
    But part of that is built on the fact that some terrain is 
entirely different and situations are entirely different, you 
know, in New York, where you have major urban areas as opposed 
to West Virginia, which has got very steep inclines to build 
anything on, and so that is part of what is there.
    But, otherwise, no, I know of none other than the civil 
rights laws themselves that actually apply.
    Senator Schumer. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Schumer.
    Senator Dayton.

 OPENING STATEMENT OF HON. MARK DAYTON, MEMBER, A U.S. SENATOR 
                  FROM THE STATE OF MINNESOTA

    Senator Dayton. Thank you, Mr. Chairman. And I want to 
commend you, Mr. Chairman, for convening these hearings and, 
Senator Dodd, the ranking member, for your sense of urgent 
response to the situation that occurred last year. In my short 
2 months here, I have come to already feel a frustration often 
trying to develop a sense of urgency about situations. I say 
that sometimes I feel like it is trying to push the Sta-Puff 
marshmallow man up Mount Everest. In this instance, I commend 
you, Mr. Chairman, for focusing this committee on what I think 
is an urgent matter. And certainly I--and I would think 
probably most Americans--in the last several months had a 
lesson in civics and in democracy. And I hope we could take 
these matters out of the realm of a particular election and any 
kind of partisan view of that and blaming one particular State 
versus another and look at it from the standpoint of what must 
we do to assure that the integrity, of our democratic process, 
is maintained. And I view this election as, in a sense, kind of 
a Pearl Harbor of our democratic process in that we realized 
how lax and unprepared and unequipped we have become, perhaps 
without fully recognizing it.
    Mr. Lewis, I appreciate your remarks about the complexity, 
the magnitude, the number of people who are involved, all of 
which suggests that it is never going to be a perfect system. 
But it seems to me that there is a big difference between 
imperfection and incompetence. And I don't mean in terms of the 
people, but in terms of the systems or the lack of systems that 
we have put into place.
    I am wondering, in terms of this, if it is the premise or 
the notion that States and local governments should have the 
flexibility, the laxity to kind of conduct elections now almost 
as they deem fit, if we are not paying a price for that and we 
don't recognize that, particularly in the context of the last 
election, and particularly because all of us as citizens are 
going to be affected by how well some place or another does or 
does not conduct their elections.
    I wonder if you would care to comment on that, sir.
    Mr. Lewis. Senator, you know, this is one of those where 
you are torn between knowing that you have got some problems 
that need to be fixed and to admit that we had in some cases 
egregious errors as it relates to voters. But to say that the 
system is broken, to say that it doesn't work, is just not so.
    I mean, 98.5 percent of the elections in America had no 
problem. They went fine. And we focused on technology and the 
failure of technology or the answer of technology to fix all 
these problems, and that is really not the case either.
    Where we are is that Florida, like a lot of the States, had 
no definition, no standard, no direction to the elections 
officials as to what constitutes a vote. And so we ended up 
with 67 counties interpreting it differently. And not only 67 
counties, but then everybody that was involved in that process 
interpreted it differently.
    Senator Dayton. Mr. Lewis, I don't want to fault people, 
elections officials, and the like, but I would like to address 
your premise that technology is not a big part of the solution 
here. We have computer systems, we have machines that do far 
more complex processes these days than instructing people how 
to vote and vote correctly and then counting and tabulating 
those votes. I can go to an airport now and be instructed how 
to purchase a ticket. We have machines that tell retail clerks 
how to conduct the transactions so that they are virtually 
error free. We have systems moving millions, billions of 
dollars daily and doing so with near perfection. And I guess, 
you know, I don't think we are ever going to be able to take 
the human element out of this in the conduct of the elections 
or the conduct of voters, but it seems to me we have mastered 
this in a whole lot of areas where it is in our interest.
    I guess I go back to the premise that founded your 
organization in your prepared testimony where two members of 
the Federal Election Commission despaired that the Federal 
Government was going to make the commitment necessary to be 
conducting elections to their optimal ability. And it seems we 
have reached the unfortunate harvest of that in that failure to 
do so last time.
    Now, I commend Senator Schumer for--whether it is a 
commission, whatever it is to look at this and give it the 
attention it deserves so that we are not just throwing money at 
a problem. But, on the other hand, it seems to me these systems 
are woefully--the tabulation systems have been proven to be in 
some cases woefully antiquated, inconsistent within one State 
from one area to another, which seems to me to be even less 
defensible.
    What can we do and how can we best do it based on your 
experience to bring this quickly up to a more acceptable 
national standard?
    Mr. Lewis. Well, Senator, you are not going to get an 
argument from me on that basis. I used to own a technology 
company, and when I came back into elections and was reminded 
how far behind we are in some of this, you know, I would like 
to get us into the 20th century, let alone the 21st.
    But the point is that we have overfocused on technology as 
both the problem and the solution, and it is a part of the mix. 
But it is by no means what is going to really fix the real 
problems that occurred, because I can show you in example after 
example after example around the country that were using the 
same technology that they had different results. I can show you 
examples of where--and even Cal Tech and MIT in their report 
right now saying that the newer systems, you know, create more 
problems than the old ones did.
    Now, I don't know whether that is correct or not, and I 
don't know whether we are going to find out by experiential 
level that that is the solution yet. And when we say that there 
are technology solutions to some of these other things and they 
have virtually no error rate, please understand that business 
and industry establish an acceptable error rate. And what you 
don't get to hear about is that acceptable error rate. ATM 
machines have a fairly high error rate, but we don't hear about 
it very often. And their error rates are higher than we could 
ever live with in an election contest.
    And so what we have to do is we have to look at finding a 
way to reach almost perfection in using technology to where we 
somehow don't have that technology exclude people because they 
don't know how to use it or use it inappropriately. And yet 
when I see what causes the problems and look at--I mean, we 
have looked at this a lot. And we know that central count 
systems tend to have far more error rates than precinct count 
systems. And yet sitting with elections administrators, I heard 
people who run central count systems who had lower error rates 
than any precinct count system.
    So there is a combination here of policies and procedures 
and laws that need to be fixed first, and we have got to work 
on those. We are accepting our role in this and our 
responsibility in this. But it is almost too neat and too easy 
to say that this falls only on technology. It is important to 
me, it is important to the Nation, that we upgrade this 
technology to the extent that we at least get into the modern 
era.
    Senator Dayton. We have both used up our time. Thank you. 
Thank you very much.
    The Chairman. We are going to have to--let me just announce 
to all the witnesses we are going to have a dilemma here. We 
have got three votes starting shortly. What Senator Dodd and I 
are going to do is wait until about 5 minutes are left on the 
first vote, and at that point we will have a recess. Then it 
will probably last 20 or 30 minutes, regretfully.
    Any other questions for this panel?
    Senator Dodd. If it is all right, I had some additional 
ones. What I would like to do, if I could, is submit some in 
writing to you. I suspect other colleagues may do the same, 
rather than hold you here, if that is all right with you, Mr. 
Chairman.
    The Chairman. That is a good idea.
    Senator Dodd. Then just one quick observation, Mr. Lewis. 
Picking up on what Senator Dayton has said here, I think the 
system is broken. You know, we ended up with one of the lowest 
voter participation rates in the industrialized world. There 
are Third World nations that do a better job. Brazil, because 
of their new implementations of technology, has been able to 
increase voter participation almost without incident in the 
last several elections they have had. And there was a nation 
that had huge problems. And they did it with some national 
standards.
    So I do think it is broken. When you end up with a low 
voter participation, when you have undercounts, when you have 
people who are being turned away from the polls in droves in 
many places, that is a serious flaw in the system in a Nation 
that prides itself and instructs the world on how to vote and 
conduct elections.
    I am not pointing this at you specifically, but I take 
issue with the notion that this system is not in seriously bad 
shape. It is.
    The Chairman. Of course, I would say to my friend Senator 
Dodd, the turnout issue is a totally different issue, and it is 
noteworthy that in most democracies where the turnout is high, 
they Require voting. You have to vote. If you don't vote, you 
get fined. It has a remarkable impact on turnout. We will have 
that debate another day.
    Thank you very much for being here.
    The Chairman. The vote has not yet started, so we are going 
to get started on the second panel. I would like to ask Todd 
Gaziano, senior fellow in Legal Studies at the Heritage 
Foundation, Hilary Shelton, director of the Washington Bureau 
of the NAACP, Juan Figueroa, president and general counsel of 
the Puerto Rican Legal Defense & Educational Fund, and Steven 
Knack, a professor in political science, I think at the 
University of Maryland, to please join us.
    Senator Dodd. If I could just exercise--Juan Figueroa and I 
are old friends. Juan, I didn't know you were going to be here 
today until I got the list. Juan was a member of the State 
Legislature in Connecticut.
    Mr. Figueroa. Good to see you, Senator.
    Senator Dodd. I haven't seen you in a long time. It is good 
to see you again, Juan. Welcome.
    The Chairman. You are a recovering politician. [Laughter.]
    Let's lead off with Mr. Gaziano.

TESTIMONY AND PREPARED STATEMENTS OF A PANEL CONSISTING OF TODD 
   F. GAZIANO, SENIOR FELLOW IN LEGAL STUDIES, THE HERITAGE 
  FOUNDATION, WASHINGTON, D.C.; HILARY O. SHELTON, DIRECTOR, 
 WASHINGTON BUREAU, NAACP, WASHINGTON, D.C.; JUAN A. FIGUEROA, 
  PRESIDENT AND GENERAL COUNSEL, PUERTO RICAN LEGAL DEFENSE & 
  EDUCATION FUND, INC., NEW YORK, NEW YORK; AND STEVEN KNACK, 
                 PROFESSOR, BETHESDA, MARYLAND

                  STATEMENT OF TODD F. GAZIANO

    Mr. Gaziano. Good morning, Mr. Chairman and members of the 
committee. Thank you for the opportunity to testify today on 
election reform and issues related to the 2000 election. My 
written testimony addresses two somewhat distinct areas, but 
because of the limited time, I can only touch upon the Supreme 
Court's election ruling in my oral testimony. But that ruling 
does have an impact on State and Federal election reform, what 
is required of you, what is allowed, and what is not allowed. 
So I would be glad to address those questions in further detail 
after our oral testimony.
    The most important aspect of the U.S. Supreme Court's 
holding in Bush v. Gore was that all of the recounts that had 
been going on in Florida prior to December 12th were 
unconstitutional. That ruling was by a vote of 7 to 2, not 5 to 
4, as has been erroneously reported in many places.
    Outside the racial context, where I do think that the equal 
protection, vote dilution theory is very sound, I continue to 
question some aspects of the Court's decades-old jurisprudence 
that requires every vote in every political subdivision to be 
weighed exactly equally or almost exactly equally. 
Nevertheless, the equal protection and the due process 
rationale were joined by seven Justices, and they were the 
strongest grounds for the Court's ruling based on precedent. 
The scope of the Court's opinion is somewhat unclear, but there 
is some limiting language in the majority opinion to guide us.
    Let me now turn to the States' failure, in my view, to 
ensure that only eligible voters vote in Federal elections.
    In Federal elections, Congress has an important 
responsibility to prevent fraud, improve vote counting 
accuracy, and ensure that American citizens' votes are not 
illegally diluted by people who are not eligible to vote. 
Regardless of the intent of the so-called ``Motor-Voter'' law, 
it has helped create the most inaccurate voting rolls in our 
history. Citizens are registered in multiple jurisdictions at 
the same time, reports of fraud are common, and very few States 
have effective procedures to ensure that those registered are 
even citizens.
    Article I, Section 4 of the Constitution grants Congress 
the power to establish the time, places, and manner of 
congressional elections. In any legislative action, I believe 
that you should leave as many alternatives open to the States 
as possible, although constitutionally I think you can almost 
preempt the States with regard to regulating the manner of 
congressional elections. With regard to State elections, they 
can have their own system, but by and large, they will probably 
comply with your Federal mandates.
    But in my view, you ought to leave the States as much 
discretion as possible, but establish appropriate safeguards, 
minimum standards in vote counting, tabulation, and voting 
procedures.
    I want to contrast, however, Congress' authority to 
regulate the time, places, and manner of elections with 
Congress' authority to establish voter qualifications. Apart 
from certain obvious prohibitions, including race, age, and sex 
discrimination, the States have the exclusive power to 
establish voter qualifications, even in congressional 
elections. All States accept the basic principle that legal 
voters should be U.S. citizens, but the Motor-Voter law has 
complicated State efforts to keep non-citizens off their rolls. 
The estimates vary on the number of non-citizens who are 
registered to vote. But it probably provides the margin of 
victory in some close elections, including one in Wisconsin 
this past year. According to my review, I seriously doubt it 
made any difference in the Presidential election.
    But the most hotly debated restriction on voting today are 
the laws that exist in different forms in almost every State 
that disenfranchise persons convicted of various enumerated 
crimes that are either quite serious felonies or indicate a 
particular degree of untrustworthiness, such as election fraud.
    In recent years, there have been bills introduced in 
Congress--and some of the written testimony that has been 
submitted today--urging you to overrule and ban those State 
laws. Congress not only has no enumerated power to interfere 
with State felony disenfranchisement laws, but such laws are 
specifically sanctioned in Section 2 of the 14th Amendment and 
result in no reduction in a State's congressional 
representation.
    Nevertheless, some are concerned that State 
disenfranchisement laws affect certain communities more than 
others. At first blush, it seems like a laudable goal to 
eliminate or try to eliminate such disparities. But that might 
have some perverse effects on the communities most affected by 
these laws. With regard to the traditional purposes of these 
laws, which I would be glad to elaborate on, it could be argued 
that those communities that currently have the highest level of 
State disenfranchisement are the most protected by those laws.
    The Chairman. Let me just mention to you, the red light has 
gone on.
    Mr. Gaziano. Thank you.
    The Chairman. Try to wrap it up, if you can.
    Mr. Gaziano. Certainly. The only remaining point in two 
sentences is: I think there is a role for you to play in State 
felony disenfranchisement, however. There is some litigation 
under the Voting Rights Act that would attempt to overturn some 
of these State laws under a disparate impact theory. I believe 
that that is constitutionally flawed litigation and should 
fail. I would be glad to elaborate on that if you wish, but I 
think it would be helpful for Congress to clarify that, on a 
showing of disparate impact alone, as opposed to intentional 
discrimination, Federal law does not interfere with State 
felony disenfranchisement laws.
    [The prepared statement of Mr. Gaziano follows:]

 Prepared Statement of Todd F. Gaziano, Senior Fellow In Legal Studies 
   and Director, Center for Legal and Judicial Studies, The Heritage 
                              Foundation*
---------------------------------------------------------------------------

    * The Heritage Foundation is a public policy, research, and 
educational organization. It is privately supported, and receives no 
funds from any government at any level; nor does it perform any 
government or other contract work. The Heritage Foundation is the most 
broadly supported think tank in the United States. During 2000, it had 
more than 150,297 individual, foundation, and corporate supporters 
representing every state. Its 1999 contributions came from the 
following sources: individuals (51.2%), foundations (17.0%), 
corporations (3.2%), investment income (25.9%), publication sales and 
other (2.7%). Staff of The Heritage Foundation testify as individuals. 
The views expressed are their own, and do not reflect an institutional 
position for The Heritage Foundation or its board of trustees.
---------------------------------------------------------------------------
    Good morning Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to testify today on election reform and issues 
related to the 2000 election. For the record, I am a Senior Fellow in 
Legal Studies and Director of the Center for Legal and Judicial Studies 
at The Heritage Foundation, a nonpartisan research and educational 
organization. I am a graduate of the University of Chicago Law School 
and a former law clerk to the U.S. Fifth Circuit Court of Appeals. I 
also served in the U.S. Department of Justice, Office of Legal Counsel, 
during different periods in the Reagan, Bush, and Clinton 
Administrations, where I provided constitutional advice to the White 
House and four Attorneys General.
    A number of concerns have been raised about the 2000 election. In 
my view, some are serious and some are not. I will divide my testimony 
today between two somewhat distinct areas. The first is whether the 
Supreme Court of the United States improperly interfered with the 
recent presidential election. The second is whether the states have 
taken adequate steps to ensure that only eligible voters are voting in 
federal elections.
    If you find that the Supreme Court's exercise of jurisdiction or 
their decision in Bush v. Gore was in serious error, the Congress has 
some authority under Article III, section 2 to regulate the Court's 
appellate jurisdiction in future elections. If you find that the states 
have failed to take adequate steps to prevent vote dilution of eligible 
voters, you may exercise your powers under Article I, section 4 to 
alter the times, places and manner of congressional elections.
               the supreme court's election 2000 rulings
    I will turn first to an analysis of the Supreme Court's election 
rulings. At The Heritage Foundation, I edit a Supreme Court bulletin 
for our subscribers in which I report on the decisions and other major 
actions of the Supreme Court. I am also a member of the Bar of the 
Supreme Court and I frequently attend oral arguments at the High Court. 
So it was with some interest that I followed the election contests in 
the state and federal courts as they worked their way twice to the 
Supreme Court of the United States.
    The most important constitutional holding of the U.S. Supreme Court 
in Bush v. Gore was that all of the recounts and re-recounts in Florida 
prior to December 12 were unconstitutional. That ruling was by a vote 
of 7-2, not 5-4 as it has been erroneously reported in many places. 
This 7-2 ruling is undoubtedly correct, and the only aspect of the vote 
that surprised me was that it was not unanimous. This is because there 
were several independent grounds for holding that the recounts were 
unconstitutional based on the Court's equal protection and due process 
precedents and the text of Article II. In fact, the two dissenting 
justices had to abandon positions they had previously taken in 
analogous cases to vote as they did.
    I am disappointed that some lawyers who should know better are 
continuing their effort to mislead the public about the need for--and 
correctness of--the Supreme Court's December 12 ruling. These activist 
lawyers are joined by others who have a partisan motive to undermine 
the legitimacy of the current Administration. For example, I am well 
aware that debates still rage in the law schools over the Court's 
decision. But that says more about the politicized nature of American 
law schools than about whether the decision was controversial in any 
objective sense.
    In recent weeks, former Solicitor General Charles Fried, who 
teaches at Harvard Law School, and federal appeals court judge Richard 
Posner, who teaches at the University of Chicago Law School, have 
ridiculed the academic ferment over the Supreme Court's decision. 
Professor Fried has said that a newspaper ad by a number of law 
professors was a ``preposterous'' statement by a group of people ``in 
the grip of partisan excitement.'' He is quoted in The New York Times 
as saying that ``[t]he only thing that is beyond the pale is this kind 
of ridiculous rhetoric about the court disgracing itself.''
    Judge Posner has expressed similar sentiments and has said that at 
least one prominent member of the University of Chicago Law School 
faculty now regrets signing the letter and is trying to distance 
himself from it. But no one should be surprised that a number of legal 
academics will continue to churn out utter nonsense--for liberal 
agitprop is now a high art form in many American law schools.
    The Supreme Court's December 4 and December 12 decisions speak for 
themselves and they are understandable to any intelligent person who 
takes the time to read them carefully. I will summarize some of the 
principal features for the Committee, but I urge you not to take my or 
anyone else's testimony or submissions at face value, particularly 
those that amount to thinly veiled attacks on the justices' motives. 
There was a time when the leading Supreme Court advocates were U.S. 
Senators, and while your modern duties may prevent you from actually 
arguing the leading cases of the day, I submit that you are fully 
capable of evaluating the correctness of a given case by yourselves.
    That said, let me summarize what I consider to be some of the most 
important aspects of the Supreme Court's two decisions:
          In both decisions, Bush v. Palm Beach Co. Canvassing Bd. et 
        al. (Dec. 4, 2000) and Bush v. Gore (Dec. 12, 2000), all nine 
        justices of the Supreme Court agreed that the cases were within 
        the Court's jurisdiction because they presented important 
        issues of federal constitutional and statutory law. Some have 
        accused conservatives of hypocrisy for defending the federal 
        suit, but there is nothing inconsistent with defending federal 
        intervention in the 2000 presidential election dispute. 
        Progressive nationalists may try to advance the position that 
        states have no reserved power except that which the national 
        government permits. But strong defenders of federalism have 
        never taken the opposite position that the national government 
        has no constitutional power of its own.
          The federal judiciary is unquestionably vital in the 
        vindication of federal rights. The U.S. Supreme Court would not 
        have agreed to hear the Florida cases, no matter how important 
        the election contests seemed to others, if it did not conclude 
        that the case presented weighty issues of FEDERAL law. The real 
        irony is that some liberal academics now invoke the crudest 
        formulation of the states' rights argument in the ongoing 
        debate. No principled federalist would sign on to such a 
        formulation.
          Outside of the racial context, I continue to question some 
        aspects of the Court's decades-old jurisprudence that requires 
        every vote in every political subdivision to be weighed exactly 
        equally. Nevertheless, there is no doubt that this line of 
        cases predated the 2000 election and was implicated by the 
        inconsistent standards of vote tabulation applied in different 
        parts of Florida. In the days leading up to the oral argument 
        in the first Supreme Court case, I noted in an op-ed that the 
        Supreme Court should have considered the equal protection issue 
        in its initial grant of certiorari. I predicted then that a 
        ruling on the equal protection issue ``would have the greatest 
        impact in voiding the results from all selective hand recounts 
        and end other . . . attempts to cherry-pick votes. Because a 
        statewide hand recount with uniform standards is increasingly 
        unlikely, an equal protection ruling probably would be 
        dispositive.''
          After numerous subsequent court proceedings, the Supreme 
        Court finally took up that issue and seven justices ruled that 
        all the previous recounts were unconstitutional because they 
        violated equal protection and due process guarantees. It was 
        obviously hard for any justice to disagree, although the two 
        most ideological liberals, Stevens and Ginsburg, found a way to 
        abandon their prior positions in pursuit of a contrary result. 
        Stevens and Ginsburg argued that the inconsistent vote 
        tabulation standards were ``flawed'' and ``raise[d] serious 
        concerns'' but that the state courts could be counted on to 
        take care of the problem. Would these two justices have ruled 
        that literacy tests were only ``flawed'' and that state courts 
        in the Jim Crow South were in the best position to resolve 
        those issues? In any event, it was the four liberal justices 
        who were evenly divided (2-2) on the most significant 
        constitutional holding of the case.
          Based solely on precedent, the equal protection rationale 
        joined by seven justices was the strongest ground for the 
        ruling. Nevertheless, I believe the separate opinion by Chief 
        Justice Rehnquist for three members of the Court provided a 
        more satisfactory basis for the ruling. The Chief Justice 
        pointed out that all the hand recounts were illegal under 
        Florida statutes and that Article II of the Constitution 
        required the federal courts to enforce that state Legislature's 
        mandate. This opinion is worth reading again if for no other 
        reason than it is a fitting defense of the logical and sensible 
        decisions that Secretary of State Katherine Harris made in 
        applying the Florida election laws.
          As for the hysterical rant that the majority was wrong to end 
        the re-re-recounts on December 12, not doing so would have 
        required the U.S. Supreme Court to overrule a federal statute 
        that provides finality if that date is met, a Florida statute 
        that was enacted to get that protection, AND a Florida Supreme 
        Court decision that December 12 was the state deadline for 
        recounts. It is hard to argue with that, even though Justices 
        Souter and Breyer made a spirited attempt to do so. However, we 
        now know, according to several independent news organizations, 
        that Gore would have lost anyway even if the recounts had 
        continued under the most favorable standard imaginable to him.
          Others argue that it was ``unfair'' to Gore not to allow the 
        recounts to continue after December 12 under uniform standards 
        even if the law did not allow it. Yet, Bush raised the equal 
        protection problem almost from day one. In response, Gore's 
        lawyers repeatedly argued in federal district court, federal 
        appellate court, and in briefs before the U.S. Supreme Court, 
        that the issue was not ``ripe'' for the courts to consider. In 
        other words, Gore urged the courts not to rule on the equal 
        protection issue until the state process was completed. Thus, 
        in the end, it was Gore who ran out the clock on the issue that 
        seven justices of the U.S. Supreme Court ultimately relied on 
        to invalidate his shady legal recount scheme. He who seeks 
        unconstitutional, standardless recounts and tries to delay 
        federal challenges to them, is in no position to complain that 
        time has run out when the federal courts finally rule. In the 
        law, as in the rest of life, choices have consequences.
          The partisan wailing over the outcome is only surpassed by 
        liberal anguish over judicial activism. That the Florida 
        Supreme Court's first and second tour de force of judicial 
        activism would make any other judicial overlord blush deserved 
        no comment from those who are now shocked that judges might let 
        bias affect their rulings. Nevertheless, there is simply no 
        evidence that the majority in the U.S. Supreme Court was 
        controlled by partisan bias, and as an officer of the Court, I 
        take serious issue with those who suggest it was. In any event, 
        the liberal wailing may still help educate the public that 
        judicial tyranny really does exist, even if it is misdirected 
        in this case.
   state efforts to ensure that only eligible voters vote in federal 
                               elections
    In federal elections, Congress has an important responsibility to 
prevent fraud, improve vote counting accuracy, and ensure that American 
citizens' votes are not illegally diluted by people who are not 
eligible to vote. In the 2000 election, both of the major parties 
accused the other of irregularities or outright fraud. In an election 
as close as the past presidential election, the truth of these 
accusations matters, but so does the public perception. If the states 
are not doing an adequate job eliminating the possibility of fraud and 
improper voting in federal elections, it falls on Congress to take 
steps to fix the problems and reverse this corrosive perception.
    Regardless of the intent of the Motor Voter law, it has helped 
create the most inaccurate voting rolls in our history. Citizens are 
registered in multiple jurisdictions at the same time, and very few 
states have effective procedures to ensure that those registered even 
are citizens. If you compound our sloppy voting rolls with the fact 
that over 15 percent of Wisconsin college students in one survey 
admitted voting more than once (several voted at least five times) and 
that absentee voter fraud has plagued many recent contests, you can 
almost guarantee that illegal voting may provide the margin of victory 
in a close contest. The most technically advanced nation and leader of 
the free world should do a better job of policing its democratic 
processes.
    Still, Congress should not get involved unless two conditions are 
met: (1) the Constitution grants it the power to do so and (2) there 
are good reasons for Congress to act. Both conditions are met with 
regard to ensuring voting integrity. Article I, section 4 of the 
Constitution grants Congress the power to establish the times, places, 
and manner of congressional elections. Moreover, Congress helped create 
the current mess with the Motor Voter law, and it is unlikely to fix 
itself without congressional action (which should include a 
reexamination of the Motor Voter law itself). In any legislative 
action, Congress should leave as many alternatives open to the states 
as possible out of respect for legitimate state interests, but it ought 
to establish some minimum safeguards and standards to govern voter 
registration, voting procedures, and vote counting.
    These minimal safeguards should address potential vote fraud, 
including multiple voting and absentee voting abuse, but these matters 
deserve careful debate. It is important that these measures do not go 
so far that they discourage voting. Still, the overwhelming majority of 
Americans would gladly comply with reasonable safeguards (such as 
showing some identification at the polls) in order to ensure that our 
elected officials really have won the elections that put them in 
office.
     non-citizens and disenfranchisement based on criminal behavior
    I want to contrast Congress's power to regulate the times, places, 
and manner of elections with the power to establish voter 
qualifications. There can be no discrimination in voting based on race 
or gender, and the states may not impose long residency requirements, a 
poll tax, or deny the right of people 18 or older to vote because of 
their age. Beyond that, the states have the exclusive power to 
establish voter qualifications (even in federal elections) so long as 
the states apply the same qualifications for congressional elections 
that they do for the most numerous branch of the state legislature. The 
two principal voting restrictions in state law today involve non-
citizens and those who have been convicted of certain crimes, usually 
serious felonies.
    All states accept the basic principle that legal voters should be 
U.S. citizens. I am a second generation American. I hope that all legal 
residents pursue the necessary steps to become U.S. citizens just as my 
patriotic, immigrant grandparents did. But until they do become 
citizens, our state laws do not grant non-citizens the most important 
privilege of citizenship: the vote.
    The estimates vary on the number of non-citizens who are registered 
to vote, but this number would include both legal resident aliens and 
illegal aliens. At no time have any of the four states where I have 
serially registered to vote asked me for any proof of citizenship, even 
though I must establish with proper forms of identification that I am 
eligible to work every time I change jobs. Indeed, some state 
procedures imposed in the wake of the Motor Voter law automatically 
register home owners and drivers and include many non-citizens. Instead 
of complicating the states' job in keeping non-citizens off their 
voting rolls, Congress should help the states to ensure that our vote 
is not illegally diluted by non-citizens.
    The most hotly-debated restrictions on voting today are the laws 
that exist in different form in almost every state that disenfranchise 
persons convicted of various enumerated crimes that are either quite 
serious or indicate a particular degree of untrustworthiness, such as 
fraud or bribery. In recent years, there have been several bills 
introduced in Congress to overrule and ban such state laws. Congress 
not only has no enumerated power to interfere with state felon 
disenfranchisement laws, but state felon disenfranchisement laws are 
specifically sanctioned in section 2 of the Fourteenth Amendment and 
result in no reduction in a state's congressional representation.
    Historically, criminal disenfranchisement laws have served two 
purposes. The first is that they are part of the sanction for specified 
crimes. This legitimate state purpose of setting the proper sanction to 
fit the crime would be partially frustrated with non-enforcement or 
attempts to overturn felon disenfranchisement laws. Criminal punishment 
takes many forms, including fines, incarceration, periods of probation 
or parole, restitution, and the relinquishment of the individual right 
guaranteed by the Second Amendment to own and use a gun. It is simply 
false to say that a felon has served his entire debt to society upon 
the completion of his prison sentence. It is a bad policy, and probably 
unconstitutional in itself, for Congress to try to lessen the sanction 
for state crimes. But this is what many people are urging Congress to 
do.
    The other traditional reason for criminal disenfranchisement laws 
is based on the notion that those convicted of certain crimes are less 
trustworthy citizens and that they have forfeited their right to vote 
for at least a period of time, which varies from state to state. In 
every state disenfranchisement law of which I am aware, there is at 
least some process for those disenfranchised to restore their voting 
privileges. That is generally not the case with a felon's Second 
Amendment right to own or use a gun. Both federal and state law presume 
that those convicted of certain felonies are never to be trusted again 
with a gun, even though that presumption is unfair to many felons.
    Related to this second purpose is the concern that a large and 
important function of government is devoted to law enforcement. 
Criminal disenfranchisement allows law-abiding citizens to decide law 
enforcement issues and the proper allocation of scarce community 
resources without the dilution of voters who are deemed either to be 
less trustworthy or to have forfeited their right to participate in 
those decisions.
    Nevertheless, some have argued that state disenfranchisement laws 
affect certain communities more than others. At first blush, it seems 
like a laudable goal to try to eliminate such a disparity, but it is 
unclear to me what is best for communities most affected by these laws. 
In general, those communities that have a higher rate of crime have a 
higher rate of disenfranchised criminals living among them. Given that 
many poor and minority communities are ravaged by crime, proposals to 
eliminate felon disenfranchisement laws could have a perverse effect on 
the ability of law-abiding citizens to reduce the deadly and 
debilitating crime in their communities. With regard to the traditional 
purposes of these laws, it could be argued that those communities that 
currently have the highest level of state disenfranchisement are the 
most protected by those laws and would be the most adversely affected 
by the vote of ``unreformed'' convicts in their communities. The fact 
that so many states have these felon disfranchisement laws is strong 
evidence that many citizens do not want their ability to influence 
crime control decisions to be diluted by convicted felons on parole or 
otherwise.
    Criminal disenfranchisement laws go back at least as far as the 
Roman Empire and existed in the American colonies. That said, criminal 
disenfranchisement laws that were designed or intended to have a 
racially discriminatory effect are clearly unconstitutional under the 
Fourteenth and Fifteenth Amendments. At the turn of the Twentieth 
Century and shortly thereafter, a handful of southern states amended 
their felon disenfranchisement laws in an attempt to further bar 
African-Americans from voting. Yet, no such intentionally 
discriminatory law probably survives today and the federal courts are 
open to strike down any such law that does exist. Indeed, the Supreme 
Court struck down Alabama's felon disenfranchisement law when it 
concluded that past racial animus permeated the statute. See Hunter v. 
Underwood, 471 U.S. 222 (1985). Thus, if persuasive evidence exists 
that any current statute would not have passed absent racial animus, 
then the statute should and will be struck down.
    However, the Fourteenth and Fifteenth Amendments do not outlaw a 
statute that has a disparate impact on a racial group but that lacks an 
invidious motive or intent. As the Supreme Court noted in the case 
striking down Alabama's criminal disenfranchisement statute: 
``[O]fficial action will not be held unconstitutional solely because it 
results in racially disproportionate impact. . . . Proof of racially 
discriminatory intent is required to show a violation of the Equal 
Protection Clause.'' Hunter v. Underwood, 471 U.S. at 227-28 (quoting 
prior cases). In short, findings regarding the disproportionate racial 
impact of many state felon disenfranchisement laws would do nothing to 
confer constitutional authority on Congress to address that disparity. 
Proof of such discriminatory intent, on the other hand, renders 
congressional action wholly unnecessary, as the case of Hunter v. 
Underwood shows.
    Attached as an appendix to my testimony is a more detailed 
constitutional analysis of why Congress lacks the constitutional 
authority to overrule or ban current state felon disenfranchisement 
laws. But I do think Congress can play a constructive role in 
clarifying that federal law cannot be used to interfere with such laws.
    Despite the Supreme Court's ruling that disparate effects of such 
laws are not sufficient to overturn them under the Fourteenth and 
Fifteenth Amendments, there is ongoing litigation seeking to have such 
statutes overturned under the federal Voting Rights Act. I believe such 
litigation should fail, in part because such an interpretation of the 
Voting Rights Act would, at a minimum, raise serious constitutional 
problems. But portions of the Voting Rights Act do invite some 
disparate impact claims, and the federal litigation might take years to 
resolve in any case. Congress should clarify in legislation that state 
criminal disenfranchisement laws are not a violation of federal law if 
the suit is based on a showing of disparate impact alone.
    In addition, a strong argument can be made that the ``weigh every 
vote equally'' line of cases that was the basis for the majority 
opinion in Bush v. Gore requires states to enforce their felon 
disenfranchisement laws in a uniform way. There is substantial evidence 
that disenfranchised felons voted in large numbers in some counties in 
Florida, Wisconsin, and other states in the last presidential election. 
As we all know, the presidential vote was very close in both Florida 
and Wisconsin.
    The Associated Press estimated that as many as 5,000 
disenfranchised felons may have voted in Florida alone. Of the 445 
Florida felons who were known to have voted illegally, 45 were murders, 
16 were rapists, seven were kidnappers, 62 were robbers, and 56 were 
drug dealers. Because the Associated Press reported that nearly 75 
percent of the Florida felons were registered Democrats, there is 
reason to believe that they did not provide the margin of victory in 
the presidential election. Given the larger margin of victory for Gore 
in Wisconsin, it is also unlikely that felons provided the margin of 
victory for him in that state either, but they may have provided the 
margin of victory in some of the close local elections.
    Disenfranchised felon voting was not as big a problem in many 
counties of Florida and Wisconsin where local election officials took 
their state-law responsibilities to prevent illegal voting more 
seriously. People who are deeply concerned about vote dilution claims 
in the racial context, as is appropriate, should also be concerned 
about diluting the vote of law-abiding citizens, particularly when the 
harm is concentrated in certain parts of a state and not in others. I 
believe such equal protection claims may be adjudicated in any court, 
and that judges may provide appropriate relief in such cases.
    However, Congress can only act pursuant to authority under section 
5 of the Fourteenth Amendment if it found that uneven enforcement of 
felon disenfranchisement laws dilutes the votes of lawful voters in a 
number of states and its remedy is proportional to the equal protection 
violation. So while Congress has no constitutional authority to 
overrule or bar state felon disenfranchisement laws, it might have the 
authority to enact legislation to require even-handed application of 
such laws. That said, it is my view that Congress should take a neutral 
stance regarding state felon disenfranchisement laws unless the 
evidence is overwhelming such laws are being enforced in an uneven 
manner.

Appendix Re: Congress' Lack of Authority To Overrule or Ban State Felon 
                        Disenfranchisement Laws

    In recent years several bills have been introduced in Congress that 
are designed to overrule and ban state felon disenfranchisement laws. 
But for the following reasons, Congress lacks the constitutional 
authority to interfere with current state felon disenfranchisement laws 
in this way.
                the constitutional framework of analysis
    The constitutional analysis of any congressional bill is bounded by 
certain bedrock principles, the most important of which is as follows: 
If the Congress is not acting pursuant to a specific grant of power set 
forth in the Constitution, the legislation is unconstitutional. This is 
because the national government is one of limited and enumerated 
powers-as opposed to one of inherent powers. No citation to Supreme 
Court authority is necessary for this proposition, although many are 
available. But the federal courts' interest in this principle since the 
Supreme Court struck down the federal gun-free school zone statute in 
United States v. Lopez, 514 U.S. 549 (1995) is especially noteworthy.
    As Congress knows, this aspect of federalism is not just wise 
policy to be followed whenever Congress deems it appropriate; it is 
specifically designed to limit Congress's appetite to encroach on state 
power and individual liberty. This fundamental principle of federalism 
is recognized not only in the Tenth Amendment, but also in the text and 
structure of Articles I through III, and it is strongly reinforced in 
the debates on the Constitution. Although the Federalists and Anti-
Federalists disagreed on the precise scope of federal power and the 
need for a Bill of Rights, everyone agreed that the national government 
could only exercise those powers enumerated in the written 
Constitution.
    Of course, Members of Congress take their oath to uphold the 
Constitution seriously, but some public misconceptions remain about 
every Member's responsibility to ensure that Congress does not attempt 
to pass unconstitutional legislation. For example, it is not 
permissible for Congress to vote for unconstitutional legislation with 
the expectation that the courts will make the constitutional 
determinations. Although the courts have their own obligation to make 
such determinations in a case or controversy properly before them, it 
is no less the duty of Congress to adhere to and be bound by the 
Constitution. Although many cite Marbury v. Madison for a contrary 
view, the opinion of Chief Justice John Marshall recognizes that each 
branch of government has the same duty in its own realm to act 
constitutionally and pass on constitutional questions. It was simply 
Marshall's view that the courts, no less than Congress, shared in this 
responsibility.
    So that no person thinks my general approach to constitutional 
analysis is invoked selectively, let me state clearly that I think the 
current majority and minority in Congress are almost equally guilty of 
forgetting these principles of constitutional law when a popular bill 
is before them. I have opposed many well-meaning bills in recent years 
solely because they were beyond the constitutional authority of 
Congress to enact. Bills to ban state felon disenfranchisement laws are 
no different.
                constitutional analysis under article i
    Congress has no power to ban or preempt state felon 
disenfrachisement laws under Article I of the Constitution, and the 
question is not a close one. There is no textual grant of authority to 
Congress in Article I to override nondiscriminatory state voting 
qualifications; there is no Supreme Court precedent recognizing such a 
power; and there are three constitutional provisions that recognize 
that this is an inherent state power.
    Article I, section 2 provides that voters for Members of the House 
of Representatives ``shall have the Qualifications requisite for 
Electors of the most numerous Branch of the State Legislature.'' The 
Seventeenth Amendment contains the exact same phrase with respect to 
voters for U.S. Senators. This provision essentially requires states to 
have the same qualifications for voters in state and national elections 
(at least with regard to legislative elections), but it also is an 
explicit recognition that states have the authority to set those voting 
qualifications--even for Members of Congress.
    Other provisions of the Constitution prohibit voting qualifications 
based on race, sex, and young adult status, but Section 2 of the 
Fourteenth Amendment implicitly recognizes that states may deny the 
franchise to those who have engaged in ``rebellion, or other crime.'' 
Thus, the Constitution recognizes the general power of states to set 
voting qualifications in Article I and the Seventeenth Amendment and 
the specific power of states to disenfranchise those convicted of a 
crime in the Fourteenth Amendment.
    It could be argued that these three provisions of the Constitution 
recognize the states' inherent authority to establish voting 
qualifications and disenfranchise felons rather than provide a grant of 
such power to the states, but that is of no less constitutional 
significance. Like the operation of the Eleventh Amendment, Article I, 
the Seventeenth Amendment, and the Fourteenth Amendment provide 
powerful evidence that this state power was understood to be an aspect 
of state sovereignty that predated the Constitution and always remained 
with the states. See The Federalist, Nos. 52 and 60 (where James 
Madison and Alexander Hamilton concur with this understanding of 
Article I); Alden v. Maine, 527
    U.S. 706, 741-43 (1999) (recognizing that aspects of state 
sovereignty are of no less constitutional significance if they are 
proven by the existence of the Eleventh Amendment rather than protected 
by its text).
    Article I, section 4 cannot reasonably be read as a grant of power 
to Congress to define the qualifications of voters in national 
elections. Article I, section 4 allows the states to establish the 
``Times, Places and Manner of holding Elections for Senators and 
Representatives,'' except that ``Congress may at any time by Law make 
or alter such Regulations. . . .'' ``[S]uch Regulations'' refers only 
to the ``Times, Places, and Manner'' of holding congressional 
elections--not to voting qualifications. Article I, section 4 simply 
cannot be read to overrule the plain meaning of Article I, section 2 
and the same phrase in the Seventeenth Amendment. Although it is still 
a fashionable theory on some university campuses and among some special 
interest groups to argue that words are infinitely malleable, that 
approach would render a written constitution of no particular value. 
Members of Congress and judges faithful to their oath cannot engage in 
such nonsense. The text of Article I and the Seventeenth Amendment is 
clear.
    Nor is there any Supreme Court authority for the proposition that 
Article I grants Congress power to establish voting qualifications. 
Oregon v. Mitchell, 400 U.S. 112 (1970), which upheld an 18-year-old 
voting statute just prior to the ratification of the Twenty-Sixth 
Amendment, certainly is not to the contrary. In that highly fractured 
decision, there were three separate opinions for the five members who 
voted to uphold the statute. The most significant feature of Oregon v. 
Mitchell is that eight justices rejected the Article I argument when it 
was squarely presented in the case. Only Justice Hugo Black relied on 
Article I, section 4, and no other justice of the five-member majority 
would join his opinion. I also believe the Court's ruling in City of 
Boerne v. Flores, 521 U.S. 507 (1997) makes it unlikely that today's 
Court would rule the same way as the majority in Oregon v. Mitchell 
(absent the Twenty-Sixth Amendment). But I want to add that even if I 
am wrong about the continued validity of Oregon v. Mitchell, the Court 
certainly would not rely on any Article I power in its decision.
    There are some fascinating and complex constitutional questions 
about which reasonable scholars can disagree in good faith, and there 
are some easy questions about which no reasonable high school student 
ought to disagree. Whether Congress has plenary power to establish the 
qualifications of voters under Article I is in the latter category, and 
the answer is ``no.''
                the fourteenth and fifteenth amendments
    Section 1 of the Fourteenth and Fifteenth Amendments render 
unconstitutional any state law that has as its purpose the intentional 
disenfranchisement of a racial group. Although state statutes that 
disenfranchise felons predate the Revolutionary War and may serve 
legitimate, nondiscriminatory ends, any statute intended to have a 
racially discriminatory effect is nevertheless unconstitutional. Thus, 
congressional legislation is wholly unnecessary to address statutes 
with such a purpose, because they can and should be struck down by any 
court at any point in time.
    Some historical evidence suggests that racial animus may have 
played a part in the passage or revision of a handful of states' 
criminal disenfranchisement laws 50-100 years ago. At least two of 
those states have largely repealed the offending statute. In Alabama, 
the courts agreed that the evidence was sufficient to conclude that one 
part of its statute was based on unconstitutional racial animus. See 
Hunter v. Underwood, 471 U.S. 222 (1985). It is unclear whether any 
state's current felon disenfranchisement law was passed because of 
racial animus. But if evidence exists that any current statute would 
not have passed absent racial animus, then the statute should be struck 
down.
    However, the Fourteenth and Fifteenth Amendments do not outlaw a 
statute that has a disparate impact on a racial group but that lacks an 
invidious motive or intent. As the Supreme Court noted in the case 
striking down Alabama's criminal disenfranchisement statute: 
``[O]fficial action will not be held unconstitutional solely because it 
results in racially disproportionate impact. . . . Proof of racially 
discriminatory intent is required to show a violation of the Equal 
Protection Clause.'' Hunter v. Underwood, 471 U.S. at 227-28 (quoting 
prior cases). In short, findings regarding the disproportionate racial 
impact of state felon disenfranchisement laws do nothing to confer 
constitutional authority on Congress to address that disparity. Proof 
of such discriminatory intent, on the other hand, renders congressional 
action wholly unnecessary, as the case of Hunter v. Underwood shows.
    Prior to the Boerne decision, the Supreme Court upheld some 
congressional statutes enacted pursuant to section 5 of the Fourteenth 
Amendment involving voting rights. These congressional statutes were 
designed to prevent states from excluding racial minorities from voting 
through pretextual devices, such as literacy tests, which were facially 
neutral but had the clear history, pattern, practice, and intent of 
excluding racial minorities. Everyone knew that the real purpose of 
literacy tests was invidious discrimination and that the stated purpose 
was a pretext. Facially neutral statutes that have the intent of 
excluding one race from the equal protection of the law are 
unconstitutional and should be struck down by the courts. After Boerne, 
Congress has less power to enact prophylactic statutes that outlaw the 
use of such facially neutral practices in the future. But the special 
history, pervasive pattern and practice, and the clear invidious intent 
of literacy tests present a strong case for a congressional 
prophylactic ban on the use of that particular device, especially since 
it was only used in modern times as a tool of intentional 
discrimination.
    In contrast to the literacy test example, Congress's power to ban 
state felon disenfranchisement laws lacks all of the criteria necessary 
for Congress to act under section 5 of the Fourteenth Amendment. 
Congress could not find that a substantial number of current felon 
disenfranchisement laws (if any) were passed as a pretext to 
discriminate against racial minorities. Almost every state has such a 
law, and the type and variety of such laws show no correlation to 
states with histories of racial discrimination. For example, some 
southern states have little or no felony disenfranchisement, and in the 
2000 election, the people of Massachusetts enacted a new felon 
disenfranchisement law in response to a prisoner PAC that was formed in 
their state. In sum, there is no serious evidence that existing felon 
disenfranchisement statutes were passed for an improper racial motive.
    Moreover, section 2 of the Fourteenth Amendment implicitly 
recognizes that states may have perfectly good reasons to 
disenfranchise those engaged in rebellion or other crimes. The framers 
of the Fourteenth Amendment would not have recognized these laws and 
made them an exception to the normal rules regarding the apportionment 
of Representatives in Congress if they did not believe such laws could 
operate in conformity with the rest of the Fourteenth Amendment. It 
would certainly be odd to argue that Congress could find that no state 
felon disenfranchisement statute passes muster under the Fourteenth 
Amendment when the Fourteenth Amendment itself acknowledges otherwise. 
The Supreme Court seemed to adopt this reasoning when it relied on 
section 2 of the Fourteenth Amendment to uphold a felon 
disenfranchisement statute against a nonracial equal protection clause 
challenge in Richardson v. Ramirez, 418 U.S. 24 (1974).
    Even if the evidence allowed Congress to conclude that a few states 
passed their existing criminal disenfranchisement statutes to deny 
their citizens constitutional rights protected by the Fourteenth and 
Fifteenth Amendments and Congress stated that its ban was designed to 
address that narrow problem, the proposed solution would still be 
unconstitutional. In Boerne, the Supreme Court stated that before 
Congress could legitimately invoke section 5 of the Fourteenth 
Amendment ``[t]here must be a congruence and proportionality between 
the [constitutional] injury to be prevented or remedied and the means 
adopted to that end.'' Overruling the laws of the other 50 states 
regarding criminal disenfranchisement and preventing all 50 states from 
reenacting any that are not in conformity with Congress's dictates is 
not proportional to any constitutional violation by one or two states.

    The Chairman. Thank you, Mr. Gaziano.
    Mr. Shelton.

                 STATEMENT OF HILARY O. SHELTON

    Mr. Shelton. Thank you. Good morning, Chairman McConnell, 
Senator Dodd, and distinguished members of the Committee on 
Rules and Administration. Thank you for the opportunity to come 
before you this morning on behalf of the National Association 
for the Advancement of Colored People and our 1,700 branches in 
50 States, the District of Columbia, Italy, Germany, Japan, and 
Korea.
    The NAACP is deeply appreciative of the U.S. Senate 
Committee on Rules and Administration for convening this 
hearing to look into the issue of vote irregularities with 
respect to last year's Presidential election. We believe that 
this is a matter of grave concern of our Nation and our people. 
We also believe that perhaps tens of thousands of voters were 
denied the basic right to cast their free vote and to have that 
vote counted.
    While our concerns encompass the electoral process in all 
50 States, for the purposes of today's hearing I shall confine 
my remarks to what occurred and did not occur in the State of 
Florida and why it was particularly discomforting.
    There was, at best, as we have been able to determine, 
substantial unresolved allegations throughout the State of 
massive voter disenfranchisement in African American, Hispanic 
American, Haitian American, and Jewish communities. The 
election appears to have been conducted in such a manner that 
many of those same communities now believe unequivocally that 
it was unfair, illegal, immoral, and certainly undemocratic.
    As the Nation's oldest and largest civil rights 
organization, the NAACP was appalled and outraged by much of 
what we saw unfold the weekend before the election at polling 
places on the day of the election, and at Board of Elections 
throughout the State the days and weeks that followed. Because 
the right to vote is the most sacred franchise in our 
democracy, these hearings, as uncomfortable as they might be to 
some, must challenge all Americans to focus again on the thorny 
issues of equal protection under law and whether or not our 
protection is afforded to duly registered voters who went to 
the polls on election day in Florida.
    Every survey, in fact, that has been conducted after the 
election has shown that the greater the percentage of black 
voters in a precinct, the greater was the likelihood that a 
significant number of the ballots of those voters was never 
counted. There was also a greater likelihood that computer 
equipment, when available at such polling places, was not 
adequate or on par with what was available in some uses in 
polling places in precincts that had a relatively low number or 
inconsequential number of African American voters. Ask the 
thousands upon thousands of people who saw their fundamental 
rights violated, often because of the color of their skin, and 
they will tell you without hesitation that they feel violated 
and robbed.
    The national response to this has been a flurry of 
legislative initiatives announced and undertaken by 
conscientious members of the House and Senate on both sides of 
the aisle. If anything, the bipartisan nature alone of the 
response thus far has been encouraging. However, the real test 
will be to see what, if anything, of substance emerges and is 
signed into law under the rubric of voting and electoral 
reforms. The NAACP also has a set of well-developed ideas and 
recommendations designed to avoid similar election day debacles 
in the future. We don't seek pride of authorship of these or 
any other ideas. What we do seek, however, is a responsible 
expectation that the distinguished men and women of both 
chambers of Congress will work in earnest to move our Nation 
closer towards a universal and uniform system of casting and 
counting votes.
    Before I offer our 12 recommendations, let me begin with 
what took place in and around November 7, 2000. The weekend 
prior to the election, the NAACP began receiving calls alerting 
us about the fact that a person or persons were making 
electronic phone calls into predominantly black households, 
claiming to represent the NAACP in support of Republican 
candidate George W. Bush. These calls were apparently taking 
place in the key battleground States of Michigan and Florida. 
Specifically, the caller was identifying him--or herself as a 
representative of the NAACP, saying that the organization 
endorsed and supported the Republican candidate for President 
and urged the recipients of the call to go to the polls on 
Tuesday and vote accordingly.
    In response to this blatantly false and extremely illegal 
call, the NAACP moved quickly to make sure that the U.S. 
Department of Justice as well as the Attorney General of each 
of the States was also notified. Unable to secure a cease and 
desist order, we used public service time on local radio 
stations over the 48 hours we had available to us prior to the 
election to straighten out this issue. Three days later, on 
election day, NAACP local, State, and national officials began 
receiving unprecedented numbers of complaints from citizens 
nationwide who were attempting to vote, saying in essence that 
they had been turned away from the polls or had trouble casting 
their ballots.
    It became clear and, quite frankly, it became evidently 
clear that this problem was very focused in the State of 
Florida. By 2:00 p.m. that afternoon, with the polls still 
open, the number of complaints became so enormous that the 
NAACP president and CEO, Kweisi Mfume, issued an afternoon 
press release calling attention to what we believe was a major, 
if not unprecedented, disenfranchisement of voters because 
there seemed to be no sense of urgency coming out of the 
Department of Justice with respect to what had happened 
throughout that weekend and on election day.
    Upon receiving even more of these complaints, our civil 
rights lawyers were immediately dispatched to Florida on 
November 11th and thereafter. We held a hearing on Saturday, 
November 11th, in Miami, where we received testimony from 
hundreds of members of the Florida electorate. At that hearing, 
which was covered by C-SPAN, over 700 people came out--black 
voters, white voters--to discuss the bureaucratic snafus that 
occurred and the disappearance of certain ballot boxes which 
were unattended for many days.
    Now, I know I have run out of time, but there are many 
things I would like to share.
    The Chairman. Is there any way to kind of sum it up, just 
like Mr. Gaziano did?
    Mr. Shelton. To sum it up, in essence, the NAACP has what 
we consider a 12-step approach to addressing this problem. Some 
might refer to it as a 12-step program towards election 
sobriety.
    Number one, to ensure non-discriminatory equal access to 
electoral processes for all voters, including ethnic 
minorities, the elderly, handicapped, disabled, individuals who 
are overseas citizens, and members of the U.S. Armed Forces.
    Number two, to retrain all poll workers and election 
officials so that there is fair, equal, and uniform treatment 
of voters across the State.
    Number three, to modernize voting and counting procedures 
throughout the State, including voting machines, equipment, and 
a well-defined procedure for addressing the issue of 
provisional ballots throughout our country.
    Number four, providing necessary and adequate funding for 
the resources.
    Five, launching an aggressive voter education initiative 
and campaign.
    Six, expand poll workers' training.
    Seven, put into place systems to maintain and easily access 
correct and up-to-date voter rolls using the latest technology.
    Eight, enhance the integrity and timeliness of absentee 
ballots.
    Nine, re-examine all existing voting policies as we address 
issues of voting accessibility for elderly and handicapped--the 
Voting Rights Act of 1965, the National Voter Registration Act 
of 1993.
    Ten, to work to identify and eliminate practices which 
might be perceived as intimidating in certain sectors of the 
population.
    Eleven, to establish clear standards for bilingual ballots, 
for language minorities and the disabled.
    And, twelve, to re-examine, simplify, and standardize 
voting re-enfranchisement laws for those Americans who may or 
may not have been incarcerated because both became a problem 
for us in Florida.
    Let me lastly say that the NAACP has found that the best 
piece of legislation to address these particular issues is a 
bill that was introduced yesterday by our good friend 
Christopher Dodd in the Senate and our good friend John Conyers 
in the House entitled ``The Equal Protection of Voting Rights 
Act,'' and we hope to see that Congress will move very quickly 
in that direction.
    [The prepared statement of Mr. Shelton follows:]

Prepared Statement of Hilary O. Shelton, Director, Washington Bureau of 
     the National Association for the Advancement of Colored People

    Good morning, Mr. Chairman McConnell, Senator Dodd and 
distinguished members of the Committee on Rules and Administration. 
Thank you for the opportunity to come before you this morning on behalf 
of the National Association for the Advancement of Colored People and 
our 1700 Branches in 50 states, the District of Columbia, Italy, 
Germany, Japan and Korea.
    The NAACP is deeply appreciative of the U.S. Senate Committee on 
Rules and Administration for convening this hearing to look into the 
issue of voting irregularities with respect to last year's Presidential 
election.
    We believe that this is a matter of grave concern for our nation 
and our people.
    We also believe that perhaps tens of thousands of voters were 
denied their basic right to cast a free vote and to have that vote 
counted. While our concerns encompass the electoral process in all 50 
states, for the purpose of today's hearing I shall confine my remarks 
to what occurred or did not occur in the state of Florida and why it 
was particularly discomforting.
    There was, as best as we have been able to determine, substantial 
unresolved allegations throughout that state of massive voter 
disenfranchisement in African American, Haitian American and Jewish 
communities.
    The election appeared to have been conducted in such a manner that 
many of those same communities now believe unequivocally that it was 
unfair, illegal, immoral and certainly undemocratic.
    The specter of these allegations alone indisputably require that 
the record be made complete in terms of what did not happen during the 
election in Florida.
    As the nations's oldest and largest civil rights organization, the 
NAACP was appalled and outraged by much of what we saw unfold the 
weekend before the election, at polling places on election day and at 
Boards of Elections throughout the state in the days and weeks that 
followed.
    Because the right to vote is the most sacred franchise in our 
democracy, these hearings, as uncomfortable as they might be to some, 
must challenge all Americans to focus again on the thorny issue of 
equal protection under law and whether or not such a protection was 
afforded to duly registered voters who went to the polls on election 
day in Florida.
    Every survey of fact that was conducted after the election has 
shown that the greater the percentage of black voters in a precinct the 
greater was the likelihood that a significant number of the ballots of 
those voters were never counted.
    There was also a greater likelihood that computer equipment, when 
available at such polling places, was not adequate or on par with what 
was available and in use at polling places in precincts that had a 
relatively low or inconsequential number of African American voters.
    Ask the thousands upon thousands of people who saw that fundamental 
right violated, often because of the color of their skin, and they will 
tell you without hesitation that they feel violated and robbed.
    The national response to this has been a flurry of legislative 
initiatives announced and undertaken by conscientious members of the 
House and Senate on both sides of the aisle. If anything, the bi-
partisan nature alone of the response thus far has been encouraging. 
However, the real test will be to see what if anything of substance 
emerges and is signed into law under the rubric of voting and electoral 
reform.
    The NAACP also has a set of well developed out ideas and 
recommendations designed to avoid similar Election Day debacles in the 
future. We don't seek pride of authorship of those or any other ideas. 
What we do seek however is a reasonable expectation that the 
distinguished men and women of both chambers of congress will work in 
earnest to move our nation closer toward a universal and uniform system 
of casting and counting ballots.
    Before I offer our twelve recommendations let me begin with what 
took place on and around November 7, 2000.
    The weekend prior to the election, the NAACP began receiving calls 
alerting us to the fact that a person or persons were making electronic 
phone calls into predominately black households, claiming to represent 
the NAACP, in support of Republican candidate George W. Bush. These 
calls were apparently taking place in the key battleground states of 
Michigan and Florida. Specifically, the caller was identifying him or 
herself as a representative of the NAACP, saying that the organization 
endorsed and supported the Republican candidate for President, and 
urged the recipient of the call to go to the polls on Tuesday and to 
vote accordingly.
    In response to the blatantly false and extremely illegal calls, the 
NAACP moved quickly to make sure that the U.S. Department of Justice, 
as well as the Attorneys General of each state was also notified. 
Unable to secure a cease and desist order we used public service time 
on local radio stations over the next 48 hours to alert voters of the 
false nature of the calls.
    Three days later, on Election Day, NAACP local, state and national 
offices, began receiving an unprededented number of complaints from 
citizens nation-wide who were attempting to vote saying in essence that 
they had been turned away from the polls or had trouble casting their 
ballots. It became clear quite quickly that many of the problems were 
located in the state of Florida.
    By 2 pm that afternoon, with the polls still open, the number of 
complaints became so enormous that NAACP's President and CEO, Mr. 
Kweisi Mfume, issued an afternoon press release calling attention to 
what we believed was a major, if not unprecedented disenfranchisement 
of voters. Because there seemed to be no sense of urgency coming out of 
the Department of Justice with respect to what had happened the weekend 
prior or to what was happening on election day itself, the NAACP sent 
an additional 100 of our field workers into Florida from neighboring 
states by early that afternoon.
    Upon receiving even more of these complaints, our civil rights 
lawyers were immediately dispatched to Florida to interview witnesses 
and on November 11, just 4 days after the election, the NAACP held a 
public hearing in Miami to receive testimony and to establish a public 
record highlighting the extent to which violations of state and federal 
law may have occurred. We were joined at that hearing by many of the 
organizations seated here today.
    At that hearing, nearly 1,000 people listened intently, and many 
more watched on C-SPAN as witness after witness dramatically testified 
about the disparate treatment between black and white voters, 
intimidation by election officials, bureaucratic snafus and ballot 
boxes that were left unattended for several days after the election.
    During the hearing we heard tearful testimony about polling 
officials challenging African American voters and demanding that they 
produce photo identification without doing the same to white voters.
    We also heard testimony from a Miami police lieutenant and a long-
term minister also of Miami who said that they had both, in separate 
instances, found unopened and uncounted ballot boxes two days after the 
election in the lobby of a local hotel and in the church hall 
respectively. As bizarre as that might sound, what was more amazing was 
that after repeated calls to the Board of Elections the ballot boxes 
had still not been collected and were not collected until the NAACP and 
others got involved.
    There were students who came forth to tell us of their inability to 
vote because they were told they were not registered when in fact they 
were. In other instances many male voters, including a catholic priest, 
were not allowed to vote because they were told that they were 
convicted felons when in fact they were not. And, countless others were 
told that even though they were in line at the time polls were closing 
that they too could not and would not be allowed to vote.
    I could go on and on with a list of examples from the testimony 
replete with instances where everyday citizens publicly and on the 
record recounted their horror stories of what happened to them on 
election day in Florida.
    The goal of the hearings we held was not to determine who won the 
Presidential election.
    Rather, the hearings represented an effort by the NAACP to 
establish, as I said before, a public record to assist the U.S. 
Department of Justice, the State of Florida, Congressional Committees, 
and any other interested parties in determining if Federal voting 
rights and civil rights laws were violated during the election.
    A complete transcript from our November 11 hearing, all 296 pages, 
was presented to then-Attorney General Janet Reno on November 16, 2000, 
along with a renewed request that she investigate possible violations 
of federal civil rights laws. Copies of the transcripts have also been 
sent to various House and Senate committees.
    Overall, the hearing and the transcripts revealed several instances 
in which the voting strength of Florida's minority voters was adversely 
impacted.
    Subsequent to the hearing, the NAACP Legal Department received and 
has continued to receive additional affidavits and other supporting 
materials showing massive voting irregularities in the state of 
Florida.
    Other NAACP branches, including some in Missouri, Texas and 
Massachusetts have also held hearings into voting problems faced by 
ethnic minority Americans. All of this evidence is being assembled by 
the NAACP national headquarters and is being used to support legal 
actions.
    Due largely to the inaction of the U.S. Department of Justice, the 
NAACP, joined by The Advancement Project, the American Civil Liberties 
Union Foundation, the Lawyers Committee for Civil Rights Under the Law, 
the NAACP Legal Defense and Education Fund and the People for the 
American Way Foundation filed an historic lawsuit against the state of 
Florida and several of its counties to eliminate discriminatory and 
unequal voting policies and practices from Florida's electoral system.
    We intentionally did not file the lawsuit until the outcome of the 
election had been determined. Included in the suit was evidence that 
showed that the disparate and unfair voting practices that took place 
across the state resulted in the disenfranchisement of thousands of 
African American voters.
    Specifically, our lawsuit produces evidence showing that polling 
sites were moved without timely notice or no notice at all; voters were 
disenfranchised by some polls closing early; some polling places had no 
bilingual ballots and Haitian voters were denied assistance from 
translators; there was a disproportionate purging of votes in 
predominantly Black precincts in several counties, including Duval and 
in West Palm Beach; charges of voter intimidation in Broward and 
Hillsboro counties; and inadequate training of poll workers.
    We believe that it is a part of our obligation as a non-partisan 
organization to insist that all voters be allowed to cast an unfettered 
ballot and be free from intimidation and harassment as promised by the 
Voting Rights Act of 1965.
    The NAACP abhors the countless horror stories that can continue to 
be heard from voters in Florida and across the nation, and we are 
incensed and bewildered that so little is being done to address this 
situation.
    The NAACP has, therefore, developed a set of policies and 
procedures that we are asking every state, as well as the federal 
government, to adopt prior to the next election.
    Like most things that challenge our gift of freedom, we must work 
hard to ensure that our democratic system retains its integrity. 
Furthermore, it is important that we act now, so as to quickly start to 
restore the confidence in the electoral process that was lost for many 
in this nation, especially in black and Latino communities.
    Hence our policy and procedure recommendations have been crafted in 
response to the problems of the November 2000 election and we think 
that, if properly implemented, will go a long way toward establishing 
uniform national voting standards that will make it easier to ensure 
that every American who wants to vote can.
    Specifically, the NAACP is calling on the Federal government, as 
well as each of the 50 states to promptly enact laws, policies and 
procedures that secure the following:
          1. Ensure non-discriminatory, equal access to the electoral 
        process for all voters, including ethnic minorities, the 
        elderly, handicapped/disabled individuals, overseas citizens, 
        and members of the US Armed Services;
          2. Re-train all poll workers and election officials so that 
        there is fair, equal and uniform treatment of voters across the 
        state;
          3. Modernize voting and counting procedures throughout the 
        state, including voting machines and equipment, to ensure that 
        well-defined, uniform procedures are in place so that the 
        genuine intentions of the voters are reflected in their 
        ballots;
          4. Provide necessary and adequate funding and resources to 
        modernize and upgrade all equipment, state-wide, so that voting 
        procedures are uniform and consistent throughout the state;
          5. Launch an aggressive voter education initiative so that 
        potential, new and existing voters are knowledgeable on how to 
        use the equipment correctly and so their genuine intent can be 
        easily determined;
          6. Expand poll worker training and recruitment programs, 
        utilizing the best practices from across the nation;
          7. Put into place systems to maintain and easily access 
        correct and up-to-date voter rolls using the latest technology;
          8. Enhance the integrity and timeliness of absentee ballots;
          9. Reexamine all existing voting policies and procedures to 
        ensure that your state and every municipality therein is in 
        full compliance with the Voting Accessibility for the Elderly 
        and Handicapped Act (42 U.S.C. 1973 et seq.), the Voting Rights 
        Act of 1965 (42 U.S.C. 1973 et seq.) and the National Voter 
        Registration Act of 1993 (42 U.S.C. 1973gg et seq.);
          10. Work to identify and eliminate practices which might be 
        perceived as intimidating to certain sectors of the population;
          11. Establish clear standards for bilingual ballots for 
        language minorities and the disabled; and
          12. Re-examine, simplify and standardize voter re-
        enfranchisement laws so that every American who is not 
        incarcerated who wishes to vote can do so.
    The NAACP Washington Bureau is working with several like-minded 
Members of the U.S. House and Senate as well as other civil rights 
organizations to help develop legislation to implement these policies 
on a federal level.
    Mr. Mfume has also personally written to all of the 50 governors of 
each state and asked that they too work hard to develop uniform 
standards throughout their jurisdictions. The letters will be followed 
up by contacts from each of the individual state conference presidents.
    In short, the entire NAACP organization is determined to follow 
through on this issue and attempt to do all we can to see that nothing 
like the November 2000 Election Day debacle is repeated.
    While most Americans may decry the fact that some people's rights 
were trampled on last November, the NAACP is especially outraged and 
insulted by what happened. These are rights that people marched for 
and, in some cases, died for only 35 years ago.
    Our members and our friends remember the days, not too long ago, 
when it was not only legal but also acceptable for states and local 
municipalities to block access to the voting booth based on a person's 
skin color, gender, socio-economic status, or ethnicity.
    It is no longer legal, but as we just recently saw, it still 
happens. This is unacceptable, and we intend to devote all our 
available resources, if that is what it takes, to see that the 
situation is rectified.
    I am especially troubled and angered by the deafening silence that 
has fallen over the subject of the voter suppression and intimidation 
that occurred on Election Day across this country.
    It has caused the NAACP to redouble their efforts to make our 
voices heard in this fight to protect our rights by using every 
available resource, financial and otherwise, to make sure that the vote 
of every voter counts in all future elections.
    I again thank the Chairman and members of the U.S. Senate 
Commission on Rules and Administration for holding this hearing and for 
your continued interest and activism in this area. I would welcome any 
questions or comments that you may have.

    The Chairman. Thank you, Mr. Shelton.
    Mr. Figueroa, we have got probably enough time before 
Senator Dodd and I have to go for these three votes for you to 
get your statement in, and I would like for you to see if you 
can do that.

                 STATEMENT OF JUAN A. FIGUEROA

    Mr. Figueroa. I will try. Good morning, Mr. Chairman. Thank 
you very much. Thank you to members of the committee. I am Juan 
Figueroa, president and general counsel of the Puerto Rican 
Legal Defense & Education Fund, a national civil rights legal 
advocacy organization that was founded in 1972 to advance and 
safeguard the equal protection and progress of Latinos 
throughout the United States.
    I am privileged to appear before you to present my remarks 
about a very serious matter, that is, the challenge of making 
our democracy healthier, ensuring that the election process is 
more accessible to all voters regardless of the language that 
they speak, and seeking constructive approaches to ensure a 
truly representative democracy.
    Language minorities are ensured protection and full 
participation in the electoral process by two separate 
provisions of the Voting Rights Act of 1965: Section 203 and 
Section 404. Despite these provisions of current law, there is 
ample evidence that some jurisdictions do not comply with 
Federal language assistance provisions. In this past election, 
the Puerto Rican Legal Defense & Education Fund became yet 
again aware of barriers and ballot access problems encountered 
by many Latinos in Florida whose mother tongue is not English.
    And let me make a note here about Florida's Latino 
community. It is much more diverse than people realize. Just in 
the last 10 years alone, central Florida has seen an influx of 
Puerto Rican and other Latinos in that area, approximately 
300,000-plus or more. These voters were either denied the right 
to vote or were subject to different forms of neglect, 
intervention, and intimidation before they could cast their 
votes, if they voted at all. We are actually in preparation for 
a lawsuit that will be brought over the next 2 months that will 
specifically address the language issues and Latinos in terms 
of what happened this past election.
    These problems affecting minority-language voters were not 
limited to Florida. Voting access hardships were faced by non-
English voters even in my own city of New York, where election 
precincts failed to provide adequate bilingual assistance for 
protected minority-language voters as required by the Voting 
Rights Act. That is the same and that is true for many other 
parts of the country.
    To truly modernize our democracy requires comprehensive and 
bold legislation, and any legislation that seeks to reform and 
remedy past problems at the voting booth must also ensure that 
fair standards and consistent policies and practices guarantee 
the equal protection of the limited-English-language minority 
voter. After all, language should not be a deterrent to being 
able to exercise such a fundamental right.
    As the details of the 2000 U.S. Census begin to emerge, 
Congress must ensure that proposed electoral reform reflects 
and accommodates the actual demographic changes that are 
occurring throughout this country. First- and second-generation 
immigrants and refugees have played a contributing role in 
revitalizing our urban centers and small towns, and are 
increasingly able to exercise their right to vote as they join 
the American mainstream.
    Many States and counties and election precincts will 
require the assistance of Federal funds in modernizing these 
systems. However, let us be clear: It is not only an issue of 
new machines and technology. Our most fundamental and pragmatic 
concerns must include a refocusing of resources to promote 
voter education, voter registration, civic participation, in 
whatever language seems necessary and practical.
    Consistent with these principles and approaches, I would 
like to recommend very respectfully to this committee a few 
recommendations that we think are consistent with assuring that 
language-minority voters in this country exercise their right 
to vote.
    First, to preserve the Voting Rights Act and the National 
Voter Registration Act, while ensuring that any activities 
under the new legislation are consistent with these existing 
laws.
    Number two, to create a comprehensive and multi-year 
Federal grants program to upgrade election technologies, 
including the study and improvement of voting equipment and 
counting mechanisms, and the implementation of more uniform 
statewide standards in the administration of elections, such as 
computerized voter registration lists.
    Three, to establish federally approved best practices and a 
mechanism to review compliance by grant recipients to ensure 
non-discriminatory accessibility, maintenance of voter roll 
accuracy, and a full and affirmative and meaningful 
participation by language minorities, racial and ethnic 
minorities generally.
    Let me end, Mr. Chairman, by also recommending, as is the 
case where I grew up in Puerto Rico, that this country consider 
making election day a national holiday. I think it is one of 
the central factors in Puerto Ricans going to vote 70, 80, and 
sometimes 90 percent strong to the voting booth.
    Thank you, sir.
    [The prepared statement of Mr. Figueroa follows:]

 Prepared Statement of Juan A. Figueroa, President & General Counsel, 
           Puerto Rican Legal Defense & Education Fund, Inc.

    Good morning, Chairman McConnell and members of the Senate Rules 
Committee.
    I am Juan Figueroa, President and General Counsel of the Puerto 
Rican Legal Defense & Education Fund, a national civil rights legal 
advocacy organization that was founded in 1972 to advance and protect 
the equal protections and progress of Latinos and Hispanics throughout 
the United States. PRLDEF has been involved in litigation, policy 
research and advocacy regarding the civil rights of Latino-Americans 
and Puerto Ricans.
    I am privileged to appear before you to present my remarks about a 
very serious matter--that is, the challenge of making our democracy 
more whole, ensuring that the election process is more accessible to 
all voters, and seeking constructive approaches to ensure a truly 
representative democracy.
    This past November 2000 elections and the issues arising from the 
experiences of certain American voters provide us all with an important 
opportunity to modernize our electoral systems and practices. I say 
electoral systems because indeed we have no uniform system governing 
the administration and conduct of federal elections. In fact, we have 
at least 51 different voting systems, each operating under varying 
state and local election laws.
    Language minorities are ensured protection and full participation 
in the electoral process by two separate provisions of the Voting 
Rights Act of 1965--Section 203 and Section 4(f)(4).\1\ Despite these 
provisions of current law, there is evidence that some jurisdictions do 
not comply with federal language assistance provisions.
---------------------------------------------------------------------------
    \1\ In 1975 Congress added minority language provisions to the 
Voting Rights Act, and recognized that large numbers of American 
citizens who primarily spoke language other than English had been 
effectively excluded from participation in the electoral process. The 
denial of the right to vote among language minority citizens was 
``directly related to the unequal educational opportunities afforded 
them, resulting in high illiteracy and low voting participation.'' 42 
U.S.C. Sec. 1973aa-1(a).
---------------------------------------------------------------------------
    In this past election, PRLDEF became aware of the barriers and 
ballot access problems encountered by many Latino voters in Florida 
whose mother language is not English. These voters were either denied 
the right to vote or were subjected to different forms of neglect, 
intervention, and intimidation before they could cast their votes.
    However, these similar problems affecting minority language voters 
were not limited to Florida. You should also know that voting access 
hardships were faced by non-English voters even in my own city--New 
York City, where election precincts failed to provide adequate 
bilingual assistance for protected minority language voters as required 
by the federal Voting Rights Act. Other groups have provided accounts 
and testified about similar problems in other forums and hearings since 
November 2000.
    To truly modernize our democracy requires comprehensive and bold 
legislation, not small incremental measures. Any legislation that seeks 
to reform and remedy past problems at the voting booth must also ensure 
that fair standards, and consistent policies and practices guarantee 
the equal protection of the limited-English language minority voter.
    As the details of the 2000 U.S. Census begin to emerge, Congress 
must ensure that proposed electoral reform reflect and accommodate the 
actual demographic changes found throughout the nation. In many 
suburban and urban localities, US Census data has documented the 
significant presence of Hispanic and Latino residents in population 
growth areas. First and second generation Immigrants and refugees have 
played a contributing role in revitalizing our urban centers and small 
towns and are increasingly able to exercise their right to vote as they 
join in the American mainstream.
    Many states, counties and election precincts will require the 
assistance of federal funds in modernizing their systems. However, this 
is not only an issue of new machines and technology. Our most 
fundamental and pragmatic concerns must include a refocusing of 
resources to promote voter education, voter registration, and civic 
participation. Any legislative reform package must encompass provisions 
that expressly promote the thorough, conscientious planning and 
effective implementation of state plans to address the specific needs 
of the disabled, the aging population of senior voters, and voters with 
limited English proficiency.
                            recommendations
    Consistent with these principles, and speaking from the perspective 
of the Latino and language minority community, PRLDEF urges the 
enactment of legislative safeguards and initiatives that:
          1. Create a comprehensive multiyear federal grants program to 
        upgrade election technologies, including: The study and 
        improvement of voting equipment and counting mechanism. The 
        implementation of more uniform state-wide standards in the 
        administration of elections, such as computerized voter 
        registration lists.
          2. Preserve the federal Voting Rights Act and the National 
        Voter Registration Act, while ensuring that any activities 
        under the new legislation are consistent with these existing 
        laws.
          3. Establish federally-approved ``best practices'' and a 
        mechanism to review compliance by grant recipients to ensure 
        that reforms result in: Non-discriminatory accessibility and 
        convenience for the voter, including voters with disabilities, 
        language minority voters, and voters with special needs. 
        Maintenance of voter roll accuracy. Full, affirmative and 
        meaningful participation by language minorities, racial and 
        ethnic minorities, and people with disabilities.
          4. Establish priority-setting criteria to ensure that 
        jurisdictions with the most significant problems receive needed 
        funding.
          5. Promote a commission whose purposes and administration 
        reflect an open and transparent non-partisan review process on 
        the further study of electoral reform whose membership consists 
        in part of election and voting rights experts and community-
        based leaders from diverse experiences and regions.
    Election reform and new legislation should be guided by current 
laws ensuring access to language minority voters. It should not become 
a vehicle for adding barriers or restrictions to any part of the voting 
process, whether in voter education, registration, or casting a vote.
    We urge you to ensure that additional, unnecessary measures to 
``confirm'' or ``verify'' the eligibility of voters--which have a 
clear, disparate impact on Latinos or language minorities--are not 
imposed.
    In closing, maximizing inclusion and participation of all eligible 
members of the American electorate should be the guiding principles of 
our renewed democracy.
    Thank you.

    The Chairman. Congratulations, Mr. Figueroa. You came as 
close to hitting the deadline as any of the witnesses so far.
    Professor, we are going to have to get you when we come 
back, and the hearing will be recessed until the return of the 
ranking member and myself.
    [Recess.]
    The Chairman. Okay. We lucked out. There was only one vote, 
as it turned out, and we will resume the hearing with Professor 
Knack.

                   STATEMENT OF STEVEN KNACK

    Mr. Knack. Good morning, Mr. Chairman and members of the 
committee. I appreciate the opportunity to testify on voting 
and election administration issues, which have been a major 
focus of my research over the last 10 years. I am here today to 
discuss my most recent study, co-authored this winter with 
Professor Martha Kropf of the University of Missouri-Kansas 
City.
    Following the last Presidential election, a widespread 
perception emerged that punch card voting equipment was more 
prevalent in counties heavily populated by minorities and 
poorer persons. Our study contradicts this belief. We combined 
county-level demographic data on voting equipment used in all 
the counties--combined county-level demographic data with 
information on voting equipment used in all the counties and 
found little support for the view that resource constraints 
caused poorer counties with large minority populations to 
retain antiquated voting equipment.
    Among our specific findings, first, nationally racial 
differences in punch card use across the country are 
negligible; 31.9 of whites and 31.4 percent of African 
Americans lived in counties using punch card equipment. 
Controlling for county size and other factors that affect the 
type of equipment in use, it turns out that a higher percentage 
of African Americans actually is associated with a 
significantly lower probability that counties use punch card 
voting equipment.
    Second, African Americans are more likely than whites to 
live in counties using electronic voting or lever machines, the 
two types of equipment in which overvoting is impossible if the 
equipment is programmed correctly.
    Third, Hispanics are more likely to live in punch card 
counties than blacks or whites. This disparity is entirely 
attributable to the use of punch card voting in Los Angeles 
County.
    Fourth, based on Presidential voting patterns in 1996, 
Democratic and Republican voters across the country were 
equally likely to live in punch card counties.
    Fifth, because we elect Presidents by electoral votes and 
not popular vote, we also found it important to make these 
comparisons on a State-by-State basis. It turns out that in the 
majority of States where some counties use punch cards and 
others do not, whites, the non-poor, and Republican voters are 
more likely to reside in punch card counties than African 
Americans, Hispanics, the poor, and Democratic voters. 
Unfortunately for Vice President Gore, Florida happened to be 
one of the exceptions to the general pattern.
    Sixth, and finally, public resources don't seem to matter 
much. Counties with punch card systems tend to have higher 
incomes, higher property tax revenues per capita, and larger 
populations than do counties with more modern voting equipment. 
In counties using electronic voting systems, the most expensive 
type, incomes and tax revenues are actually lower than in 
counties using punch card or any other type of voting 
technology. Florida fits this pattern. In Florida, it is the 
largest and richest counties with the highest property tax 
revenues that tend to have punch card equipment.
    A recent Cal Tech/MIT study, as R. Doug Lewis mentioned, 
has exposed as false another popular belief. It found the 
electronic systems often promoted as the high-tech solution to 
chad problems actually generate the same rate of invalid 
Presidential votes as vote-a-matic style punch card equipment. 
So the problems go much deeper than antiquated equipment.
    Evidence from studies such as these has obvious 
implications for some of the proposed solutions to problems 
associated with punch card voting. Our study shows that 
providing financial assistance to replace punch card technology 
would not be subsidizing the poorest counties. In most States, 
including Florida, it would subsidize the richer counties, and 
replacing punch card technology with expensive electronic 
systems might not reduce the number of invalidated Presidential 
votes. In fact, it might even increase it in the short run 
because we don't understand yet why electronic systems generate 
a high rate of invalid votes, so we don't know what to do about 
it. On the other hand, just about everybody is well informed 
now about what can go wrong with punch card technology, and 
anyone using it in the future will take extra care in using it. 
I am told that in the Palm Beach County mayoral elections 
yesterday that under-votes went way down, exactly because the 
election workers are much more careful in informing voters, and 
I am sure voters are taking much more care themselves.
    Hopefully, the findings of these research efforts will not 
only help inform policymaking, but also contribute to a more 
cautious and responsible public discussion of election 
administration and voting technology reform. The Post and other 
newspapers were quick to condemn the television networks for 
prematurely calling election night contests based on selective 
and unrepresentative data. But just a few days later, these 
same newspapers were irresponsibly editorializing about racial 
and class bias and voting equipment based again on selective 
and unrepresentative data. And unlike the networks on election 
night, they have had plenty of time to get the facts right. But 
as recently as February 25th, the Post editorial was still 
making unsupported claims about how punch card equipment in 
poorer areas is older and less well maintained.
    Finally, I want to say something about the use of the term 
``disenfranchisement'' in connection with voting using punch 
card technology. This is a term that has previously been 
reserved for measures such as poll taxes and literacy tests 
intended to prevent large classes of people from voting. Punch 
card balloting, despite its flaws, was never intended to 
prevent anyone's votes from being recorded. I am not trying to 
defend the use of punch card technology. From the dozens of 
Government studies and academic studies I have read on election 
administration and voting equipment, it is clear that many 
experts have been concerned for a long time about the 
deficiencies of this equipment. But we should not be under any 
illusions that there is a simple technological fix.
    We should consider reasonable reforms that evidence shows 
might substantially reduce voter error, but voters as well as 
party workers and election officials will always make some 
mistakes, and there will always be the potential for another 
controversial election outcome. We should not trivialize the 
denial of voting rights to women and African Americans earlier 
in this century by defining disenfranchisement downward to 
include honest mistakes associated with punch card voting.
    Thank you.
    [The prepared statement of Mr. Knack follows:]

                  Prepared Statement of Stephen Knack

    Good morning, Mr. Chairman and Members of the Committee. I 
appreciate the opportunity to appear today to testify on voting and 
election administration issues, which have been a major focus of my 
research over the last ten years. I am here today to discuss my most 
recent study, co-authored this winter with Professor Martha Kropf of 
the University of Missouri-Kansas City.
    Following the last Presidential election, a widespread perception 
emerged that punch card voting equipment was more prevalent in counties 
heavily populated by minorities and poorer persons. Our study 
contradicts this belief. We combined county-level demographic data for 
the mid-1990s with information from Election Data Services on voting 
equipment used by the counties in the 1998 election. Our results showed 
there is little support for the view that resource constraints cause 
poorer counties with large minority populations to retain antiquated or 
inferior voting equipment.
    Among our specific findings:
    1. Nationally, racial differences in punch card use are negligible: 
31.9% of whites and 31.4% of African Americans lived in counties using 
this voting technology. Controlling for county size and other 
variables, counties with larger percentages of African Americans 
actually have a significantly lower probability of using punch cards.
    2. African Americans are more likely than whites to live in 
counties using electronic voting or lever machines, the two types of 
equipment in which ``overvoting'' is impossible if the equipment is 
programmed correctly.
    3. Hispanics are more likely to live in punch card counties than 
blacks or whites, but this disparity is attributable entirely to the 
use of punch card voting in Los Angeles County. In most states, whites 
are actually more likely than Hispanics to live in punch card counties.
    4. Based on presidential voting patterns in 1996, Democratic and 
Republican voters were equally likely to live in punch card counties, 
for the U.S. overall.
    5. Because we elect Presidents by the electoral vote and not the 
popular vote, it's also relevant to make these comparisons on a state-
by-state basis. It turns out that in the majority of states where some 
counties use punch cards and others do not, whites, the non-poor and 
Republican voters who are more likely to reside in punch card counties 
than African Americans, the poor and Democratic voters. Unfortunately 
for Vice-President Gore, Florida happened to be one of the exceptions 
to this pattern.
    6. Public resources don't seem to matter much. Counties with punch 
card systems actually tend to have higher incomes, higher tax revenues, 
and larger populations than do counties with more modern voting 
equipment. In counties using electronic voting systems--the most 
expensive type--per capita incomes and property tax revenues are 
actually lower than in counties using punch card or any other voting 
technology. Florida is actually one of the best examples of these 
patterns: the largest and richest counties tend to use punch-card 
equipment. The Washington Post's claim of November 11 that it is 
``mainly affluent counties that have switched'' to newer technology 
turns out to be dead wrong.
    Our study is intended only to address the question of who uses 
punch card and other voting systems. It does not explore the question 
of why punch card voting appears in Florida and elsewhere to be 
associated with a greater number of invalidated ballots in precincts 
with larger numbers of poor persons and minorities. Neither does it 
take a position on any of the other political or legal controversies 
surrounding the election in Florida.
    Because of limitations on the data available, we were forced to 
consider optical scan systems as a single group. Some counties have 
scanners at the precincts programmed to inform voters of certain types 
of mistakes on their ballots, which can reduce substantially the number 
of invalidated ballots. However, we don't have comprehensive data on 
which counties use the precinct scanners. Neither can we identify the 
age of equipment in punch card counties.
    We therefore cannot rule out the possibility that among counties 
using optical scanning the poorer ones are less likely to have the 
precinct counters. Neither can we rule out the possibility that among 
punch card counties, the poorer counties have older equipment more 
prone to generating invalidated ballots. But there's no evidence to 
support those conjectures, and they could very well turn out to be just 
as wrong as some of the other popular beliefs about voting equipment.
    A recent Cal Tech/MIT study has exposed as false another popular 
belief. It found that the electronic systems often promoted as the 
high-tech solution to chad problems actually generate the same rate of 
invalid presidential votes as Votomatic-style punch card equipment.
    Evidence from studies such as these has obvious implications for 
some of the proposed solutions to problems associated with punch card 
voting. Our study shows that providing financial assistance to replace 
punch card technology would not be subsidizing the poorest counties--in 
most states, including Florida, it would subsidize the richer counties. 
And replacing punch card technology with expensive electronic systems 
might not reduce the number of invalidated presidential votes. In fact, 
it would probably increase it in the short run, because we don't 
understand yet why electronic systems generate a high rate of invalid 
votes, so we don't know what to do about it. On the other hand, just 
about everybody has become well informed about exactly what can go 
wrong with punch card technology. Next time around, anyone still using 
punch cards will probably take extra care to insert the card into the 
slot correctly, punch their selections forcefully, and tear off any 
hanging chad before turning in the ballot. Poll workers likely will 
check the vote recorders periodically for chad build up. The error rate 
for punch card voting will probably fall far below the rates prevailing 
in recent years for punch cards and electronic systems.
    We'll undoubtedly learn more about the performance of different 
voting systems in the coming months. The Cal Tech/MIT group is 
expanding their study to examine the effects of using precinct counters 
in optical scanning systems, and to examine different types of 
electronic voting systems. Professor Kropf and I are currently studying 
how ethnicity, education and other factors are related to invalidated 
presidential votes, and how these relationships differ with different 
types of voting equipment. For example, we'll be able to show whether 
racial gaps in the rate of invalidated votes are greater in punch card 
counties than in counties with other voting technology. There are 
probably other useful studies currently underway.
    Hopefully the findings of these research efforts will not only help 
inform policy making but also contribute to a more cautious and 
responsible public discussion of election administration and voting 
technology reform. The Washington Post and other major newspapers were 
quick to condemn the television networks for prematurely calling 
election night contests based on selective and unrepresentative data. 
But just a few days later these same newspapers were irresponsibly 
editorializing about racial and class bias in voting equipment, based 
on nothing more than selective and unrepresentative data. And unlike 
the networks on election night, they've had plenty of time to get the 
facts right. Yet as recently as February 25, a Post editorial was still 
making unsupported claims about how punch card equipment in poorer 
areas is ``older and less well maintained.''
    We have also heard much talk in recent months alleging massive 
``disenfranchisement'' of voters by punch card technology. This is a 
loaded term previously reserved for measures such as poll taxes and 
literacy tests intended to prevent large classes of people from voting. 
Punch card balloting, despite its recognized flaws, was never intended 
to prevent anyone's votes from being recorded. The Cal Tech-MIT study 
found it is no less effective than the touch-screen voting systems in 
recording votes in presidential contests. Moreover, punch cards were 
intended to make voting easier. In many large counties it reduced 
waiting times for voters, as many punch card stations could be provided 
for the cost of only one lever machine. Although lever machines produce 
fewer invalidated ballots, it's possible that they would actually 
generate fewer total votes than punch card equipment, if they are also 
associated with longer lines that deter some people from going to the 
polls at all.
    The problems affecting the largest numbers of voters in Florida 
were also the product of good intentions, and were not inherently 
related to punch card technology. In Palm Beach County, the major 
problem was a ballot designed to be printed in large type for the 
benefit of older voters. In Duval County, the major problem was faulty 
instructions to voters by party workers, that were provided with the 
intention of reducing roll-off in contests farther down on the ballot. 
Ballot design and instructions to voters are not issues unique to punch 
card technology.
    I am not trying to defend the use of punch card technology. From 
the dozens of government reports and academic studies I have read on 
election administration and voting equipment, it's clear that many 
elections officials and other experts have been concerned for a long 
time about the deficiencies of punch card technology. However, we 
should not be under any illusions that eliminating punch card 
technology alone is the technical solution to all voting-related 
problems. This presidential election happened to be decided in a state 
in which punch cards were widely used, and in which they produced an 
unusually high rate of voting errors. The next controversial outcome 
might turn on some completely different problem, in a state where punch 
cards aren't even used. As the executive director of the Election 
Center, R. Doug Lewis, has written:
          Americans continue to amaze election officials with their 
        creative ability to miscast votes. Give them a marking device 
        with their paper ballot, and they'll take out their own pens 
        instead--and the wet ink from a fountain pen may occlude the 
        lens on the optical scanner. Or they'll use red ink and the 
        infrared scanner won't detect it. Or they'll write notes, which 
        a machine can't read. Give them an ATM-style touch screen, and 
        they'll touch two candidates' boxes at once--and the screen 
        will read neither, or both, or the box in-between.
    Of course we should consider reasonable reforms that the evidence 
indicates might substantially reduce voter error. But voters, as well 
as party workers and election officials, will always make mistakes, and 
there will always be the potential for another controversial election 
outcome. We should not trivialize the denial of voting rights to women 
and African Americans earlier in this century by defining 
disenfranchisement downward to include honest mistakes associated with 
punch card voting.
                                overview
    In the aftermath of the 2000 Presidential election and the disputed 
vote in Florida, differences in voting equipment became a national 
issue. The public became acquainted with the potential for punch card 
mechanisms to produce large numbers of invalidated ballots. A 
Washington Post-ABC News survey found 64% of respondents in favor of 
(with only 29% opposed) the federal government ``outlawing so-called 
punch-card ballots.'' An overwhelming 87% favored (with 12% opposed) a 
law ``requiring all states and counties to use one kind of voting 
machine.''
    A widespread perception emerged among politicians and in the media 
that the use of punch cards, and of antiquated voting machinery more 
generally, is more common in counties with a greater percentage of 
minorities and poor people. A Washington Post editorial claimed that it 
is ``mainly affluent counties that have switched'' to newer technology. 
Vice-President Gore stated that ``the old and cheap, outdated machinery 
is usually found in areas with populations that are of lower income 
people, minorities, and seniors on fixed incomes.'' Senator Lieberman 
suggested that antiquated voting equipment ``may be undermining the 
electoral rights of many poor and minority citizens.'' In an opinion 
article, Jesse Jackson and AFL-CIO President John Sweeney charged that 
``voters in predominantly minority communities had to vote using 
antiquated machines. . .''
    Only very limited and selective analyses underlie these assertions, 
however. A New York Times study reported that in the 2000 election in 
Florida, 64% of African American voters but only 56% of whites lived in 
punch card counties. Similarly, Democratic voters were somewhat more 
likely than Republican voters in Florida to reside in counties using 
punch cards. A Washington Post article concluded from an examination of 
the Atlanta and Chicago metropolitan areas that the problem of racial 
differences in invalidated ballots caused by gaps in voting technology 
``extended well beyond Florida.'' Based on this evidence, Washington 
Post columnist William Raspberry--like many others--has generalized 
that it is a ``fact that the most error-prone machines tend to be in 
the poorest counties.'' However, there was no comprehensive study on 
which such claims could were grounded.
    With Professor Martha Kropf of the University of Missouri-Kansas 
City, I decided to investigate these claims, after learning that 
Election Data Services, Inc. maintained data indicating the type of 
voting equipment used in each county across the nation. Our study 
analyzes the incidence of punch card and other voting equipment by 
ethnicity, income and other variables, combining county-level 
demographic data from the Census Bureau with county-level data on 
voting equipment. We found little support for the view that resource 
constraints cause poorer counties with large minority populations to 
retain antiquated or inferior voting equipment. Nationally, there is 
very little difference between whites and blacks, between the poor and 
non-poor, and between Democratic and Republican voters, in the 
likelihood of living in a punch-card county. In a majority of states in 
which some but not all counties use punch card technology, whites, the 
non-poor and Republican voters are actually more likely than African 
Americans, the poor and Democratic voters to live in punch card 
counties. Moreover, counties with punch card systems on average have 
higher personal incomes, higher tax revenues per capita, and larger 
populations than do counties with more modern voting technology.
                       types of voting equipment
    The choice of voting equipment is determined at the county level in 
most states. Voting equipment currently in use can be classified into 
six broad categories: (1) paper ballots, (2) lever machines, (3) punch 
card systems, including the infamous Votomatic equipment used in 
Broward, Palm Beach and Miami-Dade counties in Florida, (4) Datavote, a 
somewhat different form of punch card voting, (5) optical scanning, and 
(6) electronic systems.
    Paper ballots constitute the oldest system of voting still in use. 
Candidates' names are printed next to boxes, which voters mark. Because 
they are hand counted, paper ballots remain in use mostly in small 
counties with few contested offices.
    On mechanical lever machines, each candidate name is assigned to a 
lever on a rectangular array of levers on the face of the machines. The 
voter pulls down selected levers to indicate choices. Levers are 
connected to a counting wheel, which at the close of the polls 
indicates the number of votes cast on the lever that drives it. 
Linkages in the machines are arranged to prevent invalid votes such as 
overvotes.
    Punch card systems employ one or more cards and a clipboard-sized 
device for recording votes. Information about the ballot choices is 
provided in a booklet attached to a mechanical holder and centered over 
the punch card, which is inserted by the voter. To cast a vote, a 
stylus or other punching device provided is used to punch holes at the 
appropriate locations on the card, forcing out the inside of a pre-
scored area in the shape of a rectangle (the now famous ``chad'').
    Datavote also uses punch technology, but is different enough to 
warrant a separate category. A stapler-like tool creates holes on the 
card with sufficient force that pre-scoring of ballot cards is 
unnecessary. The name and party of the candidates are printed directly 
on the Datavote card, so it is easier for voters to ascertain after 
completing their ballot whether they voted as intended. Because fewer 
ballot choices can be printed on each card, voters typically must vote 
several cards. This proliferation of cards can slow the counting 
process substantially (unless extra card-reading capacity is added), so 
that a large county such as Los Angeles might have difficulty 
completing their tabulations on election night were it to convert from 
Votomatic to Datavote.
    Optical scanning systems are widely used in standardized testing 
and other functions besides voting. Optical scanning began to be used 
in voting at about the same time as punch card systems, although its 
use spread more slowly until the 1980s. These systems use large ballots 
similar to those of paper ballot systems, so that information about 
candidates can be printed directly on the ballot. The ballots are 
counted by a machine that uses light or infra-red as a sensor to 
discern which oval or rectangle the voter marked from a set of choices. 
In many counties, voters can feed the ballot into a reader, which 
returns the uncounted ballot to the voter if it contains any overvotes 
or other mistakes, giving the voter a chance to correct the ballot. In 
other counties, voters drop the ballot in a box and the ballots are all 
collected and fed into the machines later by election workers.
    Direct recording electronic systems are similar to lever machines, 
and different from other systems, in that there is no physical ballot, 
and no possibility of overvotes if the equipment is programmed 
correctly. While votes are tallied electronically using punch card, 
Datavote, and optical scanning systems, votes are not cast 
electronically. Electronic voting systems are different from those 
systems in that voter choices directly enter electronic storage, using 
touch screens, push buttons or keyboards.
    In Maine, Massachusetts, New Hampshire, Vermont, and Wisconsin, 
voting equipment is determined at the municipal level. In many (but not 
all) counties in these states, therefore, equipment is not uniform 
throughout the county. These mixed systems were in effect in about 4.5% 
of counties in 1998, representing about 8% of the population (see Table 
1).
                          data and methodology
    Following the general election in November of each even-numbered 
year, Election Data Services, Inc. surveys states and counties to 
obtain data on voter registration, vote totals, and voting equipment in 
use, with complete results available the following spring or summer. 
Thus, the most recent year for which the voting equipment data are 
available is 1998. Each county is classified in the Voting Equipment 
Data File as either using paper ballots, lever machines, Votomatic-
style punch cards, Datavote, optical scanning, electronic, or mixed. 
The survey does not ascertain which punch card or optical scan counties 
provide voters with access to card readers that checks ballots for 
overvotes or other problems before they are turned in.
    We merged the Voting Equipment File with demographic data from USA 
Counties 1998, a data file available from the U.S. Census Bureau. This 
file provides estimates of the number of whites, African Americans, and 
Hispanics (who may be of any race) residing in each county in 1996, and 
of the number of poor and non-poor persons as of 1993. Personal income 
per capita and property tax revenues per capita are available for 1994 
and 1992 respectively. Data are available in USA Counties on the number 
of votes cast for the Democratic and Republican candidates (Clinton and 
Dole) in the 1996 presidential election, which can be used to 
approximate the partisan distribution within counties.
                           detailed findings
    For the U.S. overall, black-white differences in punch card use are 
negligible: 31.9% for whites and 31.4% of African Americans live in 
counties using this voting technology. Hispanics are much more likely 
to live in punch card counties than either whites or blacks. However, 
this difference is entirely attributable to Los Angeles County, where 
nearly one in seven Hispanics in the country reside. Whites (27.7%) are 
more likely than blacks (21.8%) to live in optical scanning counties, 
but blacks (37.8%) are much more likely than whites (26%) to live in 
counties using either of the technologies for which overvoting is 
nearly impossible if machines are programmed correctly: electronic 
voting and lever machines.
    Differences in voting equipment associated with poverty status are 
very minor. The poor are slightly more likely than the non-poor to live 
in punch card counties, but also slightly more likely to live in 
counties with electronic voting.
    Based on presidential voting patterns in 1996, Democratic and 
Republican voters were equally likely to live in punch card counties. 
Democrats were somewhat more likely to live in counties with 
``antiquated'' equipment, but in the form of lever machines that 
produce very few invalidated ballots, not punch cards. Republicans were 
somewhat more likely than Democrats to live in optical scan and 
electronic voting counties.
    In practical terms, these nationwide comparisons are relevant only 
for the popular vote in the presidential election. Equity in voting 
technology is better addressed by examining differences across counties 
within states. The Electoral College system grants a state a fixed 
number of electoral votes, regardless of the number of valid votes cast 
in the state. Therefore, differences in voting technology that are 
purely cross-state cannot disadvantage a state's voters relative to 
other states. For this reason, it is important to examine differences 
across counties within states, to exclude purely cross-state 
differences that can have no electoral impact. Accordingly, we 
considered separately each of the 29 states in which some but not all 
counties use punch card technology.
    The conventional wisdom regarding racial disparities in voting 
equipment is contradicted by the state-level comparisons: in 18 of the 
29 states, whites were more likely than African Americans to live in 
punch card counties. The 11 states in which blacks were more likely to 
live in punch card counties tend to be larger, however, accounting for 
191 electoral votes, compared to 162 for the 18 states in which whites 
were more likely to live in punch card counties.
    A similar comparison between whites and Hispanics shows that the 
former were more likely to live in punch card counties in 21 states 
(representing 235 electoral votes), while the latter were more likely 
to live in punch card counties in only 8 states (representing 118 
electoral votes).
    The conventional view that the poor live disproportionately in 
punch card counties also turns out to be incorrect for the majority of 
states. In 21 states, representing 203 electoral votes, it is the non-
poor who are more likely to reside in counties using this type of 
voting equipment. In only 8 states, representing 150 electoral votes, 
are the poor more likely to live in punch card counties.
    Party differences, as measured by voting in the 1996 presidential 
election, also contradict popular belief. A greater share of Dole 
voters than Clinton voters lived in punch card counties in 16 of 28 
states. However, the states in which Democratic voters were more likely 
to live in punch card counties account for slightly more electoral 
votes (183 to 167).
                            economic factors
    The belief that minorities, the poor and Democrats tend to reside 
in areas using more error-prone voting equipment rests in large part on 
the reasonable presumption that cost matters. Electronic voting systems 
are more expensive than punch card systems, and counties with a lower 
poverty rate (and thereby a smaller share of minorities and Democratic 
voters in general) may be better able to afford the newer, more 
expensive technology. On the other hand, larger counties--where 
minorities and Democratic voters disproportionately reside--may benefit 
from economies of scale in purchasing and implementing newer systems 
such as electronic voting.
    Our results found little evidence that the retention of punch card 
systems, or the adoption of less error-prone optical scanning or 
electronic alternatives, is heavily influenced by considerations of 
affordability. Punch card counties in Florida are much larger, 
wealthier, and more revenue-rich than any other group of counties. It 
is exactly those counties which should be best able to bear the expense 
of modern equipment which are the most likely to retain punch cards.
    For the U.S. as a whole, punch card and Datavote counties are 
larger and wealthier on average than those using any other voting 
system. Paradoxically, counties using electronic voting constitute the 
group with the lowest incomes on average, and--by a wide margin--the 
lowest property tax revenues per capita.
    Similar findings are produced by comparisons across counties for 
each state separately. For each state in which some counties use punch 
cards while others use modern (optical scanning or electronic voting) 
equipment, we calculated simple averages of county size, income, and 
taxes across the relevant group of counties. For example, we found that 
in Arkansas, punch card counties on average are larger (mean population 
of 63,594) than counties with modern equipment (34,139). Similarly, 
they are wealthier (mean personal income per capita of $16,597 vs. 
$14,982) and have higher tax revenues per capita (mean of $239 vs. $209 
per year).
    In 17 of 28 states, punch card counties tend to be larger than 
counties with modern equipment. Similarly, in 17 of 28 states punch 
card counties tend to have higher incomes, and higher property tax 
revenues per capita.
    Finally, we ran multivariate tests, using counties as the units of 
analysis, that include demographic and economic variables together. 
These tests can determine, for example, whether counties of a given 
size are more likely to use punch card systems if they have more 
minorities. Controlling for other variables, we found that counties 
with a higher share of African Americans are significantly less likely 
to use paper ballots, more likely to use lever machines, and less 
likely to use punch card machines. Counties with more Hispanics are 
less likely to use lever machines, and more likely to use Datavote or 
optical scanning technology. Higher incomes are associated with a lower 
likelihood of using paper ballots, but no other significant 
relationship with income was found.
    Higher property taxes are associated with a greater use of paper 
ballots (likely reflecting low population density) and a lower 
likelihood of using electronic voting. Low population levels strongly 
predict the use of paper ballots as expected, while large counties are 
more likely to use punch card or electronic voting systems.
                               conclusion
    Results from our study contradict the widespread belief that 
African Americans, the poor, and Democratic voters are more likely to 
reside in counties using punch card technology, and that the choice of 
voting systems is largely determined by affordability. Evidence 
reported in the media on ethnic and party disparities in Florida and in 
selected metropolitan areas such as Atlanta and Chicago is inconsistent 
with evidence from most other states and the country as a whole. In 
fact, in the majority of states with some counties using punch cards 
and others using alternative systems, whites, the non-poor, and 
Republican voters are more likely than African Americans, the poor, and 
Democratic voters to reside in punch card counties. Moreover, there is 
little evidence that the choice between punch cards and more modern, 
less error- prone systems is influenced by economic factors. To the 
contrary, in Florida and elsewhere larger, wealthier and more tax-rich 
counties are more likely to use punch card technology, and less likely 
to use electronic voting systems.
    Several caveats to our study should be noted. First, it in fact 
found some evidence of disparities in voting equipment that may 
disadvantage minority groups. Blacks are more likely than whites to 
reside in counties using lever machines, which may be associated with 
longer waits at the polls. Also, Hispanics are much more likely than 
whites to live in punch card counties, although this disparity would be 
eliminated entirely if Los Angeles County abandoned its use of punch 
cards--and the disparity in most individual states is inconsistent with 
this gap for the nation as a whole.
    Second, there are potentially important variations in the way punch 
card systems operate that we are unable to control for due to a lack of 
data. For example, we cannot rule out the possibility that poorer 
counties are less likely to provide voters access to card readers that 
allow them to check that their ballots accurately reflect their voting 
intentions. However, the availability of this equipment could just as 
easily be a function of county size rather than income levels. We also 
do not have complete data on the number and characteristics of absentee 
voters in each county and on which system is used for tallying their 
ballots.
    Third, this analysis addresses only the question of who uses punch 
card and other voting systems, and does not explore the possibility 
that minorities or the poor might find it more difficult than other 
voters to use punch card technology effectively. The New York Times and 
Washington Post have reported that in Chicago, and in Duval and Miami-
Dade counties in Florida, there are far higher rates of invalidated 
votes in precincts with large numbers of African American voters.
    Fourth, the study does not claim that the 2000 presidential 
election outcome was unaffected by the geographic distribution of punch 
card voting in the 2000 election. Unluckily for Vice-President Gore, 
the crucial state in the election happened to be one of the few in 
which Democratic voters were substantially more likely than Republicans 
to vote using punch card technology.
    Finally, the study is intended solely to investigate the consensus 
that rapidly emerged in the aftermath of Florida regarding who was more 
likely to confront antiquated voting technology. None of its findings 
should be interpreted as arguing for the retention of punch card 
technology, or that voters are to blame when their ballots are not read 
in a way consistent with their voting intentions. Neither should our 
study be interpreted as taking a position on any of the political or 
legal controversies that arose in Florida following the 2000 election.
    In light of the now widely-known problems associated with punch 
card voting systems, it is easy to second guess decisions to retain 
punch card systems until now. Lost in all of the publicity regarding 
Florida, however, are the potential drawbacks of alternative systems. 
Errors are not unique to punch card systems.
    As experts have noted, each type of voting system has its own 
particular vulnerabilities. The executive director of the Election 
Center, R. Doug Lewis, has written:
          Americans continue to amaze election officials with their 
        creative ability to miscast votes. Give them a marking device 
        with their paper ballot, and they'll take out their own pens 
        instead--and the wet ink from a fountain pen may occlude the 
        lens on the optical scanner. Or they'll use red ink and the 
        infrared scanner won't detect it. Or they'll write notes, which 
        a machine can't read. Give them an ATM-style touch screen, and 
        they'll touch two candidates' boxes at once--and the screen 
        will read neither, or both, or the box in-between.
    Counter mechanisms on lever machines may fail to turn, due to a 
disconnect in the mechanical system or to excessive friction. Unlike 
the case with punch card systems, there are no independent ballots 
available for recounting if a lever machine suffers from a rare failure 
such as this. If the printed strips inserted in a lever machine that 
identify candidates are incorrect, voters may cast votes for the wrong 
candidate. If not all of the counters have been set to zero before the 
polls open, incorrect totals can be produced. Even where lever machines 
work perfectly, their higher cost may result in an insufficient number 
of machines, leading to longer waiting times, perhaps deterring some 
people from voting.
    With optical scanning systems, there are instances on record of 
ballot readers failing to read inordinately large numbers of ballots. 
An optical scanning malfunction in Volusia County, Florida caused 
hundreds of votes to be missed in the 2000 election. The Orlando 
Sentinel newspaper conducted a manual review of more than 6,000 ballots 
read by optical scanners as invalid in Lake County, Florida in the 2000 
presidential election, and found hundreds of overvotes in which voter 
intent was clear from attempted erasures or from notes written on the 
ballots, and several undervotes in which voters had circled a 
candidate's name instead of filling in an oval.
    Most electronic systems in use do not provide re-countable 
individual records of voter choices, meaning that certain software or 
other problems in vote tallying may not be correctable. Any system 
relying on computerized vote tallying, including electronic voting, 
optical scanning, and punch cards, is subject to both security concerns 
and the possibility of programming errors.
    Punch cards created unusually serious problems in Florida in 2000 
for several reasons. First, no punch card counties in that state 
provide voters with access to card readers to check their ballots for 
overvotes or other problems; by contrast nearly all optical scan 
counties in Florida provide this option. Second, Florida's punch card 
counties appear to be atypical in not having election workers fan the 
ballot cards, or pull off hanging chad, before machine counting them on 
election night. Finally, there were problems specific to individual 
large counties, such as the ballot design in Palm Beach County and 
confusing instructions provided by Democratic Party workers to their 
voters in Duval County.
    This discussion is not intended as a defense of punch card 
technology, but to suggest that differences in the accuracy of punch 
card and other systems was reasonably perceived (until the 2000 
election) as a matter of degree, and that the retention of punch card 
technology was not dictated only by a sheer inability to afford newer 
systems. In fact, a new Cal Tech-MIT study has found that electronic 
systems--the most expensive type of voting equipment--generate as many 
invalidated presidential votes as does punch card equipment.

    The Chairman. Thank you, Professor Knack.
    Mr. Shelton mentioned the phone calls that were made by 
those seeking to impact the vote in Florida. The Wall Street 
Journal pointed out on February the 27th that the Democratic 
Party had an early-on strategy to subvert any potential pro-
Bush outcome in Florida. It started even before the polls 
closed. According to the Palm Beach Post, the DNC hired a Texas 
telemarketing company, Telequest, to call voters on election 
day to stir up fears about their punch card ballots.
    So I think both sides were trying hard to win in Florida, 
and the tactics, it seems to me, could be equally criticized in 
both parties.
    Now, Mr. Shelton, I gather you think the use of punch card 
systems and butterfly ballots and the lack of safeguards, such 
as card readers for punch card ballots, the inconsistent 
decisions poll workers made to allow some people who could not 
be verified as eligible registered voters to vote, but not 
others, and the unusual number of invalid and illegal 
registrations and ballots in certain Florida counties, I gather 
from listening to your testimony that you thought that was the 
result of intentional racial discrimination.
    Mr. Shelton. The consistency of the level of discrimination 
that occurred in Florida certainly raised that idea to a very 
prominent position with us consistently, as we talked to 
voter--potential voter, I should say, after potential voter. We 
heard the many stories as people came to testify and provide 
affidavits to us that consistently we heard stories of people 
being locked out, turned around, their votes being thrown away 
in record numbers. It certainly raises that point to a very 
high level of consideration for us. So certainly I would argue 
that that level of discrimination did occur. I cannot read the 
minds of people and tell you how intentional it was, but the 
effect was also very clear. We had Haitian voters that went to 
the polls with interpreters, asking if they could vote, poll 
workers turning them away saying they could not use the 
interpreter. We had African Americans going to the poll that 
had participated in the primary and going to the same site and 
their names not being on the rosters, as well as their votes 
just being thrown out altogether.
    So the answer to the question is I can't say there was a 
massive, masterminded intention to lock out African American 
voters, but I will say that the disproportionately high number 
of African American voters that were disenfranchised is 
frightening.
    The Chairman. Do you have any thoughts, then, about why 
Florida's Democratic Attorney General Bob Butterworth and Janet 
Reno, the Attorney General in the Clinton administration, never 
opened any criminal investigations based on the allegations the 
NAACP compiled in its field hearing and presented to them?
    Mr. Shelton. We were and are extremely critical of the slow 
movement of the Department of Justice in that area as well as 
officials in Florida to move forward and investigate with some 
depth what has happened. We are still hoping that that occurs. 
As you know, the NAACP has filed a lawsuit to address these 
issues. We waited until after the election. Our intention was 
not to affect the outcome of the election but to preserve the 
civil and voting rights of America's citizens.
    The Chairman. The effort to reform our elections, it seems 
to all of us, must balance many and sometimes conflicting 
values. People need to view the process as fair and open, 
regardless of race, ethnicity, or national origin. People also 
need to view the process as honest and accurate and not subject 
to massive fraud.
    What do you view, Mr. Shelton, as the best way to increase 
the reality and perception of fairness and openness while at 
the same time enhancing the reality and perception of honesty 
and accuracy of our elections, which is very much in question 
in light of events in places such as Florida and Missouri, 
where substantial vote and registration fraud has been 
documented?
    Mr. Shelton. Absolutely. I think that the 12 steps that we 
have outlined that are now encompassed in Senator Dodd's 
legislation is a very helpful first step, a process where we 
begin looking at just many of the problems that occurred, 
having States present State plans to a commission of ways to 
strengthen their ability to provide an accurate, honest, and 
open ability for all Americans to participate in the voting 
process, where we take into consideration much of the history 
of disenfranchisement in our Nation.
    With some deference to my learned colleague to my right, 
disenfranchisement laws in this country were also put in place 
consistent with a move to lock out African American voters. 
Most of the disenfranchisement laws that we have today had 
actually begun directly after African Americans were given the 
right to vote and were done consistently with laws that African 
Americans were most likely to break.
    But even beyond that, I think the training of poll workers 
is extremely important. I think standardizing 
disenfranchisement laws so that all States have a very clear, 
clean process in which Americans that have paid their debt that 
are now being called upon to become good citizens, to get jobs, 
to work hard, to take care of their families have a stake in 
the democracy and are able to vote as soon as possible. That is 
extremely important.
    As a matter of fact, Mr. Chairman, if I might, I would 
argue as much that Americans that commit crimes and pay their 
debt to society are oftentimes put on probation upon coming 
out, and at best, probation is a process in which we provide 
greater oversight as we reintegrate Americans into our society.
    The Chairman. The NAACP is against the State laws that 
prevent convicted felons from voting?
    Mr. Shelton. Upon release. They have become too confusing. 
They disenfranchise not only those Americans that have paid 
their debt, but also as we saw in Florida, many Americans that 
did not commit a crime or convicted at all.
    I have a black, Catholic priest in Florida that went to the 
polls to vote and was told he could not because he was a former 
felon, which he was not. But because the company that was given 
the responsibility of purging those rolls used last names 
instead of something like a Social Security number or a birth 
date----
    The Chairman. But you are talking about mistakes now. But 
even if there were not mistakes, it is your view that convicted 
felons should be allowed to vote?
    Mr. Shelton. Once they complete their sentence in prison, 
they should be allowed to vote. And in many ways, this would 
affect a drastic issue of confusion. If an American is not 
incarcerated, they can vote. There would be no confusion at the 
polls.
    The Chairman. As we have heard today, Florida is a State 
where elections are controlled at the county level. County 
supervisors of elections are responsible for selecting ballot 
designs, selecting the type of voting equipment used, selecting 
how resources such as computers and registration databases are 
apportioned, and how to maintain accurate voter rolls. The 
counties about which you have made the most serious allegations 
of intentional racial discrimination in the administration of 
the election are Duval, West Palm Beach, Broward, and 
Hillsborough counties. I guess Palm Beach, Broward, and 
Hillsborough counties.
    Bearing in mind that all of those aspects of the election I 
just described were handled by local officials, what do you 
think the responsibility of the supervisors of elections in 
those counties bear--what kind of responsibility do they bear, 
then, for the problems about which you complain since they 
selected the ballot design, hired, trained, and oversaw the 
poll workers, decided where computers would be located, decided 
when and where to open and close the polls, and made all other 
decisions about how the elections were administered in those 
problematic counties?
    Mr. Shelton. I think most importantly their responsibility 
now is to repair the breach. They must go back and----
    The Chairman. But if you would answer my question, who was 
responsible for the problems that you raise in Florida in those 
counties?
    Mr. Shelton. The problems we had in those counties were on 
every single level, from the poll worker that gave out 
inaccurate----
    The Chairman. But the authority was at the county level, 
was it not?
    Mr. Shelton. Yes, it was.
    The Chairman. In Florida.
    Mr. Shelton. Yes.
    The Chairman. Thank you. I think it is noteworthy, just for 
the record, with regard to any partisan implications of what 
happened in Florida, that the supervisors of elections in 
Broward, Hillsborough, and Palm Beach counties, who had 
ultimate responsibility for all of these issues that we just 
talked about were Democrats. The supervisor of elections in 
Duval County is officially designated as nonpartisan. So I 
think any effort to try to blame the problems that were 
incurred in all of the areas that you outlined that were of 
concern to you on the State officials in Florida is simply not 
appropriate.
    Mr. Shelton. Mr. Chairman.
    The Chairman. Yes.
    Mr. Shelton. In due respect, the NAACP is a nonpartisan 
organization. We are not interested in assigning blame to one 
party over the other. We are most interested in making sure 
this never happens again.
    The Chairman. Well, I am certainly encouraged to hear that, 
and I congratulate you for that observation.
    Mr. Gaziano, as Congress works toward bipartisan election 
reform, what lessons should we take from Gore v. Bush? For 
instance, does the Supreme Court's ruling require States now to 
adopt uniform voting systems for every one of their 
jurisdictions? Does it require uniform enforcement of voter 
eligibility laws throughout a State? What do you draw from this 
decision in terms of the future?
    Mr. Gaziano. You start with the hard questions but the most 
important.
    First of all, it does not require any type of uniformity 
between States. You all can choose to exercise your Article I, 
Section 4 authority with regard to Federal congressional 
elections, but the equal protection decision does not require 
uniformity between States. Even within a State, the decision 
itself still doesn't require uniformity in its own terms. The 
Supreme Court has some limiting language in which it said that 
it was reviewing the situation in Florida in the totality of 
the facts, and it stated, its deliberation was quote, ``limited 
to the present circumstances.'' The U.S. Supreme Court said the 
major flaw was that there was one Florida court that had 
authority to make uniform vote-counting standards, and instead 
of doing so, it endorsed decidedly unequal procedures. So that 
might limit the reach of the opinion.
    On the other hand, there are some aspects of the decision 
that say where there is such authority in a State and such 
uniform standards are practicable, the Court suggested it is an 
equal protection violation not to take certain steps to make 
the procedures more uniform.
    I can imagine that this is going to be an evolving area of 
the law, and I can imagine----
    The Chairman. So if you were a Secretary of State 
somewhere, would you be recommending to your legislature----
    Mr. Gaziano. I might be recommending----
    The Chairman [continuing]. That they go to uniform voting 
procedures?
    Mr. Gaziano. There are two things I might recommend. One is 
I want no authority because then I have to act. Give it all to 
the counties. But that is probably not the case with most 
Secretaries of State.
    The exact lines are unclear, but where a State has given 
some authority to the Secretary of State--for example, in 
Florida, the Secretary of State did have some authority to 
issue uniform guidelines on counting chads, and the Secretary 
of State did attempt to do so and was overruled by the Supreme 
Court. I think that this opinion strengthens the Secretary's 
hand, both in the exercise of his or her authority and perhaps 
in urging the legislature for more authority. I think there is 
some responsibility for the legislatures in passing such reform 
legislation to consider that and to decide where uniformity is 
important, maybe standards, and where there is some local 
discretion that will be allowed.
    The Chairman. Do most State laws prohibiting convicted 
felons from voting extend to criminals convicted of Federal 
felonies or just State felonies?
    Mr. Gaziano. Most States--and it is 47 States that have 
felony disenfranchisement laws--do extend it--I couldn't come 
up with an exact number, but I think it is the overwhelming 
number that do extend it to Federal felons. And in the Motor-
Voter law you require U.S. attorneys to notify State officials 
of conviction of Federal offenses and whether such convictions 
were overturned, and you require Federal officials to answer 
questions that the States might have. It is a very complicated 
and interesting patchwork, but----
    The Chairman. Well, let me ask you this: Does Congress have 
the authority to prohibit Federal felons from voting in Federal 
elections?
    Mr. Gaziano. I thought about that in preparation for 
testimony. There might be three grounds you could assert for 
authority. I don't think you can pass a comprehensive civil 
disenfranchisement statute of the type States have. You might 
have authority to make it part of the penalty of a crime going 
forward, and even that I am a little dubious about. But 
probably your safest ground is to bribe the States with new 
money that would pass the Supreme Court's spending clause----
    Senator Dodd. Isn't bribery a felony? [Laughter.]
    Mr. Gaziano. Well, you know how these sorts of things 
happen. But under the Supreme Court's spending clause cases, if 
it is non-coercive inducement to the States to impose that 
sanction, you probably have authority to do that.
    The Chairman. Mr. Figueroa, in light of the documented 
evidence that many ineligible voters cast ballots in the last 
election, what, if any, steps do you think should be taken to 
ensure that our elections are not only open but honest in the 
sense of ensuring that people voting are legally entitled to do 
so?
    Mr. Figueroa. Mr. Chairman, from our perspective, and 
certainly going back to the language issues that I testified 
to, I think that certainly enforcement of the Voting Rights Act 
provisions that deal with language issues specifically is, I 
think, a good place to start. Certainly as we consider 
reforming the entire system or many parts of the electoral 
process, the fact that having trained personnel that 
appropriately can speak Spanish where it is needed or having 
materials that are written in the language of the community 
that is involved in that instance I think would be very helpful 
in making sure that citizens whose primary language may happen 
to not be English at that time can fully exercise their right 
to vote.
    The Chairman. To the extent you claim there was 
intimidation directed at preventing Latinos and language 
minorities from voting, do you think officials in Florida are 
being lax in investigating and prosecuting the county officials 
responsible?
    Mr. Figueroa. Well, certainly this is one of the things 
that we are looking at right now as we are preparing for 
litigation in this case. We have found a number of instances 
where people were given wrong information, typical to other 
communities, did not appear on the voting rolls, were given 
excessive things to do in preparation for an affidavit, voting 
by affidavit. In some of these instances, they seemed to be 
purposeful. And so----
    The Chairman. In that regard, then, would a Federal 
criminal investigation of those charges be appropriate?
    Mr. Figueroa. Well, as Mr. Shelton has said, we also wrote 
immediately, a few days after the election, a few days after we 
got complaints from Florida, and have been vigilant since then, 
that the Justice Department look at this. As a matter of fact, 
in the case of Florida, the person who actually contacted our 
organization called the Justice Department and registered a 
complaint around 2 o'clock on election day. So we are following 
that closely, and we do expect the Attorney General's office to 
follow through on that.
    The Chairman. Well, let's look to the future. Given the 
pervasive intentional discrimination that you assert was 
directed at minorities in the polling places, do you support 
having Federal authorities monitoring these polling places in 
the next election to document and prosecute any such behavior?
    Mr. Figueroa. Let me make clear something, Mr. Chairman. I 
have mentioned that we do seem to have some evidence of some 
intentional behavior. Clearly, what we are seeing here is the 
effect of the accumulation of a number of different factors 
which seem to, without a doubt, in our opinion, have had the 
effect of having Latinos not be able to exercise their right to 
vote.
    The Chairman. So is the answer to that yes?
    Mr. Figueroa. Actually, I have forgotten the----
    The Chairman. Well, the question is: Would you favor, then, 
in order to prevent this sort of thing in the future, having 
Federal monitoring of these precincts where you allege that----
    Mr. Figueroa. Well, I am not sure that it is Federal. I 
wouldn't say Federal necessarily, but one recommendation that I 
did make to the Black Caucus a couple of weeks ago is that 
where you have communities where there is evidence where these 
problems have been persistent, I would say create an ombudsman 
or somebody who is in these electoral colleges who, in fact, 
can provide the appropriate information, whether language is 
involved or not involved, and be able to help someone who is, 
for whatever reason, trying to exercise their right to vote.
    The Chairman. And ensure there is an honest election in the 
process, too.
    Mr. Figueroa. Excuse me?
    The Chairman. And ensure there is an honest election in the 
process.
    Mr. Figueroa. No question that is the bottom line to the 
whole process.
    The Chairman. You know, Mr. Shelton, one thing I failed to 
mention that I am sure you were proud of in Florida, African 
Americans represent about 14 percent of the voting age 
population in Florida, and yet they represented 16 percent of 
the total turnout in Florida. So that aspect had to be 
something you felt good about in terms of African American 
voters getting out and voting in Florida.
    Mr. Shelton. We were excited about that, and we were 
actually excited that the numbers were higher than that. The 
only numbers you have are those that were actually allowed to 
cast the vote.
    The Chairman. Professor Knack, in your study, who uses 
inferior voting technology? You note that in the Florida, 
counties such as Palm Beach, Duval, and Miami-Dade registered 
much higher rates of invalid punch card ballots, especially in 
minority areas, than occurred in most other places that used 
punch card ballot. You have explained that this could have been 
due in part to the confusing ballot design adopted by 
Democratic officials in Palm Beach County, the decision of 
Democratic canvassing boards in these counties to not have card 
readers available, and State and local regulations that did not 
require poll workers to fan ballots and remove hanging chads.
    You also mentioned confusing instructions handed out by the 
Democratic Party workers to voters in Duval County. Your study 
also noted ``a greater number of voters with either no prior 
experience or limited ability to read and comprehend written 
instructions in poorer and heavily minority precincts.''
    My question is this: Do you think that well-designed, 
nonpartisan voter education and literacy efforts would 
substantially reduce the unusual frequency of invalid votes in 
those kinds of areas?
    Mr. Knack. That is a good question. Probably Doug Lewis 
from your last panel would be better equipped to answer that 
than I would.
    I should mention that a lot of these possible explanations 
that were mentioned in the paper are conjectural. I really 
don't think there is a lot of evidence that apportions the 
blame for these high rates of invalidated votes to all these 
different factors. I think it is just speculative. It was 
basically just a list of possible factors that could have 
explained it, but I don't think we really know.
    I mean, apparently, Florida is somewhat atypical in the way 
they administer punch card systems. In quite a few parts of the 
country, election workers fan the ballots and do other things 
to remove the chad before the votes are ever counted for the 
first time. But just how atypical Florida is in that respect, 
we don't know. There is just not systematic data on that.
    The Chairman. What factors beyond a specific voting 
technology used impact the ability of voters to translate their 
preferences into legally valid votes?
    Mr. Knack. You know, I think it is always easy as an 
academic researcher to recommend more academic research. But I 
really think there is at this point a real demand for some 
micro-level studies of behavior to determine what are the sorts 
of things that confuse voters when they enter the polling 
booth, not just with punch cards but with higher error rates 
with other types of technology. We need studies that are 
designed to figure out exactly what is it that is confusing 
people, what is the nature of their confusion. I really don't 
think we have the answers to those questions. And until we do, 
it is easy to propose some technological solutions and throw 
money at the problem, but we are probably going to spend that 
money in very inefficient ways.
    The Chairman. Finally, why do you think that some other 
large jurisdictions, such as Los Angeles County, which used 
punch card ballots in the 2000 election, did not experience the 
degree of difficulty encountered in certain Florida counties 
such as Palm Beach, Miami-Dade, and Duval?
    Mr. Knack. By difficulty, you mean the rate of invalidated 
votes?
    The Chairman. I suppose.
    Mr. Knack. I haven't seen the data on that. But it is 
possible that there are differences in the age of the 
equipment. I don't want to get into the details of the vote-
recording devices used in punch card systems, but there are 
different parts of the equipment that can cause errors when the 
equipment ages. There are these rubber strips, for instance, 
that can fail.
    Another way in which punch card systems across counties can 
differ from each other is that in some, but not that many, 
there are these so-called precinct counters. But that issue is 
usually discussed in the context of optical scan. But in some 
punch card counties, voters can actually feed their ballots 
into a machine that can detect under- or over-votes. And I am 
not familiar enough with Los Angeles or any other particular 
county to say, you know, that they have that equipment and that 
is the reason for the lower problem.
    The Chairman. Thank you.
    Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman. Just picking up on 
that last point, I think that particularly when you have an 
over-vote, the machines kicks back out the ballot and says try 
again. And in the Los Angeles area, you have that and here you 
don't. And it is now discovered, at least based on one analysis 
that has been done, some 6,000 ballots in one county had over-
voting. This was despite the fact that people wrote on the 
ballot what they wanted to do when they cast a ballot for two 
Presidential candidates and realized they had probably, at the 
very least, created confusion, not error, and wanted to 
indicate what their intent was. As a result, of course, those 
votes were not counted.
    But, anyway, let me come back. I hope we are going to keep 
this on the level where we are talking about what needs to be 
done. I think there is a recognition that we wouldn't be having 
hearings and talking about this if there were not a genuine 
concern in the country about what we put the Nation through for 
36 days in trying to determine who the President of the United 
States was. And while the focus was on Florida and other States 
where issues have been raised, certainly my constituents, when 
they voted for President, felt as well that their vote was in 
some way placed in jeopardy because of what happened in other 
places.
    So, there is a national framework to this. While we are 
focusing on individual States where problems occurred, every 
voter in the country is affected in a Presidential race if 
there is a failure in the system that results in electoral 
college votes being cast on the basis of a few hundred ballots 
one way or another. So this is national in scope and really 
does deserve, as I hear at least you, Mr. Shelton, and Mr. 
Figueroa saying, that there are clearly national standards, 
there are national issues, there are national interests here 
that can't exclusively be left to the whims of what occurs at a 
county or precinct level in the country. And for those reasons, 
some of us have introduced legislation to try and at least have 
some standards apply here.
    I won't read the whole article, but I find this piece 
intriguing--and I will put it in the record--about the 
Brazilian elections. I don't know what this appeared in. It 
came from the Brazilian embassy in response to an inquiry I 
made to them. My inquiry was based on a news article I had seen 
where, as a result both of their new technologies they put in 
place on a national level and of setting standards, in this 
last election the results of 95 percent of all municipal voting 
districts were known by midnight on election day. By noon of 
the next day, the superior electoral court had certified all 
the results, including those from the locations as remote as 
the Amazon Basin. There was not a single allegation of fraud, 
and these involved the elections of over 6,000 mayors, 48,000 
municipal council members, and 110 million people voting in a 
Third World Country. We have touched on systems and so forth. 
That was a country that had huge electoral problems just a few 
years ago and managed to come up with a scheme and a mechanism 
that eliminated at least, by and large, the problems that 
existed.
    Let me come back, if I can, because I appreciate the idea 
of suggesting some solutions here. The NAACP is not a partisan 
organization. And I know that the NAACP is as critical of 
Democrats as Republicans when problems arise. So I hope we will 
keep focused on that aspect of all of this.
    I wonder if you might just, Mr. Shelton--I said ``Mr. 
Hilary'' earlier. Pardon me. You described some hearings that 
you had and some findings that the NAACP made from hearings 
conducted in Florida, Missouri, Texas, and Massachusetts. I 
wonder if you might just give us a synopsis of what you 
concluded for them.
    Mr. Shelton. Absolutely. We heard extremely compelling 
testimony just 4 days after the election on November 7th in 
Florida, on Saturday. Over 700 Floridians came into Miami-Dade 
County in a small community center to talk about what had 
happened, to share their fears and concerns of what had 
happened to them.
    We had Haitian Americans coming in to testify that they 
were not allowed to use interpreters, even though they brought 
the interpreters with them. We had African American men that 
testified that, as they went in to vote, they were the only 
ones asked if they had felony offenses on their record.
    We had a priest come in to testify and share with us that 
he was taken off the rolls and later found out that it was 
because he was assumed to have had a felony offense on his 
record and that apparently, as many of us have already talked 
about, the company that was brought in unfortunately did a 
really sloppy job of purging the rolls in Florida.
    We had students come in saying that they had worked very 
hard to hold voter registration drives, and many of them on 
college campuses were very excited to participate for the first 
time in their lives in a Presidential election, excited with 
anticipation of being able to take a stake and help make a 
decision who would be the leadership of the country, and going 
to one place during the primary to vote where they were able to 
vote, and then going to another place--or going back to that 
place during the general election and the polling site had been 
moved, and they were unable to find a polling site at all.
    We had other college students that came in that registered 
to vote, then went to their polling site, after moving from one 
polling site to another, and then yet at the end to a fourth 
polling site, they found they were not on the rosters at all 
and were unable to vote. They were not given the option of a 
provisional ballot, things of that nature.
    We had people in areas of Florida that went to their 
polling site to vote to have to get through first blockades of 
streets that police had set up for some--for what we were told 
later for some other reason, but prevented them from getting to 
the poll site, and other polls sites that had police lines 
around them that provided a level of intimidation.
    And though very well I would say it is not like the fire 
hoses and the police attack dogs and days gone by in our 
country. I think we still have many citizens that had those 
very vivid images of being prevented from voting in our 
history. And as those citizens went to vote and saw these same 
symbols in many ways of voter intimidation, they turned around 
and went away.
    We also had Haitian Americans that, when a police line was 
set up in front of a polling site when Baby Doc or Papa Doc was 
running for re-election, it sent a very different signal to 
them as they saw uniformed police officers outside their 
polling places as well.
    So we had a myriad of issues and instances of both voter 
intimidation and voter rejection.
    Senator Dodd. Your testimony does not speak to this issue 
directly, but there is always a legitimate concern regarding 
the role and degree of fraud in Federal elections. We are 
talking here, obviously, about Federal elections. This is not 
every election that occurs in the country, but just the Federal 
elections where the national legislature and the President of 
the United States are the issues being decided. Does the NAACP 
take any position regarding fraud? And are you aware of any 
national studies or statistics that discuss fraud in Federal 
elections?
    Mr. Shelton. I am not aware of national statistics 
particularly, but I will say this: The NAACP is extremely 
concerned about fraud. Interestingly enough, fraud has more 
often been something used against the will of people in the 
African American community than it has been used as something 
to help further that will. So certainly we want to make sure 
that fraud is not part of the landscape and do everything we 
can to see to it that every American's vote is counted, and 
counted accurately.
    Senator Dodd. I wonder if you might speak, as well, on the 
issue that was raised by Senator Schumer, who talked about the 
1.4 million people who work in the 192,000 polling places 
around the Nation on election day and the difficulty in New 
York of getting people to do the job. What sort of evidence did 
your hearings give about the competency and sophistication, to 
the extent you expect that, of people working in polling 
places? I have the same concerns--you know, as someone sitting 
on this side of the dais. I have voted in every election since 
I have been registered to vote, sometimes by absentee ballot in 
my local community elections, but obviously in national 
elections I vote back in my hometown. You walk in, and as 
someone who is holding a high office in this country, you want 
to make sure you are doing this right. There is always that 
concern that I get this right. But we have little levers you 
pull down in Connecticut. I want to tell you honestly, when I 
walk in and close that curtain, there is a sense of 
apprehension I have that I am going to mess this up or not do 
it right or what does the ballot look like.
    So the suggestion somehow that this is just a routine day 
for people--it's not--people take this very seriously. They 
really want their votes to count, and it can be intimidating to 
people. And when you add a lot of other elements out there, it 
is an unsettling experience. It is not something that we do 
every day, and so it is--I am not finding the right language 
here for you, but there is that sense that this is an 
experience that can be, little unsettling or unnerving.
    So, anyway, I asked you about the poll workers themselves. 
What evidence did you hear about that?
    Mr. Shelton. Well, we got a lot of information in our 
hearing about poll workers that were misinformed or 
misunderstood what the requirements were to participate in the 
election. We had incidents where African American community 
voters filled out their punch card or whatever the card was 
they were using at that time. They had made a mistake. They 
went to the poll worker and said, ``I made a mistake. I would 
like to get another card.'' And they simply told them no, you 
couldn't have it, though the law provides an opportunity for 
voters that make mistakes on their punch cards to go back and 
get a card and redo it.
    So I think there is a strong need, I think, for re-
education of our voting officials, our volunteers. Very 
clearly, I think the vast majority of people out there have 
very good experiences personally. Here in the District of 
Columbia, unfortunately, D.C. doesn't have a vote here in the 
Senate. But that is another hearing, I guess. But I think that 
there is a need to train poll workers so they are very clear on 
what to do under certain circumstances.
    I think equally as importantly, I think we need to have 
something akin to a voter's bill of rights, that is, that the 
rights that you have as a voter when you go into the polls are 
prominently displayed, where you go to address issues of 
disagreement over process is very clear to be able to get 
through. I think there are a number of provisions that we have 
asked for in the bill that you have introduced that will be 
very helpful to that end. But I think that that is a good way 
of getting at addressing these problems.
    I do think most poll workers are extremely well intended, 
but sometimes just not very well trained.
    Senator Dodd. Yes. There is one last issue I would like to 
raise quickly, there are a number of issues we have included as 
part of this proposal. This is not an easy question, but if you 
had to prioritize the things that you thought we ought to do in 
the short term that are more important than others, what would 
they be?
    Mr. Shelton. I think if I were going to the top three 
items, I would work to emphasize the already existing voter 
protection laws, the Voting Rights Act of 1965, the disability 
voters rights, the motor-voter bill so that people understand 
the provisions and the safeguards that are already in the law. 
I don't think they understand them. I don't think it is very 
clear. And I think in many ways they were violated, and I could 
presume that much of that violation was out of ignorance.
    Secondly, certainly we need to enhance the modernization of 
our voting machines, both those that were used to cast the vote 
and those that were used to count the vote, to make sure there 
are less mistakes and a higher level of efficiency.
    And, thirdly, I believe we need to certainly standardize 
the processes from State to State. We are not saying each State 
has to do it exactly the same way, but best practices and 
standards for what is expect of States to have a high level, 
high integrity election process is absolutely necessary.
    Senator Dodd. In Federal elections?
    Mr. Shelton. In Federal elections.
    Senator Dodd. Because the voter in one State is directly 
affected if another State conducts a process that jeopardizes 
the value of the person's vote in the other State.
    Mr. Shelton. Exactly. And from my meetings with county 
executives--I said I am one of the NACO election reform 
advisory committees, and I have spoken to many of these 
executives. And many of them had not thought about it. As an 
example, I spoke to an executive from the State of Missouri 
that does not have a provisional balloting process, and she was 
outraged, not because people were asking why not, but because 
they hadn't moved to do it. And she thought it just made very, 
very good sense.
    Those kind of standards being laid out and being promoted 
in a way that is very helpful, and, of course, the Federal 
Government providing the necessary resources that helps our 
States and counties to implement those programs.
    Senator Dodd. Thank you for that.
    Mr. Figueroa, a number of questions here for you. I want to 
specifically ask what your recommendations would be as to the 
appropriate Federal role in any legislative proposals for 
election reform.
    Mr. Figueroa. Similar to Mr. Shelton, Senator, I think that 
we need to start with the enforcement of our Voting Rights Act 
and making sure that the language provisions of that law are 
fully in effect and followed through in each of the States 
where it might apply.
    I think beyond that I would also agree that modernizing our 
electoral systems overall are a very important component to 
being able to have people exercise their right to vote.
    I would come back to this idea--and while it may be a long 
shot in the context of politics today and the legislature here 
in Congress--that this idea of making election day a national 
holiday, while it may go up against these notions of free 
market, et cetera, et cetera, certainly is something that is 
not unusual, that, in fact, it does happen in many countries. I 
think it puts the idea of voting--and in this case, obviously 
voting for the Presidency--at the level where it should be. 
After all, this is the person who is your leader, and in this 
case the leader of the free world.
    So if that is the case, then I think that really 
considering this issue of making the election a national 
holiday should be a serious concept that should be debated in 
this Congress.
    Senator Dodd. Well, I think it is a very intriguing idea 
and one that I am inclined to be supportive of. We have 
suggested that that would be an item that a commission--in 
fact, both the Schumer bill and the bill we have introduced has 
a commission to take a look at some of these recommendations 
that you may not be able to resolve in the short term, but 
clearly ought to be on the list. And that is one that has 
enjoyed the support of a number of people in the Senate on both 
sides of the aisle who are attracted to that idea.
    Is it your opinion, though, as representing a legal group, 
that Congress has the legal authority to regulate in the area 
of Federal elections?
    Mr. Figueroa. I believe it does for Presidential elections, 
that it has, in my opinion, authority to regulate in this area. 
And I think it would be consistent with finding a way or 
devising a way in which how we vote for the Presidency from the 
ballot itself to what I just stated, making election day a 
national holiday, in my opinion is within the purview of this 
body.
    Senator Dodd. And I presume you would apply that as well to 
Federal elections for the Congress of the United States?
    Mr. Figueroa. That is correct.
    Senator Dodd. Do I understand, Mr. Gaziano, that you have a 
problem with that notion?
    Mr. Gaziano. Just a minor clarification. You do have 
authority under Article I, Section 4 to regulate congressional 
elections, and the 17th Amendment has a provision I should 
repeat which is the same as Article I, Section 4, which applied 
to the House before you were directly elected by the people. 
But Presidential elections are still left to the State 
legislatures. If they choose to make them subject, as they all 
have now, to the people, that is one thing. But my guess is if 
you make uniform regulations with regard to congressional 
elections, that is going to have the effect of making all State 
and all Federal elections done in the same way. Having dual 
voting roles and dual voting machines won't work. So it is 
probably a distinction without a difference.
    Senator Dodd. Do you think it is in the national interest 
to set some national standards, not specifically telling each 
State what kind of machines they ought to use, but some 
national standards on how we conduct national elections?
    Mr. Figueroa. I do. I think that deferring to the States 
might have been appropriate if they were doing the right 
things. Now, I apologize, Senator, that I haven't read your 
bill, but I am impressed with the focus of the chairman's 
bipartisan bill that focuses on some of the areas where I think 
there is the most serious need for attention, and that is 
preventing fraud.
    Senator Dodd. All right. Well, I will submit some 
additional questions, Mr. Chairman, so we move things along 
here. But I am very grateful to all of you for coming, and, Mr. 
Shelton, I thank you, Mr. Figueroa, Mr. Gaziano, Mr. Knack, 
Professor Knack as well for your testimony here today. And this 
is obviously going to be a matter we are going to have to hear 
some more about, but I appreciate it very much. And I am 
grateful for the NAACP and La Raza and related organizations' 
support of the Conyers-Dodd bill that we have introduced. And 
hopefully we are going to put something together here and we 
don't end up with a lot of competing legislation. Senator 
Schumer and I have talked, and our goal is to try and put 
something together that can attract a broad spectrum of people 
in this country to rally around as a way to look forward in a 
constructive way so we don't ever have a repetition of what we 
saw this year.
    The Chairman. There is no question that, with all these 
competing legislative proposals, we are going to have to come 
up with some synthesis in order to legislate, and I don't think 
we are anywhere near ready to do that.
    Senator Schumer.
    Senator Schumer. Thank you. And I agree that we are not 
ready yet to do that, but these hearings are a great first step 
in terms of getting us going on this issue. And I take it the 
chairman's view would be that--I mean, all of our views, I 
guess mine certainly is that this should be separate from 
campaign finance reform.
    The Chairman. I don't think we are ready to legislate in 
this area, and I don't intend to offer any amendments on the 
campaign finance debate on this subject, and I assume others 
will not, either, because I can't imagine that we are ready to 
go forward.
    Senator Dodd. That is good news. I agree with that.
    Senator Schumer. I am glad to hear the chairman say that. 
Maybe he would want to say the same thing about all other 
amendments he might offer on campaign----
    The Chairman. Oh, we have some great amendments. You would 
like them. [Laughter.]
    Senator Dodd. I would like to try though, Chuck, I tell 
you.
    Senator Schumer. One little step. Try the next big one. 
Anyway, I thank everybody.
    Just before I get into some of the substance of my 
questions, I just want to follow up on Mr. Gaziano's question 
in relation to Senator Dodd and to his testimony. You know, 
there are little two strains here. Some folks are saying we 
have got to worry about voter fraud above all, and some are 
saying we have got to worry about people who deserve to vote 
who can't. At least in my experience in my State, the second 
group far outweighs the first group. You hear after every 
election thousands and thousands of people who can't vote, just 
on an impressionistic basis. You hear very little actual proof 
of fraud. So what I would like to ask Mr. Gaziano is: Does he 
actually think that more people vote improperly due to fraud or 
are more people who are entitled to vote turned away from the 
polls because of different malfunctions of the system, not by 
design but just it happens?
    Mr. Gaziano. In Mr. Shelton's prepared testimony, he used 
the term ``bureaucratic snafus.'' And I think that all States 
would strive to correct such bureaucratic snafus. I am not 
sure, but there are probably more votes that are not counted 
because of bureaucratic snafus. Some of that, of course, is 
impossible to correct. You just aim for perfection. But I think 
everyone is, and I think State laws do aim for perfection.
    Where I think you have a real legal failure is an absence 
of safeguards to prevent fraud. And when you do have evidence 
of fraud, as is the case from time to time, that seems to me to 
invalidate the whole process. Bureaucratic snafus, as you 
know--I differ from some of my colleagues to the left--tend to 
be evenly distributed. And while some like to impute racial 
animus, I think that that is sad and unfortunate. However, 
fraud tends to be perpetrated by one person or group to affect 
the outcome in a dishonest way. And so that is why I set that 
as----
    Senator Schumer. So it goes not to the number, where you 
seem to concede that a greater number of people, albeit 
randomly, in your judgment, anyway, are excluded, but it is not 
by design so we ought to look at the fraud where it is by 
design. Is that correct?
    Mr. Gaziano. Correct.
    Senator Schumer. Can you give me the three largest 
instances of voter fraud in the last decade?
    Mr. Gaziano. I confess that I really haven't looked at what 
are the three largest instances, but there was in the last 
election some instances in Wisconsin where there were reports 
of people, whether they were elected officials or not, 
encouraging felons to vote, and that----
    Senator Schumer. That lady with the cigarettes?
    Mr. Gaziano. No, no. It was different people who were 
urging felons to vote. There was also----
    Senator Schumer. Do we have any instance, any proof of a 
single felon who voted incorrectly in Wisconsin?
    Mr. Gaziano. Yes, there are news accounts of several 
hundred, as many as several thousand, in Wisconsin that voted, 
and the margin of error in the Presidential election was pretty 
close in that State.
    Also you have surveys----
    Senator Schumer. Let me just ask you, who was encouraging 
them to vote?
    Mr. Gaziano. That I am not clear about, but the State 
officials did not take seriously their responsibility to----
    The Chairman. I am told by staff, Senator Schumer, that two 
felons in Wisconsin are currently being prosecuted for voting 
in the last election.
    Mr. Gaziano. In Wisconsin----
    Senator Schumer. Two.
    Mr. Gaziano. But I could cite you the Wisconsin--or I could 
provide your office----
    Senator Schumer. Was there a design to get felons to vote, 
or was it just people were encouraging people to vote and some 
were felons?
    Mr. Gaziano. No. I understand that----
    Senator Schumer. Do they have a mailing list of felons or 
something?
    Senator Dodd. They actually have a PAC. [Laughter.]
    Mr. Gaziano. In Massachusetts, actually, there was a 
criminal PAC, and in the last election, the citizens of 
Massachusetts voted to impose felony disenfranchisement to 
defeat them. But also you had college students in a survey who 
admitted that they had voted multiple times. Fifteen percent of 
the college students in that survey, some admitted to voting at 
least five times. You also had the situation in----
    The Chairman. Mr. Gaziano, could I help you out? According 
to the Miami Herald, more than 5,000 felons likely cast illegal 
ballots in Florida, including 62 robbers, 56 drug dealers, 45 
killers, 16 rapists, and 7 kidnappers. At least two who voted 
are pictured on the State's online registry of sexual 
offenders. Nearly 75 percent of the illegal ballots discovered 
were cast by registered Democrats, and we proudly got the other 
25 percent. In Pinellas County alone, at least 212 ineligible 
felons were allowed to cast votes on November 7th. According to 
the Fort Lauderdale Sun, at least 442 people, including 
convicted felons barred by Florida law from voting, and persons 
ineligible to vote because they were registered in other 
States, cast ballots at Broward County precincts during 
November 7th. Do you want me to continue?
    Senator Schumer. No. None of that indicates fraud.
    Mr. Gaziano. Sir, I was going to get to where it is in 
Florida. The State officials, the county election officials in 
Florida who had the responsibility to purge the voting rolls in 
Florida, some of them intentionally or--well, they consciously 
did not do so.
    Senator Schumer. And that rises to the same level as 
somebody who would just not open up the voting machine in a 
certain place early enough or whatever. I mean, look, I hear of 
these little instances, too. In every New York City election, 
New York State election, you get a number of people who say 
somebody pulled off the lever for the candidate that they--for 
a candidate. In other words, the machine doesn't work. And in 
my election that happened. I heard a couple of instances of it.
    It just seems to me--and I know there will be some 
difference of opinion here--we should go after fraud in any 
case. I still do not have any real proof of it. But to raise 
that to the same level as the literally millions of people who 
are disenfranchised because the system does not work, I think 
to me is misplaced. Let us go after fraud.
    But frankly, when I hear statements that say, fraud should 
be our number one goal, and then sometimes it is not even 
mentioned about disenfranchised except the military. God bless 
the military, we should make every effort, maybe even an extra 
effort they should vote. But by our Constitution, a welfare mom 
who is turned away has every bit as much right to vote as a 
soldier defending us overseas, and you do not hear any mention 
of that.
    Even in all due respect, the Chairman's statement had a lot 
of mention of military, a lot of mention of fraud, and 
virtually no mention of what I see is the biggest--and I am not 
alleging any design here. But because of incompetence, or what 
was the word that Mr. Shelton used, bureaucratic snafus or 
whatever you want to call it, that is the number thing it seems 
to me that denies the right to vote which is so precious to all 
of us.
    Again, let us do number two and three, fraud and military, 
but let us not leave out or make a tertiary issue--literally, I 
think each year, the odds are that the number of people who are 
disenfranchised through bureaucratic snafu is much larger.
    Then the only other thing I would say is, my guess--I do 
not know the two instances you mentioned that someone 
deliberately did not knock out the felons. In New York it is 
supposed to be knocked out by a computer, not by the individual 
people at the voting machines or in the voting precincts. That 
person should be prosecuted. That seems to be far more 
aberrational than what we are talking about here. Many any of 
the others would want to comment on what I had to say.
    Mr. Figueroa. If I may, Senator, just very quickly. Along 
the lines of these issues of bureaucratic snafus there is an 
individual in New York City, Professor Ronald Haduk, who has 
just, I believe, finished his Ph.D. dissertation and a study on 
how these bureaucratic snafus have a very disparate impact on 
communities of color. You never hear people not appearing on 
the voting list in Westchester or in many of these other 
communities.
    Senator Schumer. In all due respect, I have. It is such a 
mess----
    Mr. Figueroa. They are, but not to the same degree when you 
compare it. Not to the same degree as they appear in 
communities of color. So I just wanted to say that for the 
record.
    Senator Schumer. Professor Knack, do you have anything to 
say about the relatively frequency--let us not talk about the 
moral issue. We can all draw our own morality here. But if the 
issue is just one person, one vote, the relative frequency of 
fraud versus bureaucratic snafu, to use shorthand that we have 
been using here fairly successfully.
    Mr. Knack. You are probably correct although we really do 
not have any idea just how many people who are ineligible are 
able to register and vote anyway, despite being non-citizens or 
disqualified on other grounds. I am not sure that this one for 
one trade-off though is the necessary and appropriate test for 
the legitimacy of a voting system. I think if somebody is out 
there voting twice, that that may have more adverse 
implications for how legitimate the voting system is perceived 
than if you have one hanging chad where some random person's 
vote is not counted because of some pure accident. I just would 
not equate those two.
    Just like if you are talking about the legitimacy of a jury 
trial and the court system, you do not just look at the number 
of defendants who are convicted and say, we get it right the 
majority of the time; that is good enough.
    Senator Schumer. We can all make our judgments. I think I 
would say to you, my moral judgment is fraud is worse than 
accident, but in the case of voting they are both real bad. And 
if the numbers of accident are 50 times the number of fraud, 
any bill that just were to focus on fraud or were to play up 
fraud more than accident would be misguided. I do not think 
we----
    The Chairman. Why don't we stipulate that we are against 
both fraud and intimidation?
    Senator Schumer. I would accept that stipulation and join 
with the Chairman in that courageous statement that he made. 
But again, I was just trying to establish some numbers here.
    Mr. Knack. I am not sure where you got your number.
    Senator Schumer. I did not get any number. I am just giving 
you impressionistic----
    Mr. Knack. No, you said millions were disenfranchised.
    Senator Schumer. That is my guess, that is true.
    Mr. Knack. I am wondering where the millions came from, 
because there are roughly two million invalid presidential 
ballots and we have no idea how many of those, I think a rough 
guess would be one-half of those are voluntary undervotes.
    Senator Dodd. But we were also talking though, Professor, 
about people who never got a chance to vote at all.
    Mr. Knack. So you are talking about people--so you are 
saying----
    Senator Dodd. Who were turned away at the polls, told they 
were not on the list.
    Mr. Knack. So you are saying there is a million people----
    Senator Schumer. Every election in New York City, as I say, 
either the lever comes off the machine, or more likely the 
machine breaks down. They then have paper ballots to deal with 
it but the lines end up being so long. I have seen this 25 
times with my own eyes minimum, of every minute people going 
into the polling place, seeing the line, and walking out. That 
is one person's experience. Admittedly, one who buzzes around 
election precincts on election day. But still----
    Mr. Knack. Obviously, waiting time is----
    Senator Schumer. So if you take the two million, it seems 
to me that the invalid ballots are, at least again in New York 
City and New York State where we have machine voting, which is 
slow but fairly accurate, there are many more people who are 
disenfranchised than we know. Then you get the secondary issue. 
You will get a good number of people who, if it happens to them 
once or twice and then have a half-hour that they can vote in 
because they are putting the kids to school and then they have 
got to be at work, then they stop showing up.
    Mr. Knack. The major cost of voting for anybody is time. If 
you define as disenfranchised anybody who declines to vote 
because they do not have the time, I think the true number 
would be more like 80 million or 100 million. So if you want to 
call those disenfranchised----
    Senator Schumer. I do not mean people who say, I would 
rather play golf or whatever. It is a little different when 
someone has made an effort to vote and it should take a half-
hour or 45 minutes, and then you make them make a choice of 
missing work or leaving the kids alone and voting, which is not 
a choice I think we should want to have in a democracy.
    Mr. Knack. Yes, lines are a problem in places and that is 
exactly why the punch cards were adopted in many counties with 
large populations was to reduce those lines.
    Senator Schumer. I have taken a lot of time here. Can I 
just see if I have anything that I really--thank you, Mr. 
Chairman.
    The Chairman. I am sorry we have ended up backing this last 
panel up. You are going to get short shrift, regretfully. But 
let us thank all of the second panel and call up the last 
panel. John Samples, director of the Center for Representative 
Government at the Cato Institute; Robert Williams, special 
policy advisor, United Cerebral Palsy Associations; Linda 
Chavez-Thompson of the AFL-CIO; and Deborah Phillips of the 
Voting Integrity Project.
    Senator Dodd. Mr. Chairman, I have to also make a truth-in-
advertising statement here. Bob Williams and I go back 20-some-
odd years. He was an intern in my office when I was a House 
member. Has gone on to a very distinguished career and made an 
incredible contribution in countless areas of public policy. He 
is one of the brightest, most talented people I have met in 
public life. I remember very clearly those days back in the 
1970s when this individual would show up on a regular basis in 
the office to work with us in Norwich, Connecticut in the 
bottom of the post office.
    Bob, it is truly an honor and a pleasure to see you still 
active and still committed and still working so hard. I am 
honored to be sitting on this panel today and receiving you as 
a witness before the Senate Rules Committee.
    Mr. Williams. Thank you.
    The Chairman. Thank you, panel. We will lead off with Mr. 
Samples.

 TESTIMONY AND PREPARED STATEMENTS OF JOHN SAMPLES, DIRECTOR, 
     CENTER FOR REPRESENTATIVE GOVERNMENT, CATO INSTITUTE, 
 WASHINGTON, D.C.; ROBERT R. WILLIAMS, SPECIAL POLICY ADVISOR, 
  UNITED CEREBRAL PALSY ASSOCIATIONS, INC., WASHINGTON, D.C.; 
   LINDA CHAVEZ-THOMPSON, EXECUTIVE VICE PRESIDENT, AFL-CIO, 
WASHINGTON, D.C.; AND DEBORAH M. PHILLIPS, CHAIRMAN, THE VOTING 
                INTEGRITY PROJECT, ARLINGTON, VA

                   STATEMENT OF JOHN SAMPLES

    Mr. Samples. Mr. Chairman and distinguished members of the 
committee, my name is John Samples. I am director of the Center 
for Representative Government at the Cato Institute. I wanted 
to thank you, Mr. Chairman, for inviting me to testify before 
the committee about election reform.
    In 1994, Congress passed the National Voter Registration 
Act, which is popularly known as motor voter. The aims of the 
law were to increase the number of registered voters, to 
enhance electoral turnout, to protect the integrity of the 
electoral process, and to ensure that accurate and current 
voter registration rolls were maintained.
    Registration rolls grew by 20 percent from 1994 to 1998, 
yet enhanced voter registration was never an end in itself. 
Many believed that the United States suffered from declining 
voter participation and that increasing registration would lead 
to higher voter turnout. Both of these beliefs have turned out 
to be wrong.
    First, declining participation. Political scientists have 
traditionally measured voting turnout as a percentage of voting 
age population. However, the Census Bureau's estimate of the 
voting age population includes several categories of persons 
ineligible to vote: non-citizens, disenfranchised felons, 
persons who have moved, and the mentally incompetent.
    Samuel Popkin and Michael McDonald, two political 
scientists, have produced a new and more accurate measure of 
the American population and turnout based on the percentage of 
the American population eligible to vote. The chart I brought 
with me indicates the revised estimates about turnout for 
presidential and off-year elections. Presidential is on the top 
and off-year elections is on the bottom.
    The conclusions we draw from this and McDonald and Popkin 
draw from this new measure of turnout is that since 1994 the 
trend in voting turnout in national elections has been 
basically flat during presidential years and slightly upward 
during non-presidential years. Conventional wisdom to the 
contrary, the United States has had steady turnout at the polls 
at the Federal level for about three decades. To the extent 
that motor voter tried to deal with declining turnout, it aimed 
to solve a problem that did not exist.
    Motor voter also has failed, it is generally acknowledged 
among political scientists, to increase voter turnout. Looking 
at Popkin and McDonald's numbers again you will notice that 
turnout after 1994 is very similar to turnout prior to the law.
    In summary, we have received very few of the benefits 
promised by motor voter. We have paid significant cost about 
which we have heard some today and will hear more later on this 
panel. The integrity of the electoral process has been thrown 
into question. Motor voter made it difficult and expensive to 
remove voters from registration rolls. As a result, the rolls 
are wildly inaccurate.
    I want to discuss the case of St. Louis, Missouri, both 
during and after election 2000 as an example of this. Recently, 
a voter registration drive in St. Louis delivered 3,800 voter 
registration cards to the elections board on the last day, on 
the deadline day for the primary that they just held on March 
7th. Through a series of circumstances--it was accidentally 
discovered that nearly all of those 3,800 cards were 
fraudulent.
    Now the St. Louis election board officials want to examine 
about 30,000 voter registration cards that came in right on the 
deadline day for the November 7th election. Now these last 
minute registrations last fall could have thrown into question 
the close November election in Missouri if a sizeable number 
turn out to be fraudulent, and if the election had been closer 
in many regards. The loose registration process set up by motor 
voter has cast doubt on the integrity and outcome of elections 
in Missouri last year.
    The rolls in general in the United States have cost 
taxpayers across the Nation thousands of dollars in clean-up 
cost and additional election expenses. We have also learned 
about the threat of voter fraud, and will learn more about that 
from this panel, posed by such wildly inaccurate rolls. The 
evidence from St. Louis and elsewhere strongly suggests the 
reality of registration fraud. I think, Mr. Chairman, we should 
ask why anyone would go to the trouble of committing 
registration fraud if they did not intend to follow through and 
commit vote fraud.
    Given the state of the registration rolls, a major vote 
fraud disaster remains a distinct possibility in our future.
    The Chairman. Mr. Samples, I hate to do this but your red 
light already. Can you summarize?
    Mr. Samples. I will sum up on one sentence. When you look 
at the benefits and the cost of motor voter, it seems ripe for 
reform.
    [The prepared statement of Mr. Samples follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you.
    Mr. Williams.

                STATEMENT OF ROBERT R. WILLIAMS

    Mr. Williams. Good morning, Chairman McConnell. Thank you 
for asking me to appear before you on behalf of United Cerebral 
Palsy Associations. It is a privilege to share our views on a 
matter of such urgency. Americans with disabilities, like all 
others, have a vital stake in the outcome of the policy 
discussions taking place here and in many States.
    I would like to take a moment of personal privilege, if I 
might, sir. Growing up I was inspired to public service by the 
words and deeds of John and Bobby Kennedy, Martin Luther King, 
and Franklin Roosevelt, whose example of leadership and 
disability is now accessible for all schoolchildren to learn 
from.
    But it was Representative Chris Dodd, who gave me a chance 
to test that dream with an internship in his office. That was 
July, l976. My memories of that month are not the tall ships 
fireworks, but of the opportunity I was given to prove to 
myself, and others far more disbelieving, that my dream would 
one day be reality. I thank you, Senator.
    Dr. King said, all of us can be great because all of us can 
serve. One of the most important forms of service we can offer 
to is that of voting in every election. This is a time-honored 
tradition that has no equal. Yet last November demonstrates 
that some of the ways we use to carry out our elections are 
badly in need of improvement.
    All Americans will benefit from legislation designed to 
bring our elections into the 21st century. But, those 54 
million of us with disabilities have some of the most to gain 
or lose from such legislation, depending on how it is crafted 
and implemented.
    In several polls Lou Harris has found that many people with 
disabilities follow politics at a higher rate than others. But 
the polls also show that as a group we register to vote, and 
vote, at substantially reduced rates than others. Though many 
factors explain why, this paradox exists, issues of access to 
the polling place, access to the ballot box, and access to the 
ballot itself top the list.
    There are already several Federal statutes that address 
access to the polling place. Cumulatively, these laws have 
improved things over the past 25 years. But the simple fact of 
the matter is that access to the polls is still a major 
problem, especially in very rural and urban areas.
    Moreover, given that one of the civics lessons that came 
out of last November was that many States do not bother to 
count absentee ballots unless someone demands a full recount, 
we have serious concerns about the fundamental fairness of this 
process as well.
    Many in Congress are rightly concerned about the disparate 
impact that various quirks in absentee ballot procedures can 
have on those in the armed services. We would respectfully urge 
that the same vigorous attention be paid to making voting 
absentee a fairer process for all Americans who must rely on 
it.
    In every election we also hear of at least some people with 
disabilities either being turned away from the polls entirely, 
or being talked out of voting or registering to vote, for no 
other reason than they have an obvious disability.
    In about half the States, people who have had legal 
guardians appointed for them, cannot, by law, vote at all. 
While on its face, such a prohibition might seem necessary to 
protect the integrity of the election process, there are many 
reasons why a guardian might be appointed for a person with a 
disability. Many of these have nothing to do with the 
individual's capacity to comprehend and cast their vote. Yet it 
is easier for convicted felons to have their voting rights 
restored than it is for many people with disabilities to 
legally cast a ballot in some States.
    I would, therefore, urge the Congress to work with the 
Administration, State election officials, the disability 
community and others to develop reasonable ways of remedying 
this problem.
    Let me now highlight certain basic elements that many of us 
believe need to be included in any serious electoral reform 
bill. The first is, of course, an explicit prohibition against 
any practice that deprives people of the right to register or 
vote on the basis of race, ethnicity, disability, gender, or 
any other partisan or prejudicial basis. There must be an 
explicit restatement of Federal civil rights law that, taken 
together, the Voting Rights Act, Section 504, the ADA and the 
equal protection clause, provide a sweeping mandate in this 
regard.
    Similarly, we believe electoral reform legislation must 
mandate that States and communities getting funding to improve 
their electoral processes need to assure equal access to the 
polls to Americans with disabilities. This means they must have 
polling places in accessible buildings. If for some extreme but 
valid reason a particular poll can not be made accessible or 
moved to an accessible location, then there should be other 
ways such as, curbside voting, offered as an accommodation. But 
this should be a rare exception, not the rule.
    It is 2001. ADA is a decade old. Section 504 was enacted 
when I was in high school and the Architectural Barriers Act 
went into effect when I was in a segregated special ed class, 
housed in a church rather than the public school, where our 
kind was not yet welcomed.
    The point being that some election officials have been 
saying for over 30 years, they need more time to find 
accessible voting places. Justice delayed this long is, quite 
simply, justice denied. Any electoral reform legislation 
enacted into law, therefore, needs to, at the very minimum, 
make access to the polling place a crucial and non-negotiable 
prerequisite to receiving Federal assistance.
    Similarly, such legislation needs to require that States 
and communities take proactive steps to assure universal access 
as well to both the ballot box, and the ballot itself. 
Technology at its finest is a lot like freedom; when it is 
available for all to use and benefit from equally, it unites 
and strengthens us as a nation and a people. But technology 
that is not accessible marginalizes and deeply divides us. This 
is one of the most important lessons we need to learn from 
Florida.
    It is also an area where we have a great deal of knowledge 
and experience to share with the rest of the Nation. The basic 
tenets of universal design first applied to public buildings 
and transit systems are now being used in the development of 
all kinds of technology, including the Internet.
    Three Federal agencies, the Access Board, the Federal 
Communications Commission, and the General Services 
Administration are on the leading edge of these efforts. We 
strongly recommend that Congress seek their advice as well as 
others on how best to achieve this vital objective. We are too 
great a nation not to tap the technological innovations of our 
day to ensure that Americans of every age and ability can pass 
the next ballot for President with confidence and in the 
secrecy of their own conscience.
    I fear I have used up both my time and welcome. I would 
though be most pleased to respond to any question or concern 
that the Committee might like to raise, either at this hearing 
or in writing. Thank you.
    [The prepared statement of Mr. Williams follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    
    The Chairman. Thank you very much, Mr. Williams.
    Now we will hear from Linda Chavez-Thompson from the AFL-
CIO.

               STATEMENT OF LINDA CHAVEZ-THOMPSON

    Ms. Chavez-Thompson. Mr. Chairman, Senators, distinguished 
members of the committee, I want to thank you today for the 
opportunity to appear today and share the experiences of union 
members in the 2000 election and to explain the AFL-CIO's 
perspective on the urgent national need for election reform. 
The AFL-CIO and its 66 national and international unions 
represent over 13 million workers throughout the United States. 
We are proud that over 2 million members registered to vote 
during the last 4 years and that 26 percent of the voters in 
the 2000 election hailed from union households. Due to the 
labor movement's efforts in 2000, there were 4.8 million more 
union household voters than in 1992. Regrettable, there were 
15.5 million fewer non-union household voters.
    These potential voters have no organized voice, and many 
are losing faith in our political system. Congress needs to act 
quickly and meaningfully to address some of the more 
significant problems associated with the last Presidential 
election in time for the next one.
    I think you heard from previous speakers about the 
complaints regarding the Florida elections. Many of our union 
members felt that they, too, had been denied their rights and 
called our Florida State AFL-CIO, and they were inundated with 
calls from union members eager to share their problems at the 
polls and anxious for meaningful relief.
    The Florida Labor Federation, assisted by staff and 
volunteers from other unions, participated in unprecedented 
grass-roots efforts to document these problems and seek 
immediate redress so that the final tally in the State would 
reflect the votes its citizens had sought to cast on November 
7th.
    As everyone now knows, however, the Florida courts and 
ultimately the United States Supreme Court shut door after door 
on all efforts to determine and effectuate the will of the 
people in the 2000 election in Florida. The election now is 
over as a practical matter of who was inaugurated and who was 
not. But the bitter experience remains fresh for many and it 
presents a tremendous challenge and opportunity to spark a new 
national voting rights movement to ensure that the wholesale 
disenfranchisement of voters in Florida and elsewhere is never 
repeated.
    The AFL-CIO is committed to reforms and principles 
fundamental to our democracy. In January of this year, we 
endorsed the following goals for election reform which we 
commend to you as useful guideposts in shaping genuine election 
reform.
    First, voter registration should be simple, easy, and 
designed to encourage voting through universal registration at 
age 18 and same-day registration and voting. Accurate and fair 
systems to maintain and update voter files are needed so that 
voters are not erroneously disenfranchised. Although the 
National Voter Registration Act of 1993, the motor-voter act, 
set national standards regarding voter registration by mail and 
when applying for driver's licenses, it must also include 
penalties for noncompliance and means for wrongly 
disenfranchised voters to vote after election day.
    Second, voting itself should be easy. With rare exception, 
voting in national elections is conducted during limited hours 
in a workday, so most voters must act during the first few or 
the last few hours the polls are opened. This arrangement is 
utterly ill-suited to how Americans live. In particular, for 
millions of working people, election day presents unacceptable 
choices among work, family, and voting. And even for those who 
make it to the polls, any irregularities or inefficiencies, 
such as the improper list purges in Florida, can prompt the 
collapse of whatever system is in place to assist voters who 
encounter any problem while trying to vote. Clearly, we must 
provide time off from work for voting, either a full holiday or 
paid leave during the day, and either extend voting hours or 
conduct multi-day or weekend elections. Also, voters should 
have an absolute right to challenge ballots if their names do 
not appear on the list. Sample ballots and voting instructions 
should be mailed to voters in advance of the election. Uniform 
and reasonable identification requirements and procedures 
should apply, and reasonable requalifications of felons should 
be afforded.
    Third, we must ensure that every gets counted. After all, 
at the very least, elections must register the actual choices 
of all who cast votes. Antiquated equipment, confusion ballots, 
and the failure of election officials to give adequate 
assistance led to many hundreds of thousands of votes not being 
counted throughout the Nation last November. This is a national 
disgrace, and solutions to these problems include a common 
ballot format in Federal elections, first-rate common voting 
technology, and effective training for poll workers.
    Finally, voting right laws should be aggressively enforced 
and penalties for violating voting rights must be strong enough 
to act as a meaningful deterrent. The Federal Voting Rights Act 
prohibits a wide range of conduct designed to prevent people 
from voting because of their race and includes a preclearance 
process applying to jurisdictions with histories of such 
abuses. However, the law does not explicitly allow retroactive 
relief except in limited circumstances. This must change.
    [The prepared statement of Ms. Chavez-Thompson on behalf of 
Richard Trumka follows:]

        Testimony of Richard Trumka, AFL-CIO Secretary-Treasurer

    Chairman McConnell, Senator Dodd, and distinguished members of the 
Committee: Thank you for the opportunity to appear today and share with 
you the experiences of union members in the 2000 election, and to 
explain the AFL-CIO'S perspective on the urgent national need for 
election reform. The AFL-CIO and its 66 national and international 
unions represent over 13 million workers throughout the United States. 
Union members reside in almost every towns and neighborhood, and their 
experiences in registering to vote and casting their ballots are 
reflective of those of all Americans. And, one of the labor movement's 
primary missions is to foster civic involvement--including voting--
particularly by union members and their families.
    We are proud that over two million members registered to vote 
during the last four years, and that 26% of the voters in the 2000 
election hailed from union households. Due to the labor movement's 
efforts, in 2000 there were 4.8 million more union household voters 
than in 1992. Regrettably, there were 15.5 million fewer non-union 
household voters. These potential voters have no organized voice and 
many are losing faith in our political system, a crisis of confidence 
that was exacerbated by the notorious problems many voters encountered 
in Florida and elsewhere last November. This mistrust will deepen and 
the dangers it portends for democracy worsen if Congress does not act 
quickly and meaningfully to address some of the more significant 
problems associated with the last Presidential election in time for the 
next one.
    Last Election Day, Florida erupted with complaints of confusing 
ballots, flawed voting equipment, unhelpful polling personnel, 
erroneous registration records and more blatant intimidations at the 
polls. Many lawfully registered voters were disenfranchised outright 
and many others cast votes that didn't count because of faulty 
equipment, faulty ballots or faulty procedures. When it became apparent 
that the state's presidential race had deadlocked, the Florida AFL-CIO 
and its affiliates were inundated with calls from union members eager 
to share their problems at the polls and anxious for meaningful relief. 
The Florida labor federation, assisted by staff and volunteers from 
other unions, participated in unprecedented grassroots efforts to 
document these problems and seek immediate redress so that the final 
tally in the state would reflect the votes its citizens had sought to 
cast on November 7.
    As everyone now knows, however, the Florida courts, and ultimately 
the United States Supreme Court, shut door after door on all efforts to 
determine and effectuate the will of the people in the 2000 election in 
Florida. The election is now over as a practical matter of who was 
inaugurated and who was not. But the bitter experience remains fresh 
for many, and it presents a tremendous challenge and opportunity to 
spark a new national voting rights movement to ensure that the 
wholesale disenfranchisement of voters in Florida and elsewhere is 
never repeated.
    The AFL-CIO is committed to reforms anchored in principles 
fundamental to our democracy--chief amongst them the idea that the 
right to vote is a right whose meaningful exercise is guaranteed to 
all, not a privilege reserved for the well-educated, the affluent, or 
the well-connected. The labor movement has renewed its commitment to 
vindicating that right at all levels of government, and we are actively 
engaged at both the state and federal level to reform an election 
system whose flaws have been so starkly exposed.
    Comprehensive national reform is only possible through a major 
federal role in setting standards and providing financial support for 
states' own efforts at modernizing and standardizing their voting 
systems. In January of this year, the AFL-CIO Executive Council 
endorsed the following goals for election reform, which we commend to 
you as useful guideposts in shaping genuine election reform.
    First, voter registration should be simple, easy and designed to 
encourage voting through universal registration at age 18 and same-day 
registration and voting. Accurate and fair systems to maintain and 
update voter files are needed so that voters are not erroneously 
disenfranchised. Although the National Voter Registration Act of 1993--
the ``Motor Voter Act''--set national standards regarding voter 
registration by mail and when applying for drivers' licenses, it must 
also include penalties for non-compliance and means for wrongly 
disenfranchised voters to vote after Election Day.
    Second, voting itself should be easy. With rare exception, voting 
in national elections is conducted during limited hours on a work day, 
so most voters must act during the first few and the last few hours the 
polls are open. This arrangement is utterly ill-suited to how Americans 
now live. In particular, for millions of working people Election Day 
presents unacceptable choices among work, family and voting. And, even 
for those who make it to the polls, any irregularities or 
inefficiencies, such as the improper list purges in Florida, can prompt 
the collapse of whatever system is in place to assist voters who 
encounter any problem while trying to vote. Clearly, we must provide 
time off from work for voting--either a full day holiday or paid leave 
during the day--and either extend voting hours or conduct multi-day or 
weekend elections. Also, voters should have an absolute right to vote 
challenged ballots if their names do not appear on the list; sample 
ballots and voting instructions should be mailed to voters in advance 
of the election; uniform and reasonable identification requirements and 
procedures should apply; and reasonable re-qualification of felons 
should be afforded.
    Third, we must ensure that every vote gets counted: after all, at 
the very least elections must register the actual choices of all who 
cast ballots. Antiquated equipment, confusing ballots and the failure 
of election officials to give adequate assistance led to many hundreds 
of thousands of votes not being counted throughout the nation last 
November. This is a national disgrace. The solutions to these problems 
include a common ballot format in federal elections; first-rate, common 
voting technology; and effective training for poll workers.
    Finally, voting rights laws should be aggressively enforced and 
penalties for violating voting rights must be strong enough to act as a 
meaningful deterrent. The Federal Voting Rights Act prohibits a wide 
range of conduct designed to prevent people from voting because of 
their race and includes a pre-clearance process applying to 
jurisdictions with histories of such abuses. However, the law does not 
explicitly allow retroactive relief except in limited circumstances. 
This must change.
    We have a signal opportunity now to fix systems and end practices 
that for too long have impaired the exercise of the most fundamental 
right of citizenship. The raw injustices revealed in the last election 
have not yet faded from public concern. This is an extraordinary 
opportunity to act decisively, and public expectations are rightly high 
that Congress will do so. Although some are cautioning that state 
prerogatives in election administration must be protected, the 
Constitution expressly reposes ultimate authority in the Congress over 
the times and manner of conducting federal elections. Modern voting 
rights legislation is premised on that authority, and election reform 
presents no less compelling a public policy imperative for its 
exercise.
    The AFL-CIO urges legislation that establishes precise standards 
and timetables for the modernization of all voting equipment used in 
federal elections, and for the adoption of registration and other 
voting procedures that achieve universal enfranchisement. We also urge 
the government to dedicate its resources generously to achieve the 
goals of full and fair voter participation. I have yet to see a cost 
estimate for comprehensive election reform that amounts to more than a 
tiny sliver of annual federal spending in an era when huge surpluses 
are piling up and mammoth tax cuts are discussed as the order of the 
day. History will not deal kindly with us if we fall short in either 
devising or funding the changes necessary to achieve a twenty-first 
century system for conducting our public elections.
    Thank you for your efforts to advance the cause of election reform 
and for your consideration of the views of the AFL-CIO.

    The Chairman. Thank you, Ms. Chavez-Thompson.
    Let me just mention here that I am going to have to leave 
at 1 o'clock, and I know that Ms. Phillips is getting the short 
end of the shrift here coming at the end. I am going to have 
written questions for all of you which you will have until 
Wednesday, May the 2nd, to answer, and the reason for that is 
that many of us are deeply involved in the campaign finance 
reform debate, which starts next Monday, and we are not going 
to be able to get back to this subject until some time later. 
Also, we are not going to have the hearing tomorrow that we had 
originally planned to have on this subject. I think we have all 
agreed that we need to resume this issue after we have finished 
up on campaign finance reform.
    So there will not be a hearing tomorrow. All the witnesses 
will have until--the hearing record will remain open until May 
the 2nd for us to submit questions and hopefully get answers 
from you.
    With that, Ms. Phillips, I hope you won't be offended if 
you I go walking out of here at 1 o'clock. Please proceed with 
your statement.
    Ms. Phillips. Well, I will be as quick as I can.
    Senator Dodd. I will be here.
    The Chairman. Senator Dodd is going to wrap up.
    Ms. Phillips. Thank you.
    Senator Dodd. I will be here for you. And let me just say 
to the Chairman, I thank the Chairman for having these 
hearings. And while there are a lot of different bills and a 
lot of different ideas, there are others we need to hear from 
as well. We didn't hear from all who were interested in this. 
The League of Women Voters I know wanted to appear and they are 
representative in some ways because they are part of a 
coalition. But we are certainly going to make that opportunity 
available, I am confident, down the road. And we have other 
colleagues who are interested as well as Secretaries of the 
States in various States who can offer, I think, a lot of 
wisdom in this discussion as well. So I appreciate the 
Chairman's willingness to have this hearing today and look 
forward to additional testimony. But I will be here to ask some 
questions and to listen to you, Ms. Phillips.

                STATEMENT OF DEBORAH M. PHILLIPS

    Ms. Phillips. Thank you. It is a privilege to be here, and 
thanks for my 5 minutes.
    My name is Deborah Phillips and I am the founder and 
chairman of the Voting Integrity Project. There are serious 
problems in America's elections that are being ignored in our 
recent debate on election 2000. American elections will 
probably always be vulnerable to vote buying, vote hauling, 
machine tampering, and electioneering. But the National Voter 
Registration Act has tied the hands of election directors to 
protect the rights of legitimate voters from the dilution of 
vote fraud, and this is a voter rights' issue of the highest 
magnitude.
    The NVRA instituted mail-in registration which depends 
solely on the honor system. There is no requirement to prove 
your identity, residence, or qualifications to vote. There is 
only a simple attestation form signed by the voter. That is why 
voter rolls are filled with the dead, those who have moved out 
of the area, convicted felons, non-citizens, or fictitious 
persons. Once registered, it is very easy to vote such names.
    Most jurisdictions do not require any form of 
identification at the polls. Those that do can be bypassed by 
mail-in absentee ballots. The use of such ballots is 
increasing, and procedures for verification are even more lax 
than in-person voting.
    Election directors have a very limited ability under 
Federal law to prevent or detect such fraud. In VIP's written 
submission, we have included State-by-State sampling of 
election and voter registration fraud cases since 
implementation of NVRA. Some of the cases have received 
national attention, but most are little known outside their 
immediate area. Almost all these cases are aided by NVRA's 
constraints on maintaining clean voter rolls.
    How extensive is the problem? California estimated in 1997 
that 10 to 25 percent of its voter rolls were contaminated. Yet 
problems have persisted. A criminal investigation in Los 
Angeles in 1998 found as many as 16,000 fictitious voters 
registered by paid collectors.
    There have been instances reported where the number of 
registrations defies logic. In 1998, Alaska had 66,000 more 
registered voters than census estimates of its voting age 
population. In the year 2000 alone, more than 15,000 dead 
people were found on Georgia's active voting records. As many 
as one in five registrations on Indiana voter rolls were found 
to be bogus. In Tulsa, hundreds of dead and felon registrants 
were identified on the voter rolls, and many had voted. A 
recent St. Louis investigation, already mentioned, had 
thousands of registrations submitted by one collector just 
before a deadline that were found to be fraudulent.
    The short time frames and level of proof required by most 
State election statutes is prohibitive to bringing a successful 
election contest based on fraud, and criminal prosecutions are 
not popular because they require substantial budgets to 
investigate and have low success rates.
    In 1998, for example, the FBI declined to investigate 39 
forged absentee ballots from personal-care homes in Fayette 
County, Pennsylvania. It took a local prosecutor 2 years to 
indict three defendants who plea bargained the charges down to 
misdemeanors, a frequent occurrence in election fraud 
prosecutions.
    Defective ballots from our most vulnerable citizens is on 
the rise. Most States do no have adequate mechanisms to protect 
seniors and the disabled from vote theft. Many allow others to 
request absentee ballots on behalf of residents, so there may 
not even be an awareness that a vote has been cast on their 
behalf.
    But the biggest problem is dirty voter rolls. VIP has 
studied voter roll maintenance procedures to understand the 
barriers election officials face in maintaining pristine voter 
rolls. VIP concluded that even when resources are available, it 
is a process fraught with potential problems. Once a 
computerized match is completed, substantial manual due 
diligence must be performed before any notification to the 
voter. In Florida, last year, some jurisdictions purged 
misidentified voters without performing such due diligence, 
resulting in disenfranchisement. Other jurisdictions refused to 
purge based on faulty data rolls and permitted invalid 
registrants to vote. Neither scenario is acceptable.
    The greatest irony of all is that NVRA may also have 
resulted in a record number of voters who registered properly 
being unable to vote. Georgia is investigating such a case now 
involving large numbers of minority students registered by a 
community organization. NVRA's recommended fail-safe provisions 
failed these voters. That is why VIP supports reasonable 
amendments to NVRA that will allow election directors to more 
easily verify a voter's identity. And we have details in the 
written testimony, and I see that the light just went on.
    [The prepared statement of Ms. Phillips follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]





    
    The Chairman. Thank you, Ms. Phillips.
    Senator Dodd, I am going to pass the baton to you and 
repeat that I will have questions for all of you in writing, 
which I would very much appreciate your responding to. And 
thank you for being here, and I apologize for the rhythm of the 
Senate, which frequently sends us off in a different direction.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman, and I will 
keep this relatively brief for you and probably submit some 
additional questions as well.
    I just want to make a comment. I should have said this 
earlier. We have talked about the 1.4 million poll workers who 
are recruited to participate each election cycle. And I 
wouldn't want to leave the impression that I thought there was 
any serious problem with the majority of these people, because 
I think many of them really do step forward out of a sense of 
civic duty and desire to assist. It has been a remarkable 
achievement in some ways, despite the obvious shortcomings that 
exist today, the fact that people who are average citizens will 
give as much time as they do at a modest salary for a day to 
try and make our elections work as well as they can. So I want 
to express my gratitude to the millions of people who have done 
this over the years and thank them for their service.
    Let me begin, Ms. Chavez-Thompson, by thanking you and all 
of you for being here. I found your argument compelling, that 
comprehensive national reform for elections is only possible 
through a major Federal role. Specifically, what would you 
recommend as the appropriate Federal role in election reform?
    Ms. Chavez-Thompson. I think what we need to do is to make 
sure that--one of the problems that we heard repeatedly after 
the Florida elections--and it wasn't just Florida; we heard 
stories from Illinois, et cetera--was that when voters arrived, 
the feeling of--they felt like they weren't supposed to be 
there. Some monitoring, some Federal intervention is needed so 
that there isn't one single voter who has a feeling that when 
they go to the poll that they are not supposed to be there. We 
have to make sure that whatever rules we pass, whatever laws we 
pass, do not disenfranchise one single voter because of the 
color of their skin, the language barrier, or anything else, a 
disability, accessibility.
    And if we don't provide those kinds of protections in any 
kind of rules that we pass, then we are not doing our jobs as 
leaders within our communities or within our organizations or 
within Congress to make sure that there isn't a single person 
who goes to vote that has a right to vote that doesn't have--
that feels disenfranchised the minute that they walk in by 
whatever happens in that voting place.
    Senator Dodd. Some of the proposals we have had 
acknowledged that obviously changes to the technology have to 
occur. But they may not occur. Even if you exclude 20 percent 
of the equipment, which was the number given to us earlier of 
those machines that may be more than adequate to meet the 
challenge today, replacements of significant numbers of 
equipment would still have to occur in order to just deal with 
the technological glitch issues. This is aside from the other 
issues of disenfranchisement. This may not occur until 2004 or 
2008, some have projected ahead, and I wonder if you might be 
able to provide us with some guidance as to would be a more 
realistic time frame and date for the modernization of voting 
systems based on----
    Ms. Chavez-Thompson. It has to begin by 2004, and we could, 
in fact, get it done by 2004 if we eliminate some of the tax 
cuts that are being proposed at this time and use that money 
for upgrading our voting system.
    Senator Dodd. The point is, is it your testimony that the 
technology exists? It is not a question of inventing the 
technology as such.
    Ms. Chavez-Thompson. It is there. It is there. We can apply 
it. It can be done. And I think that if we applied ourselves 
and if everybody was able to endorse one piece of legislation 
that is a nonpartisan piece of legislation, it could be done by 
the next Presidential elections. I don't want to have to go 
through and try to explain even to my 12-year-old grandson 
after the election in November--he is 12 years old, and he was 
wondering what was going on. Why didn't we have a President? 
When you try to explain a complexity of reasons of why there is 
no President yet to a 12-year-old, can you just imagine the 
frustration of so many others who found it very difficult to 
understand?
    We have to do something before the next Presidential 
elections.
    Senator Dodd. Mr. Williams, I saw you in your testimony 
indicate this as well. Is it your sense, the sense of the 
disability community, that the technology exists today? Or is 
there some sense that more modernization or improvements would 
have to occur before people could take advantage of existing 
technology to eliminate the barriers that you identified in 
your testimony?
    Mr. Williams. We believe that the majority of the 
technology we are discussing today is already available. It is 
a question of States and communities recognizing what is out 
there.
    Senator Dodd. Thank you. I agree with that. I thank you for 
that.
    Let me ask you again, Ms. Chavez, I meant to bring up the 
types of standards, that should be established for election 
administration in Federal elections. I wonder if you might 
describe the types of standards that should be established, in 
your view, and in what areas of Federal elections these 
standards should apply.
    Ms. Chavez-Thompson. I think they should apply especially 
at the Federal level because what we have seen is what is in 
place today is so haphazard from State to State, the rules are 
changed from State to State, there is major confusion, 
especially in those areas where there is a high concentration 
of minority voters. And if we don't standardize on a national 
level in the Federal election, if we don't standardize every 
single State and provide the necessary equipment, then the 
continuation of disenfranchisement and the continuation of a 
lack of citizens being able to exercise their right to vote 
will continue. But we believe that standards should be 
certainly established by Congress and funded through a cost of 
Congress.
    Senator Dodd. Well, I thank you for that.
    Let me ask you, Mr. Samples, you talked about voter fraud. 
Again, I think Senator Schumer raised the issue effectively and 
there is no debate here. We will stipulate that obviously voter 
fraud is something that needs to be addressed. And I guess this 
goes to you as well, Ms. Phillips, since you have addressed the 
issue as well. No one argues about that. But the point was made 
earlier to the previous panel that, in addition to dealing with 
voter fraud issues, there is obviously the significant issue of 
voter disenfranchisement, where people are turned away from the 
polls or denied the opportunity to register or, having 
registered, people don't find them or they shift polling 
places. And then it was conceded by the other panelists that 
those numbers are vastly in excess of the instances of fraud. 
And while no one is wanting to condone fraud at all, if a vote 
is cast illegally, a vote is cast that should not be cast or a 
vote is denied that should have been cast, the net effect in 
terms of the electoral process is the same.
    Now, you take a different view of that, and I want to give 
you a chance to respond to that. In trying to guarantee that 
all people who have the right to vote have their votes counted, 
there is a legitimate debate, obviously, about how you deal 
with these matters. But, from our perspective of trying to 
guarantee those rights to people that have the right to vote, 
would you disagree with the earlier conclusions about the 
numbers, that there are vastly more significant numbers of 
those who are disenfranchised from voting, one? And, two, what 
statistics and data do you provide besides the anecdotal cases? 
Are you aware of any organizations or agencies involved in 
collecting national statistics on vote fraud? And, in your own 
work involving data collection of vote fraud, do you have any 
sense of the projected percentage of vote fraud in national 
elections that we are looking at? And I wonder if you have any 
specific recommendations from a national perspective? Since so 
much of this debate may center around whether or not we have 
any right at all--I am sure there will be some who will suggest 
that the Federal Government shouldn't be setting standards, 
legally and constitutionally, to be involved in Presidential 
elections.
    So, in the face of all of that, how would you respond to 
some of those questions?
    Mr. Samples. Let me go first----
    Senator Dodd. Ms. Phillips, since you have been involved in 
this as well, why don't you chime in wherever you feel like it?
    Mr. Samples. Let me say, first of all, that I consider Ms. 
Phillips the premier data specialist on this, so I will defer 
to her on a lot of that. But I would like to make a couple of 
points, one of which is I would be a little more agnostic than 
we have been so far about balancing the numbers, because I 
think there is just a lot we don't know, and voter fraud, by 
the nature of the case, a lot of times you are not going to 
know that.
    But I would also on a second point try to change the 
framework we are looking at this a little bit. It is a little 
bit like the whole question of corruption in government. We are 
concerned and Congress is concerned about preventing both 
corruption and the appearance of corruption, Senator, and I 
think with voter fraud, Congress ought to be concerned with 
both the existence, the real existence of fraud, but also 
preventing the appearance of it. And one way to do that, I 
think, is to deal with a lot of the problems with the rolls 
which inadvertently create this kind of appearance in many 
cases, and, I should also say, create the appearance without 
really creating any real benefit on the other end from the 
National Voter Registration Act.
    Ms. Phillips now.
    Ms. Phillips. The truth is, Senator, that we don't really 
know----
    Senator Dodd. Let me stop you there. Would you not also 
agree that the perception or the appearance that people are 
being denied the right to vote because of bureaucratic snafus, 
to use the jargon of the day, imposes a similar set of 
problems?
    Mr. Samples. I would think so, but I would say also that 
that would have to be--Professor Knack talked about the use of 
the term ``disenfranchisement.'' I think that would have to 
also be rooted in real analysis and a strong sense of reality.
    Senator Dodd. Ms. Phillips?
    Ms. Phillips. NVRA, as you know, was fully implemented only 
in 1996. So there really hasn't been a lot of time even for the 
FEA, the Federal Election Administration, a portion of the 
Federal Election Commission, to amass any great data on it. 
Certainly we have not--as regards disenfranchising voters, that 
really is a voter roll problem, if you think about it. And we 
support the fail-safe provisions that NVRA advocates for 
provisional balloting. But, unfortunately, there just--it 
doesn't always filter down to the poll workers.
    And so we think that----
    Senator Dodd. What can we do? What would you recommend we 
do?
    Ms. Phillips. Well, we really are--I haven't had a chance 
to study your bill, Senator, but there are many provisions of 
the McConnell-Torricelli bill----
    Senator Dodd. We talk about provisional voting, but we have 
left open the issue of how you do this effectively, and there 
will be a hot debate about it. But I think you can do it. If 
smart people get together, it seems to me that ought to not be 
an insurmountable problem.
    Ms. Phillips. Well, you need more time. Certainly it would 
make impossible these instance tallies in close elections. You 
might have to delay, you know, announcing a tally to give 
enough time in a close election. I think there are legitimate 
reasons why provisional balloting could address a lot of the 
disenfranchisement that is going on now.
    But it wouldn't address the issue of voter fraud and 
diluting legitimate votes because of stolen votes. That could 
only be addressed by ramping up the ability to clean up the 
voter rolls, which we just don't have now.
    Senator Dodd. This is an interesting subject, and I don't 
want to tie you up all day. But doesn't that sort of cry out, 
then, for some national standards here? So, that way, we have 
some ability to at least--not that Washington is going to be 
dictating to my town of East Haddam, Connecticut, or some 
county in Virginia or Texas or elsewhere, have some national 
standards by which we can start to apply the law. Then, we can 
begin to offer the assistance and the backing to help us root 
out both the problem of disenfranchised voters as well as those 
who would scam the system and commit fraud?
    Ms. Phillips. Well, from what I understand about your bill, 
it would mandate provisional voting, and I think that that may 
be a standard that needs to be applied nationally. But I think 
before we start talking about national standards for equipment 
and best practices, we need to study it. And without that 
study, we could be forcing a new set of problems on States such 
as NVRA presented to the States.
    Also, if you are going to study the problem and set up a 
list of recommended best practices, you need to sweeten--you 
need to impose another unfunded Federal mandate on the States, 
which NVRA----
    Senator Dodd. I agree with that. We have to provide some 
resources.
    Ms. Phillips. Right.
    Senator Dodd. And I want to suggest that my own view is 
that there should be some commensurate participation 
financially as well. It isn't just a Federal----
    Ms. Phillips. Well, in most communities. Some communities 
might not participate if they have to meet a matching grant.
    Senator Dodd. We need to look at that. But we should 
certainly try and encourage local participation.
    Well, listen, I appreciate this, and I have taken you 
beyond the time that we said we would have you here. I am going 
to ask--since I am the only one here, I guess I get to do this, 
anyway. But I would ask unanimous consent that some documents 
and statements be included in the record, a statement of Raoul 
Segara, the president of the National Council of La Raza; a 
report of the GAO entitled ``The Scope of Congressional 
Authority in Election Administration''; a statement by Barbara 
Arnwein, the executive director of the Lawyers' Committee for 
Civil Rights Under Law; a statement by Congresswoman Sheila 
Jackson Lee, the 18th District of Texas. I would also suggest 
that it might make sense to compile all of these additional 
statements, and any others that may be submitted in an appendix 
to the hearing record so that they are available to the public 
but do not unnecessarily encumber the actual hearing record. 
And I will leave the record open for any additional statements 
that other members may want to add, and questions that they may 
want to submit to you.
    I thank you all for being patient, sitting here a long time 
to listen to other people give testimony, but it has been very 
helpful. As a result of this, I see some common themes emerging 
from the three panels we had. We are all benefited on this side 
of the dais from hearing from people who think about this a lot 
more frequently than we do. So I thank you all for coming and 
submitting your remarks. I am particularly appreciative of the 
AFL-CIO for their support of the Conyers-Dodd bill. We have 
enjoyed working with you over the last few weeks.
    Ms. Phillips, I would encourage you to look at this. Let me 
know what you think of it. We are interested in getting comment 
on how we might strengthen it--any suggestions you would have.
    Ms. Phillips. I would be happy to do that.
    Senator Dodd. Mr. Williams, it has been 25, 26 years since 
we have been dealing with each other, and you have once again 
distinguished yourself with your testimony here today. And I 
look forward to working with you as well.
    With that, the committee will stand adjourned until further 
call of the Chair.
    [Whereupon, at 1:15 p.m., the committee was adjourned.]
    [The following statements were submitted for the record.]






                            ELECTION REFORM

                              ----------                              


  REPORT OF THE U.S. COMMISSION ON CIVIL RIGHTS ON THE NOVEMBER 2000 
                 ELECTION AND ON ELECTION REFORM ISSUES

                              ----------                              


                        WEDNESDAY, JUNE 27, 2001

                                       U.S. Senate,
                     Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:37 a.m., in 
room SR-301, Russell Senate Office Building, Hon. Christopher 
J. Dodd, (chairman of the committee), presiding.
    Present: Senators Dodd, Inouye, Feinstein, Torricelli, 
Schumer, and McConnell.
    Staff Present: Kennie L. Gill, Staff Director and Chief 
Counsel; Veronica M. Gillespie, Elections Counsel; Carole 
Blessington, Administrative Assistant; Tamara Somerville, 
Republican Staff Director; Brian Lewis, Republican Chief 
Counsel; Leon R. Sequeira, Republican Counsel; Jill Szczesny, 
Deputy Chief Clerk; and Lindsay Ott, Staff Assistant.

OPENING STATEMENT OF HON. CHRISTOPHER J. DODD, CHAIRMAN, A U.S. 
             SENATOR FROM THE STATE OF CONNECTICUT

    The Chairman. Good morning. Will the committee please come 
to order?
    I apologize for the confusion here at the outset, but we 
are about to start voting on an amendment on the floor, and I 
thought it might be wise to wait and have the first vote before 
we started. But it has already been 10 minutes without the vote 
occurring, so rather than try and anticipate floor action, we 
will begin the process. I think what we will do, talking to my 
friend and colleague from Kentucky, is that I will open up with 
a statement, and if the vote starts, then the Senator from 
Kentucky may go and make that vote. When he comes back, I will 
go over and vote, and we will cover the ground as quickly as we 
can. As I speak, the vote begins here.
    I welcome all this morning, and I am pleased to open this 
hearing with a few brief remarks before turning to my ranking 
member and other members of the committee who may wish to make 
some opening comments or statements.
    First, let me say it is something of an unexpected pleasure 
and privilege to convene this committee as its chairman. For 
the first time in the history of our Republic, the Senate has 
changed its leadership in mid-season. As a result, I find 
myself following in the footsteps of a very esteemed group of 
previous Chairs, including the gentleman who was just sitting 
to my right, who will be back shortly, Senator Mitch McConnell 
of Kentucky. And I want to thank him for all his courtesies 
during his stewardship as chairman.
    I also served on this committee under the leadership of 
another Senator from Kentucky, Wendell Ford, as well as Senator 
Byrd, Senator Stevens, Mac Mathias, Senator Pell, a long list. 
If you look up here on the committee wall to my left, you will 
see the people who have served as Chairs of this committee: 
Senator Warner, Senator Stevens. And so I am deeply honored 
this morning to be following in the footsteps of these people 
who have served as chairman of this committee.
    Today, the committee considers what I believe is one of our 
most important matters of jurisdiction. Normally one thinks of 
the Rules Committee as a committee that deals with the 
infrastructure of the capital and of the Senate's day-to-day 
workings, including the Library of Congress, the Smithsonian, 
and other institutions.
    But one of the most profound legislative responsibilities 
that any committee could have is to deal with campaigns and 
elections, and this committee has the jurisdiction over 
elections and campaigns. And certainly no issue could be more 
important to every single citizen in this country than the 
issue of who is qualified to vote, whether they can vote, and 
the assurance that when they do vote, their vote will be 
counted.
    Our focus this morning is on the report of the U.S. Civil 
Rights Commission pertaining to last year's election in the 
State of Florida and across this country. We are pleased to 
have as witnesses the Chairwoman of the Commission, Mary 
Frances Berry, and other distinguished witnesses to discuss 
this report in the larger context of election reform.
    Allow me to say at the very outset of these hearings that I 
am well aware that this report has generated controversy and 
consternation in some quarters. On one level, this fact should 
surprise no one. For as long as our country has existed, the 
issue of civil rights has been the source of controversy. And 
for as long as it has existed, some four decades now, the Civil 
Rights Commission has not shied away from examining civil 
rights matters, and I commend them for it.
    To those who would take issue with this report, let me make 
three brief points in response.
    First, it would have been irresponsible in my view for the 
U.S. Commission on Civil Rights not to examine the Florida 
election, given the profound civil rights issues that were 
raised by last fall's vote.
    Second, I do not know of anyone, Republican or Democrat, 
who can say that what happened last year in Florida and other 
parts of the country was fine, acceptable, and represented the 
best that we are capable of.
    Third, the focus of this hearing is not on the Commission 
but on the election and what we might do to see that it does 
not happen again.
    We want to hear from our witnesses today, and in the days 
and weeks to come, about how we can make our elections work 
better for all Americans. And then we want to make the 
necessary changes in our election laws so that our elections 
will work better for all of our citizens.
    No one who observed the events of last November and 
December can fail to have some concerns, deep concerns, about 
the health of our electoral system. To this day, many millions 
of Americans remain hurt--deeply hurt--and offended by what 
took place last year, not just in one State but in States and 
precincts throughout our Nation.
    It has been credibly estimated that 2 to 2.5 million 
eligible voters who dutifully lined up and went to vote last 
November 7th were wrongfully denied the right to exercise their 
franchise. These are people whose ballots were improperly 
invalidated, whose names were erroneously purged from the rolls 
of eligible voters, or who were unable to vote because their 
polling precincts did not accommodate people with disabilities 
or people for whom English is not their native language.
    I represent a State of approximately 3.5 million people. 
Imagine, if you will, the population of my entire State, every 
man, woman, and child, showing up to vote and being denied the 
opportunity to do so. That was the magnitude of the problem 
that occurred.
    Fortunately, there is little argument within the Senate 
about the dimensions of the problem our country faces in 
strengthening our electoral system. There is overwhelming 
bipartisan agreement that what transpired last fall must not be 
allowed to happen again. That is the very good news.
    Indeed, the ranking member of our committee, Senator 
McConnell, has already held hearings--and I commend him for 
it--on the issue of electoral reform. Senator McConnell has 
also introduced legislation along with other members of this 
committee and Members of the Senate, and there are other bills 
that have been introduced, addressing the issue of electoral 
reform.
    Senator McConnell's bill, like the one that I have 
introduced with Congressman John Conyers of Michigan, would 
devote substantial new resources to States wishing to purchase 
new voting technologies. Like our bill, Senator McConnell's 
bill would create incentives and resources to allow States on a 
voluntary basis to train poll workers, to update voting rolls, 
and to implement other reforms.
    Our bills have much in common, but there are also some very 
critical differences. The Dodd-Conyers bill would establish 
three requirements throughout the States, independent of 
whether or not they accept Federal funds. These requirements 
are: one, that all voters have the benefit of studying sample 
ballots before election day so that they are not flying blind 
when they enter a polling booth; two, that voters be allowed to 
provisionally vote so that they know that a second effort will 
be made by election officials to ensure that their vote, if 
lawful, is counted; and, three, that all polling places provide 
equal access to voters, whether they be able-bodied, disabled, 
sighted or visually impaired, English-speaking or non-English 
speaking.
    Some say that these provisions are unwarranted and would 
intrude on State and local election practices. But, in my view, 
these three provisions have the virtue of modesty. In this day 
and age, when voters routinely face a bewildering array of 
decisions on races and referenda, can anyone seriously argue 
that they should not have prior access to a copy of the ballot 
that they will confront when they pull the curtain at the 
voting booth in their community?
    Can anyone seriously argue that a citizen duly registered 
to vote should not have a chance to provisionally vote if 
otherwise he or she would be denied the right to cast a vote 
due to no fault of their own?
    And can anyone say that, after what happened last November, 
we should not ensure equal access to the voting booth for all 
Americans, including the visually impaired, people with 
disabilities, the elderly, the infirm, and racial and language 
minorities?
    The answer to these questions in my view is self-evident. 
These provisions are especially modest when viewed through the 
prism of the past. Throughout our Nation's history, when 
fundamental rights have been at stake, we have not failed to 
act as a Nation to secure those rights. In 1954, the Supreme 
Court did not say that school districts may desegregate 
classrooms. It said that they must do so, and do so with all 
deliberate speed.
    In 1964, the United States Congress did not say that public 
places may be desegregated, but that they must be desegregated.
    One year later, in 1965, the Congress did not say that 
States may abolish a poll tax or literacy test and other 
barriers to the franchise. The Congress said they must abolish 
such practices.
    And 11 years ago, we did not enact an Americans with 
Disabilities Act that made access to public and private places 
optional. We made it mandatory, to ensure that all Americans 
can exercise their fundamental rights to association and 
travel.
    In a democracy, the voting booth is hallowed ground. There 
the promise of freedom finds its purest expression. There the 
noblest political aspirations of humankind find form and 
purpose. The very least we ought to do in this Congress is 
ensure that the voting booth receives the same status in our 
national law as the restroom and the restaurant, that it be a 
place where equal access for all is absolutely guaranteed.
    The flaws in our election system require more than money 
and more than a menu of options that States are free to 
disregard as they wish. What is at stake is securing for this 
and future generations the right to vote, which is the North 
Star in the constellation of rights and privileges that we 
enjoy as citizens of this blessed land.
    Fifty Senators have already agreed on this fundamental 
point. I am hopeful and confident that in the days and weeks to 
come even more will unite behind this effort, including, of 
course, members of both parties. It is un-American and wrong to 
have an election system where certain classes of voters, racial 
minorities, language minorities, the blind, disabled, are 
disenfranchised at significantly higher rates than voters not 
in those classes. And until we can say as one Nation that the 
differences in their disenfranchisement are insignificant, then 
our work as a Congress and a country is unfinished.
    With that, let me turn to my friend from Hawaii who is here 
for any opening comments he may want to make and then at that 
point I presume that my friend from Kentucky will return.

  OPENING STATEMENT OF HON. DANIEL K. INOUYE, MEMBER, A U.S. 
                SENATOR FROM THE STATE OF HAWAII

    Senator Inouye. Mr. Chairman, I wish to commend you for 
your most profound statement and to commend you for convening 
this hearing. I think it is a very important hearing. I wish I 
could stay here to listen to all of the witnesses, but as one 
can surmise from the change in command here, we have new 
responsibilities. I hope you will understand.
    The Chairman. I do understand that, and I thank you.
    The committee will stand in recess, and Senator McConnell 
will reconvene as soon as he comes in. We will begin with his 
opening statement, and I will come right back for your opening 
statement, Ms. Berry.
    The committee stands in recess.
    [Recess.]

 OPENING STATE OF HON. MITCH McCONNELL, RANKING MEMBER, A U.S. 
               SENATOR FROM THE STATE OF KENTUCKY

    Senator McConnell. In case anyone thinks there has been a 
coup, I have not reassumed the chairmanship here but, rather, 
in the interest of time, the chairman and I agreed that I would 
make my opening statement while he is voting and on the way 
back.
    In March, this committee heard testimony from individuals 
representing diverse interests and viewpoints. We learned that 
problems extend well beyond the machines used to cast votes, to 
accurate lists of eligible and registered voters, 
accessibility, military voters, and voter and poll worker 
training.
    We also learned that, contrary to what has been reported, 
counties which have punch card machines tend to be the larger 
and richer counties.
    Since the November elections, more than 62 hearings on 
election reform have been held at the national and State level. 
The problems have been much discussed, from ballot design to 
votes by dead people and household pets.
    Fortunately, there is substantial bipartisan support to 
move ahead with solutions. By way of example, the McConnell-
Schumer-Torricelli-Brownback bipartisan election reform bill 
has 70 cosponsors, 31 of them Democrats, 38 Republicans, and 
one Independent. The roster includes a majority of the members 
of this committee. In addition, the New York Times, Common 
Cause, and the League of Women Voters are supporting this 
legislation. I must say this alliance was a little 
disconcerting to me at the outset, but I have carefully 
reviewed the bill and could not find a soft money ban lurking 
anywhere in it. [Laughter.]
    So we will just enjoy the camaraderie of old foes coming 
together on an issue that is fundamental to our democracy, and 
that is nice for a change.
    Election reform is an issue upon which there is much 
consensus. Everyone agrees we should provide resources to 
States and localities to improve their systems and election 
administration.
    The differences are primarily in approach. One aspect in 
dispute is the suitable role for the Federal Government in this 
process, whether it should mandate specific technologies and 
administrative practices which traditionally are the 50 States' 
prerogative. The McConnell-Schumer-Torricelli-Brownback bill, 
as Senator Schumer has stated, takes a carrot rather than a 
stick approach. Our bill recognizes that the conduct of 
elections in New York City varies dramatically from that in 
Paducah, Kentucky. Their needs are different, so their 
processes have evolved differently over the years.
    Moreover, at the Federal level, there are already two 
agencies involved in election administration issues: the 
Federal Election Commission and the Department of Defense. 
Introducing a third or fourth entity into the process with 
little to no expertise will impede rather than expedite 
solutions to the problems. Rather than dictate from Washington, 
we should empower the States and localities with essential data 
from a centralized source, as well as provide financial 
resources overseen by experts in this area.
    Our bill is designed to address the three A's of election 
reform: accuracy, access, and accountability.
    Mr. Chairman, I look forward to hearing from our first 
panel. Over the past few months, many questions have been 
raised about the final report of the U.S. Commission on Civil 
Rights, received just yesterday afternoon, all 300 pages of it.
    It is also interesting to note that this eight-member 
bipartisan Commission had only one Republican Commissioner. I 
look forward to testimony on the dynamics of bipartisanship 
under those circumstances.
    Further, while the charge of the Commission appears to be 
quite broad, the report itself, while large in girth, is rather 
narrow in scope. The draft report does not address issues 
related to the many votes cast by people ineligible to vote. It 
does not address the thousands in the western part of Florida, 
a time zone apart from the rest of the State, who were 
dissuaded from voting because the news media had already called 
the race and reported the polls were closed when, in fact, they 
were still open. And the draft report does not examine the 
questions of how American servicemen and women overseas were 
disrespected and even disenfranchised.
    I am glad that we are taking the time to hear opening 
statements and to discuss this report with the Chairwoman, Ms. 
Berry, and Ms. Thernstrom, the sole Republican Commissioner. 
And I thank the chairman for calling this hearing. But I feel 
strongly that the problems are already well known and we should 
hasten to act on election reform.
    Prior to the change in the majority in the Senate, 
Republicans were ready to move legislation on the floor prior 
to the July 4th recess. I hope that we will not put this floor 
debate off too long, particularly since we have a measure 
supported by 70 percent of the Senate.
    Finally, I noted in the Washington Post today an 
interesting op-ed by Senator Kit Bond from Missouri about the 
problems experienced in his State in the last election. I 
understand, Mr. Chairman, that Members of the Senate will get a 
chance to testify a little bit later. I would like to ask that 
that be made a part of the record at this point.
    The Chairman. Without objection, so ordered.
    [The op-ed is Appendix 9, p. 692.]
    Senator McConnell. Finally, Mr. Chairman, I wish you well 
as you embark on the chairmanship. I have enjoyed our 
friendship over the years and look forward to working with you 
in my new reduced role, and I appreciate the hearing that you 
are holding today and look forward to hearing from the 
witnesses.
    The Chairman. Well, thank you very much.
    As I mentioned before when you were over voting, I 
commended you, Mr. Chairman. You have had a hearing on this 
subject--I still call you ``Mr. Chairman.'' It takes us a while 
here to----
    Senator McConnell. You do not need to change on my account. 
[Laughter.]
    The Chairman. Well, I appreciate it. These roles may change 
three or four times in the next year or so. The margins here 
are not substantial. So one not ought to become too comfortable 
in declaring themselves to be of a certain title. Obviously the 
Senate only functions when you are operating on a bipartisan 
basis. So I have enjoyed our relationship, enjoyed serving 
under you as a ranking member, and I am confident I will enjoy 
working with you as chairman of the committee.
    For those who have been interested, there will be an 
opportunity for Members of the Senate. There are a number who 
would like to be heard on the issue. They will certainly be 
given that opportunity.
    I also would like at some point to try and do some field 
hearings. We have hearings in Washington all the time, and I 
thought it might be worthwhile, given the fact that this is not 
just a Florida issue. The Commission obviously focuses on 
Florida, and it is serious. It was the narrowest election in 
the Nation's history and ended up being decided in a 5-4 
decision in the building across the street. And so the girth of 
the report is, I think, an indication of the magnitude of the 
problem, and not just in Florida but across the country. And 
that is reflected, I think, by the interest in the subject 
matter and the fact that we are not debating whether or not 
there are needs for reform in the election process. And 
certainly I know there has been a lot of notoriety surrounding 
the Commission report itself. Hopefully we can focus our 
attention on the matter before this committee, and that is, of 
course, the elections, what happened last fall and what we can 
do to see to it that it does not happen again. I am determined 
to try and put together a piece of legislation here that will 
help us achieve those results.
    With that, Ms. Berry, we welcome you to the committee. I 
looked over the testimony, and I want to give each one of our 
witnesses as much as 15 minutes so you get a chance to make 
your points. And if there is material that goes beyond that, I 
want to just ahead of time say that anything you want, we can 
have included in the record. I presume that the minority 
reports will be available today or tomorrow based on the news 
media. That will also be included as part of the record so that 
there will be a full and complete record from the Commission.
    But I want to put a clock on you here, as a guidance. I am 
not going to slam down the gavel here exactly at 15, but if you 
try and keep that time frame in mind, it would help us move 
along the process.
    With that, Madam Chairman, we thank you for being here, and 
we thank all the members of the Commission for their 
participation. We look forward to receiving your testimony.

TESTIMONY AND PREPARED STATEMENTS OF A PANEL CONSISTING OF THE 
HON. MARY FRANCES BERRY, CHAIRPERSON, U.S. COMMISSION ON CIVIL 
    RIGHTS AND HON. ABIGAIL THERNSTROM, COMMISSIONER, U.S. 
                   COMMISSION ON CIVIL RIGHTS

   STATEMENT OF HON. MARY FRANCES BERRY, CHAIRPERSON, UNITED 
               STATES COMMISSION ON CIVIL RIGHTS

    Ms. Berry. Thank you very much, Mr. Chairman and Senator 
McConnell, for inviting me to testify in this hearing on 
electoral reform. I am Mary Frances Berry, Chairperson of the 
U.S. Commission on Civil Rights. I am also the Geraldine R. 
Segal Professor of American Social Thought at the University of 
Pennsylvania where I teach history of American law.
    The bipartisan U.S. Commission on Civil Rights has eight 
members. Four are here today, including myself, Commissioner 
Christopher Edley, Commissioner Russell Redenbaugh, and 
Commissioner Abigail Thernstrom, our newest member.
    Senator McConnell asked how was it that we ended up with 
one Republican. Republicans had opportunities to appoint people 
to the Commission, but we cannot help it that they appointed an 
Independent. Russell Redenbaugh is an Independent, but he is a 
Republican appointee.
    The Chairman. Ms. Berry, could I interrupt just for one 
second here? We have been joined by our colleague from 
California. There are several other members who will be coming 
in, and before you get deep into the substance of your 
statement, I might ask if my colleague from California would 
like to make any brief opening remarks.
    Senator Feinstein. I will be very brief, or I could wait 
until after the witness finished. Why don't I wait until after 
she finishes?
    The Chairman. Fine.
    Ms. Berry. Okay. I am perfectly willing to wait.
    The Chairman. I gave her the chance, didn't I, Ms. Berry? 
[Laughter.]
    Ms. Berry. In any case, we approved a report on voting 
irregularities in Florida that we have asked to have introduced 
into the record, and I assume it will.
    At this time also, Mr. Chairman, I would like to enter into 
the record a slightly revised statement--including some 
editorial changes and a supplemental statement including some 
documents I would also like to have entered into the record at 
this time.
    The Chairman. Without objection, so ordered.
    Ms. Berry. Thank you, Mr. Chairman.
    Our staff director, Les Jin, and our general counsel, 
Edward Hailes, whose team of civil service lawyers did the work 
on this report are also here. We also have Dr. Allan Lichtman, 
who is an accomplished scholar and expert in voting rights 
statistical methodology who did some of the work.
    The Civil Rights Commission work on many topics. We have a 
statutory mandate to act as a watchdog over civil rights 
enforcement and to recommend changes that will move us closer 
to equality of opportunity on issues of race, gender, national 
origin, disability, age, and in the administration of justice. 
We have exercised that authority with major inquiries on a 
number of subjects. We do not always agree. We would like to be 
unanimous all the time. I guess you would like unanimoity in 
the Senate, too. We do disagree. We disagree about such matters 
as affirmative action. We disagree about such matters as 
whether good bilingual education can help children who are 
language minorities to learn as a protection of their civil 
rights. We differ about whether there is a need to pay 
attention to women and girls learning advanced mathematics.
    There are all sorts of issues. We did a report, on racial 
profiling, for example, and had a disagreement about whether it 
existed. The majority of us thought it did and that it existed 
in a particular police department, and others did not. So we 
would like unanimity, but we are not always unanimous.
    Our statutory duty brings us to the question of voting 
rights in Florida. We believe that the right to vote is 
fundamental. We as opinion leaders, make speeches, all over 
this country on how the right to vote is the keystone of our 
democracy, and we all believe and understand this. The history 
of the United States is in many ways the history of epic 
struggles over the right to vote, from the Revolution to the 
struggle of white males without property to vote, women and the 
suffrage cause and all the struggles in which people engaged 
and then the civil rights movement. People have marched, they 
have fought, they have died for the right to vote in this 
country. So the vote is fundamental with respect to everything 
we do in the area of civil rights, and indeed important 
everything in the political arena.
    The Civil Rights Commission's mandate includes responding 
to any allegations of fraud or the violation of voting rights. 
Some people say the Commission did not start looking at 
allegations of voting irregularities in Florida until after it 
figured out who was going to win. That is not true. The 
complaints started coming in to us from people on election day 
about how they were treated or denied their right to vote, 
before anybody knew about counts and recounts and results.
    We at the Commission then undertook our statutory 
responsibility to investigate, and we did it in record time. 
People know it sometimes takes us years to do a report with the 
small staff we have. But we did this report. Our staff 
investigated, held hearings, subpoenaed witnesses and documents 
and engaged in analysis. The hearings were broadcast, I am 
pleased to say, around the world and widely watched, so people 
knew what they heard and what they saw.
    So therefore anyone who wonders whether anything happened 
in the election in Florida, whether there were any major 
problems, or only minor ones, or asks why the Commission became 
involved, can look at the videotape of the hearings and see 
there was great interest and many people participated. We could 
have stayed there for days listening to people voluntarily 
telling their stories in the public forum. We stayed on into 
the evening. We heard from everyone who wanted to be heard, and 
made a full record.
    What did we find in Florida? We found, ineptitude, 
inefficiency, and injustice. We found State officials and 
county officials, Republicans and Democrats, who at the 
hearings, testified, and washed their hands of any 
responsibility for the debacle that had taken place. They 
testified under oath and denied responsiblity.
    We had officials who conceded ``Well, I might have moral 
authority but I do not have real authority,'' or ``Maybe I 
should have done something but I do not really have the 
responsibility to do anything.'' This type of testimony came 
from officials up and down the line.
    Only one county supervisor actually stepped up to the plate 
and said, ``There were problems, I was responsible.'' That was 
so breathtakingly refreshing. Finally someone accepted 
responsiblity. But most people did not.
    And what happened in Florida? The impact of the voting 
irregularities was felt most harshly on disabled voters. I 
never will forget the story of a group who came on a bus from 
their condo. They used wheelchairs and tried to get into their 
polling place, which was on the second floor of a building, and 
there was no way for them to get up there. They got on the bus 
and went back to the condo.
    Or the people who talked about how they tried to get into a 
gated community that was their polling place and they did not 
have cards to get into the gate, which was closed. So they sat 
in line waiting and honking their horns to see whether they 
could get in so that they could vote. Then, finally, when 
somebody listened to us, they said it is too late, election 
supervisor's office is closed, the time is up, you cannot vote, 
we are sorry.
    Many people were in this situation. The impact fell most 
harshly on disabled voters, and on black people, on people who 
needed language assistance and could not obtain it. We will 
never know how many people who were legal voters did not get to 
vote but were prevented from voting. And, likewise, Senator 
McConnell, we do not know how many people might have voted 
fraudulently. That is another part of the history of this 
country. Historians, teach about voter fraud routinely, in 
class all the time in elections where someone votes early and 
often, three, or four times. This has occured throughout our 
history. But we do not have good data on the subject. But we do 
know what happened to the ballots of people who voted, and we 
do know what happened to some citizens who tried to vote and 
the barriers to their voting that existed.
    We found barriers involving the infamous felony purge, the 
problematic polling places, the chaotic closing hours, the 
ballot design, were particular problems. One of our 
Commissioners said that the ballot design we were shown for one 
community where there were many ballots rejected looked like a 
take-out menu from a delicatessen, with choices here and there 
and upside down and every other way that no one could 
negotiate.
    We heard about the irregularities at polls not just from 
complainants--keep that in mind--we heard complaints from poll 
workers who were angry about what they confronted and how upset 
they were over the number. We heard complaints from local 
officials. The result was black voters were almost 10 times 
more likely to have their ballots rejected than non-black 
voters. African Americans were 11 percent of the voters, but 
cast 54 percent of the spoiled ballots.
    Education levels did not account for what happened either. 
We asked our expert to control for education levels. Also the 
Governor of Florida's task force that looked at this issue. 
They and our expert concluded that less than 1 percent of the 
difficulty could be accounted for by voter error.
    Considering what happened in Florida, looking 
retrospectively, we are now asking the Attorney General of the 
United States, Mr. Ashcroft, who has the resources and 
information, to look at this report. We have requested a 
meeting with him to see if he will take action. We believe he 
should systematically review these issues and determine whether 
a violation of the Voting Rights Act has occurred. Perhaps the 
felon purge issue is the place to focus. Someone decided to 
approve the felon purge contract, and somebody decided to 
approve the process by which these mistaken names were thrown 
into the pool of voters, to be excluded. The Attorney General 
has the information concerning who cleared the felon purge 
legislation.
    President Eisenhower, who as President conceived the idea 
of the Civil Rights Commission, said, ``The Civil Rights 
Commission and the Justice Department will be a one-two punch. 
The Civil Rights Commission will put the facts on top of the 
table,'' and he pounded the table when he said it. I have that 
from Arthur Flemming, who was a Republican Cabinet Secretary 
and former Commission Chairperson who was at the table when it 
happened. He told me that story many times over breakfast at 
the Hay Adams. He told me perhaps a hundred times, and now I 
have told it a hundred times. He also remembered that 
Eisenhower said, ``The Justice Department will take that 
information and they will use their resources and they will 
continue the investigation and tie it all together. And then 
they will come back and they will tell the public whether 
indeed they found anything or not, and the Commission and 
Justice Department will work together and this will be great 
and we will be able to solve the problems.'' What we are asking 
the Attorney General to do is to act according to President 
Eisenhower's vision.
    The Legislation that the Florida State government has 
passed is a great step forward. We commended them for it when 
they did it. We are pleased about it. We congratulate the 
Governor and the legislature. But the legislation must be 
implemented and there are some problems in making sure that it 
does get implemented, and we will be monitoring that 
implementation.
    It also has some gaps. It does not make provisional ballot 
absolutely mandatory. We think it ought to be mandatory, that 
if you go to the polls and you try to vote and you say you are 
registered and they say you are not, as in California, you sign 
an affidavit, put your ballot aside, and have it check the next 
day, rather than turn away claiming you cannot vote. If Florida 
ballot had a provisional, many of the problems that existed in 
Florida in the last election would have been resolved.
    As for language assistance, there is nothing in the 
legislation that ensures language assistance for people whose 
civil rights will be violated if such assistance is not 
provided.
    And on the felon purge, we think it is necessary to have 
purges and to make sure that people who are fraudulently trying 
to vote do not. But you have to be fair about it. You have to 
do it right. You cannot overweight it so that you exclude 
people who should not be excluded. And there are no controls 
and guarantees in the legislation on access for people with 
disabilities, that is a major area in which there is nothing.
    We believe that every State ought to prepare for elections 
ahead of time. In Florida--and it started way before the 
election--some people knew that the registration rolls were up 
in some precincts. They knew it because they received reports. 
They told us this at the hearing. They knew there were major 
``get out the vote,'' efforts, and that large numbers of voters 
going to show up, and they did absolutely nothing that we can 
ascertain to prepare for them. It would be as if at the 
university we knew we would have twice the enrollment in the 
fall that we had expected previously and we did nothing, when 
the students arrived, we said, there are insufficient dorm 
rooms, and classes.
    Preparations are necessary. Every State ought to be ready 
for the elected. I believe there ought to be a scorecard or 
some kind of card issued to the public, that would check off 
before the election, say a month before, we are ready, all 
these things are in place, the access is there, you know where 
your polling place is, let's go vote. Voting ought to be user-
friendly. We encourage people to vote. I have done spots, PSA 
announcements, begging people to vote. We can beg, but if they 
cannot vote when they get there, that is a major problem.
    The Federal Government, of course, has a role to play in 
insuring the right to vote under Article I, Section 4 of the 
Constitution, the 14th Amendment and 15th Amendment, and has 
exercised that role in the past. That role includes 
guaranteeing equality of opportunity and to make sure that the 
fundamental right to vote is protected. That is not interfering 
with the rights of the States. In fact the federal agreement 
that buttress the rights of the State.
    We in this country have not paid nearly enough attention to 
the mechanics of voting. It has been a longstanding problem. 
And there is a bipartisan, nonpartisan failure on the part of 
the public and on the part of politicians. Politicians pay a 
lot of attention to getting out the vote, but do not pay enough 
attention to making sure that everything is in order at the 
polling places and that the votes will be counted. We have not 
wanted to evaluate what is needed, and we have not wanted to 
spend the money for equipment, for training, for hiring of 
workers, voter education and the like.
    I have a chart here that shows the greatest discrepancy in 
overvotes in Florida, not undervotes. It shows that 12.9 
percent of the votes cast by African Americans were rejected 
compared with 0.6 for non-African Americans.
    But I have another one that is even more instructive, in my 
view, and this is a chart that shows that in one Florida 
county--Escambia County--which uses optical scan equipment and 
counts at the precinct level, the rejection rate in 
overwhelmingly black precincts was much higher than that in 
non-black precincts: 2 percent in non-black precincts, and 
about 14 percent in heavily black precincts.
    But the most interesting thing about this to me is that the 
county used optical scan equipment, which is supposed to be the 
best equipment, according to some experts; They were counting 
at the precinct level, which is what our report recommends; but 
there was one little problem here. There is a feature where a 
voting machine can kick out the vote if it is an overvote so 
that the person can vote again. They had disabled the kick-out 
feature in Escambia County so that the machines did not kick 
out overvotes.
    What does that tell us? It tells us that technology alone 
will not solve the problems Solutions require leadership, 
education, and training. Also if the technology is changed 
without training leadership and there is inadequate voter 
education and you do not use the voting machine kick-out 
feature, you can end up with the same result you would have 
otherwise.
    I think that is important to remember as we go forward that 
Congress needs to help the States on these issues.
    A 1992 decision of the Supreme Court stated: ``No right is 
more precious in a free country than that of having a voice in 
the election of those who make the laws under which, as good 
citizens, we must live.'' And we believe at the Civil Rights 
Commission that this is really the fundamental concern. We will 
continue to press the Attorney General to see if he will take 
some action. We will continue to consider whether we should 
investigate in other States. And we will monitor the 
legislation in Florida and keep pressing to implement our 
recommendations. And we will also have more national 
recommendations which we will submit to this committee.
    But for now, I want to commend you, Mr. Chairman, and the 
committee for taking up this subject, and I hope you will find 
ways to legislate solutions. Thank you very much.
    [The prepared amended statement of Ms. Berry follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much, Madam Chairman.
    And with that, let me turn to my colleague from California 
for any opening comments. Then, Ms. Thernstrom, we will get to 
you.

  OPENING STATEMENT OF HON. DIANNE FEINSTEIN, MEMBER, A U.S. 
              SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. Thanks very much, Mr. Chairman. I want 
to thank you for holding this hearing.
    Directly after the election, I happened to be in a group 
with a number of Europeans, and they said, ``You know, you 
Americans are so arrogant. You say you have the greatest 
democracy in the world, and yet look what happened.''
    And I thought a lot about those comments and a lot about 
the laws that give so much responsibility to the States, really 
have no standards. States can either have good technology or 
bad technology. They can either service that technology or not 
service it. As one who for many years in San Francisco voted on 
a punch card ballot, I know how deeply flawed it is, how 
dependent it is on the kind of backing it has, on the stylus. 
If you vote absentee, it is very difficult. The numbers are so 
tiny that those of us who get older and farsighted have a hard 
time distinguishing number 31 from number 33. And then, of 
course, watching what happened in Florida. . . And I think, you 
know, a lifetime of voting comes home suddenly.
    So I think that this bill, S. 565, is a good bill. I think 
it is time that we do have a commission on voting rights and 
procedures. I think it is time that a group that sits down can 
make recommendations and can really take a good look across the 
United States at what is going on with regard to voting 
technology and, most importantly, in election administration, 
which I suspect we will find is rather sloppy from county to 
county all across this great land.
    I think the grant program is a good one, and most 
importantly, I would be very supportive of legislation which 
would require States to meet uniform and non-discriminatory 
standards in technology and administration.
    A lot of people in this country do not feel their vote 
matters, and yet in election after election, ending with this 
one, which is the closest certainly in my lifetime, we find 
that your vote really does matter. I think preventing obstacles 
to a vote, I think having equipment that is well serviced, I 
think having equipment, more importantly, that everybody can 
use, whether you are developmentally disabled, whether you are 
impaired, whether your eyesight is not great--there has to be a 
standard that cuts across the board and enables a correct 
count.
    I remember listening to some of the descriptions of the 
equipment during the post-election analysis. People were 
saying, well, if you come from a poor county, they cannot put 
the rubber backing on the punch card, they use hard plastic 
instead. And, therefore, the chads that are punched out 
coagulate so that it is much more difficult for the stylus to 
punch a chad out entirely. So there are many small things that 
really need to be looked at.
    I hope this past election was a great lesson to us, that we 
cannot take voting for granted, that it is going to be done 
in--I was going to use the word ``uncorrupted,'' but that is 
the wrong word--that it is done in a perfect way all across the 
United States, because it is not. And I think that was brought 
home. And it is not only Florida, it is every State. California 
has some standards statewide with respect to hanging chads and 
how many corners must be perforated and that kind of thing.
    But I think you are making a good first step. I, for one, 
hope S. 565 will come out of this Committee with a strong 
bipartisan vote. I think it is important that we take a good 
look at ourselves. And as we Americans always do, we put 
everything on the table. All our imperfections hang out. Let's 
take a good look at these imperfections. I think the Commission 
is the first step. So I want thank you very much for your 
leadership, and I look forward to joining with you in the 
march.
    The Chairman. Thank you very much.
    We have been joined by our colleague from New Jersey. 
Senator Torricelli, would you like to make a brief opening set 
of comments? We have heard already from the Chairperson. We are 
about to hear from Ms. Thernstrom. I thought maybe you might 
like to----

OPENING STATEMENT OF HON. ROBERT G. TORRICELLI, MEMBER, A U.S. 
              SENATOR FROM THE STATE OF NEW JERSEY

    Senator Torricelli. Mr. Chairman, I only want to thank you 
and congratulate you for having this hearing, and to compliment 
Senator McConnell for having also expressed interest in taking 
a lead on this issue. I, too, am anxious to hear from the 
witnesses, so I will not delay the hearing any further.
    The enormity of this problem can obviously not be 
overestimated. In a democratic society to have any segment of 
the population feel disenfranchised goes to the very core of 
the Republic itself. And it is no small number of people in 
this Nation who now feel that they are either disenfranchised 
or potentially so disenfranchised. It is no great honor that my 
State is one of only a few in the Nation that has had 
continuing Federal monitors on our election procedures. There 
are many forms of disenfranchisement. Some are as bold as 
purposefully having people at polling places to make people 
feel uncomfortable or unwelcomed. Some are much more subtle 
such as the disparity of the funding of polling technologies. 
But they all lead to the same result. People do not feel they 
are part of the Republic or its future and do not feel the 
rights for which they fought so hard are actually afforded 
them.
    I am glad you are taking this opportunity to examine this 
problem, and I only want to say publicly what I have expressed 
to you privately, and that is my hope that because many of 
these unfortunate realities have taken place in my State of New 
Jersey, because we have had this problem through the years, and 
because we are a Northern State of considerable resources with 
access to technology thus making it all the more unlikely and 
unjustifiable that we should have experienced this problem, I 
hope as you are planning field hearings that you will consider 
coming to New Jersey and allowing us to have the committee 
share in some of our experiences.
    The Chairman. Thank you very much, Senator Torricelli.
    Ms. Thernstrom, I apologize for the slight delay, and if 
any of our colleagues come in, we will postpone their remarks 
until after you have finished your testimony. We thank you 
immensely for being here today.

  STATEMENT OF HON. ABIGAIL THERNSTROM, COMMISSIONER, UNITED 
               STATES COMMISSION ON CIVIL RIGHTS

    Ms. Thernstrom. Well, I thank you very much for inviting 
me. My name is Abigail Thernstrom. I am a political scientist 
by training, a senior fellow at the Manhattan Institute in New 
York, a member of the State Board of Education in 
Massachusetts, where I live, and also a Commissioner on the 
U.S. Commission on Civil Rights. It is a position to which I 
was appointed by Congress just this past January. So some of 
the issues that the Chair said the Commission disagreed on I 
did not take a stand on. I was not on the Commission at the 
time.
    I am also the author of a multiple-award-winning book, 
``Whose Votes Count? Affirmative Action and Minority Voting 
Rights,'' and I am a co-author of ``America in Black and 
White,'' a history of race relations and racial change in the 
decades since World War II.
    I also ask that an amended statement be introduced in the 
record.
    I, too, am delighted that the committee is holding this 
hearing. The election 2000 story, and particularly the 
allegation of black disfranchisement in Florida is one that 
indeed needs straightening out. Considerable misinformation has 
been floating around, and, unfortunately, in my opinion, the 
U.S. Commission on Civil Rights has contributed to that 
misinformation.
    It has been well established--no one disputes it, least of 
all Florida itself--that the Florida election suffered from a 
variety of imperfections. Senator Feinstein talked about the 
need for perfect elections. Well, that is indeed a very high 
standard. But, in any case, the only question before the 
Commission was this: Was the Florida election marred by 
discrimination that impeded the ability of American citizens, 
particularly African Americans, to freely and fairly exercise 
their right to vote? And in my view, sadly, the very body 
charged with conducting an objective fact-finding investigation 
into this matter, the Commission, squandered its credibility by 
responding with a report that is little more than a partisan 
assault on the integrity of the American electoral system.
    The majority report rests heavily on a statistical analysis 
performed by Dr. Allan Lichtman of American University. We--
that is, Commissioner Redenbaugh and myself--believe that his 
statistical analysis is deeply flawed, and we offer an 
alternative one that is broader and more sophisticated, one 
that reaches completely different conclusions.
    This analysis was conducted by Dr. John Lott of Yale Law 
School, who is with me right here, and in consultation with 
Professor Stephan Thernstrom of Harvard University, who is 
sitting right there.
    But before explaining my disagreement further, let me say 
that no statistical analysis of the rates of ballot spoilage or 
voter error, which is at the heart of the Commission's case, 
can be precise and certain. So we cannot bet the farm of any of 
them. Ballots are secret in the United States. We cannot know 
how any individual voted, nor exactly who cast a ballot that 
did not count for some reason.
    Thus, we cannot be at all sure of the race or of any other 
characteristic of voters whose ballots were rejected. We 
believe that Dr. Lott has done a much better job than Dr. 
Lichtman, but we want to underscore the point that all of the 
numbers in dispute are mere estimates and have a range of error 
that is unknown and might be very large.
    As I read the evidence, however, the Florida election was 
hampered by unintentional and unanticipated problems that were 
not motivated by racial bias and did not disfranchise minority 
voters. The assertion that black voters were 9 times more 
likely than whites to have their ballots discarded simply does 
not withstand scrutiny.
    And it should be noted that the Commission's majority 
report does not even recognize the concept of voter error as 
opposed to disfranchisement.
    Using all the variables in Dr. Lichtman's analysis, Dr. 
Lott was not able to find a consistent, statistically 
significant relationship between the share of voters who were 
African American and the ballot spoilage rate.
    Furthermore, there appears to be little relationship 
between racial population change and ballot spoilage. That is, 
as the black population in a county went up in recent years, 
the rate of ballot spoilage did not, suggesting that race per 
se is not the explanation for ballots that did not count. And I 
point to Dr. Lott's first chart right here, for those who are 
interested in the numbers.
    Indeed, in looking at the variation in ratios of ballot 
spoilage among counties, it is clear that race has very little 
explanatory value. Dr. Lott's more sophisticated regression 
analysis suggests that three-quarters of all the county 
variation in the rate of ballot rejection can be explained with 
equations that do not use racial information at all--that 
factor in, for instance, the poverty rate.
    Dr. Lichtman also ignored the conflict between his 
statewide estimate that blacks were 9 times more likely than 
whites to cast spoiled ballots, and his arguably more accurate 
precinct data that show racial disparities at the precinct 
level only a third as large as those at the county level.
    I would like Dr. John Lott to flip to his chart. Dr. 
Lichtman's chart that was up there before is not the actual 
numbers, but is based on their estimates. John, you have got 
this other chart. Well, no, I have not gotten to the county 
supervisors yet. Maybe I am wrong to say you have the chart.
    The Chairman. Can we make sure we get copies of these? I do 
not even see----
    Ms. Thernstrom. Okay. We will just make sure you get a 
copy.
    The Chairman. Thank you.
    Ms. Thernstrom. The majority report on the Commission 
blames the Governor and the Secretary of State for spoiled 
ballots. But elections in Florida are the responsibility of 
county supervisors, and all but one of the 25 counties with the 
highest rate of ballot rejection had supervisors who were 
Democrats, the one exception being an official with no party 
affiliation.
    It is difficult indeed to think how the local Democratic 
Party officials could have been tempted to suppress the black 
vote, which is, of course, almost entirely Democratic.
    Well, I could continue at some length with the discussion 
of the flaws in the majority report, but I do not have time to 
run through all the major findings in our 50-page dissent, 
which is available today. But other flaws in the report 
include:
    (1) The almost complete omission of Hispanics, Florida's 
largest minority group, as well as the omission of all other 
non-black minorities--Asians, Native Americans.
    (2) A complete failure to distinguish between actual 
discrimination and bureaucratic problems, problems caused by 
bureaucratic inefficiencies, inexperienced voters, and other 
technical problems that are unrelated to race.
    (3) A warped interpretation of the 1965 Voting Rights Act.
    (4) A misleading analysis of errors in the ``purge list'' 
of convicted felons ineligible to vote. Their own data shows 
the opposite of what they claim, whites were erroneously placed 
on the purge list at almost twice the rate of blacks.
    And then there were procedural irregularities, many of 
them, that marred the production of the majority report. Most 
importantly--and it is the only one I will mention here--I 
asked for a copy of the machine-readable data that Professor 
Lichtman used to run his correlations and regressions. That is, 
I wanted his computer runs, the data that went into them, the 
software he used. The Commission had the temerity to tell me 
that it did not exist, that the data as he organized it for 
purposes of his analysis was literally unavailable.
    Sharing data of this sort is either mandatory or a matter 
of routine and professional courtesy among economists, 
political scientists, and other scholars, aside from the fact 
that this was taxpayer-funded data.
    In conclusion, misinformation is dangerous. The 
Commission's majority report in my view positively sets us back 
in our progress on the long road to racial and ethnic equality. 
Real civil rights problems stir the moral conscience of 
Americans. Inflated rhetoric, depicting crimes for which there 
is no evidence, undermines public confidence in civil rights 
advocates and the causes to which they devote themselves. And 
it increases the alienation of blacks from the American 
political process. Do we really want black Americans to believe 
there is no reason to get to the polls, that elections are 
always stolen, and they remain disfranchised? The answer is 
clearly no because those conclusions are simply false.
    Thank you very much.
    [The prepared amended statement of Ms. Thernstrom follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much. What I am going to do, 
in order to move things along, is put the clock on and try to 
limit ourselves to about 5 minutes each with questions, and try 
and really get through it in one round or two, whatever is 
necessary, and then move to our second panel.
    Well, let me begin with you, Madam Chairman. First of all, 
I know there has been a lot of notoriety, et cetera, around the 
Commission report. As I said at the outset, this is not a 
hearing about the mechanics of the Commission. I mean the 
Commission is a four-decade old commission with a very 
distinguished record. And as you point out, there is a 
political nature to this. I am sort of reminded about the great 
Claude Raines' line in the movie ``Casablanca'', as he enters 
Rick's Bar and looks around. He says, ``You mean there's 
gambling going on in here?'' And this Commission is, by its 
very nature, political, as the appointees are made political 
appointees. So there is a political element to this which is 
unavoidable. But as I understand it, over the years there have 
been numerous occasions when the Commission has been less than 
unanimous in its opinions, and you pointed that out earlier.
    But why do you not take a couple of minutes and address 
some of these questions here, because I do not think they ought 
to go unanswered. But then I want to come back to the issue of 
what went on in Florida. Obviously, the political leadership of 
that state thought something seriously was wrong with the 
election, or they would not have devoted as much of their 
attention and time as quickly as they did to straighten the 
mess out. So we had no other evidence to offer but the actions 
by the governor and the legislature over the last several 
months. That would be enough to certainly suggest that what 
happened there was deeply disturbing, to put it mildly. So I am 
interested to some degree about the Commission's inner 
workings, but I am far more interested in what happened in 
Florida.
    Ms. Berry. Okay. Mr. Chairman, thank you very much. First 
of all, the documents that I submitted support the statement I 
am about to make, which is that Mrs. Thernstrom not denied 
anything by the Commission that the Commission possessed, nor 
by any of its experts. The letters and correspondence that I 
have submitted to this Committee document this. Secondly, she 
misstated the inquiry. The Commission did not go to Florida to 
determine whether black voters were disenfranchised. We went to 
Florida because we heard complaints from people. Some 
individuals said they were African-Americans, others told us 
they were Latino. Other complainants included the disabled, the 
elderly, and Jewish voters, among others. A lot of people 
complained. Additionally, the Commission has a broad mandate on 
voting rights issues. As I stated earlier, our jurisdiction on 
voting rights issues extends beyond race discrimination.
    As for Florida, our lawyers went first to conduct 
preliminary fact-finding and reported to the Commission in 
December 2000. Regarding the report, the civil servant writes 
the reports. Commissioners do not write reports. The 
Commissioners tell the staff what kind of reports we want, what 
subject we want to work on, and once the report is finished, 
whether we agree or disagree. As for Florida, what was reported 
is what we found.
    I also want to note that I like very much the chart from 
Commissioner Thernstrom's expert, because it shows that the 
worst counties in terms of disenfranchising black voters were 
in counties where the Democrats were county supervisors. That 
makes sense. As the Supreme Court recently said in Hunt v. 
Cromarte, the redistricting case, many Democrats are black and 
many blacks happen to be Democrats. Thus, it is not astounding, 
that a lot of these problems were in counties with Democratic 
elections supervisors. We say that in the report, so I am happy 
to have Dr. Lord confirm that.
    Also, we do not say anything about Governor Bush being 
responsible for the spoiled ballots. We know that the county 
supervisors have a lot of responsibilities in running the 
elections. What we do say is the Governor has a statutory 
responsibility to investigate when there are allegations that 
voting rights have been violated. To date he has not made any 
investigation of which we are aware. We asked him about that at 
the hearing. Second, is he acknowledged he has both a statutory 
and moral authority to take some leadership. We have not 
singularly blamed anybody. We place blame up and down the line 
for what happened. Additionally, we asked the Attorney General 
of the United States to look at this and try to figure out why 
things went wrong. That is his job. Was it just disparate 
impact? Was it unintentional? Once that happens we can move on, 
and focus all our energy on how we solve these problems as we 
move forward.
    And I also forgot--and I will not do it now since 
Commissioner Thernstrom mentioned her books--I forgot to 
mention my 7 books, but I will not do it now.
    The Chairman. Let us not get into that now. It is not a 
book sale we are doing here today.
    Ms. Berry. You are right.
    The Chairman. Oprah Winfrey has her own show where she does 
promotion of books.
    Ms. Berry. Okay, I will remember that. [Laughter.]
    I'd like to make a final point about race, specifically 
whether we can tell the race of a voter. Certainly we do not 
pluck out ballots and try to figure out is this voter, white, 
black, latino, Asian American? But we know that if you are in a 
county where most of the registered voters are of a particular 
race, and you get a signficiant number of ballots, there are 
ways for scholars to figure out a lot of those ballots must 
have come from people who live there, who are the registered 
voters. So it is not going one by one and saying, ``We know 
every ballot.'' That is not really the issue.
    And, finally, the question of intent. We do not even say 
that anybody intended to do anything, and in fact, we say there 
was no conspiracy. Everybody keeps overlooking that. And I am 
quite shocked that people are so exercised about this report. 
As you said, Mr. Chairman, the folks in Florida agree that 
there were problems in the election, and that somebody did 
something or something happened and went wrong.
    The problem is that people keep thinking we are saying 
somebody intentionally did something. You do not have to do 
that under the Voting Rights Act. The Voting Rights Act takes 
that out of play. Nobody cares whether people intended to do 
it. If I run over you going 90 miles an hour and I kill you, 
whether I intended it or not, you are dead. So in fact, those 
are my answers now, and maybe I forgot to answer something, but 
if I did, I would be happy to answer it.
    The Chairman. Well, I thank you. And again, people do not 
like various conclusions of reports. It is not uncommon to go 
after the messenger, rather than the message. In a sense here, 
we have got to focus on the message. But I did want to give you 
a chance to respond--because so much attention has been played 
on this particular point. I am not suggesting it is not 
relevant, but it seems to me we have got to focus on what 
clearly went wrong.
    And if I did not say so at the outset of my remarks, I will 
say it here: I certainly commend Governor Bush and the 
legislative leadership in Florida for acting as expeditiously 
as they did. Now, whether or not they have covered all the 
ground that they should have in terms of responding to the 
concerns and the problems with the vote in Florida last year, I 
will leave that to others to decide. But I commend them for 
moving and acting. But I also think the point that you raised 
about responsibility is well taken. I mean, remember the old 
Harry Truman line that the buck stops here. It is not uncommon 
in public life find people who are not terribly willing to 
assume responsibility and always hoping that someone else will 
be accountable. But, obviously, those of us in positions of 
authority have to ultimately accept the responsibility when 
things go wrong, even though we may not be involved in the 
details of it. I think that is the point you were making. So I 
commend the leadership in Florida for acting quickly.
    With that, let me turn to my colleague from Kentucky.
    Senator McConnell. Ms. Berry, did you find--first let me 
just say ``The New Republic'', which I almost never quote 
anything, had an article recently questioning the process and 
the accusations in your report, in particular the significant 
relationship between economic constraints or economic status 
and voting error. Did you look at the correlation between those 
two items?
    Ms. Berry. Mr. Lichtman, our expert, will answer that, if 
you do not mind, sir.
    The Chairman. No, but why do you not introduce yourself. We 
are going to hear from some of these expert panelists, 
including Mr. Lott, who I am familiar with, but Mr. Lichtman, I 
am not. So why don't you--if you are going to come and be a 
part of the hearing, identify yourself.
    Ms. Berry. You are familiar with Mr. Lott because he is 
from Yale.[Laughter.]
    The Chairman. I also read some of his articles on gun 
control.
    Mr. Lichtman. I have to confess I am not from Yale. I am 
from Harvard, but I hope that does not bias you.
    The Chairman. Let us not get into that one either. Books 
and colleges are not to be advertised.[Laughter.]
    Mr. Lichtman. But I am a professor of history.
    Senator McConnell. You are talking on my time, Professor 
Lichtman. Keep it brief if you can.
    Mr. Lichtman. I will.
    Senator McConnell. Just if you could respond to the 
question about the relationship----
    Mr. Lichtman. Professor of history at American University. 
I have been an expert witness for all sides in more than 60 
Federal voting rights cases.
    Let me say that the fundamental purpose of my study was 
simply to determine whether or not there were racial 
disparities in ballot rejection rates in Florida. And I just 
read through--I just got it 10 minutes ago--57 pages of 
dissenting opinion. There is not a single statistic in there to 
deny that there were significant racial disparities.
    Senator McConnell. But my question was about the 
relationship between economics and voter error.
    Mr. Lichtman. Yes, I am going to get to that now.
    I also did look, however, although it was not the 
fundamental purpose of my study, at education, and I looked at 
it at two levels. First of all, I looked at it within Dade 
County, where we had finely-grained precinct data. I looked at 
not only the relationship between black population, black 
registered voters in the precinct, I also looked at Hispanics, 
which have comparable education levels to African-Americans, 
and of course, in addition, have challenges for some for 
language barriers. And I found in fact a vastly lower rate--of 
ballot rejection.
    Senator McConnell. I am talking about economic status.
    Mr. Lichtman. Yes. I thought you said education.
    Senator McConnell. Economic status and voting--
    Mr. Lichtman. I thought it was education you had raised.
    Senator McConnell. No, economic status.
    Mr. Lichtman. I heard education. I am sorry. I looked at 
education----
    Senator McConnell. The relationship between----
    Mr. Lichtman [continuing]. And I did not find that that 
explained the relationship.
    Senator McConnell [continuing]. Economic status and voter 
error.
    Mr. Lichtman. I also looked at economic status, and found 
that that did not explain the relationship either. And indeed, 
there is an independent study done by Professor Klinkner of 
Hamilton College, who I do not know, but who, I believe 
submitted to this Committee, and he looked at a great variety 
of factors, and found that independent of those factors, you 
still had a substantial relationship between race and ballot 
rejection. But that is a very different question than the 
question I addressed, which was were there racial disparities 
in ballot rejection rates.
    Senator McConnell. That was not my question.
    Ms. Berry. He answered his question, okay. Thank you.
    Senator McConnell. Ms. Berry, could I ask you--I touched on 
this in my opening statement, but I am curious as to why you 
did not more fully explore allegations of disenfranchisement 
among military and overseas voters, allegations of voter fraud, 
including reportedly thousands of votes illegally cast by 
convicted felons, and the effect that the media's misreporting 
of poll closings had on voters in the panhandle.
    Ms. Berry. Those are very good questions. First of all, we 
operated on the basis of the kinds of complaints we received 
from people, and also when we went to Florida, we announced 
widely that we were there to hear any allegations that anybody 
had of fraud or anything that they thought was a problem in the 
election that we should hear. And we opened the meetings to the 
public, not just the witnesses we asked for, and publicized 
this on television, on the radio, every kind of media, that we 
were there and we wanted to hear about any of the problems that 
people wanted to bring to us. And we looked at the problems 
that were brought to us.
    We do mention the question of voter fraud, and as I say, we 
think that steps ought to be taken to address it. There is no 
good data on the extent of voter fraud. On the military ballots 
question, we understand that steps have been taken by the 
Pentagon and the State of Florida, in their legislation, to 
deal with that issue. But we did not have complaints from 
people who came forward to talk about that issue.
    The Chairman. We have been joined by our good friend and 
colleague from New York, Senator Schumer. Chuck, I have asked 
everyone else, if you had some brief opening comments you 
wanted to make before we turn to our colleague from California.
    Senator Schumer. No, I will wait for the questions and do 
them there. Thank you.
    The Chairman. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Let me ask Commissioner Thernstrom a question, but before I 
do, Ms. Berry, I just want to thank you and your Commission for 
your work. I know this is difficult. I know it is always 
subject to criticism, but I for one really appreciate the fact 
that you all took the initiative, went to Florida, and gave 
people who felt disenfranchised an opportunity to give their 
testimony.
    We just got the draft last night, so this was the first 
time I had a chance to see it. Let me ask you one question. Ms. 
Thernstrom said that she was denied data, which as a matter of 
professional courtesy could have been or should have been 
extended to her. How do you respond to that?
    Ms. Berry. It is an absolute falsehood. She was not denied 
data that should have been extended to her, and I do not know 
why she keeps repeating this statement. And in the 
documentation I sent to you, which is in the record, you will 
see the exchange of correspondence on that subject. She asked 
for a disk, a machine-readable disk of what Mr. Lichtman had 
used and cited in a report he gave us, which she had, about his 
work. And she was told that he had no such disk, that he used 
the Internet and sources that have been used both by the task 
force in Florida and elsewhere that anybody could just call up. 
And the citations were there, and that is all she had to do. 
She was told that orally and in writing.
    Now, it makes a good story. You know, I was denied this and 
I was denied that. But in point of fact, that is an absolute 
lie. I do not know how--I am 63-years-old. I am sick and tired 
of playing games. It is a lie. It demeans and besmirches the 
staff, our civil service staff, who are quite upset about all 
this being said about them, and the work that they do, and in 
fact, people can disagree ideologically, politically, they 
cannot like things that people do, and I am used to that 
debate. I have spent my life in the pits working, and I have 
been often a source of consternation and confusion and 
controversy. I do not mind it. But I do mind besmirching the 
reputation of the civil service staff and saying that we have 
something that we do not have, and then going around telling 
everybody that we have it.
    Senator Feinstein. Thank you very much. One of the things, 
Mr. Chairman, about the report is it provides names behind what 
people say. For example, election polling places that were not 
accessible to handicapped people, it documents it, where they 
were and who complained and what happened. So I think things 
like that are very helpful, and can be used (if your 
legislation is successful) by the Commission in really studying 
and seeing if there is a pattern and practice to these things.
    Ms. Thernstrom, let me--first of all, I want to give you an 
opportunity to respond--but let me ask this question: if the 
race of a voter does not reflect valid spoilage rates, how do 
you explain such racially disparate results in the spoilage 
rates? Is it merely different technologies? If so, does that 
suggest that the Federal Government ought to assist lower-
income counties to upgrade their voting technologies?
    Ms. Thernstrom. Well, to begin with, the disparities do not 
exist over time. No one slice in time, the year 2000, tells you 
what you ultimately need to know. I have no doubt that literacy 
levels do partially explain the disparity, but there was no 
data that was included on literacy levels as opposed to high 
school graduation. Those are two completely different 
questions.
    And let me just say here, because it is important to say 
it, I would never publicly call a Commissioner a liar, but I 
have just heard a lie on the question of what I asked for--and 
the obvious availability of those data and the Commission's 
refusal to provide them. I would actually like Dr. Lott to 
further elaborate on, however, the question that you asked.
    The Chairman. Please use the mike. Identify yourself, too, 
doctor.
    Mr. Lott. Sure. My name is John Lott. I am a senior 
research scholar at Yale University Law School.
    And the central hypothesis is that as you see more blacks 
in a county, you will see greater spoilage or non-voting of 
those ballots as the claims. What they look at is purely cross-
sectional data, looking across different counties in the year 
2000. There are lots of factors that vary there. And in fact, 
if you try to just look at any individual county and see 
whether counties that had the biggest growth in the percent of 
voters that are black, and compare that to see whether there is 
any change in spoiled ballots, you in fact find absolutely no 
relationship. And in fact, if anything, the counties that ended 
up having relatively more black voters over time tended to have 
relatively less spoilage.
    What you find that basically explains the spoilage across 
the areas--and once you control for these things, you basically 
find no relationship even in a purely cross-sectional data for 
spoilage--are the types of machines being used, whether the 
counting was done centrally or done at the precinct level, and 
also, other races. If you try to just account, for example, 
simply for the percent of voters that are white, that causes 
you to have the opposite effect from what they are claiming in 
the every simple regression that they use there.
    If I could just point to one graph here. This is a simple 
plot here, showing you the change in spoiled ballots over time 
between the '96 and the 2000 election, and the change in the 
percent of voters that are black. And if you look at this, you 
simply see no relationship. If anything, there is a very slight 
few percent negative correlation that is there. By doing this, 
this is one way to account for the fact that there are many 
differences across counties that are there, and largely to try 
to help to account for those differences.
    With regard to Senator McConnell's earlier statement, one 
of the things that you find that is important also is income 
differences, that those counties that do have higher incomes do 
tend to have lower non-voting rates of the ballots, and once 
you account for that, that also helps to greatly diminish or 
eliminate the effect that you get from the racial component.
    Ms. Thernstrom. John, could you say also a word about what 
you needed----
    The Chairman. Use the microphone, please, doctor. Use the 
microphone. We can hear you.
    Mr. Lott. Well, she just--I had asked, for example, for the 
regression output that Professor Lichtman had used in his 
study. There is no actual regression reported, no actual 
specific specification of how he estimated the number of 
spoiled ballots in different counties or precincts. One can 
only guess what he tried to do from very vague discussions that 
he had in his report. And I had asked for that, and I was told 
that that was not forthcoming to get that. And it would have--
given that I basically only had a week to look at this, it 
would have been very helpful to have actually had the data in 
an easily usable form to be able to go and examine it myself. 
But that was not forthcoming either, at least that is my 
understanding.
    The Chairman. Well, let me turn if I can--you will get a 
chance, Mr. Lichtman, to respond to this--but let me turn to 
Senator Torricelli.
    Senator Torricelli. Thank you very much, Mr. Chairman. 
First, Mr. Chairman, I want to congratulate you on your first 
hearing. I knew when you became chair the hearings would get 
more interesting, a little more contentious, but I had no idea 
of the degree to which that would prove true.
    Senator McConnell. I resemble that remark. [Laughter.]
    The Chairman. I am not sure you should not be complimented.
    Senator Schumer. I have a feeling we may show up at a 
regression table here. [Laughter.]
    Senator Torricelli. As much as I would like to get involved 
in the inner workings of the Commission and the sharing of 
data, I am going to resist the temptation, and instead, I would 
like you to respond to the general proposition before the 
Committee. The committee ultimately would like to produce 
legislation. Legislating the conduct of national elections 
involves not only changes of law, but real changes in national 
custom and tradition. Conducting elections in this country has 
largely been an affair of the states, conducted through their 
sometimes lowest political entities. That may be about to 
change, either in funding or in the setting of standards, and 
ultimately, this Committee needs to consider whether that is 
required and whether those changes involve some fundamental 
constitutional principles.
    The Supreme Court, in ultimately deciding the 2000 
elections, relied in part on an equal protection argument. And 
if we accept that there was an equal protection argument in the 
counting of ballots, a disparity in how those ballots were 
handled, there are ramifications for this Committee.
    Let me take the argument to my own State of New Jersey, and 
ask you to reflect upon those equal protection questions, so we 
can get out of the statistical analysis of Florida. There are 
rural counties in the State of New Jersey of relatively low 
income, largely of white populations, that are using punch 
ballots. They are counted by hand or by machines. They have 
been doing this throughout the 20th century. The urban areas of 
my State largely use lever ballots, lever machines that are 50-
years-old. On a recount, they must be counted individually, and 
they frequently break during elections. In the high-income 
suburban areas, balloting is electronic. Recounts are simple, 
of I would assume, a very low error rate. There are automatic 
recounts because it is all electronic.
    Now, on its face, the Court having found that these are 
equal protection questions on a recount, this may or may not 
relate to race--it certainly does in the urban areas, but let 
us leave it out for a moment--it directly correlates with the 
tax base of the locality, hence the income of the individuals 
involved. Is this not on its face a question of fairness and 
equity, if not constitutional rights? Is it not a question of a 
fundamental right of an American citizen in our democratic 
system that should invite the Committee to consider the funding 
of lower-income areas and the setting of standards at least 
within a state?
    Ms. Thernstrom. Are you asking me?
    Senator Torricelli. I am asking all of you.
    Ms. Thernstrom. I would hope we could all agree that we 
want to reduce the rate of voter error, and voter error was the 
central problem in Florida, not disfranchisement, but voter 
error. Now, look, we may be able to get better machines that--
though I have a problem with Federal mandates, by the way--but 
anyway, we may be able to get better machines that reduce the 
level of voter error, but you are talking in part about voters 
who choose not to vote, say, for the presidential candidate, 
who say, none of the above, and vote for other candidates on 
the ballot. The Chair told us at one point in Miami that she 
over-votes deliberately--that is, checks off two candidates for 
one office.
    Senator Torricelli. Let me just----
    Ms. Berry. Senator, may I respond?
    Senator Torricelli. My ability to frame a question must be 
less than I imagined it would be.
    Ms. Berry. May I respond, Senator?
    Senator Torricelli. To me----
    Ms. Thernstrom. Well, I think----
    Senator Torricelli. I do not have any more time, but I want 
you to respond to what I think is the threshold question before 
the Committee.
    Ms. Berry. May I respond?
    Senator Torricelli. We would like to write legislation. Is 
there an issue here?
    Ms. Berry. May I respond? There is an issue, one, and I 
understand the question.
    Ms. Thernstrom. I do not think I finished.
    Ms. Berry. May I answer the question?
    The Chairman. Yes, you may. I have got a clock on here, but 
I am trying to keep this thing----
    Ms. Berry. There is an issue. The voters you are talking 
about are in a situation that is not of their own making, the 
ones in the rural counties facing disparities you are talking 
about. And while it might not be race discrimination, and 
constitutionally, the Court may say that it is poverty and we 
do not have any economic rights--there is a whole argument 
about that--in point of fact, in terms of fairness, in terms of 
equity, in terms of ensuring the right to vote and making sure 
that our political system works effectively, absolutely, the 
Congress can do exactly what it has done on other issues, like 
education, for example, which is a state and local 
responsibility, that provide some resources to make the playing 
field even for people. Let them pick what kind of technology 
they want or how they want to do it, and not interfere, but 
make the resources available, as we do, again, in education, to 
equalize the playing field. I think there is an absolute issue 
there.
    The Chairman. I will give you all a chance to move around 
here. So we will get a chance to come back. But I guess the 
question being posed is that: if voter error is caused by 
faulty equipment or because of the impoverished area is that 
not disenfranchisement? I guess that is the basis question.
    Ms. Berry. Absolutely.
    The Chairman. Let me turn to my colleague from New York.
    Senator Schumer. Well, and I would say--and thank you, Mr. 
Chairman, for holding these hearings. I apologize for being 
late. I had to put my daughter on the camp bus in Brooklyn, so 
she is gone for 2 months, for better and for worse.
    The Chairman. She will be watching C-SPAN tonight. If you 
want to correct that, we will give you a chance to correct 
that.
    Senator Schumer. Yes. We miss her very much. She is happy 
to get away. That is what we are saying here.
    The Chairman. Okay. [Laughter.]

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, MEMBER, A U.S. 
               SENATOR FROM THE STATE OF NEW YORK

    Senator Schumer. But what I would like to do is go back to 
the argument that was made here before.
    The Chairman. Absolutely.
    Senator Schumer. We have two bills here. I know they have 
been talked about before. Senator Dodd's done yeoman-like work 
getting so many sponsors on his bill, almost every Democrat, or 
every Democrat. Senator McConnell and I have worked on a 
different bill. The main difference in the bills is mandates as 
opposed to using funding as a way to get places, localities to 
upgrade. The one hope I have is that we can eventually, we do 
not let our differences here stand in the way of passing 
legislation, because I think the similarities far outweigh the 
differences.
    Let me get to the question here, and I would like to follow 
up on what Senator Torricelli said. I think this is an argument 
that does not make a difference. And that is what I would like 
to ask Professor Thernstrom, someone I have tremendous respect 
for, having read a lot of her works, and I think my sister was 
taught by her at Harvard. Whether its economic analysis, 
whether the regression reveals that its income levels, and, 
yes, in an upper middle income, African-American area, there 
would be as little voter disenfranchisement as in an upper 
income white area, to me does not really matter.
    If large numbers of people try to vote and cannot, not 
through their own mistake, and this you cannot dispute because 
every one of us has these experiences. I have seen the anguish 
on poor people's faces, working people who show up at the polls 
at 6:30 in New York, wait on line for an hour because the 
machines are so outdated, and when they get to the front desk 
they are told, ``You are at the wrong voting booth because we 
have switched the cards. Go to the next line and wait another 
hour.'' And they have children to take care of and other things 
to do, and they walk away disgusted. Nothing bothers me more 
than a person who makes the effort, and it is not made easy.
    It would also be obvious to me, that if, as Professor Lott 
says, that income level has a more direct correlation than race 
in determining how many people are in these instances, that you 
still have a higher number of people of color turned away from 
voting because they are poor, and the analysis cannot dispute 
that. I am not saying that this is the cause. It may be the 
economics is the cause, as Senator Torricelli was making the 
argument. But I would ask Professor Thernstrom, because I think 
Mrs. Berry agrees with me here, or at least did--I saw her 
shaking her head--what is the difference? Why shouldn't we, at 
the Federal level, be putting as much money as we can into 
making sure that poor people or poor black and Hispanic and 
white people, call it what you will, and Asian people, and 
Native Americans, put as much money as we can into making it as 
easy for them to vote as the people in Great Neck and Scarsdale 
and other places, whatever their race, who have the machines 
that make it a lot easier? What is the argument against that, 
if any, or do you agree that we should do that?
    Ms. Thernstrom. Well, I agree that the money should be 
available, of course, as the McConnell bill, I believe, 
provides. But, look, and the stories you tell are, of course, 
deeply troubling, but my understanding of the literature at 
this point is there is no evidence that punch card ballots for 
instance were concentrated in poverty areas. And what I was 
going to say before--but I do want Dr. Lott to briefly talk 
here--that----
    Senator Schumer. Let us say they are not.
    Ms. Thernstrom. Okay.
    Senator Schumer. Still want to provide the money. You would 
still----
    Ms. Thernstrom. Okay, but look----
    Senator Schumer. Yes or no?
    Ms. Thernstrom. I would like the money to be available to 
states. Absolutely, I would like the money to be available to 
the states, and I believe that the McConnell bill makes----
    The Chairman. Both bills, all bills.
    Senator Schumer. Fine.
    Ms. Thernstrom. Make it available. The only question is----
    Senator Schumer. The second sponsor on the McConnell bill's 
name is Schumer. [Laughter.]
    Ms. Thernstrom. Thank you.
    Senator Schumer. So, you are not arguing against me here.
    Ms. Thernstrom. Sorry. I--I----
    The Chairman. He is also a sponsor of the Dodd bill, which 
by the way, makes my case.
    Ms. Berry. Senator----
    Ms. Thernstrom. No, let me finish.
    The Chairman. Please let Professor Thernstrom. Let 
Professor Thernstrom finish.
    Ms. Berry. Could I please?
    Ms. Thernstrom. May I finish.
    The Chairman. Yes.
    Ms. Thernstrom. Senator Schumer, I should have remembered 
that perfectly well. I did know that.
    Senator Schumer. That is okay.
    Ms. Thernstrom. My apologies. But my previous point--and I 
do want Dr. Lott to talk very briefly to this point--my 
previous point is you cannot completely eliminate voter error 
without a horrible infringement of personal privacy. That is, 
if a ballot is spit out and you have got an official saying, 
``Dr. Thernstrom, did you really not mean to vote for somebody 
at the top of the ticket, or do you not really know who you 
want to vote for as county supervisor,'' it would be an 
intimidating question and I do not want that kind of invasion 
of privacy. So you are not going to completely eliminate voter 
error. But, yes, I agree with your basic proposition. Let us 
make funds available for the best possible machinery. Let Dr. 
Lott talk a minute.
    Ms. Berry. Why is it that I cannot talk?
    Senator Schumer. You will. I just want to let her finish.
    The Chairman. You are going to be heard. I want to make her 
next.
    Mr. Lott. About 30 percent of the variation----
    The Chairman. Try and make this fairly brief, Dr. Lott.
    Mr. Lott. Yes. About 30 percent at least of the variation 
in spoiled ballots can be explained by the type of voting 
mechanisms that are used and whether the votes are counted at 
the central or at the precinct level. And also----
    Senator Schumer. But in all due respect, sir, lots of 
people do not vote, not just because of spoiled ballots.
    Mr. Lott. Oh, no, I agree.
    Senator Schumer. Like the example I gave, they waited on 
line and their name was not there, or it said you are not on 
the voting rolls because you are a felon, and you are not a 
felon, or depending on the state, you were a felon two years 
ago. Spoiled ballots are not the only way of 
disenfranchisement, you will concede that, correct?
    Mr. Lott. Of course. I was not trying to disagree. I was 
just saying that there are lots of factors. You had mentioned 
the voting machines and stuff, and they do matter. And it does 
vary by income. You know, whether you have got----
    Senator Schumer. It does vary by income?
    Mr. Lott. It does, even after you account for----
    Senator Schumer. Professor Thernstrom just said----
    Mr. Lott. But it does not----
    Ms. Thernstrom. No. No, I----
    Mr. Lott. It does not vary by race though, I do not think.
    Senator Schumer. Okay. But would you concede that if it 
varies by income, the percentage, not the causality, but the 
percentage of people of color who are turned away is, ipso 
facto, going to exceed the number of white people turned away?
    Mr. Lott. You do not find any additional effect from race--
--
    Senator Schumer. I did not say additional. You are not 
answering my question. You know, it is the same kind of logic 
you had in your correlation study that said the more guns, the 
less violence.
    Mr. Lott. Well, that is pretty----
    Senator Schumer. Answer my question, sir.[Laughter.]
    The Chairman. Wait, wait, wait. We are not getting into 
guns here.
    Senator Schumer. No, no, no. Answer my question. I did not 
say ``additional.'' I did not say ``additional.'' And so do not 
twist my question. I said to you, if there is economic 
correlation, which you just conceded there was, does it not 
mean, ipso facto, that a higher percentage of people of color 
are turned away from voting or do not get to vote than white 
people? Yes or no?
    Mr. Lott. For any given income, there is no higher 
percentage blacks that are not voting, but if you break it down 
in terms of----
    Senator Schumer. Do you refuse----
    Mr. Lott. If you break it down in terms of----
    Senator Schumer [continuing]. To answer the question yes or 
no?
    Mr. Lott [continuing]. More blacks.
    Senator Schumer. It is a simple yes or no question. Are not 
people of color poorer; is not black income--is black income 
lower than white income? Can I get a yes or no on that?
    Mr. Lott. Yeah.
    Senator Schumer. Is Hispanic income lower than white 
income?
    Mr. Lott. Yes.
    Senator Schumer. Again, I want to have you answer the 
question to me in a straightforward way. If----
    Mr. Lott. I thought it was.
    Senator Schumer [continuing]. Your assertion that there is 
an economic correlation between people----
    Mr. Lott. What I said was----
    Senator Schumer [continuing]. Who are turned away from 
voting, economic correlation, and you just agreed that black 
people and Hispanic people have lower incomes than white 
people. Then does it not have to follow, not with an 
explanation--it should just require a yes or no answer--does it 
not have to follow that a greater percentage of black and 
Hispanic people are turned away or do not get to vote, than 
white people?
    Mr. Lott. Yeah.
    Senator Schumer. Thank you.
    The Chairman. Okay.
    Ms. Berry. Do I get to----
    The Chairman. Let me turn--no, no, no, hey, hey. This is 
not a rally. It is a hearing.
    I am going to give you a chance to--because I know you want 
to respond to some of the earlier question. And I will use it 
out of my time, and then turn to my friend from Kentucky.
    Ms. Berry. Let me first say that Senator Schumer and 
Senator Torricelli are really onto something when they say that 
this fairness problem is something that should be addressed, 
and it may also be a constitutional problem, because indeed, we 
have a constitutional right to vote, unlike all those school 
finance cases where the Supreme Court said there is no economic 
right to have an equal school, and then you have to come at it 
through the back door, providing funding. So this is definitely 
a fairness question, and it is underscored by the Supreme Court 
decision in Bush v. Gore when they talk about equal protection.
    The other point I wanted to make is that we are being too 
generous in conceding that voter error caused these problems. 
In point of fact, there is no evidence that voter error--we 
found that and so did the Governor's Task Force--in Florida 
caused these problems. That is just wrong. These problems that 
are in our report were caused by all the different kinds of 
things that Senator Schumer mentioned and other issues. There 
is no evidence and therefore no need to keep conceding that as 
we make these points. Also there is no evidence that income 
would have made the facts come out differently. In fact, 
correcting for income, blacks still have the highest rate of 
spoilage. All the people still have the same problems. So this 
is just a canard that is thrown out there.
    And finally, we keep coming back to causation, and I know 
we do not want to talk about race. It is hard in America to 
talk about race. Let us talk about anything other than race. 
That is tough. But causation. The civil rights laws, the Voting 
Rights Act especially, do not require us to connect the dots 
and say who caused this and who caused that. It happened. We 
know what happened. And if it has a disparate impact, an 
overwhelming impact on a group of people that the law is 
designed to protect, it is up to the Attorney General to ferret 
that out and to go forward and to do something about it. So let 
us not concede the points in the argument, even though they are 
painful for us to deal with. And it may be that to get a 
bipartisan consensus, one needs to mute the race argument, mute 
the argument about discrimination, mute all these arguments, 
and talk about these other issues. And you know that better 
than I do, and if that is what you have to do, fine. But the 
report shows more than that. Those are problems, but there are 
other problems.
    The Chairman. Mr. Lichtman, you wanted to be heard, and 
then I will turn to the Senator from Kentucky.
    Mr. Lichtman. Yes. I would like to bring us down to the 
bedrock reality here, and look at what actually happened by 
race within counties using the same technologies, and these are 
not statistical estimates, this is what actually happened in 
the 90 percent black precincts, versus the 90 percent non-black 
precincts, because these numbers are shocking, and the Nation 
should know about them.
    In Duval County, in the 90 percent black precincts, 22 
percent of ballots were rejected, more than 1 out of 5 of every 
person in those overwhelmingly black precincts, who walked into 
the polling booth, had their ballots rejected. This compares to 
6 percent in the 90 percent plus non-black precincts, a 16 
percentage point difference. In Palm Beach County----
    The Chairman. What are the total numbers of people who 
voted in those two counties?
    Mr. Lichtman. Hundreds of thousands in these counties. In 
fact I looked at Duval, Miami-Dade and Palm Beach. If African-
American rejection rates had been equal to that of non-African-
American rejection rates, more than 20,000 additional ballots 
by African-Americans would have been cast in those three 
counties alone. These are counties using the same technology.
    In Escambia County, a county which had available optical 
scanning technology by precinct, in the overwhelmingly white 
precincts, the rejection rate was 2 percent. In the 
overwhelmingly black precincts, the rejection rate was 13 to 14 
percent. This is what actually happened within counties using 
the same technology. In Escambia there was not a single, 
regardless of any other characteristics, white precinct 
anywhere close to the rejection rates for the black precincts.
    So we can try to explain all this away. We can try to talk 
about correlations, but the bottom line, knowing what actually 
happened now within four counties casting hundreds of thousands 
of votes, is not small, but double digit disparities between 
the white precincts and the black precincts, and statistical 
analysis confirms that.
    Ms. Thernstrom. Can I answer that?
    The Chairman. No. I am going to turn to my colleague from 
Kentucky and his time. That was my time.
    Senator McConnell. Thank you, Mr. Chairman. I think it is 
perfectly apparent that the Commission is deeply divided on 
this, and we can have a battle of statistics endlessly. I tend 
to agree with Senator Schumer, whether it is race or whether it 
is economics, the issue is what if anything should we do at 
this level?
    I understand the chairman wants to have a lot of additional 
hearings, and that is certainly his prerogative, but a very 
large number of Senators, which is unusual around here, have 
already reached a conclusion about what ought to be done. I 
understand virtually every, if not every, Democrat is on the 
chairman's bill. 70 Senators--which is astonishing, almost 
never happens around here--70 Senators are on the bill that 
Senator Schumer and I are promoting. And the fundamental 
difference between the two is the role of the Federal 
Government.
    So I would like, during my brief time here, to stop the 
battle of statistics. They are interesting and I suppose could 
go on endlessly, but I would like to ask you, Ms. Berry, and 
you, Ms. Thernstrom, to address specifically, since the two 
bills differ fundamentally on this issue of Federal mandates, 
which way we ought to go and why. Ms. Berry.
    Ms. Berry. Well, because the right to vote is so 
fundamental and constitutionally protected, and has been so 
contested in our country, and that the Federal Government 
really has not paid that much attention to the actual mechanics 
of voting in years--and because states have uneven resources, 
just as counties within states have uneven resources, that if 
you can--and political scientists tell me, that the further 
away you are from the people, something about taxing and 
allocating funds, and people understand better if it is a 
national responsibility. Whether that is true or not, I think 
that since it is a constitutional right and since there are 
uneven resources around the country, and because the Federal 
Government ought to show leadership on this, leadership is 
important in this area--that there ought to be some resources 
allocated and some standards established by the Federal 
Government for the states to use, but not with intruding into 
how they actually carry out things on a day-to-day basis. Let 
them figure out how to do that.
    Senator McConnell. Thank you. I do not think we are going 
to have a big argument over resources. But the administration 
of elections is dramatically different. As many of you know, in 
North Dakota, they do not register at all. They just show up on 
election day. They have never had a case of fraud. Nobody has 
ever accused anybody of cheating. It is just not done in North 
Dakota. Nobody does that. In Eastern Kentucky, where there are 
almost no African-Americans, it is not a disability to voting 
to have passed away. [Laughter.]
    And it is a longstanding tradition that leaving this earth 
is no particular problem in continuing the right to vote. And I 
just cite those as two dramatically different situations, 
completely unrelated to race. I assume North Dakota is 
virtually all white. I guess that is right. I assume it is. The 
states vary in size. They vary in customs. Voter fraud tends to 
be sort of part of the culture in some inner cities and in some 
rural areas like in my state. It is just sort of what people 
do. I do not know if it is a sport or something. I am not sure. 
But those kinds of actions tamper with the validity of the 
franchise, and so I worry somewhat about a kind of one-size-
fits-all approach to election administration. So I just wanted 
to indicate some skepticism about the Federal approach.
    Now, Professor Thernstrom, your view on the same question, 
which is the appropriateness of Federal mandates, which really 
is the only issue that divides the Senate.
    Ms. Thernstrom. Well, as I said, I have no problem in 
making funds available. I will stick with my point, however, 
that voter error is the main problem here, and thus, voter 
education is a major problem. And I am not sure what role any 
level of government can play in really solving that problem. I 
mean, what is the government supposed to do? Is it supposed to 
send election workers house to house? Is it supposed to have 
mandatory voter education?
    Senator McConnell. So your thought is whether we sort of 
federalized elections or not, the chances of having a perfect 
election, which Senator Feinstein was suggesting----
    Ms. Thernstrom. Is zero. You are not going to have----
    Senator McConnell. Almost not possible.
    Ms. Thernstrom. And there is no national emergency 
equivalent to 1965, when you had had egregious Fifteenth 
Amendment violations for 95 years, and when 6.7 percent of 
eligible blacks in Mississippi were registered to vote, and 
where Florida--and let me see, one other southern state--I 
cannot remember which one----
    Senator McConnell. Let me just ask in closing----
    Ms. Thernstrom. Were the only ones with more than 50 
percent of eligible black voters.
    Senator McConnell. And is it not also the case, that in a 
very close election, no matter what kind of system you use, 
paper ballots, punch cards, touch screen voting, if it is a 
very tight election, and somebody goes to court, this could 
happen all over again in any state in America in any election, 
right?
    Ms. Thernstrom. Absolutely.
    Senator McConnell. So it is not possible, whether the 
Federal Government mandates some one-size-fits-all solution or 
not, to create, in effect, the perfect election environment?
    Ms. Thernstrom. Well, that is true, and I should remind the 
Committee that the micro-managing of elections at the local 
level in the 1965 Voting Rights Act, barely passed 
constitutional muster. It did because of the true emergency 
situation that faced the country, where blacks were 
disfranchised in the Deep South.
    Senator McConnell. Well, let me just conclude, Mr. 
Chairman, by saying, at some point we are going to have to get 
together here if we are going to pass a bill, because we have a 
situation which all--I guess all Democrats are on Senator 
Dodd's bill, a bipartisan group are on mine--if anything is 
going to happen in the Senate, at some point we are going to 
have to sit down and talk. And I thank you all very much.
    Mr. Lichtman. Can I respond for 30 seconds?
    The Chairman. 30 seconds.
    Mr. Lichtman. Very much on this point. Yes, it is true we 
can never have a perfect election, but rejection rates of 16, 
20, 25 percent are intolerable. In Baltimore City, a city 
which, as we know, has tremendous problems of poverty, and 
difficulties with their education system, they have been able 
to get their ballot rejection rates down to 1 percent or lower. 
It can be done. Do not give up, Nation. Do not give up.
    Senator McConnell. That was without the Federal 
Government's help too, right?
    Mr. Lichtman. That is right.
    The Chairman. We are going to come back here. Just to point 
out, Senator McCain asked me to express the notion that he is 
very supportive of the proposal that I have introduced with 
John Conyers. He has not co-sponsored the bill yet, but would 
like to be on public record as indicating he is strongly 
supportive of what we are trying to achieve. So if 
bipartisanship becomes the standard by which we decide whether 
or not a bill is good or not, we will achieve that as well. But 
my hope is we can come to some satisfactory compromise. My 
colleague from New York.
    Senator Schumer. Yes. I just had one question. First, I 
guess, I would say, in reference to my friend, the Senator from 
Kentucky, I mean, to make the perfect the enemy of the good 
again here does not make sense. If we can cut out voter--you 
can call it disenfranchisement. You can call it error. It is 
people who want to vote and are not voting. Again, an argument 
that I do not think really matters all that much.
    But we should try to make it--and such a fundamental right 
with such a relatively small expenditure that can, by almost 
every expert, do good, we ought to be doing it. And, no, we 
will never have a perfect election. We will never have a 
perfect person. We do not stop making people. That is just a 
silly argument in my judgment.
    Ms. Thernstrom. But there is no disagreement on that, 
Senator Schumer. There is no disagreement----
    Senator Schumer. That is what I am saying. There is far 
more agreement here on the fundamental issues, than would 
appear.
    Ms. Thernstrom. I agree with that.
    Senator Schumer. Than would appear. The only question that 
I had--and that fundamental agreement is we can do better, and 
the Federal Government should do better. And we have to figure 
out--should help the localities do better. And the question is 
how to figure out how.
    I just have one little question, because I think it is 
important to clarify. When you say ``voter error'', I am a 
little confused. Are these only errors that are the voters' 
faults? In other words, they pushed one button or did not, and 
meant to push another? What happens--I just wanted to ask a 
question. I was asking Professor Thernstrom, because she has 
been using the term ``voter error.'' What happens in the 
example that I came to, where you waited on line an hour and 
your name was not in the book, and it was in a book somewhere 
else, and you had to go over there. Is that what you call voter 
error?
    Ms. Thernstrom. No, that clearly would not be called voter 
error. What are voter errors are over-votes and under-votes, 
and that----
    Senator Schumer. People voting too often?
    Ms. Thernstrom. People who have chosen not to vote or do 
not understand that----
    Senator Schumer. But that may not be error. That may be 
their choice.
    Ms. Thernstrom. That is correct. And I am saying that in 
the ballot spoilage rates, those people are actually included--
people who may have chosen to leave their ballot partially 
blank.
    Senator Schumer. But in the statistical study that 
Professor Lott did, did he look at things other than what you 
are defining as voter error, such as people who believe they 
were eligible to vote and were not allowed to vote, or people 
who were told go vote somewhere else, and could not get to the 
polling place in time? Did you look at that?
    Mr. Lott. No, I only studied the----
    Senator Schumer. Then I would suggest, Mr. Chairman, that 
the study that Professor Lott did may have some value, but if 
you are just looking at who was able to vote----
    Mr. Lott. It was the same thing they----
    Senator Schumer. Okay. Well, then the study of Professor 
Lichtman as well. If you are just looking at who voted for one 
office but did not vote for other offices on the same ballot, 
in my anecdotal--but I think laden with lots of experienced 
judgment--you are missing most of the people who do not get to 
vote and want to.
    Ms. Thernstrom. Or over-votes. You named only under votes. 
Over-votes too.
    Ms. Berry. And, Mr. Chairman----
    Senator Schumer. And I will let Ms. Berry have the last 
word.
    Ms. Berry. Mr. Chairman, our report has only one chapter 
that focuses the statistical analyst. The rest is about the 
things that happened to people who could not vote. We may not 
be able to have a perfect election, but we can have an election 
where people who are disabled have access to the polls, where 
they can get into the building. We can have elections where we 
have standards, to ensure that those kinds of things do not 
happen.
    Senator Schumer. Ms. Berry, we have no way of knowing the 
number of people who showed up at the polling place. We are 
told they were not listed or were not able to vote because they 
were a felon if they were not, or vice--well, we may know vice 
versa. But we have no idea of knowing how many of those people 
were there. My experience in New York City, where by the way, 
you cannot vote for the same person twice. The old voting 
machines, as clunky as they are, have that virtue. You cannot 
vote for the same--you cannot have what you had in Palm Beach 
County happening here. But I see every time I run for election 
now, every two years since 1974, so I guess that is a lot of 
elections. [Laughter.]
    I see it every time. I see person after person after 
person, who wants to vote and cannot. Some of them are 
ineligible probably, many are.
    The Chairman. Because we have other panelists to go, permit 
me to just share a couple of thoughts. There are similarities, 
obviously, in funding and so forth in the various bills. There 
is a difference, and there is a profound difference that has 
been identified already. Under Senator McConnell's bill and 
Senator Schumer's bill, of course, if you get Federal dollars, 
then there are certain requirements that you must fulfill. 
Under our proposal, we provide the Federal dollars to help 
modernize the equipment, but we do not make the requirements 
that certain things happen contingent upon your receiving 
Federal dollars. We say that these things should happen.
    And the things that we say should happen are sample 
ballots--and I want to ask you all about these things--we say 
you should have sample ballots, national standards on 
equipment, not deciding what the voting machine ought to look 
like, but that there should be some basic standards applied so 
that they are accessible, that language--minorities as well as 
the disabled and so forth can have access to a ballot, without 
going into the details, without saying specifically what it is, 
that is, one-size-fits-all, except there ought to be a standard 
that makes this accessible to people, so it can take into 
consideration cultural or other differences that may exist. We 
say there ought to be provisional balloting, and both bills say 
that. One says it is required if you take the Federal dollars. 
We say we think the States ought to do this. And then, as I 
mentioned, the equal access.
    Now, take the Voting Rights Act of '65, for example. I am 
not breaking new ground with this bill--I want to get at this. 
There are 14--I count 14 mandates from the Federal Government 
dating back to 1965, saying things like--this is not a choice, 
but rather these are things that should happen. I mentioned 
earlier, in 1964, when we passed the Civil Rights Act of Public 
Accommodations, we did not say, ``You have got to make 
restaurants and restrooms available to people, based on whether 
or not you get Federal dollars in your state.'' We said, ``This 
is a basic right for people.'' Certainly, the same with 
educational opportunity. In the Supreme Court decision, Brown 
v. Board of Education, we did not decide that there ought to be 
equal opportunity to education based on whether or not you got 
Federal dollars. We said this is a matter of right. Again, with 
the ADA, 11 years ago, the Disabilities Act. My point simply 
being--and I think my colleague from New York has expressed 
this to me--I hope that people understand here we are not 
trying to overreach. But we saw some problems that emerged 
here, and not just in Florida, and the second panel will get 
beyond Florida. I think it is important that we understand this 
is not a one-state deal with a problem. If it were, this 
hearing should not be conducted in my view, nor should the 
Civil Rights Commission necessarily, but I understand you might 
want to take a look at one state. But I see this more national 
in scope. Florida happened to be under the microscope because 
of the closeness of the vote there, but there are plenty of 
other states where these problems persist. At least that is my 
opinion.
    So the difference here is whether or not there are going to 
be enough votes to pass legislation that would say on these 
basic issues of sample balloting, provisional voting, we should 
be making some national standards on what these ballots look 
like and the machinery that should be used. Can we pass that? 
If we cannot, then I guess I can do the easy thing, which you 
could pass overnight in here, which is to say we will punch a 
lot of money out there, and we would like you to try these 
things. Maybe you will, maybe you will not. But my fear is, of 
course, what may happen there is that does not happen. So there 
is a distinction here in terms of of the mandate, the carrot. 
And I do not like to think of it as a stick, any more than I 
like to think of the Civil Rights Act of '64 or Brown v. Board 
of Education, or the ADA, as sticks. I know there are a lot of 
arguments that were made in 1965--and I will put them in the 
record--of people who thought that the Federal Government 
saying you ought to eliminate a poll tax was interfering with 
local decision making or that literacy tests ought to be a 
matter of local decision making. Well, thank God the country 
said no. In America we do not require you to meet a financial 
standard or a literacy test to exercise the franchise, to 
decide who your congressman, senator or president are going to 
be. And I do not think that it is egregious overreaching to 
have a sample ballot, provisional voting, and some national 
standards that say that, regardless of your race, ethnicity or 
your disability, you have a right of access to that voting 
booth. That voting booth is hallowed ground in my view. And I 
would hope my colleagues would not see this as a D or an R 
issue, or somehow a partisan battle or an indictment over the 
last election. That is not my view.
    The last election gave rise to this, but the idea that 
somehow people are embracing the view that the President is not 
legitimately in office is bunk. This is the President of the 
United States, sworn into office. We accept that. What we saw 
is an election that raised some real issues that need to be 
addressed, and so my hope is that we can come to some common 
ground on this.
    But I wanted to ask both of you very quickly to put aside 
for a second the mandate or not. Let me take the mandate out of 
this thing. Is there anything wrong with the suggestions that I 
have made on sample balloting? I particularly want to hear you 
address provisional voting and the issue of national standards, 
understanding that I am not talking about deciding for Mitch 
McConnell what the voting machine ought to look like in 
Kentucky or New York or Connecticut, but rather having a 
national standard that would require machines to meet some 
basic requirements. Do you see anything fundamentally wrong 
with that, except for the notion that the Federal Government 
may mandate it?
    Ms. Thernstrom. I would be delighted if States would adopt 
the procedure that every voter has a sample ballot. I would be 
delighted if every State adopted provisional voting. I 
certainly think there should be equal access to the polling 
place.
    So, as you say, the only question here is a Federal 
mandate, and the way you justify the Federal mandate is to 
evoke the 1965 Voting Rights Act and Brown v. Board, and, by 
the way, 1965 was really the completely different context, as I 
said, of a national emergency. The 1965 act did allow literacy 
tests except in those jurisdictions in the Deep South in 1965 
where those literacy tests were completely fraudulent. It was 
later that they were banned nationwide.
    So, I do not think what you are suggesting as a Federal 
mandate can be justified by reference to the 1965 act, to Brown 
v. Board, when in the Jim Crow South, that was really a very, 
very different context.
    Ms. Berry. May I say something?
    The Chairman. Yes, I wish you would, and then we will move 
on.
    Ms. Berry. I think the problem here is that we are behaving 
too bloodlessly. There are people who are in pain because they 
believe that something needs to be done about the system. They 
feel they have been disenfranchised, whether we believe it or 
not.
    Thus, we have to consider what we can do to make sure these 
needs are addressed. The things that you suggested, Senator 
Dodd, are rudimentary, such as a sample ballot. I would only 
add that the sample ballot needs to be clear. We saw some 
sample ballots that were not. In fact, some people followed 
some of those sample ballots, went into the polling booth, and 
ended up not voting the way they intended.
    The idea of a provisional ballot is great. As I said 
earlier, if Florida had provisional balloting, many of the 
problems that occurred would not have happened. We would not 
have had to talk about them. That one thing, a provisional 
ballot, would solve a lot of the problems.
    As for national standards, they ought to include things 
that make--not assume that if you have a sample ballot it is 
going to be okay, or if you have this it is going to be okay. 
There has got to be a little more than that. And maybe the 
commission that the legislation talks about establishing could 
monitor what the States do. I do not know whether you want to 
write it that way.
    The Chairman. Well, we did not want to make a permanent 
commission out of it.
    Ms. Berry. Right. The Commission would serve a valuable 
function if it monitors what the States do on these scores. 
Again, I think that--your legislation is a minimal response to 
the enormity of the problem and is a minimal intrusion, at 
most.
    Finally, I want to say that the emergency situation in 1965 
was not merely because African Americans could not vote. 
African Americans had not been able to vote for a long time. 
There were barriers to voting. However, there was a national 
emergency because of the civil rights movement and because 
people were in the streets, insisting that something be done. 
And that is what created the emergency. Today we do not have 
people in the streets insisting that something is done, but we 
have a lot of people who feel there is something terribly wrong 
and they want it fixed going forward. And I think that it is 
your duty, sir, and you are undertaking your duty, to pass some 
legislation. I look forward to seeing it pass.
    Thank you.
    The Chairman. Thank you very, very much. Again, I thank all 
of you. I thank the Commission, all the members, and I know we 
only have two here of the eight Commissioners that participated 
in all of this.
    Ms. Berry. Two of them are back there.
    The Chairman. Commissioner Thernstrom, you are going to be 
submitting your dissenting views to the committee so we can 
include that in the record?
    Ms. Thernstrom. I am, yes.
    The Chairman. Fine. And that has been also submitted, I 
presume, to the full Commission?
    Ms. Berry. We have not seen them.
    Ms. Thernstrom. Well, they are available this morning. They 
have been made available this morning.
    [The dissenting report is Appendix 12 on page 817.]
    The Chairman. Fine. I am going to also ask unanimous 
consent that a study done by Phil Klinkner, if that is the 
correct name, ``Whose Votes Don't Count?,'' using, by the way, 
the same methods used by Mr. Lichtman. I am reluctant to tell 
you what town he is from. He lives in Clinton, New York. I wish 
it had been Bush, New York. [Laughter.]
    We will make that a part of the record as well. Any other 
statements and information you think would be worthwhile for 
the committee to have, we would appreciate very much.
    [The study is Appendix 14 on p. 891.]
    The Chairman. It has been a little contentious here, but it 
is worthwhile. I appreciate your patience in all of this.
    Ms. Berry. Thank you very much for inviting me again.
    The Chairman. Thank you very much.
    We will go to the second panel. Mr. Blackwell has got 
another appointment to make, so we are going to try and move 
this along and ask the members of the second panel to join us. 
Unlike the first panel, we are going to--thank you very much, 
by the way--I am going to invite the members of the second 
panel up here. Mr. Blackwell, thank you for being here.
    Mr. Blackwell. Good to be with you.
    The Chairman. Hilary Shelton. Hilary, are you joining us up 
here in the second panel? And Raul Yzaguirre of the National 
Council of La Raza is here.
    Senator McConnell. Mr. Chairman, if I could, while the 
witnesses are gathering, I am hopefully going to be able to 
stay for the testimony, but I did want to say to my long-time 
friend, Secretary of State Blackwell, that I may not be able to 
stay for the questions. And I am going to submit my questions 
to all the witnesses in writing. But I do want to apologize in 
advance for maybe having to duck out of here before you are 
finished.
    The Chairman. I understand.
    Senator McConnell. Thank you.
    The Chairman. Thank you very much.
    What we will do here, Mr. Blackwell, because I know you 
have got a time constraint, why don't I go to you first, and 
then if the chairman--I keep calling you the chairman.
    Senator McConnell. Old habits die hard.
    The Chairman. You are still the chairman in my view. But, 
Mr. Blackwell, if my colleague has some questions for you 
before he has to leave, we will try and accommodate him that 
way.
    Senator McConnell. Thank you, Mr. Chairman.
    The Chairman. Thank you all three for being here. I am 
going to put some lights on here. This is in no way meant to be 
discriminatory. I gave the Commissioners 15 minutes. You are 
going to get 8 minutes. I know you have lengthy statements. I 
have read all your statements. I promise you the full 
statements will be in the record and any accompanying data and 
material you would like to have will also be included. I am not 
going to hold you absolutely to the lights, but try and keep it 
in mind so we do not hold you unnecessarily long.
    Mr. Blackwell, we thank you for coming.

 TESTIMONY AND PREPARED STATEMENTS OF A PANEL CONSISTING OF J. 
   KENNETH BLACKWELL, SECRETARY OF STATE, THE STATE OF OHIO, 
COLUMBUS, OHIO; HILARY O. SHELTON, DIRECTOR, WASHINGTON BUREAU, 
  NATIONAL ASSOCIATION FOR THE ADVANCEMENT OF COLORED PEOPLE, 
 BALTIMORE, MARYLAND; AND RAUL YZAGUIRRE, PRESIDENT, NATIONAL 
                       COUNCIL OF LA RAZA

               STATEMENT OF J. KENNETH BLACKWELL

    Mr. Blackwell. Chairman Dodd, Senator McConnell, 
distinguished members of the committee, good afternoon. Thank 
you for this opportunity to offer my support for election 
reform.
    I am enormously optimistic about this issue. The bipartisan 
effort to keep the election reform movement alive is 
commendable, and it has been heartening for me as my State's 
chief elections officer. Without Federal financial assistance, 
Ohio will be unable to make much-needed improvements to our 
voting system.
    As in many States, Ohio's elections process has been 
underfunded for far too long. Money for elections comes out of 
the same budgets as money for education, road repairs, mental 
health services, and welfare, to name a few.
    We can no longer run our democracy on the cheap. We do not 
defend our democracy on the cheap. We can no longer afford to 
manage our democracy on the cheap.
    Year after year, elections have gotten shortchanged as 
counties have tended to more urgent matters. Never a glamorous 
issue, it has always been an issue that has been pushed back to 
the back burner of budget agendas at every level of government 
time and time again.
    But now, owing to the 2000 Presidential election, the 
condition of our elections process is common knowledge, as well 
as a common concern.
    A USC-Cal Tech study published in early May showed that 77 
percent of respondents still believe election reform is an 
``important'' or ``very important'' issue. It is a rare 
situation indeed when 77 percent of Americans can agree on 
anything. We are a very feisty people.
    In this rare situation is an opportunity to reverse the 
direction in which our elections process has been headed.
    After the 2000 Presidential election, I convened a summit 
of Ohio's most distinguished academics, election officials, 
community activists, and journalists to review and analyze a 
wide range of elections issues. I submit the executive summary 
of the Ohio Election Summit for your records.
    The summit panelists reached six points of consensus. Two 
of these points were that the loss of public confidence in the 
punch card system must be addressed, and comprehensive voter 
education initiatives must be developed and implemented.
    In November, 70 of Ohio's 88 counties used the 
controversary ridden punch machines. With the availability of 
viable alternate methods, it has since become clear that we 
need to move away from punch card voting. Voters in my State 
will be best served by election devices that use precinct-
count, second-chance technology. These systems are more 
reliable, more accurate, and more user-friendly.
    With financial assistance from the Federal Government, 
States will be able to make these changes and improvements. But 
Federal funds should not come with Federal mandates, except for 
those advanced through the U.S. Constitution. The McConnell-
Schumer bill recognizes that elections are State business, 
managed at the local level, and should remain so.
    In no uncertain terms, the U.S. Constitution delegates this 
responsibility to States, and, in turn, we turn over the 
management of elections in all but four States to local 
authorities. The Founders' wisdom in this matter is just as 
apparent today as it was centuries ago. Geographic and 
demographic differences throughout our country often make 
voting procedures and processes--or different voting procedures 
and processes preferred. Oregon chooses vote by mail. New York 
would never stand for it.
    Of course, any method used must guarantee the secrecy of 
the ballot while still allowing for audits, as well as protect 
against fraud. And vote-counting methods must be standardized 
within a State's boundaries so that each vote cast in that 
State receives equal consideration.
    But a federally mandated voting method or process would not 
only be unwise, it would be an invitation for widespread fraud 
and disaster. One of the things that we benefit from with 
diversity in election processes and procedures is that it would 
take thousands upon thousands of people collaborating and 
colluding to fix a national election or statewide election. 
Imagine a situation such as occurred in Florida on a national 
scale; I fear that the resulting confusion and mistrust would 
be a crisis from which our democracy might not easily recover.
    Election reform cannot stop with mere technology updates, 
however. This is another lesson well taught by Election 2000. 
We have seen that no matter what voting method is used, 
problems can and will still occur. If we do not have accurate 
lists of eligible voters and registered voters, and if voters 
and poll workers are unaware of how their system works, the 
technology and machinery employed is inconsequential.
    The priority given to voter education in Senator Dodd's 
bill is highly commendable. It is absolutely necessary that 
election reform efforts include provisions for spending 
resources on educating citizens about what they will encounter 
at their polling place.
    Voters must know how to cast a ballot and understand 
procedures for correcting a mistake on the ballot. They need to 
be informed about by how their ballots will be counted, and, of 
course, poll workers must learn, too, the ins and outs of their 
important and serious election day responsibilities. These are 
all issues best left to election officials across this Nation.
    The many election reform hearings, forums, studies, and 
polls conducted this past year will be all for naught if in the 
end there is no action taken by our leaders in Congress. This 
is a true test as to whether the lip service given to this 
matter is mere political hype or whether you as well as we at 
the State level, the representatives of the American people, 
are sincere in our intentions to support and improve upon the 
high standards of our democracy. The momentum of election 
reform must be kept moving in order to have these critical 
changes in place by the 2002 elections.
    I urge you to act quickly, yet cautiously, in a bipartisan 
manner to assist our States with their election reform efforts.
    Thank you.
    [The prepared statement of Mr. Blackwell follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very, very much.
    Let me turn to my colleague from Kentucky because of his 
time constraint.
    Senator McConnell. Just very quickly, Mr. Blackwell, within 
your experience there as the chief elections officer in Ohio, 
have you experienced State and local officials intentionally 
acting or conspiring to deny eligible voters the right to vote?
    Mr. Blackwell. Let me say that there is no evidence nor 
have I witnessed any conspirator activities to deny or 
discriminate. Because we in this country and in our State--in 
our State we have 88 counties, and in this country we have over 
3,000 counties--I would not offer, or I would not assume that I 
could speak as to whether or not there ever has been any local 
official that has deliberately kept a person away from the 
polls. But I can say that in Ohio I have not--and we monitor 
and provide oversight. I have not seen any evidence of any 
conspiracy to deny voters the right to exercise their vote.
    Senator McConnell. The flip side of that, of course, is 
allowing votes to be cast by ineligible voters. Would it be 
your view that that is just as much a----
    Mr. Blackwell. It is very much a concern.
    Senator McConnell [continuing]. Disenfranchisement of 
eligible voters as the other situation?
    Mr. Blackwell. The answer, the simple answer to that, is 
yes, you cannot allow an illegal vote to cancel out a vote that 
has been legally cast.
    Senator McConnell. It debases the votes of everyone who 
legally participates.
    Mr. Blackwell. Absolutely.
    Senator McConnell. Well, I thank you very much for being 
here today. It is good to see you again, and I apologize for--
--
    Mr. Blackwell. Oh, it is no problem. I understand 
schedules.
    Senator McConnell. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator McConnell. I will have written questions for all 
the witnesses.
    The Chairman. Absolutely. We will leave the record open to 
all of our colleagues on the committee for any written 
questions they may have.
    Let me turn to you, Mr. Shelton, from NAACP. I appreciate 
your being here this morning. You have testified before this 
committee in the past, and we are delighted you are here again 
today.

                 STATEMENT OF HILARY O. SHELTON

    Mr. Shelton. Thank you and good morning, Chairman Dodd, 
Senator McConnell, and distinguished members of the committee. 
Thank you for the opportunity to come here before you this 
morning on behalf of the NAACP and our over 500,000 card-
carrying members in 50 States, the District of Columbia, 
Germany, Japan, and Korea.
    I am here today on behalf of Mr. Kweisi Mfume, our 
association's president and CEO, who is unfortunately and 
unavoidably detained. Mr. Mfume asked that I send you his 
regrets and convey to you his deep appreciation for this 
committee, everything this committee has done and will be doing 
to address this crucial matter today.
    The NAACP is deeply appreciative of the Senate Rules and 
Administration Committee for convening this hearing to look 
into the issue of voting irregularities with respect to last 
year's Presidential election. We are also very grateful that 
you, Senator Dodd, are the lead sponsor of S. 565, the Equal 
Protection of Voting Rights Act of 2001, a comprehensive 
response to the problems we encountered in the November 
election. I would also like to thank you, Senator McConnell, as 
well as Senator Schumer and others that have worked tirelessly 
on this issue and who are dedicated to seeing legislation 
passed this year to address this serious matter.
    We believe that millions of voters across the Nation were 
denied their basic right to cast a free vote and have that vote 
counted. The situation in Florida obviously received the most 
national and media attention, and as we just heard from the 
previous panel, that attention was clearly merited. The NAACP 
believes that Florida is, in fact, a microcosm of the entire 
country. Throughout the United States, millions of American 
citizens were, for one reason or another, not able to cast 
their vote and have their vote counted.
    The NAACP strongly believes that the findings of the U.S. 
Commission on Civil Rights in Florida was fully accurate and 
consistent with testimony, affidavits, and other information 
presented to the NAACP before, on, and after November 7, 2000. 
We are convinced that what occurred in Florida was indicative 
of the entire Nation and that many of the voting irregularities 
occurred disproportionately in African American and other 
minority communities, so it was racial and ethnic minority 
Americans who were, in disparate numbers, excluded from having 
their voices heard. As the U.S. Commission on Civil Rights 
report points out, Africa Americans make up 11 percent of the 
registered voters in the State of Florida and yet 54 percent of 
the total disqualified votes that were cast. I would be remiss 
if I did not point out that even this alarmingly high number 
does not take into account the tens of thousands of voters that 
were turned away from the polling places before they were even 
allowed to cast their votes.
    There were, as best as we were able to determine, 
substantial unresolved allegations across the country of 
massive voter disenfranchisement in African American, Hispanic 
American, Haitian American, and Jewish communities. The 
election appeared to have been conducted in such a manner that 
many of the same communities now believe unequivocally that the 
election was unfair, illegal, immoral, and undemocratic.
    Every survey, in fact, that we have found that was 
conducted after the election, regardless of where it was in the 
United States, continues to show that the greater the 
percentage of African American voters in a precinct, the 
greater was the likelihood that a significant number of ballots 
of those voters were never counted.
    There was also a greater likelihood that computer 
equipment, when available at such polling places, was not 
adequate or on par with what was available to be used at 
polling places in precincts that had a relatively low or 
inconsequential number of African American voters.
    In response to the problems that we have identified, the 
NAACP has developed a set of well-thought-out ideas and 
recommendations designed to prevent similar election day 
debacles in the future. With this in mind, we bring the 
reasonable expectation to this proceeding that the 
distinguished men and women of both chambers of Congress will 
work in earnest to move our Nation towards a universal and 
uniform system of fairly and accurately casting and counting 
ballots that can be implemented prior to the 2002 election.
    Before I discuss what the NAACP believes needs to happen to 
correct the myriad of problems facing our Nation's electoral 
processes today, let me begin by recounting some of the 
problems that the NAACP has identified as having occurred on or 
around November 7, 2000.
    The weekend prior to the election, the NAACP began 
receiving calls alerting us to the fact that a person or 
persons were making electronic phone calls into predominantly 
African American households, claiming to represent the NAACP, 
in support of Republican candidate George W. Bush. These calls 
were apparently taking place in the key battleground States of 
Michigan and Florida.
    Beginning on election day, and still to this day, the NAACP 
continues to receive calls from people who believe that their 
rights to vote were violated.
    As a result of the flood of complaints we received, the 
NAACP held a series of hearings throughout the Nation to look 
into problems faced by many Americans who wanted to vote but 
were not able to for one reason or another. We have also 
continued to receive complaints through phone calls, letters, 
faxes, testimonials, and affidavits.
    I would like to take just a moment to share a few of the 
more egregious trends as well as some of the particularly 
disturbing accounts that we have heard.
    In Georgia, State troopers pulled over a college student 
who was driving people to the polls. He was told that unless 
everyone in the van was either related to him or unless he had 
a chauffeur's license, he must immediately cease and desist in 
driving people to the polls.
    In several States, including Florida and Missouri, we have 
received affidavits from African Americans who were forced to 
show identification, while their white neighbors were allowed 
access with no problem.
    There were African American men who were asked consistently 
if they had felony offenses on their records, though no others 
were asked the same question before being allowed to vote. As a 
matter of fact, a Catholic priest in Florida was told that his 
name had been purged from the rolls because he had a felony 
conviction on his record when indeed he did not.
    After the election, the New York Daily News reported that 
off-duty police officers and prison guards wearing armbands and 
armed with guns were posted outside several polling stations in 
New York under the guise of ``identifying trouble spots.''
    In Missouri, an African American businessman in suburban 
Kansas City reported a Christian Coalition voting guide on the 
table next to a voting machine. Upon complaining to one of the 
election officials, the election official told him that ``God 
wants you to vote for George Bush. God wants Bush to win, 
(Democrat Al) Gore kills babies.''
    Another very troubling trend that we have identified was 
the utilization of undertrained poll workers, as well as 
inoperable or malfunctioning voting machines. Again, these 
trends appear to be more prominent in communities of color than 
other communities across the Nation.
    The president of the NAACP's Arkansas College chapter 
reported at a hearing that students she had registered were 
having trouble with poll workers not finding their names on 
rolls, being turned away by poll workers who indicated that 
their votes would not be counted, that their votes would be 
thrown in the trash, and being told that the poll workers 
simply did not feel like looking for an individual's name on 
the voting rolls.
    The NAACP has received reports that some States, 
particularly Georgia, Illinois, and Florida, routinely 
disenfranchised thousands of voters, primarily in low-income or 
ethnic minority communities. In predominantly African American 
Fulton County, Georgia, one in 16 votes for President was 
invalidated. However, in nearby Cobb and Gwinnet counties--both 
mainly white--only one in 200 ballots had been destroyed 
because of ``irregularities.'' In Illinois, more than 50 Cook 
County precincts reported that on average one in six ballots 
were discounted, while almost every vote was counted in 
Chicago's mostly white outer suburbs.
    The NAACP has, therefore, developed a set of policies and 
procedures that we are asking every State, as well as the 
Federal Government, to adopt prior to the next election.
    Specifically, the NAACP is calling on the Federal 
Government, as well as each of the 50 States, to promptly enact 
comprehensive laws, policies, and procedures that will 
specifically implement our 12 recommendations. For the sake of 
time, we have included our recommendations in the longer 
version of my testimony that has been distributed to each 
member of the committee.
    The NAACP realizes that these 12 proposals, taken at once, 
may be perceived by some to be a tall order. And while we 
certainly feel that any one of them, if implemented alone, 
would help improve the current situation, I cannot stress 
enough the need to enact all of these policies sooner rather 
than later. What we need is a comprehensive bill, one that 
addresses the myriad of problems that we encountered in 
November 2000.
    As I said in the beginning of my testimony, S. 565, the 
Equal Protection of Voting Rights Act of 2001, takes the most 
comprehensive and decisive approach towards solving the 
problems identified by the NAACP, the U.S. Commission on Civil 
Rights, and many other civil rights groups throughout the 
country that occurred in November 2000 during the election.
    I again thank you, Mr. Chairman, and members of the 
committee, for holding this hearing and for your continued 
concern and activism in this area. I welcome any questions or 
comments that you might have for me.
    [The prepared statement of Mr. Shelton follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much. I am looking forward to 
July 9th. I received an invitation from the NAACP to appear at 
your national convention in New Orleans. I am going to try to 
make a panel in the afternoon, I think, in which this subject 
matter is going to be addressed.
    I thank the NAACP immensely. They have been tremendously 
helpful in providing us data and information, and the hearings 
and work of the NAACP has been tremendously productive. In 
addition to the work by others, you have added immensely to the 
richness of the picture that is developing here, not just in 
one State, and I am glad you made that point. We have obviously 
talked about Florida here this morning, but this is a national 
problem. It is a profound problem. It is not just a question of 
building a better mousetrap, as I have often said. It is not 
just a question of a piece of better equipment. There is 
something far more serious going on here than just a question 
of the technology. And it seems to me that if you do not accept 
that, then I suppose the simple fix of throwing money at it is 
the easy answer.
    If you accept the notion there is something more serious 
going on here, then I think you believe that we need to do more 
than just make a technological fix. And that is what some of us 
are suggesting. I will have some questions for you in a minute, 
but let me turn to my good friend, Raul Yzaguirre. Thank you 
for your support of our legislation as well as your testimony 
here today and the tremendous work that La Raza does on behalf 
of all Americans. Thank you for coming to the committee.

                  STATEMENT OF RAUL YZAGUIRRE

    Mr. Yzaguirre. Thank you. Thank you very much, Mr. 
Chairman, Ranking Member McConnell, and members of the 
committee. On behalf of the National Council of La Raza, thank 
you for holding this hearing on an issue that is very important 
to the Latino community. I appreciate the opportunity to appear 
before you today to support a thorough revision of the voting 
process. The right to vote is a fundamental civil right for all 
Americans, and the National Council of La Raza supports efforts 
to remove barriers that inhibit Americans, especially the most 
vulnerable in our society, from exercising their right to vote.
    All Americans are concerned about the egregious election 
irregularities observed during the 2000 Presidential election. 
Hispanic Americans share these concerns, although they have not 
been as widely-publicized as the experiences of some other 
communities.
    We believe that the discrepancies observed in Florida were 
not limited to that State. Many other States with close 
elections, New Mexico, for example, have some jurisdictions 
that use voting machines and procedures similar to those found 
wanting in Florida. And in Nevada, Hispanic Americans 
experienced many irregularities, including outright 
intimidation by election officials. Furthermore, we have 
received evidence of irregularities found in other States, like 
New York, which disproportionately affected language minority 
voters. We suspect that these irregularities represent the 
proverbial tip of the iceberg, waiting to be uncovered in 
subsequent close elections unless they are addressed now.
    The right to vote is guaranteed to all U.S. citizens by the 
15th Amendment to the United States Constitution. The right is 
extended to all people, including those for whom English is not 
their first language. Despite provision in current law, there 
is evidence that some jurisdictions do not comply with Federal 
language assistance provisions.
    For example, in testimony before the United States 
Commission on Civil Rights, the Puerto Rican Legal Defense and 
Education Fund reported that many registered Latino voters who 
had voted in the immediate past elections went to the polls and 
were told their names could not be found on the rolls.
    Many voters not found on the rolls were not able to cast 
their vote. In violation of both Federal and Florida laws, 
election poll workers often did not offer the use of the 
alternative method of voting the paper affirmation ballot.
    Some registered Latino voters went to their usual voting 
poll sites only to be told that their names were not found. 
They were sent to other polling sites miles away, where again 
their names did not appear on the rolls.
    Many new Latino voters who had registered in a timely 
manner were not processed by Government agencies. Because they 
did not have their voter registration identity cards and were 
not given an assignment of a voting poll site, they could not 
vote.
    Spanish-speaking Latino voters received no bilingual 
assistance at most polling places. In most precincts, the 
entire election staff spoke only English and could not assist 
language minority voters.
    At certain precincts, election staff told Latino voters to 
present more pieces of photo identification than non-Hispanics, 
even though no such legal requirement exists under Florida or 
Federal law.
    Mr. Chairman, these kinds of problems were not just limited 
to Latinos in that State. Other language minorities, including 
Haitian Americans for whom language assistance is authorized in 
several jurisdictions under State law, faced serious barriers 
to voting. Testimony by Marleine Bastien before the NAACP 
describes lack of language assistance and other irregularities. 
Overall, she described an atmosphere of intimidation which 
greatly discouraged Haitian Americans from casting their vote.
    Nor were such irregularities limited to the State of 
Florida. A report by the Asian American Legal Defense and 
Education Fund observed inaccurate translations, lack of 
Chinese interpreters, Chinese characters on the ballot too 
small to read, problems processing voter registration forms, 
and lack of bilingual materials.
    These are clear examples of the lack of compliance of some 
jurisdictions with the language assistance provisions and other 
protections of the Voting Rights Act or State law. We believe 
they are no less important than the irregularities experienced 
by other Americans in the 2000 election, and we expect that any 
election reform legislation considered by the Congress should 
address them.
    The National Council of La Raza supports prudent, 
bipartisan election reform legislation. NCLR has been working 
in concert with a broad coalition of civil rights 
organizations, including the NAACP, all of whom are committed 
to improving the electoral process. The National Council of La 
Raza believes that several key elements must be included in an 
election reform bill, which would guarantee that the voting 
process is accessible to all eligible citizens.
    While we are encouraged to see the large number of bills 
that have been introduced by members on both sides of the 
aisle, many of them only address one or two specific problems 
identified in the last election. The National Council of La 
Raza believes that the Equal Protection of Voting Rights Act, 
Senate bill 565 and H.R. 1170, co-authored by yourself, Mr. 
Chairman, and Congressman Conyers from Michigan, and sponsored 
by Senate Majority Leader Daschle and House Minority Leader 
Gephardt, is the most comprehensive and focused of all the 
bills that have been introduced to date. The bill has several 
elements:
    Number one, protection of the Voting Rights Act and the 
National Voter Registration Act, ensuring that any activities 
under the new legislation are consistent with existing laws;
    Creation of a substantial, multi-year, Federal grants 
program to upgrade election technologies; these technologies 
must ensure access to language minorities and persons with 
disabilities;
    Number three, setting of federally approved requirements 
for grant-eligible technologies that include user-friendly, 
intimidation-free procedures for language minorities, racial 
and ethnic minorities, and people with disability; uniform, 
non-discriminatory, provisional voting procedures; sample 
ballots and notifications of voter rights;
    Number four, provision of additional matching grants to 
provide early implementation.
    We are encouraged by recent bipartisan compromises reached 
by some key leaders on the issue. However, together with our 
coalition partners and the Leadership Conference on Civil 
Rights, we note that only the Dodd-Conyers bill through its 
mandates fully addresses all of the problems experienced by 
Latinos and language minority voters in the 2000 election.
    The National Council of La Raza is eager to see election 
reform that secures the right of all Americans to vote. 
Election reform should be guided by current law ensuring access 
to language minority voters. It should not become a vehicle for 
adding barriers to any part of the voting process, whether it 
is voter education, registration, or casting a vote. We urge 
you to ensure that additional, unnecessary measures to 
``confirm'' or ``verify'' the eligibility of voters--which have 
a clear, disparate impact on Latinos or language minorities--
are not imposed.
    I thank the chairman for his leadership in addressing the 
concerns of Latino and language minority communities. I also 
thank the ranking member and the committee once again for 
providing the National Council with an opportunity to address 
this issue.
    [The prepared statement of Mr. Yzaguirre follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Very good. The red light came on. Raul, you 
were perfect in your timing.
    Well, thank you all for your testimony. It is very, very 
helpful, and I appreciate immensely the endorsement of the bill 
that I have introduced, along with John Conyers, and 
cosponsored by 49 of my colleagues here. And I should say there 
is a lot of interest being expressed by members of the 
Republican side of the aisle as well who understand that this 
issue really ought not to be a partisan issue. I think too many 
people have seen it in that light because of the tremendous 
amount of politics associated with the outcome of the last 
election.
    And could I be quite candid and frank with you? But for the 
last election and what happened, I suspect we might not be 
sitting here talking about this issue. So as disturbing as 
events were, there is a silver lining, as my mother always 
cautioned me to look for in even the darkest of circumstances. 
The silver lining here is that we are here, and we were helped 
through this unfortunate, to put it mildly, set of 
circumstances, to become aware of some glaring shortcomings in 
our electoral process. So we are trying to come up with some 
solutions here that make some sense, though of course, we are 
not going to create a perfect system. We all understand that. 
Any more than we have created a perfect system when it comes to 
other rights in this country. But I think we are a lot better 
off today because people stood up and fought for those rights 
in our country in times past, and today we are a richer, 
stronger, and better people because of it.
    So I do not expect to achieve perfection--I have been 
around long enough to know that is not something that normally 
comes out of the Congress of the United States under any 
circumstances. But if we can advance the cause of people's 
rights, the basic right, the right on which all other rights 
are based in this country, the right to enter that voting 
booth, regardless of any other circumstances as citizens of 
this country, that the richest down to the most humble of our 
citizens are truly equal on that day. Everything we do that 
advances that equality strengthens our country.
    Now, if I can, Mr. Blackwell, you are the Secretary of 
State. You are in charge of election laws, I guess, in your 
State.
    Mr. Blackwell. Oversight.
    The Chairman. I am sorry?
    Mr. Blackwell. Oversight.
    The Chairman. Oversight. So you are familiar, obviously, 
with the Voting Rights Act of 1965 on a national level. I was 
curious, because I think, first of all, the statement you made 
in your opening remarks talking about the respondents in the 
USC-Cal Tech study are right on. In fact, it may even be 
higher. But certainly, as you point out, the support is very, 
very strong. People clearly feel the need for reforms within 
the electoral process. So we are not debating today--despite 
the fact that some witnesses have indicated that this is not 
that big of a problem. I am suggesting I think it is a big 
problem, and I think you are suggesting the same by your 
testimony.
    Mr. Blackwell. Right.
    The Chairman. Do you agree with that?
    Mr. Blackwell. Yes, I do.
    The Chairman. You then go on in the last part of your 
statement--and, of course, under the Voting Rights Act of 1965, 
as you are familiar, there are any number of mandates. Section 
1971 through 1974 of the Federal Code enumerates what those 
mandates are, beginning with the first, which requires, 
mandates uniform standards for qualifying persons to vote in 
all Federal, State, and local elections, prohibits race or 
color from being used as a qualification, prohibits 
discriminatory use or administration of literacy tests, and 
prohibits any use of threats or intimidation. It prohibits 
falsification of voter registration documents, prohibits voting 
more than once, prohibits destroying or defacing ballots, 
requires polling places be accessible--we are talking about the 
ballots themselves and machinery here--and mandates there be 
accommodations at polling places for the blind, the illiterate.
    There are a lot of Federal mandates in that bill that have 
developed since 1965. Wouldn't you agree with that?
    Mr. Blackwell. There have been, and if you go back to my 
statement today, I said except for those that are advanced by 
the U.S. Constitution, which includes the 14th and 15th 
Amendments, voting rights happen to be a cornerstone of our 
citizenship in----
    The Chairman. And I agree with you. You said that.
    Mr. Blackwell [continuing]. Our democracy. And so when I 
talk about mandates, I question as to whether or not there 
should be one machine that is used universally.
    The Chairman. Do you know anyone who is advocating that?
    Mr. Blackwell. Well, I am underscoring that point. I think, 
again, that mandating that a standard be used within the 
borders of a State so that there is equal protection of the 
laws in that State is, I think, imperative. And so on that you 
and I would agree.
    What I try to recognize is that within the constitutional 
framework beyond those guarantees of citizenship and voting 
rights, there is a tradition, if not a constitutional 
guarantee, that elections are State business and States, you 
know, make a determination as to how elections are managed.
    The Chairman. Well, obviously previous Congresses thought 
they went beyond just that, because they would not have 
mandated at least the 14 or 15 that I can identify of mandates 
that go beyond just sort of a generic constitutional 
requirement. They mandate certain things. They mandate uniform 
standards for qualifying persons to vote, for instance. That 
goes beyond the borders of a State.
    Mr. Blackwell. I think if what--again, this is what these 
halls--you know, I go back to Nick's comment at the bar. 
Politics goes on here. I think this is a place where these 
things are fine-tuned and debated, these halls. At the end of 
the day, if you take a look at Ohio, going back to something 
that you are particularly interested in, we have statewide 
provisional voting. So we believe in principle what you have 
articulated----
    The Chairman. How is that working, by the way?
    Mr. Blackwell. It is working fine, and it actually saved us 
some embarrassing moments.
    The Chairman. In fact, you have adopted State standards. 
Though, I do not know if it has passed your State senate or 
not.
    Mr. Blackwell. I think we are pretty aggressive and 
respected for our adoption of those standards that have been 
promulgated by the Federal Election Commission.
    The Chairman. My point is, in the State of Ohio, you have a 
law now that is pending that mandates, throughout the State, 
State standards.
    Mr. Blackwell. Absolutely.
    The Chairman. Has that become law yet?
    Mr. Blackwell. Yes, it has.
    The Chairman. Well, in a sense, then, you have superseded 
the local authority at the State level by saying that there 
should be State standards.
    Now, I presume you are allowing local communities to come 
up with whatever voting machine that they find may work best 
for them.
    Mr. Blackwell. Right. That is true.
    The Chairman. Within the confines of the standard.
    Mr. Blackwell. Right.
    The Chairman. You understand, I am sure, having looked at 
both of these bills that are pending here, that the Conyers-
Dodd bill basically mirrors the Ohio State law in a sense. 
Because, obviously, when something goes wrong in a State and a 
voting booth or in terms of access, my people in Connecticut in 
the Presidential election are affected because the person we 
are choosing--if someone is disenfranchised for whatever 
reason, in some State for whatever reason and that affects the 
outcome of that State's electoral votes, then the voters in my 
State are also adversely affected by it. So it goes beyond the 
States.
    So having done what you did at the State level, my question 
to you, knowing what is in our bill--sample balloting, 
provisional voting, making sure that there are accessible 
places and so forth--what I want to get at is the paragraph in 
the last part of your statement: ``But a federally mandated 
voting method or process would not only be unwise, it would be 
an invitation for widespread fraud and disaster.''
    How is provisional voting on a national level, how is a 
national standard or accessibility for language minorities, how 
is that going to create widespread fraud and disaster? If it is 
good enough for Ohio at a statewide level to have these 
standards, why is it a great disaster to have it on a national 
level?
    Mr. Blackwell. Again, Senator, I think what you are doing 
is creating your own straw man to knock down, and I will let 
you knock that down.
    What I was saying there is that a particular method of 
voting should not be mandated on the States. I have no argument 
with you in terms of the wisdom of provisional voting. What I 
would suggest, though, just as the example was used during the 
discussion of the previous panel, North Dakota has some more 
liberal registration laws than Ohio. Do I think that because 
the experience has been good in North Dakota that it should be 
imposed upon the people of Ohio? The answer is no.
    So I think that there are----
    The Chairman. We have not included that in our bill.
    Mr. Blackwell. I agree with you. Neither have I concluded 
in my comment that provisional voting is something that is 
inherently bad.
    The Chairman. I agree with that. But you understand my 
point of view. You are suggesting somehow that if we had 
national standards, such as sample balloting, provisional 
voting, requiring that ballots and so forth be accessible to 
language minorities and the disabled, that those national 
standards would create a widespread fraud and disaster on a 
national scale. That is how I read your statement. Am I reading 
it wrong?
    Mr. Blackwell. Well, yes, you are. And I think that there 
within lies the problem. You know, I guess the great Henry 
Kissinger said that ambiguity is the grease that greases the 
wheel of diplomacy, and as a former U.S. diplomat, I probably 
was too ambiguous in that statement.
    Let me say it again more clearly, and I think I have said 
it, that when I talk about mandates, I am talking about 
mandated equipment and machinery, and when I talk about 
protection--and I said it in my comments--that I thought that 
the diversity in the systems we have across the country is an 
added level of protection against widespread fraud and 
corruption.
    Any guarantee of access to the ballot and a right to 
exercise one's franchise is inherent in our citizenship, which 
is protected not by a State but by the Federal Government.
    The Chairman. Okay. I would invite you then to take a good, 
close look at the bill that John Conyers and I and Tom Daschle 
and others have introduced, because I do not disagree. I mean, 
if I had a bill here that said you had to have a voting machine 
like the one I have got in Connecticut in some rural county in 
Ohio or an urban setting, I would oppose that bill. I would be 
vehemently opposed to the idea that there ought to be one-size-
fits-all.
    Mr. Blackwell. Right. Okay. I think we are closer than you 
might think.
    Again, I did not think that in my statement--as a matter of 
fact, I know in my statement that it was not leveled as a 
criticism but as a caution. I really do think that this should 
be well debated here as to whether or not any mandate is one 
that enhances one's citizenship rights versus one that is 
bureaucratic interference.
    The Chairman. And I should have begun these comments by 
commending you for what you are doing in Ohio. I think several 
States are going through this process now where they are 
developing State standards, which I think are very wise. And so 
I commend you for doing that.
    Now, I understand you have time constraints, too, and if 
you have to get up and leave, I am not going to be offended if 
you walk out of here. If there are some additional questions, 
we will submit them to you in writing.
    Mr. Blackwell. Yes, sir.
    The Chairman. We thank you immensely for joining us.
    I will submit in the record the organizations that are 
cosponsoring the Equal Protection of Voting Rights Act, again, 
the bill that Congressman Conyers and I have introduced. It is 
a very long list, beginning with the AFL-CIO and the Randolph 
Institute, moving on down, the NAACP, La Raza, just a long, 
long, lengthy list. I am deeply honored that such a broad-based 
group of organizations in the country are as supportive as they 
are of our efforts.
    [The list follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. We have not drafted the perfect bill, but we 
do think that we are on the right track. And, again, there are 
great similarities between the various proposals except the 
very fundamental difference of whether or not we make this a 
voluntary effort or we insist that some basic things be 
improved so that all States in this country will have to meet 
those standards.
    Let me, if I can, ask both of our witnesses from the NAACP 
and La Raza. I recently spoke, Mr. Yzaguirre, at a public high 
school in my State. I try to do so, almost on a weekly basis. 
So I have been at every public high school in my State over the 
last 15 years, and some of them I go back to many times. And 
each year I sort of shock myself when I go to some of my high 
schools--and I am sure this is true in Ohio as well. I was in 
Stamford, Connecticut, recently and spoke to a group of juniors 
and seniors there. I think there were about 150 young people in 
the audience. And I was told by the principal that there were 
about 40 different languages spoken by the 120 or 150 students 
in that classroom that day. That blows me away when I think of 
it, that there are that many. And I went around the room, and 
each student that got up, they were from literally all four 
corners of the globe. Their families had come to the United 
States, most of them as first generation kids. And so when we 
talk here--and you are obviously representing La Raza, the 
Latino Hispanic community, but I will point out that of the 
organizations that are supporting this legislation, Asian 
groups and Haitian groups and groups all across the spectrum 
are also supportive of our bill.
    I wonder if you might just talk about that a bit. Because 
obviously while you are representing a Latino community here, 
you have great familiarity with other linguistic minorities in 
the country. You mentioned specifically the Haitian community 
in Florida. I wonder if you might expand a little bit on what 
your experience is in terms of dealing with the growing number 
of people who are coming to our country and becoming citizens, 
and the question of access.
    Anecdotally, I will tell you that my wife and I have 
friends who are Cambodian who live in Virginia and became 
citizens. Last year was the first time they went to vote, two 
sisters, and they came back in tears two days afterwards. They 
had showed up at the voting booth in Virginia, and their 
English is not terrific. I mean, they speak fairly well, but it 
is halting. And they are shy and were intimidated at the voting 
booth and walked away. They had planned a party that evening 
because it was the first time they had voted and to celebrate 
their first day of voting as citizens, and never got a chance 
to do it because somebody there made them feel unwelcome.
    Now, it is an anecdote. It is just two people. Maybe it is 
not widespread. Maybe it only happens once. But I have got a 
feeling it happens a lot more frequently. And they don't show 
up on a survey anyplace. They got out of line. They didn't 
protest. They didn't go down to the courthouse or do anything.
    But I can't tell you how proud they were they were going to 
vote and how disappointed and saddened they were that they did 
not get a chance to cast a ballot.
    Mr. Yzaguirre. Indeed. You have just related a situation 
which is repeated many times across the country. Senator, the 
immigrant community, whether it be Latino or Asian or 
otherwise, reinforces American values. They keep this Nation 
vibrant and they reinforce values, like voting.
    Folks in Mexico, as you know, because you have been an 
observer in the electoral process throughout Latin America, 
spent a whole day walking to a polling booth. In Mexico, the 
voting rates are 80, 90 percent, so there is a culture of 
participation in voting, which we would do well to emulate. 
But, unfortunately, the situation that you describe happens all 
too frequently, and we need to do something about it.
    Let me just mention something concrete that I would offer 
for your consideration. The Voting Rights Act set a pretty low 
standard for invoking language minority rights, and it invoked 
a 5 percent or a 10,000 population figure. The reason for that 
was because of cost. They did not want to impose too much of a 
burden on local communities.
    But may I suggest to you that with the new technology we 
can bring those numbers way down, so that nobody should be 
denied the right to vote simply because they cannot speak the 
English language.
    If I may be permitted to make a larger point, Mr. Chairman, 
that has been part of all this process, what we are talking 
about here is mandates versus non-mandates, and it gets into a 
big philosophical discussion. But I am old enough to remember 
the debate in the civil rights acts of the early 1960s, and I 
remember the arguments. And when you look at what the law did, 
it did not confer any new rights. I remember very clearly they 
were talking about rights that were already there in the 14th 
and 15th Amendments. But what the laws did, what those very 
civil rights laws that now we all agree--we did not have quite 
that agreement then. But now we all agree that they are the 
right thing to do.
    What they did was to give meaning, to give substance to 
rights that were already there. Your legislation, Mr. Chairman, 
I would suggest does exactly that. It takes a general right 
that we all have to vote and brings the reality of the 
impediments to light and does something about those 
impediments. And I congratulate you for doing so, and we want 
to be totally supportive.
    The Chairman. Well, I thank you very, very much for that.
    Could you just take two minutes and tell me how the 
technology would do that? Because I should have pointed out, 
when I spoke to those students in that classroom, obviously 
some of them represent relatively small communities. The idea 
of having bilingual volunteers at every polling both in 
anticipation of someone coming from a rather remote part of the 
world with a very small population is probably too much to ask 
of any precinct or State or locality. How would technology----
    Mr. Yzaguirre. Well, you are asking the wrong person. I am 
known as a techno-peasant in my organization. But my 
understanding is that with electronic voting, instead of having 
to print out thousands of ballots, all you have to do is a 
couple of key strokes into the software of the program, and the 
screen will come out and show you options in your language that 
enables you to vote.
    The Chairman. I see. Terrific.
    Mr. Shelton, let me again just pick up here on the last 
point that Mr. Yzaguirre pointed out, and that is the question 
of the optional approach. The word ``mandate'' just has this 
terrible connotation to a lot of people, but, again, we are not 
talking about--I hope you will all read the bill. These are 
rather modest proposals: sample balloting, national standards. 
And remember this is in a Presidential race or a race involving 
the national legislature. When we are talking about the local 
race for sheriff or local board of education and so forth, 
obviously you can make a case those have national implications 
when people are denied for whatever reason, whatever cause, the 
right to vote or have their vote counted. But particularly when 
it comes to deciding the leader of this country or deciding 
what the membership is of the national legislature, it seems to 
me what happens in one place does affect the rights of people 
in completely different jurisdictions. And I wonder if you 
might address, if you will, why you the NAACP believes that the 
Conyers-Dodd bill is a better approach than the optional 
approach.
    Mr. Shelton. First, it is much more comprehensive. It 
certainly addresses so many of the problems that we experienced 
in the last election. That is extremely important. We saw so 
many different kinds of problems that occurred. As we talk 
about the issue of language minorities, we had newly 
naturalized Haitian Americans testify before the NAACP in 
Florida, and we had people of African descent in other States 
testify before the NAACP saying they had actually even taken 
interpreters to the polls with them, assuming that they may not 
very well have ballots available in their home language, but 
they brought someone who could read the ballot for them, 
explain what was in the ballot. Those kind of basic policies in 
place, basic rights protections that when any American goes to 
the polls, you have the same kind of protection as anybody else 
no matter what State you are in.
    I think it also shows not only a disparate impact, but also 
different levels of enforcing the laws when you can go into one 
State and have all of your rights protected as you go to the 
polls to vote. And yet if you move to another State, you lose 
those rights.
    One of the examples that is very close to us is on the 
issue of the disenfranchisement of ex-felony offenders. In the 
State of West Virginia, as soon as you are released from prison 
you can register and vote immediately. You can go into the 
polls and begin voting immediately. But if I move from West 
Virginia to the State of Virginia, right next door, then I lose 
my right to vote again. That is because in the State of 
Virginia, to reinstate your rights to vote after a felony 
offense goes on to your record, you have to indeed go through a 
process that is unclear to either the Governor or the Secretary 
of State.
    The only thing that we are clear on is that if you pass a 
law in the State legislature in your individual name, you 
regain your right to vote if it is signed into law by the 
Governor.
    So, in essence, just creating a national standard, just 
saying basic minimal standards have to be in place to protect 
my right to vote, whether I am trying to vote here in the 
District of Columbia, whether I am voting in Mississippi, 
whether I am voting in Connecticut, that my rights will be 
protected no matter where I go in this great country. It just 
makes good common sense that we bring those issues to the 
table.
    Just to share a brief assessment, I met the Secretary of 
State for the State of Missouri, which also happens to be my 
home State, and as we sat together on an advisory committee 
talking about this very same issue, she looked at me with a 
disgruntled look on her face and said, ``You know, we don't 
even have provisional balloting procedures in the State of 
Missouri at all.'' And the way she said it was like this seems 
so common sense, it just never occurred to us that it was a 
good idea to do.
    I think in many ways laying out basic standards across the 
country for every State just makes good sense. They focus on 
it. They begin addressing these issues. And in cases that they 
don't really need them, things that you won't even notice they 
are there if you don't actually need them, they are there to 
protect us in the case that we run into the kind of problems 
that we had in the last election.
    The Chairman. Well, I thank you. I thank you both. You have 
been very patient to wait around, and I am grateful to you for 
your testimony and your responses to questions. You have been 
tremendously helpful. I look forward to continuing working with 
you as we move through this process here and hopefully, 
probably in the fall, early fall sometime, actually get to the 
floor--get out of committee and to the floor with a bill that 
we can offer to our colleagues for their support. But your 
continuing involvement in this discussion and debate will 
enhance that opportunity tremendously. So, I thank you for your 
ongoing efforts, your presence here today, and in anticipation 
of your continuing work with us. Thank you both and thank your 
organizations.
    Mr. Shelton. Thank you, sir.
    Mr. Yzaguirre. Thank you.
    The Chairman. I want to invite up our last panel--our 
patient panel, I call them. You have had the benefit of having 
heard all the testimony, so you are in a unique position. I 
will ask you to join us here. And as I do, I am going to take a 
one-minute recess as I step out as you come to the table for 
reasons that I hope do not need to be identified. But let me 
invite Carolyn Jefferson-Jenkins, the president of the League 
of Women Voters of the United States, to join us at the table; 
Dr. Larry Sabato--I am a big fan of Dr. Sabato's. He probably 
does not know it, but I watch him with great frequency and pay 
attention. I apologize. I saw you come in and stand at the 
door. We did not have a chair for you. I apologize that we were 
not taking better care of you here. It's only my first day as 
Chairman here, but I do not want it to be said that we do not 
take care of our witnesses when they come in.
    And Jim Dickson, who is a wonderful friend and who has been 
with me on so many different occasions, from the American 
Association of People with Disabilities. I know Bob Williams is 
in the audience as well. I can see him behind me here, a former 
Dodd staffer going back 26 years ago. I thank you Bob for being 
here.
    As you are getting settled here, I am going to just take a 
minute while you get comfortable. The committee will stand in 
recess for one minute.
    [Recess.]
    The Chairman. The committee will come back to order.
    Again, let me thank our witnesses for being tremendously 
patient, but I hope you found it worthwhile. Normally, at Rules 
Committee hearings we do not usually get much of a crowd here, 
but we have a good crowd here this morning. As I said at the 
outset, we have a lot of very important areas of jurisdiction 
on this committee, but none more important than elections and 
campaigns and related matters. So this is an appropriate piece 
of legislation for the committee to look at.
    I have had the opportunity to read all of your testimony, 
and I am very grateful for your comments. We will give you as 
much time as you need here. Because I have kept you so long, do 
not feel constrained by this clock. I will sit here to hear you 
all the way out. So we will turn the clock off for the last 
panel, and whatever comments and additional material you would 
like to submit to the committee in support of your testimony, 
we certainly will gladly accept.
    With that, Carolyn, thank you for being with us.

  TESTIMONY AND PREPARED STATEMENTS OF A PANEL CONSISTING OF 
CAROLYN JEFFERSON-JENKINS, PRESIDENT, LEAGUE OF WOMEN VOTERS OF 
THE U.S., WASHINGTON, D.C.; LARRY SABATO, DIRECTOR, UNIVERSITY 
 OF VIRGINIA, CENTER FOR GOVERNMENT STUDIES, CHARLOTTESVILLE, 
VIRGINIA; AND JAMES C. DICKSON, VICE PRESIDENT FOR GOVERNMENTAL 
  AFFAIRS, AMERICAN ASSOCIATION OF PEOPLE WITH DISABILITIES, 
                        WASHINGTON, D.C.

             STATEMENT OF CAROLYN JEFFERSON-JENKINS

    Ms. Jefferson-Jenkins. Thank you, Mr. Chairman, and good 
afternoon. I am Carolyn Jefferson-Jenkins, president of the 
League of Women Voters of the United States.
    The League of Women Voters is a nonpartisan citizen 
organization with more than 125,000 members and supporters in 
all 50 States, the District of Columbia, and the U.S. Virgin 
Islands. For more than 80 years, Leagues across the country 
have worked to educate the electorate, register voters, and 
make government at all levels more accessible.
    I am pleased to have the opportunity today to express the 
League's support for speedy enactment of legislation to provide 
substantial Federal assistance to improve the administration of 
Federal elections in this country.
    Mr. Chairman, many Americans were shocked by the problems 
in election administration that were exposed by the 2000 
election. We in the League of Women Voters, however, were not 
surprised. Unfortunately, the kinds of problems that we saw in 
2000 are not unusual. They represent the harvest from years of 
indifference that has been shown toward one of the most 
fundamental and important elements in our democratic system, 
and that is our election mechanisms.
    Election 2000 demonstrated that election administration 
systems are in dire need of repair. Antiquated voting machines, 
ballot systems that confuse the voter, and insufficient numbers 
of machines requiring voters to wait hours in line illustrated 
the problems at the most basic level. In addition, poll worker 
training issues, reports of differential application of voter 
ID requirements, and other civil rights concerns, chaotic 
absentee ballot procedures, purging practices, accuracy 
problems, standardization and consistency issues--all these 
point to fundamental and systemic problems.
    The Federal Government provides no meaningful assistance to 
the State and local governments that pay for and administer 
Federal elections. The League of Women Voters believes that it 
is time for that wrong to be corrected. This is not only a 
question of equity among levels of Government. It is also a 
fundamental issue of fairness for all citizens of the United 
States. Because election administration--from the purchasing of 
voting equipment to the training of poll workers--has been 
underfunded, the fundamental rights of American citizens to 
vote, and to have their votes effectively counted on an equal 
basis, have been undermined.
    Just as the Federal Government has relied on the States for 
the administration of Federal elections, the States have 
frequently relied on local units of Government for the 
administration of Federal and State elections. With their own 
responsibilities for local elections, local governments are at 
the base of a large pyramid, carrying the load for local, 
State, and Federal elections. This system too often combines 
the greatest responsibilities with the least capacity to 
provide the needed financial and administrative resources.
    We believe that the States must step forward to assist 
their localities and to provide greater consistency of 
administration. But the Federal Government has a large role to 
play, in our view, for two simple reasons. First, it should be 
the Federal Government's responsibility to pay its fair share 
for the costs of Federal elections. And, second, the right to 
vote must be guarded and enforced by the Federal Government 
because it is the most fundamental right in our national 
democracy.
    Many of the problems in election administration are 
problems of implementation rather than public policy. These 
implementation issues have effects on real people, on voters 
from all backgrounds. But all too often implementation has a 
disproportionate impact on minority voter participation.
    There were reports from many States that the names of some 
citizens who registered to vote through their department of 
motor vehicles or other agencies were not listed at the polling 
places, and so those citizens could not vote. This is an 
implementation issue. The National Voter Registration Act 
requires that qualified citizens can apply to register to vote 
through those agencies, but States and localities evidently had 
problems fully complying with that Act. We believe a statewide, 
computer-based voter registration list that is linked to 
registration agencies can make a significant improvement in 
that system. When precincts can be linked to the statewide, 
uniform system, it will work even better. But funding is an 
issue for such systems.
    Because so many of the problems in election administration 
are ones of implementation, we believe it is essential that new 
legislation clearly requires full implementation of the Voting 
Rights Act, the National Voter Registration Act, the Americans 
with Disabilities Act, and other similar laws in any Federal 
grant program. These laws set basic policy needed to protect 
the voting rights of Americans. We need to ensure that they are 
fully enforced and that States and localities have the 
resources they need to achieve full and complete compliance.
    I must emphasize the importance of achieving compliance 
with our Nation's basic voter protection laws. The Voting 
Rights Act prohibits race-based discrimination in elections. 
The Act also provides for language assistance for citizens who 
otherwise would not be able to participate. Yet we still hear 
of local jurisdictions that lack the knowledge or resources to 
fully comply with the language assistance requirements of the 
law and of others that lack the administrative models and 
training to maintain the rolls in a nondiscriminatory manner.
    The National Voter Registration Act provides for convenient 
and routine access to voter registration, but as I mentioned 
before, some jurisdictions are not fully implementing the law. 
There are problems ensuring that all who apply to register to 
vote through the departments of motor vehicles will actually 
have their names transmitted to the correct polling place. 
Agencies serving people with disabilities are not always 
supplying voter registration services as the law provides. And 
there are too many reports of fail-safe voters, registered 
voters who have moved within a registrar's jurisdiction, turned 
away on election day because their names cannot be found on the 
list at the polls.
    The inability of polling place officials in many locations 
to check the status of the voters on the official list must be 
addressed. Solutions, such as the low-tech use of provisional 
ballots or the high-tech use of laptop computers that provide 
access to the official list at the polling place, need to be 
encouraged. Legally registered voters, including fail-safe 
voters, should never be turned away at the polls. Those who 
have properly applied to register should not be denied the 
opportunity to vote through administrative error or a failure 
to implement the law.
    The problems that face our election systems are not only 
ones of implementation, however. Citizens with disabilities 
clearly need better protections to assure their access to the 
polls. Physical barriers still block access for many, including 
for those whose disabilities resulted from their service in our 
armed forces. Citizens who have trouble seeing do not have a 
full opportunity to vote independently and with a secret 
ballot.
    Of particular concern are those practices that purge voters 
without the most basic procedural protections. Notice and the 
opportunity to correct errors are the most basic of safeguards, 
and these should be provided to all voters who might be purged.
    As legislation is crafted, there are three key concerns we 
want to call to your attention. The legislation must have 
bipartisan support. There must be significant funding on an 
ongoing basis to ensure real progress. And Congress and the 
President must act quickly so that we can begin soon in making 
needed changes in election administration.
    The League of Women Voters believes that election reform 
must be bipartisan not only because that will be necessary for 
enactment, though, of course, this is a vital issue in an 
evenly divided Congress. Election reform must be bipartisan 
also because both major political parties need to show that 
they will act in the best interests of all people, without 
seeking partisan advantage in this very important area.
    Congress and the President must act to ensure that there 
are sufficient Federal funds for election administration 
reform. A token effort will not be enough. The disparities in 
wealth and public revenues from jurisdiction to jurisdiction 
are bound to be reflected in a disparity of resources available 
for election administration procedures and voting technologies 
from one jurisdiction to the next. This disparity of funding 
results in a disparity of voting rights. The Federal Government 
has a special responsibility to ensure adequate funding to 
protect the voting rights of all Americans.
    Quick and timely action is needed on election 
administration reform simply because it will be a big job and 
it is important to get started. It is also important for 
significant changes to come quickly because we want America's 
voters to have confidence in the systems through which they 
vote. An early demonstration of commitment will be incredibly 
important for public confidence, in our view.
    Finally, quick Federal action is needed because States and 
localities are looking to Congress for help. There is an 
expectation of Federal funds, and if Federal action is delayed, 
it runs the risk that States and localities may delay needed 
action.
    The League is aware that a number of different proposals 
have been introduced in the Senate to improve voting 
technologies and election administration systems. We appreciate 
the efforts and attention of every Senator who has taken a lead 
in developing proposals, including you, Mr. Chairman, and 
Senator McConnell. As you know, Senator Schumer has pushed 
ahead forcefully for strong election reform, but we are also 
aware that we are still in a process where ideas are being 
tested, new proposals are coming forward, and compromises can 
be achieved.
    Based on the principles and concerns I have outlined here, 
the League of Women Voters supports the Bipartisan Federal 
Election Reform Act of 2001, S. 953, introduced by Senator 
McConnell and Senator Schumer. This is a bipartisan bill with a 
balanced approach to reforming our Nation's election 
administration systems. It does not solve every problem, but it 
does provide a common-sense approach to getting started on the 
job of fixing our Federal election systems.
    In summary, the League of Women Voters believes that 
Congress and the President must act and that the voters should 
be the central concern in any legislation. A new and 
substantial Federal grants program to assist in reforming 
voting systems should be created. Clear Federal guidelines are 
needed. Legislation must not undermine existing protections for 
voters and must be sensitive to civil rights concerns. And the 
legislation must be able to achieve majority political support 
in an evenly divided Congress.
    Today, this country has the technology and financial means 
to ensure that our diverse and growing population enjoys the 
most accurate, accessible, and nondiscriminatory voting system 
in the world, one that every American can have confidence in 
and be proud of. The Congress has the means and the opportunity 
to pass legislation that would provide the financial assistance 
and the guidance necessary to achieve that goal.
    We commend you, Senator Dodd, for having this hearing. You 
are keeping this important issue at the forefront of the 
national agenda. We thank you for your attention and look 
forward to working with you on this vital issue.
    [The prepared statement of Ms. Jefferson-Jenkins follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much.
    Larry, we welcome you to the committee.

                  STATEMENT OF LARRY J. SABATO

    Mr. Sabato. Thank you, Senator, and I would like to 
congratulate you on your first day as chairman.
    The Chairman. Thank you.
    Mr. Sabato. This has been the wildest Rules Committee 
hearing I have ever attended. I thought I was at ``Crossfire'' 
or ``Hardball,'' although this panel is going to be very 
genteel, I promise you.
    The Chairman. Good.
    Mr. Sabato. And I have found much to agree with in 
Carolyn's statement. I would like to make a comment about that 
first panel, having observed it.
    I think you can see why no one reads the American Political 
Science Review anymore. A very senior political scientist told 
me years ago that regression analysis is very useful, except 
when it is not. You can prove almost anything with it, as I 
think that first panel suggested.
    I am delighted to hear you talk about your bill and Senator 
McConnell and Senator Schumer to talk about their bill. It is 
good to know that we are on the verge of doing something and 
not just arguing about the results of Florida. And whether it 
is your bill or their bill or some combination of the two, I 
certainly agree with you, and I hope that something happens 
before the end of this Congress.
    Even if you only provided the money, Senator, it would be a 
banner day for election administration and reform, and it would 
really go a long way to solving some of the problems we saw 
demonstrated in Florida.
    Now, I have been asked to address one particular question, 
and I will address it and try to go a little bit beyond it, 
given the tone of the hearing, and that is the intertwined 
issue of voter registration and vote fraud in the United 
States, because vote fraud is a concern. It is real. I have 
studied it for years. It is not invented by critics of the 
system for one reason or another. It is real.
    It has always existed in American politics to one degree or 
another, and while I was researching--I am going to do what the 
first panel did and plug all my books, if that is okay, 
Senator. While I was researching the book ``Dirty Little 
Secrets'' a few years ago and researching voter fraud in 
particular, I was looking at an 1844 election in New York City, 
and there was a reasonably large voter pool of 41,000, but the 
turnout on election day was over 55,000, 135 percent of the 
registered voters. One observer at the time put it, ``The dead 
filled in for the sick, and the city's dogs and cats must have 
been imbued with irresistible civic spirit.'' There is still 
some of that, I am sorry to say.
    When we look at election reform of whatever type, I think 
we have to balance two conflicting values, and it is never easy 
to do that, because the truth is you would like to have both 
values in full. It never works out that way in a free 
democracy. And those two conflicting values that we are trying 
to balance are full and informed participation of the 
electorate and integrity of the system. And there are some 
internal conflicts in these two particular values, and I think 
we saw it demonstrated in 2000.
    The Miami Herald, for example, showed that the votes of a 
90-year-old woman and a 21-year-old man were among more than 
2,000 illegal ballots cast by Florida residents who swore they 
were eligible to vote but, in fact, were not. The woman voted 
absentee and in person. The man voted despite a felony drug 
conviction. Those 2,000 illegal ballots were discovered in just 
25 of Florida's 67 counties, and this in a Presidential race 
won by only 537 ballots in Florida.
    Similarly, in Wisconsin, the Milwaukee Journal Sentinel 
found that at least 361 felons had voted illegally last 
November 7th, breaking the law that disqualifies felons from 
voting unless they are off probation and parole. Like Florida, 
Wisconsin was the site of a very close Bush-Gore contest.
    In years prior to 2000, I found examples, which I have 
included in the book, of extensive absentee ballot fraud in 
Alabama, hundreds of phony registrations in California; 1,000-
plus illegal votes in New Jersey, including some by people who 
were unregistered and others who were dead, or, as we like to 
call them, life-challenged voters; significant absentee ballot 
fraud in Philadelphia; votes stolen from the elderly and infirm 
in Texas; and the list goes on and on--none in Connecticut, 
absolutely none in Connecticut, Senator.
    The Chairman. Good.
    Mr. Sabato. Just as with other areas of election reform, I 
would suggest in this case it is important to remember that in 
a very cynical age, one fraudulent ballot is one ballot too 
many. It encourages the deep cynicism of our age, that cynicism 
perhaps encouraged by the media and lots of events. But it does 
encourage that cynicism. And there are loads of fixes for the 
vote fraud problem, and I include them in my written testimony, 
and I am not going to go through all of them right now. I think 
a photo ID is a good start, perhaps a unique number given at 
the time of registration, a Social Security number or driver's 
license number or something like that that can be checked at 
the time.
    I frankly think that provisional voting is a very useful 
process. I do not necessarily agree that it should be federally 
mandated, but I like it. We have it in my own home State of 
Virginia. It is a useful process. If you have a challenged 
ballot, you put it to the side. If the election is not close, 
you never have to worry about going back to it. If it is close, 
you have got the information you need to check it and so on. 
And I have got probably about 20 suggestions in here, and I 
won't bore you and the others still remaining in the room by 
going through them all.
    The conclusion that I reach is simply that registration and 
voting should be as easy as possible, and the process should 
also be as fraud-proof as possible, again, recognizing there is 
some conflict there.
    Finally, I would suggest that as you move to address these 
and other election reform issues, we need to respect the needs 
of States and localities for flexibility. No two States are 
exactly alike. Each has unique needs and challenges, not just 
North Dakota but the other 49 States, too. While parameters 
tied to Federal funding will provide necessary accountability 
for fund usage, Congress should stop well short of nationwide 
mandates on voting systems.
    I believe you should encourage reform, but you should not 
in essence homogenize the election process in any significant 
way. Instead, I think you should respect fully the diversity of 
federalism in the election process. We are on a kind of 
slippery slope. Maybe the three you suggest, and particularly, 
challenged ballots or provisional ballots are acceptable, but I 
can see over time a lot of additional requirements being 
attached, and I think that is a dangerous process.
    There are many things that you ought to encourage without 
requiring: better poll worker training, desperately needed, 
which would have solved many of the problems in Florida, by the 
way; second-chance technology, which is far better than 
spending the money on improving the actual voting machines. A 
number of studies have shown, as my own center is studying 
right now, that there is not much difference between and among 
the varying machines. The punch card ballots have gotten a bad 
rap. They are not that bad. The computer touch screen machinery 
is not that good. It is not the voting technology. Instead, it 
is the need for second-chance technology, voters having the 
opportunity to correct a mistake if they make it, the poll 
workers being able to catch those mistakes, better maintenance 
of voter lists, some of the things that Carolyn discussed. And, 
finally, civic education, civic education, civic education.
    If I can just cite from a book that I have coming out in 
August called ``Overtime,'' about the 2000 election----
    The Chairman. I am glad you do not have a 1-800 number.
    Mr. Sabato. No, not yet, Senator, but I am working on it. 
In Florida, there were 111,261 overvotes in an election decided 
by 537 votes. There were, in addition, 64,826 undervotes, that 
is, no recorded choice for President. Some of these were due to 
the voting technology. Some were due to other problems at the 
polling place, as the first panel pointed out.
    But tens of thousands of Floridians wasted their precious 
franchise. Nearly 1,000 people in Florida, twice the winning 
margin of George Bush, voted for all ten Presidential tickets. 
More than 3,600 people voted for every candidate except George 
Bush. More than 700 voted for every candidate but Al Gore. Many 
thousands voted for both Bush and Gore.
    Now, some of these were statements that people were trying 
to make, as strange as the statements were. Others were 
mistakes that could have been corrected with the second-chance 
technology.
    The Chairman. We support that in our bill very strongly.
    Mr. Sabato. Yes, and I think that is a good thing. As I 
say, I have problems with mandates. Encouraging with money is a 
very useful thing.
    Finally, let me mention, if I can, when I am covering civic 
education, my own Center for Governmental Studies at the 
University of Virginia has a program called the Youth 
Leadership Initiative which Congress has been very good to 
fund. We are trying to reach young people in elementary and 
secondary schools. We are trying to teach them about the voting 
process using mock elections, but most particularly, we are 
trying to teach them how to use the voting machines they have 
in their locality so that by the time they get out of school, 
they will know how to vote. They will not suffer from the 
phobia that so many voters suffer from when they go to the 
polling places.
    We thank you for supporting that, Mr. Chairman. We hope to 
do more good with that program in the future.
    [The prepared statement of Mr. Sabato follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much, Mr. Sabato. I appreciate 
that very much.
    Jim, I have about 4 minutes left to vote on the floor, so 
we are going to take a recess for 5 minutes while I go over and 
vote, and then come right back----
    Mr. Dickson. Sir, do you want me to----
    The Chairman. I want you to pause for a second because I 
have got to make the vote. If I miss the vote, that will be 
hard to explain.
    Mr. Dickson. Fine.
    The Chairman. So we will take a recess for a couple of 
minutes. I will come right back, take your testimony and a few 
questions, and we will let you go.
    Be right back.
    [Recess.]
    The Chairman. The committee will come to order. We will try 
and wrap this up here for everyone.
    Jim, I thank you immensely for waiting, and I apologize for 
having to slip out to cast that vote. But we welcome you here, 
and thank you not only for your presence here today, but for 
your wonderful efforts on behalf of the disability community, 
not only across the country but around the world. You have done 
a great job, and the association has as well. So thank you for 
being here.

                 STATEMENT OF JAMES C. DICKSON

    Mr. Dickson. Thank you, Senator. I am Jim Dickson. I am 
vice president of the American Association of People with 
Disabilities. I chaired a coalition of 36 national disability 
groups last year which worked to increase the turnout of voters 
with disabilities, the first time the community as a group 
focused on voting. According to the Harris poll, we increased 
the turnout of voters with disabilities by 2.7 million over 
1996. That is the good news.
    The bad news--and I wish Dr. Thernstrom was here--is that 
we do have a crisis of access to the polling places for 
millions of Americans with disabilities. There were 21 million 
Americans with disabilities who did not vote in the last 
election. That makes us the single largest demographic group in 
non-voters. We do not vote for different reasons, depending on 
the disability. I am blind. I have never cast a secret ballot. 
Much of America, after last November's election, wondered if 
their ballot was marked or counted according to their intent. I 
have wondered that, and millions of Americans like me, every 
time we vote. Three times I have had poll workers try to 
discourage me from my selection.
    A couple years ago, my wife was in the polling place with 
me. She said, ``Jim, I know you love me. Now I know you trust 
me because you think I am marking this ballot for that idiot.'' 
[Laughter.]
    The Chairman. We do not want to know any more than that, 
Jim.
    Mr. Dickson. It was a local election. Based on the United 
States Census, there are over 11 million Americans, who because 
of disability, vision as well as hand mobility, cannot cast a 
secret ballot. The technology exists that would allow us to 
cast secret ballots. However, many election officials around 
the country are choosing to continue to buy inaccessible voting 
systems. The State of Florida has been praised for their recent 
legislation. Their recent legislation means that over 500,000 
Floridians will not have the right to cast a secret ballot. 
They are purchasing inaccessible optical scan systems. It is an 
embarrassment to me as an American, that I can get on an 
elevator by myself because there is Braille, but I cannot go 
into the voting booth and cast a ballot by myself.
    The city of Philadelphia is spending $19.5 million for new 
DREs that are inaccessible. They did not even request in their 
request for proposals that machines offer a secret ballot to 
the blind and visually impaired. Philadelphia has over 1,600 
polling places, 46 of which a person in a wheelchair can enter. 
1,600 are physically inaccessible. The good Secretary of State 
from Ohio seems to be saying he is not sure about national 
mandates. There are physically inaccessible polling places all 
across his state, as there are in every state except for the 
State of Rhode Island.
    We must have----
    The Chairman. You might want to point out why that is the 
case in Rhode Island, because it is worth nothing, I think for 
the record. I know the reason why, but I think you had better 
state it.
    Mr. Dickson. Now Congressman James Langevin is a 
quadriplegic. As former Secretary of State, he reached out to 
the disability community. They inspected every polling place in 
the state, over an 18-month process, set deadlines and dates, 
and have made every polling place physically accessible.
    The Chairman. And it did not bankrupt the state.
    Mr. Dickson. It did not bankrupt the state. The average 
cost of making the polling place accessible was less than $400. 
Yet we hear election officials all around the country say, ``We 
cannot afford it.''
    We need mandatory standards for physical access. 17 years 
ago Congress passed a law that said you may make your polling 
places accessible. We do not even know how many polling places 
are inaccessible. The last Federal Election Commission reports 
20,000. We believe the number is closer to 50. There has been 
much plaudits and much praise of our decentralized election 
system. I am going to tell you a story of how the FEC came up 
with that 20,000 inaccessible figure, which demonstrates the 
entire problem with a voluntary decentralized system.
    A questionnaire was sent out by the FEC to the chief 
election officer in the states. The note said, ``Please mail 
this out to all your counties.'' The chief election officers in 
the counties then, if they chose to, mailed out the 
questionnaire. Many counties did not even fill the 
questionnaire out or send it back. When that happened, the 
chief election officers reasoned as follows. We were asking 
local election officials for a report on which polling places 
are not accessible. Since--I am forgetting the county name, but 
it is Phoenix, to mention just one--did not send back a report, 
we are assuming that every one of their polling places are 
accessible, and that happened in many, many, many counties.
    We need mandatory standards on provisional ballots, and I 
would add a provisional ballot which gives voter notification 
promptly on whether or not the ballot was counted. People with 
disabilities are routinely told by poll workers, ``You cannot 
vote because you are too disabled. You do not know what you are 
doing.'' We have detailed lists of where that has happened. It 
is not the poll workers' right to say, ``You are too disabled 
to vote.'' Yet it happens in every single election.
    There is an existing Federal law that says voters with 
disabilities can choose, if they want assistance, who will 
provide that assistance. Poll workers routinely tell people 
with disabilities--and I have been told this myself--``You 
cannot bring that person in. I have to be there with you.'' In 
some states they say there have got to be two Republicans and 
two Democrats, so you have a party in the polling booth. 
[Laughter.]
    The American Association of People with Disabilities 
endorses wholeheartedly your bill. We commend--as does the 
United Association of Cerebral Palsies and many other 
disability groups. We commend Senator McConnell for his bill, 
but tying a secret and verifiable ballot and tying physical 
access to the distribution of money will not fix the problem. 
It will not fix the problem because, number one, there is not 
going to be enough money to fix everything. Local election 
officials, as they should, have the right to decide what they 
want to fix first. They can choose to spend the money on fixing 
the voter registration roll, as was pointed out by the League 
of Women Voters, something that needs to be done. The estimates 
for computerizing the Nation's voter registration system would 
use up the entire first-year allocation of your bill.
    Poll worker training clearly is needed. There are counties 
who will choose to put that money into poll worker training. 
That is going to mean that they are going to turn around and 
say to millions of Americans, ``We did not have the money to 
give you a secret ballot. We did not have the money to make the 
polling place accessible. Just wait.'' We have waited for 17 
years.
    Just a minute. I am sorry.
    As the Congress moves forward, I would like the Congress to 
consider a private right of action to be added to the bill. 
Mandates without an enforcement mechanism will not work. There 
is voter fraud. It ought to be punished. Every election 
official in the country will tell you that when they ask the 
District Attorney to prosecute fraud, they are told, ``Too 
busy, can't do it.'' People with disabilities, if there is not 
a national mandate, will be told, ``Not enough money. Too busy, 
we can't do it.''
    We could be the canary in the mine of American elections. 
If the system is accessible to us, it will be accessible to 
all. We heard testimony this morning about education. The 
audible voting systems that would allow me, for the first time 
to cast a secret ballot, would be audible to people who are 
illiterate as well. Many American citizens have immigrated to 
this country, as did my grandparents, from a country that never 
taught them to read. Electronic voting systems will allow the 
ballot to be translated so that a person who was never taught 
to read their native language and has a right to vote, can hear 
the ballot. We are asking that at least one such machine be 
placed in every polling place, and applaud you for saying by 
2004. If there is not a deadline, there will not be a solution.
    Senator Feinstein said this morning that she thought 
elections were sometimes administrated sloppily, was I think 
her word. I have, before joining the American Associations with 
Persons with Disabilities, I have directed nonpartisan voter 
registration and voter turnout drives in 23 states. I have seen 
arbitrary and illegal actions by poll workers over and over and 
over again. A voter bill of rights that states clearly the 
voter has a right to a provisional ballot, that states clearly 
that the voter has a right to privacy, that states clearly that 
the voter has a right to bring into the polls whom he or she 
chooses, will hold election poll workers accountable.
    I will end my remarks with just one story. In the last 
election in New York City, a blind MSW arranged for a volunteer 
reader, who happened to be an attorney, to meet the woman at 
the polls so she could vote. The poll worker told the woman, 
``You cannot wait here for your reader. You have to let me cast 
your ballot for you.'' When the blind voter refused, the poll 
worker called the police. Fortunately for this situation, the 
reader arrived, using the authority of being an attorney, the 
poll worker backed down. Most blind Americans do not have 
enough readers. Most do not have lawyers who are readers. We 
have a right to choose who casts our ballot if that is what we 
want, and we need mandatory standards to insure that this will 
happen.
    Thank you for this hearing. Thank you for all you are 
doing.
    [The prepared statement of Mr. Dickson follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Jim. You know, sometimes we do 
these hearings in a bizarre order, and obviously we had the 
Commission on Civil Rights to hear from. But I apologize to 
you, because I should have had you as my first witness, because 
you make the case. And we fool around with a lot of language 
and rhetoric, and you said it so right, about being the canary 
in the mine in a sense. This is what we are talking about. You 
know, I am a great believer in carrots. I have authored more 
legislation where I have had carrot approaches, and it does 
work in some areas. But with certain basic rights, when you 
begin to see a pattern of behavior over a number of years, it 
does not. So I am not trying to be hardheaded when I talk about 
mandates.
    As Jim knows, my sister is blind, so this is more than just 
a theoretical exercise for me. I know more about it, I suppose, 
because I grew up in a family of six children, and watched my 
parents do remarkable work with my sister, who has now been a 
teacher for years, has taught Montessori schools, has two 
master's degrees, and is a very independent individual. I 
became sensitized to what it is to not have access to public 
transportation. She is a little older than I am. I will not 
tell you how much. She would be angry if I did. But going back 
before World War II, we grew up in an age when a lot of the 
things that are available today for younger people with 
disabilities were not. She had the good fortune of being born 
into a family with a mother who cared deeply, and helped her, 
as my father did, and others, to see to it that she would 
maximize her potential. But when you hear about what happens to 
people who try to go in and cast ballots, and we are talking 
not here a few thousand, but hundreds of thousands and 
millions. You get some sense of why I feel it is important to 
have some mandates here that demand that these ballots be 
accountable.
    Let me just ask a few questions of you because I have kept 
you a long time, all of you. Jim, I thank you immensely for 
your testimony. I thank all of you, for that matter.
    Ms. Jefferson-Jenkins, you had a wonderful line in your 
testimony; you talked about years of indifference. That is 
right. That is what I said earlier. I would not be here and 
this hearing would not have been conducted if it had not been 
for the events of last fall and last winter, candidly. I doubt 
I would have gotten much interest in talking about doing 
something about electoral reform, had the country not been 
traumatized by watching a process unfold day after day, week 
after week, for several months, to decide who the President and 
the Vice President of the United States would be, culminating 
in a decision reached just a block away from here by the 
Supreme Court.
    So it was these events, and the fact that people saw this 
and realized there were some serious problems, which everyone 
now agrees with. No one is arguing with me. You speak about 
years of indifference to this problem, and what I am concerned 
about is the approach the League is taking, that we can sort of 
get by here with just putting some money out there and not 
addressing the problems that Jim Dickson has just identified, 
for instance.
    How does the League, in all good conscience, tell me that 
this is just a money problem, when you know when you hear from 
the disability community with millions of people who are denied 
the right to vote in place after place, despite the fact 17 
years ago we dangled the carrot?
    Yet here we are today, the beginning of the 21st century. I 
am not faulting you, and I do not expect you to get involved in 
one bill or the other. But you place so much emphasis on 
bipartisanship, and I am a great bipartisan guy. I love 
bipartisanship, but we are talking about something far more 
significant and important than bipartisanship, and a lot of 
times the best ideas do not have the luxury of being 
bipartisan. When that is not an element it is nice, but I hope 
the League is not taking a position that a bad bill or a less-
than-good bill that is bipartisan is better than doing 
something that is right.
    We have got a unique opportunity here, as a result of the 
events of last fall. They are not going to come around again. I 
have got an interested country. Larry, you mentioned young 
people. I cannot tell you the number of young people who are 
interested, for the first time, in elections because of what 
they watched happen last year. I mean, there is a tremendous 
interest among younger people. We have been wondering how to 
get them interested. Ironically, it was the debacle of last 
fall that has provoked probably the greatest interest among 
young people about elections. I do not know when that is going 
to happen again.
    And so, one, I want to know why we should not mandate some 
guidelines here for the next election; and, secondly, if you 
would mention to me costs because, I am going to have a hard 
time funding anything around here with limited resources.
    Now I have been quoted some pretty significant numbers of 
what it would take just to make the voting machines accessible 
for the disabled community in this country. Do you have any 
idea what we are talking about dollarwise?
    Ms. Jefferson-Jackson. Dollarwise, I do not, but I need to 
start by saying, with all due respect, Senator, the League is 
not just about money, and that is not the premise of our 
remarks, that money will solve all of the problems. We have 
been looking at this issue since our studies of the 1970s, and 
we look at all aspects of election administration reform. What 
is uncanny is, other than the technology pieces, what we have 
been saying since the 1970s are still the issues--the poll 
worker training----
    The Chairman. Right.
    Ms. Jefferson-Jackson [continuing]. The access, the Motor 
Voter implementation, the compliance with the existing laws. 
Those are the things that we are looking at, but we know that 
in most instances, the most egregious infractions have occurred 
primarily because of lack of funding.
    We also know that in order for anything to be----
    The Chairman. Well, you just heard the situation. We are 
going to put in 1,600 polling places, $19 million--they're not 
lacking funds.
    Ms. Jefferson-Jackson. Well, no, but it is how you use 
those funds to implement the law to make sure that every voter 
has access. And I think, fundamentally, we are all in 
agreement. I have heard all day long that.
    The Chairman. Had we mandated 17 years ago that those 
machines be accessible to people, do you think they would be 
spending $19 million on machines that were not accessible?
    Ms. Jefferson-Jackson. You could mandate it, but are you 
going to enforce it, and are you going to mandate it at a level 
where the implementation is going to be a consistent piece of 
it?
    The Chairman. Yes, hopefully.
    Ms. Jefferson-Jackson. So here is what our bottom line is, 
and we can argue about the need for money and the need for all 
of these other things. I do not disagree with any of the 
panelists all day. The League has the full support for every 
aspect of election administration reform.
    But what I am saying is, and what we are saying is that 
something needs to happen, and we can argue about the detail of 
how that is implemented, but fundamentally we all are in 
agreement that there needs to be some kind of legislation 
passed that will address the most egregious issues that have 
occurred and were highlighted in the 2000 election because I 
think we keep focusing on 2004. 2002 is just as important, and 
we need to do something now.
    The Chairman. Well, I do not disagree. Let me ask you this: 
Is compliance with existing civil rights laws enough? The 
Voting Rights Act, Motor Votor, ADA--does the League take the 
position that if we just enforce those provisions than the idea 
of sample balloting, provisional voting, some national 
standards on equipment and so forth are not relevant and not 
important? Or are they important?
    Ms. Jefferson-Jackson. They are important. Of course, they 
are.
    The Chairman. Well, then why would you want to leave it up 
to whim? You have seen and listened to testimony that talks 
about the times we have taken the carrot approach that have not 
worked. Why would we not take advantage of a mood where the 
country realizes some things need to be done? And why would not 
the League support mandating these things--just as we mandated 
some of the other provisions in the Voting Rights Act since 
1965? I do not understand that.
    Ms. Jefferson-Jackson. In principle, in principle, we are 
not opposed. But everything that happens has to be carefully 
evaluated and fully understood because there are consequences 
on every aspect of election administration reform.
    The Chairman. I agree.
    Ms. Jefferson-Jackson. It is not just one aspect. So, if we 
do something as it relates to funding, does that mean it is 
going to affect poll workers, it is going to affect election 
officials, it is going--is it multi-year funding or not? I 
mean, we need to look at the details, and we need to understand 
that there are some, sometimes, unanticipated outcomes, and we 
need to just make sure. What we are asking is that we make sure 
that we fully understand what those details are.
    The Chairman. Let me ask you this: In the League's support 
of 953, the area of agreements certainly are noted, however, 
you specifically testified regarding the League's position on 
one of the central aspects of that bill and that is the 
establishment of a new Federal agency. Now, I get uneasy about 
new Federal agencies. I think you have got existing agencies 
that you can empower, the Justice Department, for instance. Why 
would you support the creation of a new Federal agency? Do we 
not have existing agencies such as the Federal Elections 
Commission and the Justice Department, that are capable to 
manage this, rather than creating a new agency?
    Ms. Jefferson-Jackson. There are existing agencies, within 
the appropriate constraints, probably could administer this. 
However, we do not see the need to place all of that 
responsibility on a currently existing agency. If this is as 
important as we all are saying it is, and have been saying it 
is, then we need to make sure that the proper mechanisms are in 
place to monitor implementation, to reinforce the existing laws 
and compliance, and to make sure that the integrity of this 
whole process is not questioned.
    The Chairman. You understand that under the bill the new 
agency would oversee all aspects of Federal elections, 
including the grants program. Is that really what is needed?
    Ms. Jefferson-Jackson. Is it really what is needed? I would 
say, Senator, that that is our best-case scenario.
    The Chairman. Okay.
    Ms. Jefferson-Jackson. But we are willing to evaluate other 
options. We are always looking at what the ideal is, and that 
is what we are presenting as our best-case scenario.
    The Chairman. All right.
    Larry, again, thank you for your presence here today.
    Mr. Sabato. Thank you, Senator.
    The Chairman. I am just curious about the fraud you 
mentioned. I know there have been a number of questions raised 
about it. Certainly, as Jim and others have pointed out, we 
have got to be doing everything as well as balancing how you 
increase access and reduce the commissions of fraud. I think 
Jim's point was that you go to local legal authorities and ask 
them to prosecute when there are cases of fraud, and it is very 
difficult to get people to do it.
    I am certainly not averse at all to the idea of including 
something in our legislation that would help to reduce fraud 
and promote the best practices when it comes to the reduction 
of voter fraud. Could you give us some guidance on what you 
think we might do? If you do not have it right here, you may 
submit it later, but I am just curious if you had some specific 
ideas on how we might try to incorporate that.
    Again, I understand your reluctance on sweeping mandates.
    Mr. Sabato. Sure.
    The Chairman. But, obviously, if we are going to be talking 
about Uncle Sam writing a check and sending it out to 50 
States, and I do not know how many of the jurisdictions, and we 
see just a continuation of the same voter fraud, then we are 
sort of subsidizing it.
    Mr. Sabato. Sure.
    The Chairman. So it would seem to me that there might be 
some value in putting some mandatory provisions in here. If you 
are going to use Federal dollars, you ought to take some steps 
to minimize the fraud problem as well. Do you agree with that?
    Mr. Sabato. Yes. If you are going to do that, as you know, 
I have doubts because of the principle of federalism and 
because I think you may be stifling diversity in the States on 
election processes, I wonder, for example, how would you deal 
with Oregon's 100-percent mail-in ballots, how that fits into 
the system. And there may be other systems that States, from 
time to time, may choose to adopt.
    But to address your question, Mr. Chairman, I would--and I 
have got a good dozen suggestions about fraud right in the 
testimony--but one that I did not include that I really wish 
you would consider. I saw Senator Bond's op-ed in one of the 
local newspapers this morning about voter fraud and the 
registration problem stemming from Motor Voter, in part. You 
know, the last thing I want to do is discourage people from 
participating.
    On the other hand, I really believe that one of the worst 
parts of an otherwise good bill, Motor Voter, was the abolition 
of the regular purge because there are so many deadwood voters 
that build up over time, that have died, and moved, and so on, 
it encourages people in the system who are of a mind to commit 
fraud to commit fraud.
    Now, do I want to go back to the kind of general purge that 
some States used? No, because I think that was too broad-brush. 
But let us just propose for an example that every 4 years the 
voters who have not cast a single ballot in that entire 4-year 
election cycle are taken as a list, and they are mailed a 
certified letter from their local electoral board with a very 
simple form enclosed, where they just have to check a box, ``I 
wish to remain on the list, on the voter list,'' and they have 
a postage-paid envelope, so that it is made as easy as possible 
for them to remain on the list. I would even be willing to do 
it twice, to do two certified mailings for those who are not 
returned by the post office as having moved or having passed 
away.
    You could eliminate literally millions of deadwood voters 
from across the United States on the voting rolls. And 
honestly, Senator, from what I have seen in looking at this 
seamy practice of voter fraud for many years, it is the 
presence of those deadwood names that is an irresistible 
temptation to many people in both parties, consultants--it does 
not come from the top, frequently it comes from the bottom of a 
campaign--it is an irresistible temptation to them to pad the 
margin a bit.
    That would be, if you are going to look at a mandate--I am 
not in favor of mandates--but if you are going to balance your 
mandates with a voter fraud mandate, some kind of purge that is 
not as broad-brush as we once had, but does address the problem 
of deadwood voters, would be very useful.
    The Chairman. Okay. Jim, you mentioned Texas when you 
discussed accessibility of voting equipment and secret and 
independent ballot capabilities. I am intrigued by that.
    Texas, apparently, has been pretty progressive on this 
front. You mentioned Rhode Island, but Texas, I gather, is also 
fairly progressive; is that accurate or am I misinformed?
    Mr. Dickson. Yes. Well, Texas passed a law 2.5 years ago, 
and President Bush signed it into law as governor, that 
requires any new purchase of a voting system to offer a secret, 
verifiable and independent ballot. That is the best single-
State law. However, you run into the problem if you happen to 
vote where they choose not to buy a new system, you lose your 
right to a secret and verifiable ballot. It is a wonderful law, 
but it is only a partial fix.
    The Chairman. Okay.
    Mr. Dickson. There were two other points, Senator, that I 
neglected to mention earlier.
    The Chairman. Certainly, go ahead.
    Mr. Dickson. There is a Michigan Federal Court ruling that 
says there is no right to a secret ballot in Federal elections. 
That is why we need a mandatory standard that says there is 
such a right.
    One other point on why we need mandatory standards. Eleven 
years ago the Federal Election Commission put out a best 
practices document called ``The Voter System Standards,'' a 
voluntary document that dealt with relatively inexpensive 
things that could be done dealing with counting of ballots and 
voter system security. Eleven years after that was published, 
there are still 13 States that have not adopted the voluntary 
standard. There were four or five States that only adopted the 
voluntary standard after Florida. If we do not have mandatory 
standards, we are going to have the same thing in at least 15 
of our States.
    The Chairman. You mentioned poll workers. What are the 
actual numbers of poll workers with disabilities, do you have 
any idea?
    Mr. Dickson. Very, very small. We have a few, the 
disability community has volunteered to help recruit poll 
workers. One of the problems, however, is this rule that says 
you have got to work a 15-hour day. Well, a 15-hour day is a 
guaranteed invite for mistakes in the first place. For many 
people with disabilities, a 15-hour day prevents them from 
being able to volunteer. Seventy percent of us are unemployed. 
If there were a 4- or 6-hour shift, hundreds of thousands of us 
would volunteer to be poll workers.
    The Chairman. Are any States particularly good at this?
    Mr. Dickson. No.
    The Chairman. Rhode Island, for instance, I wonder----
    Mr. Dickson. I know of no specific State that is better or 
worse.
    The Chairman. Okay.
    Mr. Dickson. I think a lot of it, up to now, has been 
driven by the individual county election official and the local 
disability community.
    The Chairman. Okay. Lastly, I wonder if you have been 
involved in any studies on the disproportionate impact current 
voting systems have on disabled voters with respect to their 
ability to cast a vote and have that vote counted? Have you 
been involved in any of those?
    Mr. Dickson. No.
    The Chairman. Okay.
    Very good. Any final comments at all? Ms. Jenkins? Larry, 
anything else you want to add here?
    Mr. Sabato. I just hope you forge forward, Senator, and get 
a good bill passed.
    The Chairman. Well, we are going to try. Again, I want you 
to know, when I wrote this bill with John Conyers, it is a 
draft. These are bills you put out, and we have had co-sponsors 
come forward. I do not naturally gravitate to mandates, except 
when I look around, and I see that on occasion they are needed. 
I mentioned it earlier--I will repeat it again--I am fully 
sensitized to the notion that a one-size-fits-all approach is 
dangerous. The wonderful thing about our country is the 
diversity of it, and we need to keep that in mind.
    But standards do not mean one size fits all. For within 
those standards there is great flexibility on what you can do 
and of how it ought to be achieved. But I am saddened when I 
hear that you have 20 million disabled Americans who do not 
vote, and you have 11 million who are blind or disabled who do 
not participate. When you talk about an election decided by 537 
votes, and again, putting all of the other issues aside, there 
is something that cries out for some answers here.
    I have got to believe that if we can discard the political 
labels, as hard as that may be to do, and remind ourselves of 
this most fundamental right that Thomas Payne, a former 
constituent of your State, a resident of your State, as the 
right upon which all other rights are based. I think I am 
quoting it exactly. This is the right upon which all other 
rights are based in our society.
    I have observed elections in other countries. My brother, 
Tom, and my sister-in-law just observed the elections in Peru, 
and the two of them spent two days in Iquitos on the Amazon 
River, which is part of Peru, monitoring the elections there. 
They said they wish they could have taken the entire country 
there to watch what happens. Here are people who are without 
education and are desperately poor, who stand in line for hours 
to go in and exercise their right to choose their leaders.
    We lecture the world; we send observers all over the world. 
In the last election, out of 200 million eligible voters in the 
country to choose the President of the United States, the 
Congress of the United States, only 100 million people showed 
up. And we think that was a pretty good turnout. One out of 
every two eligible voters participated in the choosing of the 
President of the United States.
    And so I disagree with my good friend, the woman from the 
Civil Rights Commission, who says this is not a crisis. When 
only one out of every two voters cast a ballot in this country 
and millions more cannot show up and vote because of their 
physical disability, I think that is a crisis. Now, maybe I am 
naive, but I do not like the trend lines. I do not like what I 
see among younger voters telling people ``It does not make any 
difference, and why should I get involved?''
    I get teased a lot by my staff. I walk around every day, 7 
days a week, with this tattered old copy of the Constitution 
and the Declaration of Independence. This was given to me by 
Senator Robert Byrd of West Virginia, who sits right at this 
very seat next to me here, and I sit next to him on the floor 
of the United States Senate. I cherish it, and it reminds me 
every day why I am here. There is nothing more valuable in all 
of the words that are written in this small document than the 
right people have to choose the people who are going to 
represent them.
    And when only one out of two people who are eligible show 
up to choose the President of the United States and millions 
more are told, basically, that they cannot be accommodated, for 
whatever reason, then this document suffers. And, of course, 
more importantly, the rights that we share as Americans are in 
jeopardy.
    So I am deeply grateful to all of you for being here. This 
has been a very long day. I apologize. We have had a hearing 
going on for almost 5 hours, and I know that is a long time 
without a break. But as my first act as the chairman of this 
committee--I have never chaired a full committee before of the 
United States Senate, after 20 years here--I could not think of 
anything more important than to have a hearing about than this, 
what Thomas Payne has described as the most basic of all 
rights, the right of all citizens of this country to be able to 
choose their elected officials.
    And my fervent hope is that, in the midst of all of these 
other debates about important issues here, we will address this 
issue in some way that will be constructive and not create a 
perfect world, but will get us closer to the ideals 
incorporated in the Bill of Rights, the Constitution, and the 
Declaration of Independence.
    And on that high note, I thank all of you for being here. 
The record will stay open. Statements from the Mexican-American 
Legal Defense and Education Fund will be included in the 
record, a statement by the Leadership Conference on Civil 
Rights will be included, and members will have until Tuesday, 
July 10th, to submit questions to the committee to be forwarded 
to the witnesses.
    [The materials and statements appear in Appendixes 15-42, 
44.]
    The Chairman. All submissions for the record, including 
responses to questions, must be received by July 17th.
    And with that, the committee will stand adjourned.
    [Whereupon, at 3:13 p.m., the committee was adjourned.]
    [The Additional Questions submitted for the hearing record 
are in Appendix 43.]







                            ELECTION REFORM

                              ----------                              

   MEMBERS OF THE HOUSE OF REPRESENTATIVES ON ELECTION REFORM ISSUES

                              ----------                              


                        THURSDAY, JUNE 28, 2001

                                       U.S. Senate,
                     Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:27 a.m., in 
room SR-301, Russell Senate Office Building, Hon. Christopher 
J. Dodd (chairman of the committee) presiding.
    Present: Senators Dodd and McConnell.
    Staff present: Kennie L. Gill, Staff Director and Chief 
Counsel; Veronica M. Gillespie, Elections Counsel; Carole 
Blessington, Administrative Assistant; Tamara Somerville, 
Republican Staff Director; Brian Lewis, Republican Chief 
Counsel; Leon R. Sequeira, Republican Counsel; Jill Szczesny, 
Deputy Chief Clerk; and Lindsay Ott, Staff Assistant.

OPENING STATEMENT OF HON. CHRISTOPHER J. DODD, CHAIRMAN, A U.S. 
             SENATOR FROM THE STATE OF CONNECTICUT

    The Chairman. The committee will come to order. Let me 
first of all apologize to my colleagues who are here. Of 
course, no group understands this better than House Members. We 
had a couple of votes here this morning at around 10 o'clock, 
so I apologize for any inconvenience we have caused you.
    I am delighted to welcome you to the committee. Let me take 
a couple of minutes, if I can, and just sort of frame the 
discussion after yesterday's rather good hearing, a wonderful 
discussion here about the election results last year from the 
Civil Rights Commission and other witnesses from around the 
country. So I am pleased and honored that we are having this 
second day of hearings.
    Yesterday I had the pleasure, as I mentioned, and 
unexpected privilege to convene the Rules Committee as its 
chairman in order to receive testimony from the U.S. Commission 
on Civil Rights, and others, regarding election irregularities 
in Florida and, more importantly, across the Nation. Because 
this is not exclusively a Florida issue or Florida problem.
    This is our second day of hearings on what I believe is the 
most crucial issue facing this Congress. I say that with all 
due respect to those who are dealing with issues such as a 
patient's bill of rights or prescription-drug benefits and 
related questions.
    But Thomas Paine may have said it best years and years ago, 
that this is the right--the right to vote and to have your vote 
counted--upon which all other rights are based. And so 
everything else we deal with here is a reflection of who gets 
to come here, who makes the choice, and whether or not those 
choices are counted. And so this is the most fundamental issue. 
If we cannot get this one right, then every other right, it 
seems to me, is in jeopardy.
    Yesterday, the committee heard the single most compelling 
reason for enacting minimum national standards for voting 
systems, and that is, more than 20 million voting-age Americans 
with disabilities did not cast a ballot in the last election.
    More than 10 million voters with disabilities are unable to 
exercise that right to vote because his or her visual 
impairment makes it difficult or impossible for them to read 
the print on the ballot. What we take for granted, many of us--
that we can read the ballot and cast that ballot independently 
and in private--is only a dream to those who are blind in this 
society.
    For those individuals, our current election system and 
antiquated voting equipment result in their disenfranchisement.
    But that is only the beginning of the story. For racial 
minorities across America, the level of economic resources of 
the community in which they live has a direct correlation to 
whether their ballot is ultimately counted. African American 
voters have a 16 percent greater chance that their ballots will 
be thrown out than other voters in this country.
    And the findings of the U.S. Commission on Civil Rights 
regarding the disproportionate disenfranchisement of racial 
minorities, language minorities, and the disabled were 
uncontroverted by testimony received by the committee 
yesterday.
    While these hearings are not about Florida, and certainly 
not about assessing blame for what happened, no one who 
observed the events of last November and December can fail to 
have deep concerns about the health of our electoral systems.
    It is astounding that nearly 2.5 million eligible voters--
some would argue more than that number--who went to the polls 
last November, stood in line to participate in their democracy 
were denied the right to have their vote counted.
    Some had ballots improperly validated; the names of others 
were erroneously purged from the rolls or were unable to vote 
because their polling precinct did not accommodate voters with 
disabilities or people for whom English is not their native 
language.
    Just to put this in perspective, my State of Connecticut 
has about a 3 to 3.5 million population. Imagine almost the 
entire population of my State being denied the right to vote, 
after having shown up to vote. That gives you some idea of the 
magnitude of the problem.
    In my view, if voter error results from a confusing ballot, 
from outdated technology that does not accommodate language 
minorities or the disabled, or from vague procedures that make 
it unclear as to whether former felons can vote, the result is 
the same as if a poll tax or a literacy test had been applied 
at the voting booth.
    And just as the Nation refused to stand by and watch State 
and local election officials disenfranchise minorities through 
the use of poll taxes and literacy tests, I hope this Nation 
will not stand by and watch millions of Americans of color or 
language minority or disability be disenfranchised by 
inadequate voting systems and procedures which serve to turn 
eligible voters away from the polls.
    Today I am going to ask each of my colleagues to tell me 
and the American public how, in light of these findings, we can 
enact anything short of minimum national standards to ensure 
the non-discriminatory, independent, private franchise for all 
eligible Americans.
    I submit to my colleagues that it would be a dereliction of 
our duties to uphold this Constitution and an act of conscious 
negligence to fail to enact election reform this year that 
requires basic, common-sense protections for our democracy.
    I have had the honor of introducing legislation with my 
good friend, John Conyers, who is with us here this morning. 
Our bill requires that by the 2004 elections, three minimum 
national standards be met: that voting systems meet minimum 
non-discriminatory standards for ensuring accessibility; that 
States provide for provisional balloting; and that States 
provides voters a sample ballot and instructions before they go 
to the polls.
    In a democracy, the voting booth is the instrument by which 
we participate in our Government. It is there that the promise 
of freedom finds its purest expression. The right to vote is 
the cornerstone upon which all other rights are guaranteed, as 
I said at the outset.
    My hope is that we will commit ourselves together to 
finding a bipartisan solution to the problems that were 
highlighted last November in Florida and elsewhere around the 
country. And let us leave here, if we can, rededicated at the 
end of this Congress to the ideal that all eligible Americans, 
regardless of race, ethnicity, or language, disability or 
financial condition, will have the right to participate in this 
democracy by casting their votes and having those votes 
counted.
    [The prepared statement of Senator Dodd follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. We have been joined by my friend and 
colleague from Kentucky. Mitch, if you want to make some 
opening comments, then we will turn to our colleagues from the 
House.

 OPENING STATEMENT OF HON. MITCH McCONNELL, RANKING MEMBER, A 
            U.S. SENATOR FROM THE STATE OF KENTUCKY

    Senator McConnell. Thank you very much, Mr. Chairman. 
Welcome, everyone. We certainly had a spirited hearing here 
yesterday, and I cannot wait to find what might happen today.
    One message we did hear yesterday was unanimous, and that 
was that Congress must act, and act soon, to come to the aid of 
States and localities. There is not one nationwide answer that 
will address the 50 States' different needs. Many States have 
already taken action. Indeed, the Civil Rights Commission was 
unanimous in its praise of the significant steps the Florida 
Legislature and the Governor have taken to improve their 
elections systems.
    We also heard once again about problems experienced outside 
the State of Florida and recommendations on how to deal with 
issues such as fraud. Fraudulent voting is a fundamental threat 
to our democratic process and to public confidence in American 
elections.
    Senator Kit Bond's editorial in yesterday's Washington Post 
elucidated startling facts about voter fraud in St. Louis, 
where dead people registered to vote and even filed lawsuits. 
It used to be the ``Spirit of St. Louis'' was known as an 
airplane, not a plaintiff.
    I am committed to working expeditiously toward a solution 
and once again urge movement of the only bipartisan bill with 
substantial support here in the Senate known as the McConnell-
Schumer-Torricelli-Brownback bill.
    I welcome the Members of the House of Representatives who 
will testify today. I know you have had six hearings since 
April. I am encouraged by press reports of a bipartisan 
compromise being drafted. I urge you to address this issue in 
time to have a positive impact on the 2002 elections and do so 
in a manner which respects the need for flexibility in the 
States.
    As Ken Blackwell, the Secretary of State of Ohio, testified 
here yesterday, ``Federal funds should not come with Federal 
mandates. Elections are State business and should remain so.''
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much.
    We will now turn to our colleagues. In the first panel, 
John Conyers. We welcome you to the committee. I know that 
there are markups and business you have. So, we will just run 
down the testimony, and then for those of you who may have to 
run off and leave, we will submit some questions to you, if we 
can. If not, we will try to get to our second panel. I know how 
busy people are.
    But I cannot tell you how grateful I am to all of you for 
coming over. Your presence here underscores the seriousness 
with which this issue is taken, and as I say, in my first job 
as a full committee chairman in the 20 years I have been in the 
Senate, I cannot think of a better issue we could be talking 
about. I am so honored that so many of our House colleagues are 
here.
    John, we welcome you.

TESTIMONY AND PREPARED STATEMENTS OF A PANEL CONSISTING OF THE 
HON. JOHN CONYERS, JR., A U.S. REPRESENTATIVE FROM THE STATE OF 
 MICHIGAN; HON. ROBERT W. NEY, A U.S. REPRESENTATIVE FROM THE 
STATE OF OHIO; HON. STENY H. HOYER, A U.S. REPRESENTATIVE FROM 
       THE STATE OF MARYLAND; HON. ROBERT WEXLER, A U.S. 
REPRESENTATIVE FROM THE STATE OF FLORIDA; AND HON. ROY BLUNT, A 
         U.S. REPRESENTATIVE FROM THE STATE OF MISSOURI

   STATEMENT OF HON. JOHN CONFERS, JR., A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF MICHIGAN, RANKING MEMBER, HOUSE 
                   COMMITTEE ON THE JUDICIARY

    Mr. Conyers. Thank you, Chairman Dodd, and to Ranking 
Member McConnell. I am very honored to be here today to join 
Chairman Ney and Ranking Member Steny Hoyer and my dear 
colleague from Florida, Brother Wexler.
    You know, I may be wrong, but in this room, if the spirit 
of Martin Luther King, Jr., is anywhere in the country, it is 
probably right here, trying to see if we are going to have the 
skill and ability to move this country forward in a very 
important way on its most critical issue.
    I appreciated your opening statement, Chairman Dodd, and I 
appreciate the compelling observation of Senator McConnell in 
which he said that everybody has agreed there ought to be some 
action taken, that that is the one thing that unifies us all. 
And I think that is the critical beginning point.
    Now, the second part of it is what actions should we take, 
and there is where legislative skill and some experience and 
some understanding of history has to play into the kind of 
decisions that will be made.
    Around the country, this question is being examined and re-
examined and studied carefully. This is the number one 
responsibility of the national Federal legislature to take care 
of this problem. It reverberated around the world. Countries 
and its leaders were astounded that we could have had the 
number of days elapse, more than a month, before we could 
figure out what had happened.
    In Detroit tomorrow, we are having full hearings on 
election reform and what we ought to do about it. And it is not 
about Florida. It is about Michigan. It is about Detroit. It is 
about Lansing and Grand Rapids and other places I am going to 
be getting an earful about in the State of Michigan. So there 
is no area of the country that has not been touched by this 
very important problem.
    So what we are doing here is, we are hooking up the 
Emancipation Proclamation, the Civil Rights Act, the Voter 
Rights Act, and the 15th Amendment. What we do here is going 
down the trail of this critical piece of our constitutional 
obligation and how we deal with it in this new century. And so 
I will be with you only a few minutes, but I pledge to you, my 
staff and my entire commitment and resources to work behind the 
scenes with all parties, everyone that has a measure, a bill, 
an idea, because there is nothing more important in my career 
than helping shape this important matter to a successful 
resolution.
    And so we have one option, a measure that would allow a 
State to simply elect to opt out of any standards if the State 
refuses to accept Federal money.
    Now, look, how much study do we have to give that? I mean, 
if civil rights and voter rights obligations are optional, then 
we can all just send letters to the various jurisdictions and 
tell them the money is on the way. I like Secretaries of State 
that say we want Federal funds, but we do not want any 
instructions with it, just send the money.
    Well, that is not the way civil rights law is written, 
ladies and gentlemen. It is not a matter of whether you want 
it, you want strings attached to the Federal bread. Voting is 
not optional. The requirements of voting are not up to whatever 
current leadership in a State government may have. It is not 
even optional up to us in the Senate and in the House.
    We have a duty, a constitutional duty, to deal with this 
question, not to send a message with money out there that we 
hope you guys will do better than you did last time. This is 
the most serious business to which we may be called to attend.
    And so a State cannot continue to use machinery that 
disenfranchises, even unintentionally. We cannot have 
procedures that disfranchise many different groups in a 
community. And so to me, the first thing I hope we can get to 
some conclusion is this whole notion of opting out. We are all 
in this together. There are not opt-outs.
    And so we need to provide constitutionally--this is not--
the Constitution in Article I, Section 4, did not say you may 
describe what you want people to do. It is our job to set 
minimum Federal standards for every jurisdiction in the United 
States of America. It is not discretionary.
    States did not want to abolish the poll tax. That was not 
optional. States did not want to abolish literacy tests. They 
did not have a choice. States did not want to make buildings 
accessible to the disabled. And, by the way, on all three of 
those areas, we are still working to make it. We passed the 
laws. Even if we pass the perfect legislation, it does not mean 
that we will not still have plenty of work to do.
    So I am not excited about States rights and local control 
and that we should not have a one-size-fits-all approach to 
civil rights. We better have a one-size-fits-all for civil 
rights. That is the only way you are going to get them.
    So at this historic moment, please join with me, pray with 
me, work with me, march with me, to make sure that the American 
people understand that we in Government, the policymakers, are 
not turning a blind eye to the greatest political tragedy that 
has occurred in our lifetime.
    We know that in the end opt-out is a cop-out, and we have 
another course of action, a measure that would provide every 
American with a guarantee, every American who deserves a 
competent and accessible voting machine and the right to cast a 
provisional ballot.
    And so we have just got to do our job here, and for some of 
my colleagues, I will not call them faint-hearted, but to say 
we have got to be realistic, we have got to get something 
through fast, let's be practical, well, you know, 
constitutional rights do not turn on being realistic because 
there is opposition. The civil rights struggle was never 
informed by let's just tailor a remedy to get through this 
period, this very troublesome period of our history. It is not 
about political cynicism or so-called political reality. And I 
like to think of so many things that Martin Luther King, Jr., 
said during that time keeps my feet to the fire.
    So join with me, Members of the Senate. Let's try to do 
what we can here. We cannot squander this historic moment, and 
I hope that we will all be proud of what each of us has done 
that is consistent with our philosophical belief of what our 
constitutional role is.
    I thank you very much for letting me start this discussion.
    The Chairman. Thank you very much, John. I am honored to be 
a chief sponsor with you of the bill we are sharing together. 
Having worked together for so many years, I am truly honored 
that you are here, and thank you for your leadership on the 
issue.
    [The prepared statement of Mr. Conyers follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Chairman, it is a pleasure to welcome you 
here, and I look forward to working with you. We ought to get 
together on some other matters as well since we share some 
common responsibilities. I know you know my colleague from 
Kentucky well, but we do not know each other that well, and I 
look forward to getting to know you. So I am delighted to 
welcome you here to the committee.

 STATEMENT OF HON. ROBERT W. NEY, A REPRESENTATIVE IN CONGRESS 
    FROM THE STATE OF OHIO, CHAIRMAN, HOUSE ADMINISTRATION 
                           COMMITTEE

    Mr. Ney. Well, thank you, Mr. Chairman. Actually, our 
offices are beginning to communicate to get something set up.
    The Chairman. Good.
    Mr. Ney. So I am looking forward to it.
    The Chairman. Thank you.
    Mr. Ney. Thank you, Chairman Dodd and Ranking Member 
McConnell. I want to just thank you for this opportunity to be 
here today on a critical and important issue and to share some 
of the views I have.
    Since I became chairman of the House Administration 
Committee in January, we have diligently worked to continue the 
election reform hearings, to dig into the subject. We had an 
expo in our committee of the different technologies that are 
out there, but we have also discussed, obviously, substantive 
issues. And the feedback I have had from members of both sides 
of the aisle is that we have had some of the most substantive 
hearings and some of the best minds we could have in the 
country, whether it was the panel that had the scholars and 
intellectuals who think about it, whether it was the people in 
the front lines that deal with this every day. We have had a 
wide variety of hearings and experts that have gathered from 
across the Nation.
    Our work was not motivated and is not motivated by partisan 
politics. It is motivated by our desire to find a solution. 
And, you know, Florida is over with, but Florida raised this 
for discussion. And we had Katherine Harris who testified, in 
fact, in our committee. We had a panel of Secretaries of State. 
And Florida has moved to rid themselves of the punch card 
ballots, and I applaud them for that. And I do not think they 
should be penalized, or any other State that has moved to 
another process. We also have to realize they need some 
educational help and some support down in the future.
    We are also fortunate on the committee on both sides of the 
aisle to have Steny Hoyer, who is seated to my left--more to 
the middle sometimes on issues, but on my left today. Mr. 
Hoyer, our ranking member--and I would say this publicly, and I 
have said it many times--is a person motivated to find 
solutions on this issue, not motivated by politics. We could 
not be here today in the committee if it was not for Mr. Hoyer 
and members on both sides of the aisle, and I should say also 
our staffs are working together to get to the point we are 
today.
    Mr. Hoyer's approach and his contributions have made our 
efforts possible. We all have to work together, I think, to 
remedy some of the inefficiencies in the system and to restore 
public confidence.
    In the House, some of the colleagues of mine on both sides 
of the aisle came to me and said: Well, you know, this is kind 
of over with. We did not have a revolution. We went through a 
process. There was a lot of debate. And, you know, the issue 
has waned a little bit.
    Well, that is not true. Many of the schools I go to in the 
district I represent, the people I talk to, I ask them a 
question. Do you naturally expect we are going to do something 
about this in Congress? And their answer is yes.
    So if there are not thousands of letters being written in, 
it is not off of the minds of the voters, whether it is the 
high schoolers, who are not even registered to vote yet but saw 
this whole issue play out in the media, or whether it is the 
adults or people of any age.
    So we have kept it alive, I believe, and you have kept it 
alive by showing that on a bipartisan basis there is interest. 
We have to all work together; again, to restore public 
confidence I believe is the critical point in the election 
process. The status quo is simply not acceptable. No one should 
be turned away from a poll in this country to be able to vote. 
Countless local, State, and Federal groups have made a variety 
of observations and recommendations designed to help the 
Congress to improve the legislation. And although these reports 
come from different perspectives, one thing is clear: The 
American public expects action. We have an obligation to 
provide them with an effective solution that counts their votes 
equally and accurately before the next national election.
    The House Administration Committee has held, again, four 
hearings on election reform and two additional processes in the 
hearings. In April, the committee held its first hearing during 
which we heard from Secretaries of State, State legislators, 
county Commissioners, representatives from the disabled 
community, and the American Legion.
    Our second hearing focused on the nuts and bolts of the 
elections. We heard from those people who actually do the real 
work, the local election officials.
    At the committee's third and fourth hearings, leading 
vendors of voting equipment and prominent academics testified.
    From these hearings, Representative Hoyer and I identified 
four principles that we agreed would be critical to the success 
of election reform.
    First, the Federal Government must not enter this by simply 
mandating solutions. The administration of elections is a 
complex enterprise. According to the National Association of 
Secretaries of State, it involves 200,000 polling places, 7,000 
jurisdictions, 1.4 million poll workers, more than 700,000 
voting machines, 100 million voters, and 22,000 election 
officials. It would be presumptuous to assume that a Federal-
mandate-driven, one-size-fits-all approach will solve the 
election problem. However, guidelines are necessary, and 
working to make sure that everything is fair completely in this 
country is essential.
    Let me share with you what we heard from some of the 
officials.
    Kansas Secretary of State Ron Thornburgh sharing what 
Senator Nancy Kassebaum Baker told him, ``The pencil on a 
string works very well in Burdick, Kansas, Ron. Don't change 
it.''
    Conny B. McCormack, Registrar-Recorder/County Clerk of Los 
Angeles County, ``State and local governments need to retain 
the flexibility of choice among various types of vote-counting 
equipment. One size does not fit all. We need diversity and 
innovation.''
    State and local governments have managed elections for over 
200 years. We need to keep it that way, but we need to be 
involved.
    Another principle of agreement is that punch cards must go. 
Punch cards have the potential for a higher error rate than 
other modern voting technology. Because of high error rates, 
the public has lost confidence in these voting machines. During 
the 2000 election, Fulton County, Georgia, registered a 6.25-
percent spoilage rate; Cook County, Illinois, threw out 5 
percent of their punch card ballots. Consequently, 
Representative Hoyer and I do believe that we should offer the 
States and local jurisdictions grants to replace punch card 
machines with more accurate and reliable technology. I hope 
that the next time we see punch cards will be on a tour of the 
Smithsonian.
    One of my local officials said to me, ``You know, Bob,'' he 
said, ``I don't want to get rid of them.'' I said, ``Well, I am 
not going to sit here and force you to do it.'' We think we 
have incentives that are good. We think this is a good thing to 
do. But I also told him the next time a vote ties and they have 
a hanging, dimpled, or pregnant chad, don't call me. They are 
going to be into the controversy to decide it.
    Also, Mr. Chairman, you mentioned about different people 
being able to have access that they do not have today. 
Technology can help with that. Again, I do not want to stress 
that it is all technology-driven, but those are issues we are 
looking at.
    Also, the final principle, I think, is that there is a need 
for new resources for voter education, poll worker training, 
and technology research development. The voting process must 
catch up to the 21st century, also with technology. But 
training and research on affordable, reliable, and accessible 
new technology can help State and local governments meet this 
challenge.
    The other area that we are exploring is strategies to get 
young people involved in the election process. This was an idea 
Mr. Hoyer put forth. It is a tremendous idea. We are working on 
that.
    I will conclude by again saying that you are embarking--
both you and the ranking member, other members of the Senate, 
are embarking on the issue that is important. Today I am going 
to have a very interesting markup on campaign finance reform 
and----
    The Chairman. Mitch has a passing interest in that subject.
    [Laughter.]
    Mr. Ney. And we are going to have two bills. I will not 
predict that mine is favorable to the floor and the other one 
is not favorable to the floor. But we are going to have a free-
wheeling process. But I tell you, people talk about campaign 
finance, obviously, and we talk about how we are going to clean 
up elections and how we are going to do this and that. But you 
know what? You have got to get people elected first before we 
talk about process.
    So I just want to highlight that this measure is very, very 
important because the people have to have the confidence that 
they were able to vote, everybody was able to vote, it was 
accurate, as accurate as humanly possible so they have a 
confidence in their election system. Then we can come out here 
and debate other pieces of legislation, how we run the system. 
So this is, I think, one of the most critical issues. We are 
keeping it alive. We are very close in agreement and language, 
and we really look forward to working with you.
    Thank you.
    The Chairman. Thank you very much. We appreciate immensely 
you being here today. We know you have a busy schedule and you 
have that markup pending. We will understand if you have to 
move along. So we thank you, and if we have some questions, we 
will submit them to you. But you are more than welcome to stay 
as well.
    Mr. Ney. Thank you.
    [The prepared statement of Mr. Ney follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Steny, we welcome you. I was mentioning the 
testimony of Jim Dickson yesterday, whom many of you know, who 
heads up the American Association of People with Disabilities. 
He talked about one jurisdiction in the country that just 
acquired $19 million worth of new voting equipment and 1,600 
polling places, none of which is accessible to the disabled. We 
have had a law on the books for 17 years with a carrot 
approach. Now, you tell the disabled community that we are 
going to hopefully leave this up to local decision making, and 
it does not fly, unfortunately.
    So I feel strongly that when we are voting for President 
and the national Congress, if a system is unfair in one place, 
it affects us all. It is not just isolated cases. We are not 
just voting for local boards of education, planning 
commissions, and so forth. There is a direct and immediate 
effect on the national system.
    I wish I had had him on first, I said yesterday. He was the 
last witness we had, and he should have been the first in many 
ways, just to make the compelling case of what is going on 
today rather than just what has gone on over the years.
    Steny, we welcome you here, and as always, I look forward 
to working with you on this issue and so many others. So thank 
you for coming by.

STATEMENT OF HON. STENY H. HOYER, A REPRESENTATIVE IN CONGRESS 
       FROM THE STATE OF MARYLAND, RANKING MEMBER, HOUSE 
                    ADMINISTRATION COMMITTEE

    Mr. Hoyer. Mr. Chairman--I emphasize that word 
``chairman,'' with all due respect to my good friend, Mr. 
McConnell.
    The Chairman. This thing could flop around three or four 
times in the next six months. [Laughter.]
    I am trying to get used to not calling him ``chairman.'' 
I've called him ``chairman'' seven times, I think.
    Senator McConnell. We treat each other very nicely.
    Mr. Hoyer. I understand that.
    The Chairman. This is a very fragile deal.
    Mr. Hoyer. Mitch, you will enjoy the fact that a couple of 
hours after Senator Jeffords' announcement, I called my very 
close senior Senator, Senator Sarbanes, and I had a 5-minute 
conversation. And I think I called him ``chairman'' 17 times in 
that 5 minutes. But I am very, very pleased to be here with 
both you, Chris, and you, Mitch, because I know both of you are 
very hard-working, focused individuals who will work with Bob 
Ney and me. I want to wish you the kind of relationship that 
Bob Ney and I have. Bob has brought to the Committee on House 
Administration a very positive, open, working relationship 
between the two of us, one I appreciate and I think it can be, 
frankly, a model, at least in the House. Frankly, I think there 
is a little more collegiality here in the Senate--not at all 
times--that we have not always enjoyed in the House. But I want 
to thank Bob Ney for his leadership and his commitment to 
working together.
    I want to thank you for inviting us to speak to this 
hearing today. I also want to commend you for your continuing 
commitment to election reform. No issue, as John Conyers said 
so compellingly, in my view is more important to our country 
and to its citizens.
    Our election system affects literally every American, and 
it animates the very soul of democracy whose independence we 
celebrate days from now.
    When our Nation's Founders adopted the Declaration of 
Independence 225 years ago, they recognized not only that 
citizens are created equal and endowed with certain unalienable 
rights, but also that governments derive, and I quote--and all 
of us know this language--``just powers from the consent of the 
governed.''
    Eight months ago, our process for determining the will of 
the American people essentially failed us. The consequences of 
that failure are manifest today for an estimate 2 million 
Americans, not to mention the millions of those with 
disabilities of whom you spoke a little earlier, Chris. As you 
know, I sponsored the Americans with Disabilities Act on the 
House side, worked for its passage, and believe, frankly, that 
the law currently, as with most public accommodations, demands 
accommodation of those with disabilities in the polling place 
today. And to the extent that that is not recognized, it should 
be and is, in my opinion, a violation of law.
    If you can ride a cart in the PGA, you darn well ought to 
be able to go to the polling place and have it totally and 
fully accessible to you, irrespective of the disability that 
you might have.
    The Chairman. Jim made the point yesterday that there is 
not an elevator he can get on in most of Washington and not 
find Braille to tell him what floor to go to yet, there is 
rarely a voting booth in the country that will allow him to 
walk in and find Braille to allow him to cast a vote.
    Mr. Hoyer. Right.
    The Chairman. So the law is still very weak when it comes 
to those basic issues.
    Mr. Hoyer. I agree with that. The pain of 
disenfranchisement, of which you spoke, remains an open wound 
that will not soon heal. For our Nation, last November's 
election debacle left an indelible scar that will follow us for 
a long time in our history. We, therefore, must make it our 
calling in this session of Congress to address these 
deficiencies in our election system. The American people demand 
and deserve real reform now, and we have a duty and an 
opportunity to deliver it.
    Today, I am pleased to report to you, as has the chairman, 
that in addition to the hard work on this issue by members of 
this body, the Committee on House Administration is very close 
to producing bipartisan legislation that will address some, not 
all, of the most serious problems that plagued us last 
November.
    Chairman Ney and I, as he has told you, held four 
productive hearings on election reform this spring. Consistent 
with our committee's jurisdiction, we have focused extensively, 
but not exclusively, on the technological aspects of election 
reform. Our proposal contains several key components.
    For example, it would provide Federal grants to help States 
and localities replace outdated and unreliable punch card 
voting systems. There are clearly jurisdictions which want to 
provide better technology but cannot afford it.
    It would create an additional election administration 
commission that would evaluate and award such grants. The 
commission also would work to ensure access to the polls for 
every eligible voter--every eligible voter--and make sure that 
every ballot will be accurately counted. And it would provide 
funding for States to improve their entire voting process, 
including registration systems and poll worker and voter 
education programs.
    However, we cannot, as you have dramatically said, and John 
Conyers has as well, pretend that real election reform begins 
or ends with simple mechanical fixes or high-minded model 
election codes. It does not.
    As Chairman Dodd stated earlier this year, this is not just 
about helping States and localities build or buy better 
mousetraps. Election reform is the civil rights issue of the 
107th Congress. We were reminded of that fact 2 weeks ago when 
the Commission on Civil Rights, which testified yesterday, 
released extremely disturbing findings. African American voters 
in Florida were at least 10 times more likely than other voters 
to have their ballots uncounted last November. That is 
appalling and it is unacceptable.
    Thus, we must recognize that election reform requires a 
renewed commitment to improving poll worker training and voter 
education, to enforcing the Civil Rights Act, Voting Rights 
Act, Disabilities Act, and local election laws, as well, 
obviously, as every part of our Constitution, to ensure 
accurate voter registration lists that never exclude--never 
exclude--those who are legally registered to vote, and to 
accommodating disabled voters.
    And without doubt, Mr. Chairman, we must ensure that 
provisional ballots are available in every voting jurisdiction 
to safeguard this most precious and most basic American right.
    As this issue moves forward in Congress, I look forward to 
working with the members of this committee to ensure that the 
election debacle of last November is never repeated and that 
every legal vote counts.
    I am pleased to be joined by Congressman Wexler and 
Congressman Blunt. I might say that Congressman Blunt, who is 
the Speaker's point person on this issue, has been working with 
us very cooperatively; Silvestre Reyes, the chairman of the 
Hispanic Caucus; Eddie Bernice Johnson, the chairwoman of the 
Black Caucus; Corrine Brown, who has been so intimately 
involved in this; Dale Kildee, who knows so much about this 
issue as well.
    Let me close, Mr. Chairman, by saying that mechanical fixes 
must not be viewed as enemies of civil rights realization. In 
my opinion, we need to move forward on both paths, and both 
paths before we finish must intersect. I expect that to happen. 
But I also hope and pray that we do not delay because of a 
disagreement on moving ahead. Local jurisdictions need help to 
move forward quickly if 2002 is to be better than 2000. And if 
we do not move quickly, there will be no opportunity to have 
2002 be substantially better from a mechanical standpoint, as 
well as--and we will discuss this--the concerns about opt-out. 
When Chairman Conyers mentions that, he mentions it in terms 
that a State that does not take Federal funds will not be under 
the prescriptions that they would have to sign on to if they 
did take the money. Verification of votes, which Congressman 
Blunt is very interested in, is essential so that voters will 
know before they leave the polling place--which would have been 
critical in Mr. Wexler's and Corrine Brown's districts before 
they leave the polls that they have cast an accurate vote, and 
that it would not be shunted aside because of overvotes or 
undervotes.
    Lastly, let me say this: Mr. Ney mentioned an idea of mine 
that we are going to include in our bill. It is the ``HAV 
program, Help America Vote.'' All of us are concerned that 
young people are not participating in our elections. All of us 
also understand we are having trouble getting election workers. 
``Help America Vote'' will be a program run by the commission, 
which will encourage every college in the United States, every 
institution of higher learning, to have a program which allows 
their students to participate in an election experience and 
work as poll workers in their local areas. We think it is a 
very positive program, which will go a long way towards helping 
local jurisdictions have sufficient workers to ensure accurate 
implementation of constitutional, legal, and procedural rights 
that every voter in America deserves and should have.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very, very much. We thank you, 
Steny, for being here.
    [The prepared statement of Mr. Hoyer follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Congressman Wexler and Congressman Blunt, we 
welcome both of you. Congressman Wexler, the events of last 
fall were an intellectual exercise. For those watching the 
events in Florida and for you, obviously, it was a very real 
situation in that you represent a district that was directly 
involved in some of the most significant controversies. So we 
welcome you here today. We know of your passionate interest in 
this subject matter, and we are anxious to receive your 
testimony.

 STATEMENT OF HON. ROBERT WEXLER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Wexler. Thank you very much, Mr. Chairman, Senator 
McConnell. Thank you for having me here.
    America is the freest, most prosperous Nation on Earth. We 
are the strongest, most resilient democracy on the planet. Yet 
last November, we failed our citizens in the most fundamental 
way.
    The right to vote cuts to the very bone of our democracy. 
When tens of thousands of Americans cast their ballots--only to 
have them thrown out--whether you like the results of the 
Presidential election or not, it is undeniable that something 
in wrong in America. If we fail to learn from this tragic 
experience, then shame on us.
    As you said, Mr. Chairman, what happened in Palm Beach 
County, Florida, on election day is personal to me. I saw it 
with my own eyes. I experienced it myself. I stood in front of 
voting precincts and witnessed a horrible state of confusion.
    I am here today representing the citizens of my district 
who went to vote on election day only to be confronted with a 
puzzle rather than a ballot.
    I watched the dismay and felt the anger of patriotic 
Americans, many of whom fought in World War II and Korea and 
haven't missed an election in over 50 years, as their votes 
were rendered meaningless.
    I am here to give a voice to those Floridians whose votes 
were callously discarded due to a ballot that was so confusing, 
intelligent men and women unknowingly cast two votes for 
President or one vote for the wrong man.
    I am here because the collapse of the election system in 
Florida was not colorblind. The facts speak for themselves. 
Fifty-four percent of Florida's discarded voters' ballots were 
cast by African Americans, even though African Americans only 
comprise 11 percent of Florida's voters.
    Think about that. African American voters were ten times 
more likely than white voters to have their ballots rejected in 
Florida. This reality is indefensible, and we must act now to 
repair our citizens' faith in the system.
    Have no doubt about it, this is not just a Florida problem. 
You have said it. It stretches coast to coast. Many of the 
problems that confronted Florida on election day occurred in 
other States. In fact, more votes were thrown out in Illinois 
than in Florida. This is a Federal problem that demands Federal 
attention.
    What happened in Florida on election day highlighted for 
the entire world that in America, even for a Presidential 
election, we have no national standards for the design of 
ballots; we have no national standards for the counting of 
ballots; we have no national standards for voting machinery; we 
have no national standards to prevent thousands of Americans 
from being purged from voter rolls; and we also have reliable 
way to count the overseas ballots of the men and women in the 
military.
    What we do have in America is partisan election officials 
deciding which votes count.
    Truth be told, we do have an equal protection problem in 
America.
    This past November, in Florida, African Americans were not 
equally protected. The Floridians wrongfully purged from voter 
rolls were not equally protected. Overseas servicemen and -
women casting absentee ballots were not equally protected. All 
Floridians were not equally protected when certain absentee 
voters had their ballots doctored by partisan representatives 
inside county election offices.
    And, yes, thousands of my constituents who still choke up 
when they hear the Star Spangled Banner because they love 
America so much were not equally protected when they intended 
to vote for Al Gore whose name was second but whose punch hole 
was third.
    The good news is this problem can be solved, but we must 
commit the necessary resources.
    I strongly support, Mr. Chairman, the legislation sponsored 
by you and Representative Conyers. It exemplifies the level of 
commitment needed to fix the problems that plagued the 2000 
election.
    I also endorse the bill sponsored by Representative Hoyer 
that would eliminate the punch card system and do much more.
    Electoral reform must not be a partisan cause. It is not 
Democrats, it is not Republicans. It is our national 
obligation.
    It has been 8 long months since the Presidential election. 
It is time for Congress to take aggressive action.
    I applaud you, Mr. Chairman, for calling this hearing. It 
is about time. But I must call attention to the devastating 
silence from 1600 Pennsylvania Avenue.
    President George W. Bush must be the only person in America 
who has forgotten what happened on election day.
    Election 2000 was a wake-up call to all Americans that we 
must not take our democracy for granted.
    We must commit the money, the resources, and the energy to 
fix our election process once and for all. To do anything less 
is unforgivable.
    And if I may follow just very quickly the comments by 
Congressman Ney with respect to Florida, he is right. And you 
are right, Mr. Chairman. The Florida Legislature and Governor 
Bush in Florida adopted a very important piece of electoral 
reform. In some ways, it is a model for the country. I applaud 
that. But let's not fall asleep at the switch and think that 
the problem is solved. The Florida Legislature allocated what I 
think is $34 million to fix the problem. Already, as the 
individual counties are beginning to analyze how much money it 
will take for them to actually implement what the Florida 
Legislature is talking about, the counties are woefully short.
    So to think that Florida has just resolved the problem I 
think would be inaccurate. The money that it takes, 
unfortunately, particularly in urban areas, to resolve the 
issue, not just the technology but the voter education and the 
host of other problems that we have witnessed, takes a lot 
more, unfortunately, than what local jurisdictions can often 
afford.
    [The prepared statement of Mr. Wexler follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. I thank you for that, and you have raised a 
very good point. Obviously, we would like to see a lot of this 
done to improve the elections in 2002. I am waiting to sort of 
get some sense of the estimated cost of doing this. I do not 
think I am exaggerating--and Congressman Blunt may correct me--
but using the word ``billions'' is probably not hyperbole when 
we are talking about this. Whether or not the Congress and the 
President, are willing to put their proverbial money where our 
mouth is on these issues remains to be seen. It is one of the 
reasons why I think requiring and having some mandates on 
standards, without one size necessarily fitting all on 
machinery, and some national standards on second-chance ballots 
or second-look provisional ballots, some basic modest 
proposals, that would go a long way toward achieving the 
desired results. In fact, it would more certainly guarantee it 
than would relying on whether or not we are going to 
appropriate the billions of dollars and, get it to the States 
and the precincts in order to make the changes necessary to 
happen.
    I have been around long enough to know that we can talk 
about authorization bills, but then when it really comes down 
to appropriating the money, sometimes it does not quite work 
out as people intend.
    But I am taking time here. Congressman, we welcome you and 
thank you for coming over to this committee.

STATEMENT OF HON. ROY BLUNT, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MISSOURI

    Mr. Blunt. Chairman, thank you. It is great to be able to 
come over and be with my colleagues and friends here who care 
deeply about these issues. We do not fully agree on all of the 
potential solutions, but we, I think, are fully committed to 
the future of democracy in the country and, frankly, hopefully 
understand this opportunity to bring focus to the election 
system.
    I sit here today as somebody who, for a decade, was a local 
election authority in the third largest county in my State. For 
8 years, I was the chief election authority of the State, as 
the Secretary of State. In the quarter of a century that I have 
been involved in elected politics in one way or another, 
usually as both an elected official and an election 
administrator, there have not been too many occasions when 
people really wanted to talk about the mechanics of election. I 
would like to start by following up on what both Mr. Wexler and 
Mr. Hoyer said to suggest that whatever we do, we need to do it 
quickly.
    I think there is less focus on election reform this month 
than there was last month. I think there is substantially less 
focus today on changing election systems around the country 
than there was in December. And we need to do what we are going 
to do, and make it clear to local election officials who are 
deciding whether they want to make the budgetary commitment or 
not that this is what the Federal role is going to be. Don't 
continue to make them wait for us to make a decision. We need 
to make that decision so they know whether or not it is in the 
best interest of their jurisdiction to continue to wait and see 
what kind of Federal guidelines there are going to be, what 
kind of Federal money may be available.
    I think there is a lot of waiting going on right now, 
because nobody wants to go back to their taxpayers and voters 
and say, oh, if we had waited 3 more months, we could have got 
a 50/50 matching grant, but we did not quite meet the criteria 
to receive the grant, and so we made a mistake. I think 
officials do not want to make that mistake, and so they are 
holding back.
    At the same time, the longer you wait, the further you get 
away from last November and December, the closer you get to the 
traditional decision-making process as it relates to elections. 
Local officials are asking themselves, do we want to replace 
the system we just used that, after all, probably elected the 
people you are asking to replace it? Or, in fact, do we want to 
take the same amount of money and put it into a new bridge, put 
it into a new industrial park, do the other things that compete 
for the money that will be needed to solve this problem?
    I do think, Mr. Chairman, in response to your last comment 
that in terms of the actual cost of the system of the kind of 
transition that my friend Mr. Hoyer and Mr. Ney have talked 
about, going from a punch card system where 34 percent of the 
people in America vote on that system, to some other kind of 
system, you are talking in the billions and probably in the $3 
to $6 billion range. And that assumes the infrastructure of 
providing that kind of equipment would even be out there to do 
that in not just 2 years but even in 4 years.
    Let me say also, as someone who did spend quite a bit of 
time as an election official, I obviously have a preconceived 
view of the importance of responsibilities of local election 
officials. I think the worst thing we could do is take away the 
responsibility for conducting elections from people who are 
close and answerable to the voters that can see them on 
election day. The last thing we need to do is create an 
environment where local election officials from the Secretary 
of State to the lowest precinct worker say: Well, we just 
cannot do anything about that because the Congress somehow 
failed to realize this would be a problem for us; I am sorry, 
this is not my responsibility, we are really restricted by what 
the Congress of the United States said we would have to do. And 
so I think that having front-line responsibility within a State 
does matter.
    I also think that education is an important part of this 
process. I think Mr. Hoyer's concept, the HAV program, the Help 
America Vote program, other things that we could do to empower 
States to provide more education to voters, particularly if we 
do anything to encourage moving toward new systems, would be 
critical. The hardest transition obviously in an election and 
the most likely errors are going to be made when you change 
from a system you have used for a long time to a system that 
nobody has used. And we need to be sure that we are thinking 
about how you help with education.
    I frankly think that education is the bigger problem, and 
the evidence is the symptom of overvoting and undervoting. I 
know in the State of Georgia, in a study they did, their 
highest percentages of overvotes and undervotes were not in the 
punch card counties. They were in the optical scan counties. 
One of the reasons that we have talked on the House side about 
the importance of maybe looking at precinct verification is 
something we would encourage, even if you kept the punch card 
system, is so that at the precinct you would have a device you 
could put your ballot in, you would get an immediate sense of 
whether you had overvoted or undervoted, and you know that at 
the time you drop that in.
    That probably is a more substantial protection and an 
easier transition. My point of view as a former election 
official, not necessarily a Member of Congress, is that it is 
probably an easier transition and a greater protection than 
changing the entire system.
    Frankly, the entire system is not going to change unless 
the Federal Government wants to provide 100 percent funding.
    When Chairman Ney and Mr. Hoyer had their hearings, the 
largest jurisdiction in the country that uses punch card voting 
is Los Angeles. They told them, they have told you already, 
they are not going to change. My guess is 34 percent of the 
voters in America used punch card voting in 2000 and about 30 
percent of the voters in America will use it in 2002.
    But I think we could do some things to give voters the 
assurance they need before they leave the polls that they have 
done what they intended to do.
    In terms of establishing standards for counting ballots, I 
do believe the lesson of Florida was that States need to be 
encouraged, possibly even required, to have a consistent 
standard within the State. If you go to one national standard, 
I am also firmly convinced that----
    The Chairman. No one is advocating one national standard.
    Mr. Blunt. Good.
    The Chairman. We are talking about national standards, and 
then allowing States to accommodate within those standards of 
how you do it. So there is this idea of we are going to design 
one voting machine, but I do not know of a single bill that 
advocates that.
    Mr. Blunt. I am talking about standards, Mr. Chairman, for 
counting ballots. And I believe Mr. Conyers is for one standard 
for counting ballots, how every ballot in America should be 
counted at every precinct in America. Let me tell you what I 
think is the problem with that.
    The problem with that is--again, back to education--the 
long-held traditions of a State do matter. My guess is that you 
vote a straight party ballot or a split-ticket ballot slightly 
differently in Maryland than you do in Kentucky. Everybody in 
Maryland and Kentucky or at least the vast percentage of voters 
in those two States already understand that. If you decided you 
are going to have one standard that might be the same as either 
State has now, for several elections there would be people in 
Maryland and Kentucky who were voting the way you had voted for 
generations to cast a ballot who would not make the change.
    I think, however, one standard within the State--which was 
really the challenge in Florida, how are you counting these 
ballots everywhere in this State?--is significant, is easily 
achievable, and most States do not have that as part of their 
process now, because up until now most Secretaries of State 
have not been empowered to establish a standard. They have been 
empowered to give local officials advice on what they thought 
the law meant, but not usually to establish a standard.
    I would like to see us do some things at the Federal level 
that provided more research, more testing of equipment, help 
establish some standards on equipment that the States could 
adopt. Certainly an idea of sharing best practices, how 
different jurisdictions deal with the challenges, would be a 
good idea.
    The problem with, again, even trying to prescribe ballot 
design is that every election in every jurisdiction has a 
slightly different and usually unique set of circumstances that 
the local election official or the Secretary of State has to 
deal with. Having a true Federal effort where they could go to 
one place and find out the best way others had found to deal 
with these is probably better than us trying to anticipate what 
happens when you have the fire district election, the ambulance 
district election, the school board election, a special 
congressional election, and whatever else on one day.
    I am not as concerned about--I do not fear the idea of 
model standards as much as some do, but I would like to see us 
at a minimum encourage a model standard. We have a uniform code 
for almost everything else that States adopt. There is a 
uniform commercial code. There is a uniform electrical code. 
There is a uniform--almost every kind of code except a uniform 
election code. Letting States look at that uniform code, move 
to it, invest in it as local and State election officials would 
be a good idea.
    The registration process creates some challenges. Voter 
records do need to be accurate. At the same time, in a system 
as big as the voter registration system, with people moving, 
with people changing their name, you are going to have some 
problems in that system.
    Mr. Hoyer has mentioned the idea, you have mentioned the 
idea, calling it a couple of different things. We normally are 
referring to it as provisional voting, something that would be 
a significant protection for voters who get to the polling 
place, find out their name is not on the list, are sure that 
they should be voting, or not, to let them vote, put their vote 
in an envelope with some kind, of explanation of the problem. 
At the end of the process, you then go back and insure that 
person hasn't already voted somewhere else. You know, once that 
unidentified ballot goes into the ballot box, every ballot in 
that ballot box could be the ballot that you later decide 
should not have been cast. If you cast it provisionally, not 
only do you more fully ensure that everybody that should have 
voted got their fair say in the process, but you also more 
fairly ensure that not only does the person who almost was not 
allowed to vote gets their vote counted, but that they also get 
their problem solved.
    So often when that ballot goes in the ballot box, that is 
the last time anybody thinks of this person's problem until the 
next election. That is why provisional voting, rightly 
designed, would be a good thing.
    For military and overseas voters, particularly for military 
voters, I think we do have a unique set of Federal 
responsibilities, and we have always asserted those. the 
Federal Government has always played a different role for 
military voters, usually expanded that to Americans overseas. 
We can continue to do that. If you are serving in the armed 
forces, whether you are from Maryland, Kentucky, Missouri, 
Florida, there is no reason you should not know that there is 
one deadline by which to get the ballot application submitted. 
Maybe there can even be one application for an entire year's 
elections. There is one deadline to get the ballot back by. 
There is one deadline that determines whether the ballot will 
be counted or not if it is received by the State. And we need 
to be sure that our APO process works so that if an employee of 
the Federal Government in a military uniform decides not to 
postmark the ballots as they are dropped in a sack, that their 
decision does not count against the voter who got the ballot 
mailed in good and reasonable time.
    Again, I think time is critical. I think in terms of the 
cost factor, a grants program that would require some sort of 
local match and maybe on some appropriate scale of determining 
the ability of the county to participate. Some sort of local 
match always requires the local official to make a better deal, 
to make the best possible financial arrangement that if the 
Federal Government is paying 100 percent of this transition 
that many people believe we need to be part of, and I don't 
disagree with that. But I think some kind of local commitment 
is also important, and I hope that whatever we do in the House 
and Senate, we do it quickly so that there is a chance it would 
have some helpful impact by 2002.
    The Chairman. Thank you very much, Congressman. I 
appreciate it very, very much.
    I would just raise one issue with you, and that goes to the 
very last point you were making. You raised the issue of how 
difficult it has been to get funding. I know in my State, which 
had some of the first voting machines in the country, going 
back to the late 1950s in Connecticut, we have not purchased a 
new one, I am told, in 20 years or more. You made a point of 
the fact that when there are other requests being made, new 
equipment for voting and expending local tax dollars or even 
State tax money to improve the technology has been very 
difficult. When you start talking about fraud issues, you hear 
how difficult it is to get local prosecutors to even pursue 
fraud questions when they come up.
    The obvious question I have is: If you make it a voluntary 
program, an optional program and leave it up to some sort of 
match, it seems to me you are leaving yourselves open to the 
obvious question of whether or not any of this is going to get 
done, considering what a low priority it has been for people, 
and that people may have other reasons why they don't want to 
see the changes occur at all. Whereas, I can make a case, I 
suppose, in an optional program where you are trying to get 
this done, but you do not want to mandate it.
    Now, I think a mandate in certain areas makes some sense, 
particularly when we are talking about the election of the 
President and the national Congress, because my constituents in 
my State are affected. When a jurisdiction in some remote part 
of the country decides not to do something, I am affected by 
that. So I think there should be some national standards.
    But if you are going to go the optional route, then it 
seems to me that having the Federal Government step up and say 
we are going to help you negates the argument that we cannot 
afford to do it or do not want to do it.
    How would you respond to that concern?
    Mr. Blunt. I think in terms of encouraging this to happen 
that matching money, whether it is a charitable effort or to a 
local or State government, is always a huge incentive. At the 
same time, having some of your own money on the table ensures 
you to be the best and most careful spender of the Federal 
dollars you are getting along with those dollars.
    Senator, it would not really matter to me, I do not think, 
whether you started at 50-percent match and went down for some 
categories of jurisdictions to a 10-percent match on their 
part. I think a 10-percent match is infinitely better than a 0-
percent match, because it makes the local officials get very 
serious about the kind of system they are designing. And, 
frankly, it allows our money to go a lot further.
    If we try to put in the ultimate ``don't worry about the 
money'' system in every jurisdiction in America, we will not--
this job will not get done, I guarantee you. We will not come 
up with the kind of money that would accomplish that goal ever.
    The Chairman. I do not disagree.
    Mr. Hoyer. Mr. Chairman, we had----
    The Chairman. I will ask you, Steny, to comment on this. 
But, again, I am reminded of the testimony yesterday from the 
disability community. For instance, it has been 17 years that 
we have had the optional program in place to make not just to 
the building you go into accessible, but the equipment. And we 
just had the example cited of one major jurisdiction, in 
Florida, in fact, Congressman, in your State, where you have 
done a lot of good things. However, we heard yesterday from the 
disability community that again the issues affecting the 
disabled in the State of Florida were not addressed in the 
recent reforms in your State.
    So you have 20 million Americans who are disabled, waiting 
for a voluntary program to work, and their testimony is it 
still has not been forthcoming. That is my concern.
    Go ahead.
    Mr. Hoyer. Let me say that I think that is a violation of 
the Civil Rights Act and the Disabilities Act. If it were taken 
to court, I would like to argue that case on the plaintiffs' 
side, because I think it is a specious access--if the purpose 
is for voting, it is a specious access to have a ramp to get 
into the building. I really think you could argue that pretty 
persuasively.
    I want to make just two points. First of all, on the 
dollars, Mr. Ney and I have agreed on the funding formula to be 
90/10 for most jurisdictions, and for those in the lower 
quartile of per capita income, the lower quarter, it would be a 
95 Federal, 5 local match for funds. This would apply to the 
first $400 million. Mr. Young of Florida, the chairman of the 
Appropriations Committee--and I am on the Treasury, Postal 
Appropriations Subcommittee, as you know, Mr. Chairman--I think 
we are going to--we are in agreement on the $400 million. I 
think we are going to be able to appropriate that. I think we 
are going to be able to appropriate it for 2002, and hopefully 
jurisdictions will know by early October that there are dollars 
available so that they can move forward.
    Secondly, let me emphasize again, if I can, I think it will 
not be useful to this effort to make the mechanical fix the 
enemy of the civil rights fix. And I think it will not be 
useful to have the civil rights fix the enemy of the mechanical 
fix. This is my strong belief--and I am a supporter of your 
bill and Mr. Conyers' bill. There is some dispute in the 
States, non-partisan, as you know, as to the flexibility that 
States should have. I am supportive of both efforts.
    What I believe to be the case in the House, Mr. Chairman, 
is we could move this bill pretty quickly. I hope you can move 
your bill, frankly, from my perspective, with all of the 
provisions that you have discussed. Ours are at least optional 
to the extent if you want to get a nickel, you have got to 
comply with all of the issues that we have just discussed. And 
you have to certify that you are complying or are in the 
process of complying.
    So I am uncomfortable making one the enemy of the other. We 
ought to move both of these efforts, both on the mechanical 
side and on the civil rights side.
    The Chairman. I agree. Let me just point out that 
Congressman Blunt is absolutely correct in this regard. We 
would not be talking here and we would not have a packed 
hearing room for two, consecutive days here were it not for the 
events last fall. If there is any silver lining, it is the fact 
that we are here, because, again, as we have all said, this was 
not just Florida, and it was not just this election. It has 
gone on for a long time, and it goes on all across the country.
    So there is an interest in this. Young people got 
interested in the electoral process. I love to tell it was 
because we went out and gave speeches in schools all over the 
country. But, frankly, it was the events of last fall that 
provoked this interest. So there is a window here to do 
something, because it is an opportunity that is not going to 
come back again. We are going to be running around claiming 
that we have already solved the problem. So it is important to 
do this as quickly as we can, but it is more important, in my 
view, that we do it right.
    To do something quick that does not solve the problem is 
going to only increase the frustrations and maybe depress 
further participation in the voting process if people feel we 
really have not addressed the problems that exist out there.
    So I am very much interested in getting something done 
quickly. But I am also very interested in us doing it right. 
And I think we can. We have more than 50 sponsors and, frankly, 
a number of inquiries coming from the Republican side of the 
aisle in the Senate, to claim bipartisanship, if you will, on 
the bill that Congressman Conyers and I have introduced. Mitch 
has pointed out, obviously, the bill that he and Chuck Schumer 
have has, what is it, 70 or 60 or high 60s----
    Senator McConnell. Seventy.
    The Chairman. Sponsors. Fifty of those are sponsors of the 
bill I have introduced as well. So hopefully we can get 
something done here quickly. But I am absolutely determined we 
do it right, because we will not be back at this issue again, I 
suspect, until there is some other debacle which forces us 
back, because that is how we legislate.
    But I have already spoken long enough. Mitch, do you want 
to ask some questions?
    Senator McConnell. Yes, let me just say there are several 
things that we know. We know that the conduct of elections is 
dramatically different in this country, from same-day 
registration in North Dakota to 100-percent mail-in ballots in 
Oregon. There is enormous diversity in how people put on, 
stage, administer elections in this country. And as you pointed 
out, Congressman Blunt, there is no chance that we are going to 
federalize that.
    We also know that looking at Florida in 2000--well, let me 
also say that we also know that no matter what kind of system 
you use, if you have a razor-thin election, a really, really 
tight election, and someone chooses to go to court, you could 
have the experience that we had in Florida all over again, no 
matter what kind of system you use. It is not possible to 
invent a system that will prevent a razor-tight election. It is 
not possible to invent a system that will have a perfect 
election.
    So I do not think we should delude ourselves into thinking 
there is anything we can do that will prevent spirited 
litigation in the wake of a razor-thin election in the future 
when the stakes are high, and that is precisely what we had in 
Florida.
    There has been a sort of undertow in the hearings 
concerning race and the election. I think it is important to 
note that the African American vote in Florida increased by 50 
percent from 1996 to 2000. That also was the case in Texas, a 
50-percent increase from 1996 to 2000. In your State, 
Congressman Blunt, the African American vote went up 140 
percent from 1996 to 2000. The Civil Rights Commission majority 
report found no evidence of intent or conspiracy to deny people 
the right to vote based upon race.
    So this is really not, in my judgment, about race. It is 
about trying to see if we can encourage localities to 
administer elections better. There are some things that simply 
cannot be prevented. There were 1,000 people in Florida who 
voted for all 10 candidates. Obviously, they were making some 
kind of statement. We are not quite sure what it was. But they 
were making some kind of statement.
    The bill that Senator Schumer and I are pushing that has 68 
other Members of the Senate on it does not go down the Federal 
mandate path. It seeks to create one Federal agency with four 
presidentially appointed Democrats and four presidentially 
appointed Republicans which would be the one place in America 
that you could get an honest answer rather than some vendor 
trying to sell you his particular model of voting machine, the 
one place in America where you could get an honest answer from 
an unbiased source about which kind of election system might 
fit your community best.
    It would take out of the Defense Department the office that 
currently deals with overseas voting, put it there. It would 
take away from the Federal Election Commission, which has 
little interest in this, the Election Administration Office and 
put it in there. And it would have available something that I 
think everybody agrees on--Senator Dodd and I agree on, I 
gather all of you agree on--some funds for matching localities 
that want to upgrade and improve their systems.
    That is the kind of bill that could pass the Senate and be 
signed into law. So as we move down--and also in terms of 
hearings, I appreciate the chairman having these hearings. 
There have been a lot of hearings on this subject by some group 
or another, I think over 60. I think we ought to go forward and 
legislate and see if we can get this done fairly soon, because 
as several of you have suggested, the closer we get to the 2002 
election, the less likely anything we do is going to have any 
impact on that.
    So I would urge the new majority here in the Senate to 
think about turning to this issue early. Obviously, I have a 
preference in terms of which bill we pass. But I think we could 
all sort that out on the floor of the Senate, and as the 
ranking member now, I want to thank all of you for being here 
today.
    The Chairman. You want to say something, Congressman?
    Mr. Wexler. If I may very quickly, I respectfully differ 
with Senator McConnell as to the characterization and the 
resulting action that Congress should take with respect to what 
happened in Florida. In the business that we are all in, we win 
elections and we lose elections, either individually or our 
parties. You deal with that. As an American, hopefully you 
understand our democracy demands that you abide by the will of 
the people.
    But what happened in Florida, at least from the perspective 
of some--I would characterize it as many--It was not a question 
of who won, or who lost. The question was: Did my vote count? 
And that is a very different question as an American than, 
``Oh, 6 million people cast their votes and there are only 500 
votes between us, this system can never really tell us.'' That 
you can live with. But when you believe your vote as an 
American has not been counted, that is when you cannot accept 
it. And, respectfully, I would argue we can devise a system 
that would at least take that element out of it.
    Senator McConnell. Well, Congressman, I hope you are 
equally concerned about the sanctity of the vote, convicted 
felons voting, people serving our country overseas having their 
votes discounted, early projections by television networks that 
caused people to stay home in your State because they thought 
the election was over.
    It was not a perfect election in many ways, and people who 
were on our side of this election found much in Florida that 
happened that we did not like.
    So, really, it is interesting to discuss all of those 
things. The question is: Where do we go from here? And I hope 
that whatever path we take, we will be just as concerned about 
not disenfranchising members of the military, just as concerned 
about making sure that only people who are eligible to vote 
vote, and vote only once, which leads to the other question I 
want to ask about the St. Louis situation. I want to ask 
Congressman Blunt his observations about that. And to call on 
the networks to have some kind of responsible treatment of 
projections, which, you know, has disadvantaged both sides at 
various years, depending upon when it was.
    Congressman Blunt, I have read with interest Senator Bond's 
piece in the Washington Post yesterday. I do not know whether 
you mentioned that while I was out of the room or whether you 
had any thoughts about that.
    Mr. Blunt. I did not see what the Senator wrote in the Post 
yesterday. I did have the new mayor of St. Louis in my office, 
I believe it was yesterday, and we were talking about the voter 
registration challenge, the administrative challenge of any 
system like that.
    According to census figures, the city of St. Louis was 104 
percent registered. I think about 90 percent of them voted. 
That is a pretty good turnout. And we had the unique problem in 
our State where one State court judge decided to keep the polls 
open only in the city of St. Louis for an extra 3 hours.
    Now, at some point that was reversed by the State Supreme 
Court. I think the message got to some places later than it got 
to others. Probably all those polls stayed open an hour more 
than everybody else in the State got to vote. And some of them 
stayed open longer than that. I think this has been for the 
States a significant understanding of consistency, 
responsibility, and also a wake-up call about the integrity of 
the voter rolls themselves.
    No one benefits by voter rolls that are erroneous. And I 
think we can come up with a system that protects people's 
legitimate right to vote without letting everybody who purports 
at that moment to be a registered voter, whether they are on 
the rolls or not, to be able to cast a ballot that then goes 
into the rest of the system.
    It seems to me I remember in the Florida election there was 
a question in one case about how some ballot applications were 
dealt with. And one of the big overriding problems with doing 
anything about that ballot application process was that all 
1,500 of those, or whatever, had been mixed in with the tens of 
thousands of other votes already. So there was no way to do 
anything to really do anything about that particular set of 
concerns without trying to eliminate maybe all of the votes 
counted. So you do not want to do anything in the registration 
process that somehow, again, encourages people at the end of 
the day to believe that their vote was not counted or somebody 
else's vote was counted twice or three times. And we had some 
of those concerns.
    Senator McConnell. Well, motor-voter, which I vigorously 
opposed with the argument that it would put a lot of people on 
the rolls and have no impact on turnout, has done exactly that: 
put a lot of people on the rolls and had no impact on turnout.
    As a result of motor-voter, the Federal Government stepped 
in and guaranteed that the rolls would be huge. It has produced 
some interesting by-products. I saw a piece on ``60 Minutes'' 
one night basically focusing in on California, in which it was 
noted that not only had an animal registered to vote but had, 
in fact, voted in California.
    So I think the whole issue of the sacredness of the vote, 
that real voters be the people voting and voting only once and 
that they be alive, is also a matter, if we are going to go 
down the road of federalizing everything, that we ought to have 
significant interest in.
    Mr. Blunt. Just talking about St. Louis, the new mayor, 
again, who is a Democrat, as all mayors of St. Louis have 
always been, I believe, reminded me that on the Friday before 
the deadline, even after all of the focus on the November 
election, the Friday before the deadline for his March 
election, a group brought in 3,000 names of new voters, most of 
which were quickly proven not to exist. One was a pet. One was 
a long-deceased local alderman. You know, this system needs 
some real help, and part of that help is giving more 
flexibility to people who understand how to make the system 
work at the local level.
    Senator McConnell. Let me just say finally, do not feel 
like this is a St. Louis-only problem. In eastern Kentucky, it 
has long been a tradition that passing away should not keep you 
from voting. And so I think, you know, there are isolated areas 
in our country, both urban and rural, where this has been a 
significant issue.
    Thank you, Mr. Chairman.
    Mr. Hoyer. Senator, can I make a comment? I think everybody 
that I know agrees that people who are not eligible to vote 
should not vote. But we ought not to distract ourselves because 
of that proposition. An awful lot of people whom Bob Wexler 
talked about, and we know throughout the country did vote and 
did cast their vote, did not have their vote counted, either 
because it was not checked before they left, they were not 
allowed to cast a provisional ballot, the registration lists 
were lousy, on the purging was wrong. Those we can solve, and I 
think there is no disagreement by any of us that those ought to 
be solved.
    The Chairman. Let me just say, too, there were almost 3 
million people last year who stood in line to vote, but were 
told when their turn came up they could not vote. Now, I am 
always fascinated by anecdotes about animals. Those are the 
ones we know about. Out of 100 million people who voted, when 
you get the population of my State, almost, being turned away 
from the polls after standing in line, that is more than just 
an anecdote.
    We are losing our members here, I can see, with the votes 
that are coming up. We will let you go and vote. We will stand 
in recess. I do not have any additional questions. I thank both 
of you here. Congressman Wexler, thank you. Steny, thank you.
    We will stand in recess for 15 minutes until the members 
get a chance to come back.
    [Recess.]
    The Chairman. The committee will come to order. We are 
having a chaotic morning around here. Good to see you. I 
understand that this is the patients' bill of rights on the 
floor. We are getting votes all the time, and you are having 
them. Xavier, nice to see you. So my apologies to you, with 
your colleagues coming and going.
    What I am going to do is work the light system here, but 
only for instructive purposes, just so you get some idea. We 
will do it for every 5 or 6 minutes, but you do not have to 
follow it religiously, it is just to give you some sense of 
where you are time-wise.
    Congresswoman Johnson, I cannot thank you enough for your 
patience, and, of course, you and I have talked on numerous 
occasions about this. I know how passionately you feel about 
this issue, and I am deeply proud of your leadership of the 
Congressional Black Caucus, and deeply grateful to you, again, 
for being here.
    Xavier, my thanks to you on numerous occasions for your 
support and help on so many different issues.
    We will begin with you, Congresswoman Johnson, if that is 
all right. We would be glad to receive your testimony.

TESTIMONY AND PREPARED STATEMENTS OF A PANEL CONSISTING OF THE 
  HON. EDDIE BERNICE JOHNSON, A U.S. REPRESENTATIVE FROM THE 
STATE OF TEXAS; HON. XAVIER BECERRA, A U.S. REPRESENTATIVE FROM 
      THE STATE OF CALIFORNIA; HON. CORRINE BROWN, A U.S. 
 REPRESENTATIVE FROM THE STATE OF FLORIDA; AND HON. CARRIE P. 
     MEEK, A U.S. REPRESENTATIVE FROM THE STATE OF FLORIDA

 STATEMENT OF HON. EDDIE BERNICE JOHNSON, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF TEXAS, CONGRESSIONAL BLACK CAUCUS

    Ms. Johnson. Thank you very much, Mr. Chairman.
    Let me say at the outset that election reform is the number 
one legislative priority for the Congressional Black Caucus for 
the 107th Congress. And let me also state that I and every 
other member of the Congressional Black Caucus are cosponsors 
of Representative Conyers' and Senator Dodd's Equal Protection 
Voting Rights Act of 2001.
    Earlier this year, the Congressional Black Caucus held 
hearings focused on election reform. We received testimony from 
civil rights organizations, labor leaders, members of the 
Florida congressional delegation, a bipartisan group of House 
members who were former Secretaries, and then a current 
Secretary of State, research experts who have studied election 
reform issues, and State and local elected officials.
    We have compiled a wealth of information about what went 
wrong during the election 2000 and what we need to do to 
correct the problems.
    I firmly believe that in order to fix our election system, 
we must have uniform guidelines that every State needs to 
follow. I do not believe that we can have a patchwork of 
different standards in different States. It is confusing to 
everyone, and the public expects us to do a better job than 
that.
    At a minimum we must have Federal standards for voting 
machines and technology, provisional voting on election day, 
voter education, and the distribution of sample ballots that 
are the same as the real ballots that will be used for that 
election before election day. Those are the standards that the 
Conyers-Dodd legislation promotes, and those are the standards 
which will guarantee the voting rights protections that every 
American should have in every election.
    As a national legislative body, the Congress has the power, 
the authority, and the absolute obligation to ensure that the 
apparent disenfranchisement which occurred in several places 
throughout the United States does not ever happen again. 
Allegations of voter intimidation, inadequate voter 
registration lists, subjective, vague, or non-existent ballot-
counting standards, and flawed ballot designs all led to 
confusion before the election, during, and after the election. 
What happened is no way to elect a President of the United 
States of America, the most powerful position in the world.
    Under the civil rights amendments, the 19th, the 24th, and 
the 26th Amendments of the Constitution, the Congress has the 
authority to prevent discrimination in access to voting and has 
exercised that power extensively over State and local elections 
as well as Federal elections. The Congress also has expansive 
authority to ensure that State and local officials comply with 
national standards for election procedures.
    We do not support an unfunded mandate, nor do we intend to 
dictate to States. However, uniformity and consistency must be 
the bedrock standards for all elections.
    Mr. Chairman, I congratulate you and Mr. Conyers and all of 
the cosponsors of your legislation for their attention to 
election reform. All over the world, the United States is seen 
as the guarantor of democracy. This country has sent countless 
scores of observers to foreign lands to assure that the process 
of democracy is scrupulously maintained. We cannot do less for 
ourselves than we have done for others. We owe it to ourselves, 
our democracy, our citizens, and the citizens of the world to 
ensure that our elections are conducted without the slightest 
hint of inequity or inequality.
    I thank you and I look forward to taking any questions that 
you might have.
    The Chairman. Thank you very much, Madam Chairman. Again, I 
am deeply appreciative of your testimony and the work that, the 
Congressional Black Caucus has done. It has provided a wealth 
of information for us, very valuable information, and testimony 
that we will receive today and that we have also heard in the 
past, particularly from members of the CBC who come from 
Florida, who were very directly affected. As the overwhelming 
majority of the U.S. Civil Rights Commission reported, the 
overwhelming majority by a vote of 6-2 of that commission, 
there were significant transgressions in the State of Florida. 
To Florida's credit, at least in major part, Florida has 
stepped up and corrected these flaws. What better evidence 
could we offer than that, the State of Florida felt so 
compelled as a result of what had happened in its own State 
last year that they raced to fix those mistakes. And we applaud 
them for that. But the comments of members of the Congressional 
Black Caucus from Florida, as well as around the country, have 
been tremendously helpful at highlighting the problems of 
Florida, but also making the point that this was not a one-time 
event in one State. This has been an ongoing problem that has 
affected jurisdictions across the country.
    My good friend Congressman Becerra, we thank you immensely 
for coming, and as a member of the Congressional Asian Pacific 
American Caucus, we thank you for being here. We know Dale 
Kildee is going to be coming by, who represents the Native 
American Caucus in the House, and Silvestre Reyes, the head of 
the Congressional Hispanic Caucus in the House. So we are very 
appreciative of having the thoughts and comments from all of 
these caucuses in the House whose membership reflects the 
concerns of people, throughout the country. So we thank you, 
Congressman, for being here.

STATEMENT OF HON. XAVIER BECERRA, A REPRESENTATIVE IN CONGRESS 
   FROM THE STATE OF CALIFORNIA, CONGRESSIONAL ASIAN PACIFIC 
                        AMERICAN CAUCUS

    Mr. Becerra. Mr. Chairman, thank you very much for allowing 
us to testify. We appreciate the work that you have done on 
this issue. Your footprint is large, in fact, on many issues, 
and we thank you for all the things that you have done over 
your years of service to this country.
    I would like to join in the remarks that were made by some 
of my colleagues, including the chairwoman of the Congressional 
Black Caucus and others, who have talked about the need for 
electoral reform. Today, the hat I wear is as a member of the 
Congressional Asian Pacific American Caucus. I am a member of 
that Caucus. I am one of 31 different Senate and House members 
who is a member of that caucus. I am here representing the 
chairman, David Wu from Oregon, in that capacity, and I thank 
you for the opportunity to testify.
    Mr. Chairman, my district is a snapshot of the American 
quilt. In my 30th Congressional District in California, one of 
every four constituents is Asian Pacific American. In my city 
of Los Angeles, which contains my congressional district, 10 
percent of the population is Asian Pacific American. In fact, 
Los Angeles, the second largest city in the Nation, is a 
majority minority city. So when we talk about the American 
quilt, certainly Los Angeles and my district reflect it very 
well.
    The two issues I would like to concentrate on, Mr. 
Chairman, to get to the point, are very important issues to the 
Asian Pacific American community. The first is the poor 
enforcement we have seen to date of Section 203 of the Voting 
Rights Act; and, secondly, the issue which in today's parlance 
we would call ``racial profiling'' at the polls.
    If I can address the issue of Section 203 of the Voting 
Rights Act first, in the context of the Asian Pacific American 
community, we are seeing the fastest-growing community in 
America still being discriminated against, and oftentimes being 
deprived of its opportunity to use its franchise of the vote.
    Today, some 10.5 million Americans are of Asian descent. 
That is a 46-percent increase from about 10 years ago. Of that, 
more than half of that population is still limited English 
proficient. More than a third live in households where there is 
no one who is proficient in English above the age of 14.
    Immigration obviously has a lot to do with these 
populations, including the Latino population as well. But even 
after 200 years since the publishing of the Declaration of 
Independence in English in this country, which was immediately 
followed by its publication in German, we still continue to see 
discrimination heaped upon many of our new citizens, especially 
those who are limited English proficient.
    Section 203 of the Voting Rights Act was enacted in 1975 in 
order to provide voting assistance in communities where a 
substantial percentage of the population consists of 
individuals with limited English proficiency. Today, Section 
203 mandates that bilingual ballots, voting materials, and oral 
translation services be provided when, within a State or 
political subdivision, 5 percent of the citizens of voting age 
or more than 10,000 citizens of voting age are members of a 
particular language minority and/or limited in their English 
proficiency.
    Several Asian Pacific American organizations in the most 
recent elections of November 2000 monitored many polling sites 
throughout America. The Asian American Legal Defense and 
Education Fund, headquartered in New York, gave us some very 
startling statistics and information. During that November 
election which just passed, for Asian Americans, for example, 
Chinese-language ballots were incorrectly translated such that 
the party affiliation for those who were candidates on the 
Democratic State tickets were labeled Republican, and those who 
were Republican candidates on the State ticket were labeled as 
Democrats.
    Further, in the Manhattan area of New York, in the 
Chinatown area of Manhattan, inaccurate instructions were given 
to those using Chinese ballots so that they were not afforded 
the opportunity to vote appropriately for State Supreme Court 
Justices. Therefore, their ballots were discarded if they voted 
improperly.
    In Southern California, the Asian Pacific American Legal 
Center in the November 2000 ballots also gave us information 
and reports that several polling sites failed to display or 
make available information in a language that was necessary for 
those individuals who were going to be voting, the result of 
which was that many individuals were not aware of what they 
were voting for and how to vote.
    And if I could turn briefly then to the issue of racial 
profiling, we would think that that would be a thing of the 
past, especially with individuals who in many cases have been 
here for centuries. Asian Americans, unfortunately, too often 
are labeled as perpetual foreigners.
    Just recently, last month, in fact, one of our own 
colleagues, Congressman David Wu, of Oregon, you may be aware, 
went to visit the State Department at the request of State 
Department personnel----
    Ms. Johnson. Energy.
    Mr. Becerra. I am sorry. Entered the Energy Department--
thank you, Eddie Bernice, the Energy Department. He was there 
on an invitation. He displayed his congressional ID along with 
other ID, and he was denied entrance into the Department of 
Energy, not once, not twice, but on three separate occasions.
    If a Member of Congress is denied entrance, what are the 
chances that someone of limited English proficiency will be 
denied access to the polls?
    We must do something about racial profiling which goes on 
not just in the Department of Energy, but in San Marino, 
California, in the November elections, we have evidence that 
there were election workers who were asking only Asian 
Americans who were voting to provide voter identification and 
proof of citizenship before they were allowed to vote. And 
beyond that, in 1999, there was a Department of Justice 
investigation that showed that South Asian and Arab Americans 
in the town of Hamtramck, Michigan, were being denied the 
opportunity to vote. They were being challenged by electoral 
workers in 19 of the town's 36 polling sites. They were being 
harassed. There were individuals who were told that they had to 
provide citizenship papers and passports before they could be 
allowed to vote, and they were forced to read an oath of 
allegiance to the United States before being allowed to vote.
    This type of behavior cannot be permitted. It is 
unacceptable. It strikes at the heart of our democracy. This 
type of treatment discourages Americans, particularly new 
Americans, from participating in our electoral process. Racial 
profiling, whether on our streets or at the voting booth is 
insidious, and we must address this issue of racial profiling 
at the polls as we move forward with electoral reform.
    Mr. Chairman, let me conclude by expressing my commitment 
to work with you and this committee to address the challenges 
our citizens face as they seek to exercise the precious freedom 
to vote. At a time when voter participation is at a depressing 
low, we have a chance to invigorate the American people and 
restore their faith in our electoral system. Your legislation, 
S. 565, and its House companion, which I am a cosponsor of, 
H.R. 1170, by Congressman Conyers, present a constructive 
framework to produce the much needed reform within our 
electoral system.
    I thank you for giving me the chance to testify.
    [The prepared statement of Mr. Becerra follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I thank you, Congressman, for that testimony, 
and I think you have raised two very important points that we 
are familiar with. I made note of it. You can get caught up in 
anecdotal stories, but in some instances, the anecdotal stories 
highlight a much larger picture. And the one on racial 
profiling in voting is certainly one that we are familiar with.
    I shared with my colleagues yesterday that my wife and I 
have some friends who are Cambodian Americans who live here in 
the greater Washington area. And Sopom and Sopiaf took great 
pride in the fact they had become U.S. citizens. My wife is a 
Mormon, and these two women are Mormons from Cambodia, born in 
Cambodia, who have their families here. They got very excited 
last year, frankly, at my urging, that they ought to register 
to vote and they ought to participate in the election. They got 
very excited about it, went out and registered to vote, and 
they had planned to have a family party that evening to 
celebrate the first time they had voted on election day. And 
they went to the polls in Virginia, and both of them were 
denied the opportunity to vote.
    And I cannot tell you the sadness that they went through. 
You know, I tried to tell them, look, the next time, we will 
work it out and so forth. But for them, this was a huge moment. 
And for the first time in their lives to be able to cast a 
ballot in a free election, to have the family plan on getting 
together for a celebration of the first time that anyone in 
their family would be exercising this right.
    Now you say, well, that is just two cases in some local 
place here. But it goes on all the time. In fact, we know that 
almost 3 million people in last year's election--that is almost 
the population of the entire State that I represent. 
Connecticut has 3.5 million people, by the most recent census. 
So imagine the entire population of my State being denied the 
opportunity to vote last November 7th. And those are the ones 
we know about, because they were in line, they went up and 
asked to vote, and were told they could not.
    That does not include the people who were in line, and got 
out of line or who did not go at all because someone said they 
probably could not do it.
    This is out of 100 million people who voted where 200 
million were eligible. And we heard yesterday, as I have 
mentioned already today, from the disability community of some 
20 million people who did not exercise their franchise, 10 
million who were blind or visually impaired. And people tell me 
this is not a serious problem, that this was merely a failure 
of equipment and if we just put some money out there, we can 
take care of the problem.
    So I want to raise the issue to both of you, because there 
is a difference here. There is a lot of commonality between the 
various proposals that are out there in terms of where we are 
going to put resources or make resources available to the 
States. We call for various things such as provisional voting 
in both bills, and I think both bills include such things as 
sample ballots and improving the quality of equipment and so 
forth. But a fundamental difference, at least in the two major 
bills in the Senate side, is that in one it is optional. It 
says if you take some money, we hope you will do the following 
things. Whereas, the bill that John Conyers and I have 
introduced, which is sponsored by 49 other Senators here, and I 
think around 112 Members of the House is different. We have 
said, that, on these basic points, without coming up with a 
one-size-fits-all on national standards, provisional voting, 
sample ballots, this is not a question of options. This is 
going to be a matter of law, much as it was in 1965 when we 
passed the Voting Rights Act. We did not say it is optional 
whether or not you can discriminate on the basis of race. It is 
not optional whether or not you have a poll tax. Literacy tests 
were banned. Those reforms were not optional.
    There were arguments made to make them optional. But the 
Congress, in its wisdom, and an American President said no. It 
doesn't matter whether you vote in Connecticut or California or 
Texas or Florida or anywhere else in this country, these are 
basic rights that are guaranteed to all Americans regardless of 
where you reside.
    Now, we leave it up to local officials to conduct 
elections. No one is suggesting that that be changed. No one is 
suggesting we come up with one machine as a means of voting in 
the country. But we are saying that there are single standards 
that every citizen ought to be able to expect when they show up 
in the sacred place of a voting booth.
    In 1964, we said restaurants and rest rooms must be 
available to all Americans. If we can say it about a rest room 
and a restaurant, then we ought to be able to say, the same, at 
the very least, about a voting booth. And so I like you, if you 
would, to comment on this distinction between an optional 
program and some basic mandates when it comes to voting, 
because that is where there is a difference.
    I could pass a bill tomorrow probably just by writing a 
check and getting some money out there. But I happen to believe 
that while it is important to do this quickly, it is more 
important to do it right. So, I would like you to comment on 
the two options that are being presented, at least here, and I 
think generally in both chambers.
    Ms. Johnson. Thank you, Mr. Chairman. I do think that 
standards are important. Now, as you were speaking, I was 
thinking about an experience that we had in Texas last year 
where standards differed in less than 100 miles apart. There 
was a group of people that had come to Texas during the winter. 
They are called snowbirds. They normally vote absentee back in 
their States, but they were encouraged to vote in a State 
senate race where they really made a difference. And there was 
a challenge, but the court upheld it.
    Less than 100 miles away, there was an African American man 
who worked in Houston but lived in this small town, ran for 
mayor and won, and he was indicted because his work was in 
another place and they questioned where he lived. And yet he 
was a native Texan, had grown up in this little town down in 
southeast Texas.
    If we had had national standards where at least residents 
could be considered the same, the time that persons had 
registered at the local level or whatever, this could not have 
happened. But it did.
    We have other situations where just where the polling 
places are located are intimidating to people. So that is where 
we need some standards. We are not trying to say that every 
State has to do everything in the same manner. I am certain 
that many of the technology companies will have different 
machines. But minimum standards and the protection of voters 
with the same types of protections, no matter where they live, 
will be very, very important. And we had a lot of that in Texas 
last year.
    I was not really that concerned about whether I was going 
to win or lose, but I knew that we were expecting a large 
turnout, and we had lots of problems. I had asked a group of 
attorneys to take the day off so that they could be available. 
We had to get court orders to allow people to vote. There were 
a number of things that happened that should not happen in this 
democracy.
    And I do not say that the people did a lot of this 
intentionally, but because they did not know what the 
protections were, there was a very haphazardly held election 
throughout the State. There was such a heavy turnout in some 
areas that the election persons were not informed. They were 
new to the area. They had been assigned where there 
traditionally had been African American election judges. The 
majority of Republican county commissioners named all 
Republican persons. Many did not live in the areas and admitted 
that they really did not know what the rules were.
    So there were some people--he did not know whether people 
were voting more than one time, because they were coming in so 
fast, he said they were coming in too fast to sign, and he 
could not keep up with everybody. It was too much work. That 
should never happen at a polling place. Everyone should have 
standards where you come in, you sign before you vote, and walk 
out.
    So we do need that protection, and it is not just 
protection because of the color of one's skin. It is protection 
because that is where a democracy works best.
    The Chairman. You bet.
    Congressman.
    Mr. Becerra. Mr. Chairman, let me just say to you very 
enthusiastically, please, plow forward with S. 565. You are 
heading in the right direction. That famous line, ``Failure is 
not an option,'' that is the case here. We cannot afford to 
fail when it comes to electoral reform. And, therefore, options 
should not be part of our electoral reform laws. We cannot 
afford to make options the way we conduct our affairs in trying 
to move forward in reforming those areas of the country that 
have not gotten where they need to be in providing access to 
all of our voters.
    I will say this, which I believe will be very important for 
language minority populations. Existing laws are not being well 
enforced, and as a result, we are finding not only that we are 
discouraging individuals like your friends from voting, but we 
are providing a chilling effect because the message it sends to 
them is that we do not trust them. Even if they are citizens, 
it makes no difference if they have sworn allegiance to our 
country. If they have forsaken their previous allegiance, we 
still do not trust them. That is a very chilling message to 
send to anyone who is still trying to learn the art of this 
country, the culture, the norms.
    And I would hope that as we go forward in reforming the 
election laws, as you have proposed in your legislation, and 
Mr. Conyers in his legislation, that we also make sure that we 
are cognizant that we also must be sure to provide the teeth 
that we need to get Section 203 of the Voting Rights Act moving 
forward to make sure that we are not racially profiling, 
because racial profiling just means a poll worker who is not 
obeying the law, who is being either ignorant or negligent with 
the law, and as a result is depriving that individual who may 
feel very intimidated of the right to vote.
    So we have to be sure that we constantly raise the banner 
of enforcing good civil rights laws and voting rights laws at 
the same time that we go about doing, as you said, requiring 
that these jurisdictions provide everyone with that franchise.
    The Chairman. Thank you. You made a very good point, by the 
way. Because the two women I mentioned to you, they obviously 
are part of a community. And think of what the reaction would 
be of these two women coming back and that evening gathering 
with family and friends, presumably many from the Cambodian 
community, talking about this wonderful day they had had, where 
they had gone for the first time and walked into a voting booth 
and cast a ballot for President of the United States. The two 
of them were born in a country where their rights were not 
always protected, but they had come to America and could 
participate in choosing a President of the United States. Think 
what the reverberations could have been within that community 
that night, as opposed to the real story of two people who 
walked up to cast a ballot and were turned away. The ripple 
effects throughout a community as a result of that message? 
That I cannot quantify for you, except to the extent that the 
next time around where some people would have gone out of their 
way to get registered, assuming they were not, now there are 
those who will say, Why am I going to go through this if this 
happened to two people who went out and tried to do this?
    These are not isolated stories. I wish I could make people 
understand that this is not a narrow group of people who are 
complaining because we are disappointed about an election 
result. Putting that aside--and we are going to hear in a 
couple of minutes from people who were very directly affected 
by what happened in their State. But, you know, when things 
happen like this, they affect everybody.
    I have often said that in Presidential races and the races 
for the national legislature, put aside for a second, if you 
will, what happens locally. If there are people denied the 
right to vote, people denied the right to exercise their 
franchise in a small precinct in Texas or California, and that 
in some way affects who is chosen to serve in the Congress of 
the United States and as President of the United States, no 
matter how well it was done in Connecticut, my constituents 
have been adversely affected by the failure of your folks to do 
it right.
    So the idea that somehow these are isolated events that 
have no effect beyond the borders of their geographical 
political boundaries is foolishness. It has a huge effect 
nationally when this is done wrong in any one place.
    The idea that these are only matters of local business and 
local decisionmaking that have no effects beyond the borders of 
their State or jurisdictions is just not true. Obviously, there 
is not a question mark on the end of that, but if you want to 
comment on that, then we will let you escape here as I see a 
few other members have arrived.
    Mr. Becerra. Mr. Chairman, if I could just add, the 
chilling effect perhaps is more insidious than the failure of 
our law to provide the openings for people to go vote, because 
once you lose them, chances are you are never going to get them 
back.
    And countless numbers we know never go to the polls because 
they are afraid to or they do not wish to be embarrassed or 
humiliated again. We will never get them, regardless of what 
changes in the law we make here in this wonderful body, and 
that is why I want to continue to emphasize that. For language 
minority populations, this could be crucial. We could actually 
further what we tried to do in the Voting Rights Act by making 
it clear that we will enforce the law, we will have people at 
the polls who not only are good Americans and doing work for 
very little pay for the whole day, but who also understand that 
there are people who are coming for the first time who need 
some assistance.
    The Chairman. Eddie Bernice made the same point, and I 
should have made it myself, and I thank you for making it. That 
is, we are not talking about malicious intent. Now, there may 
be isolated cases of that. But you made the point that many of 
these people out there are doing the best they can under the 
circumstances. The Voting Rights Act does not talk about intent 
when it was passed in 1965. It says that, whatever the intent 
was, if the effect is to disenfranchise someone, then that is a 
violation of the law. Eddie, I thank you for raising that point 
because it goes to the very heart of what we are talking about.
    I am not in the business of the blame game here. There is a 
place to discuss that. But we are looking ahead now, and I want 
to talk about what we can do to fix the system, as you said in 
your opening comments, so that in the year 2002 and 2004 we 
never see what happened in Florida or other places around the 
country happen again. That is why there is a sense of urgency 
about this, but a sense of urgency to do it right. Because I 
doubt whether we will come back again to address this issue, or 
that we would even be addressing it now, were it not for the 
sad events of last November 7th and the weeks that followed 
thereafter.
    So because of that we are here, and now we are in the mood, 
in a sense, to try and address this. It is important that we do 
it correctly, in my view. So I am anxious to get it done soon, 
but I am more concerned about getting it done right. Eddie, I 
thank you and, Xavier, I thank you immensely for your presence 
here today.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    The Chairman. Stay in touch with us, Eddie, and, again, my 
congratulations on your chairmanship of the CBC, and I look 
forward to continuing our work together.
    Ms. Johnson. Thank you.
    Two other members have arrived: Corrine Brown from Florida 
and Carrie Meek, who I mentioned a moment ago will bring some 
very specific information to our attention. Congressman Wexler 
was also here earlier this morning. Peter, we thank you as well 
for being here. We know of your direct involvement. I apologize 
this morning that we went a little long, Peter and Carrie and 
Corrine. I apologize that we got messed up with votes.
    The lights are on here more for just guidance. I probably 
should have had them on this morning to at least let people 
know when time had expired, because we Members of Congress, 
particularly in the Senate, can go on a little longer than we 
may think we are doing. I thank you for coming back to be here 
and share your thoughts with us.
    As I said to your colleague from Florida this morning, 
Congressman Wexler, obviously for all of us this was a very 
poignant set of events last year. We could intellectually and 
passionately get involved. But for those of you who represent 
the voters who were directly affected by events last year in 
Florida, it is very important that we hear from you. So I am 
very anxious to hear your testimony, and I want to be careful 
about seniority here in terms of who ought to go first.
    Mrs. Meek. Ms. Brown.
    The Chairman. All right.
    Ms. Brown. Yes, sir, and we all got elected to Congress in 
the same Congress.
    The Chairman. All right. Well, I am not going to then 
proceed on seniority issues beyond that, then.

 STATEMENT OF HON. CORRINE BROWN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Ms. Brown. First of all, Senator Dodd, I want to thank you 
very much for your leadership, and I would ask that my complete 
statement be submitted to the record.
    The Chairman. In fact, for all of your statements and 
supporting documents--and for those of the people who testified 
before you or who come after you--that will be the case.
    Ms. Brown. Let me just briefly say that I was the first, 
along with Carrie Meek and Alcee Hastings, the first African 
American to be elected to Congress from Florida in 129 years 
when we won the election in 1992. And so I take my 
responsibility as a member of Congress very seriously.
    Let me tell you, my philosophy has been when America has a 
cold, the African American has pneumonia. And this election is 
exactly what happened.
    African Americans in Florida are 12 percent of the 
population, but we were 54 percent of the ballots that were 
thrown out.
    I represent from Jacksonville to Orlando. In my district, 
in Duval County, the 3rd Congressional District of Florida, I 
can tell you now, first of all, point one, the election was not 
close. In my district, in my precincts, in my neighborhood 
where I grew up, Precincts 7, 8, 9, and 10, 27,000 votes were 
thrown out, 16,000 of them African Americans that vote 98 
percent Democratic. So if you see pain in my face, it is 
because I know that we in Duval County and in the State of 
Florida have been disenfranchised.
    And let me just talk about two or three points that I think 
are very important. The first one, motor-voter needs to be 
fixed. The law speaks for itself, but it is not working in 
Florida. This is my driver's license. Thousands of voters, 
would-be voters before October deadline, went to the driver's 
license division, motor-voter, and filled out a form. They got 
their driver's license, filled out a form to register, but to 
this day, they never have received their cards.
    The Chairman. How many people is that?
    Ms. Brown. Thousands. There were many editorials and 
documents----
    The Chairman. This is in Duval County.
    Ms. Brown. Duval County. But it is not working all over 
Florida.
    The Chairman. Okay.
    Ms. Brown. And I want to say that motor-voter comes 
directly under Governor Jeb Bush's office. Now, why it is not 
working? When you go to the motor-voter and you fill it out, it 
should be some--you should get, first of all, some kind of 
verification. But they have to turn those forms over to the 
Supervisor of Elections Office. Both divisions are blaming each 
other, but the point is that the voter did not get an 
opportunity to vote.
    The Chairman. You will recall, of course, that motor-voter 
legislation was a very contentious debate in Congress, and 
there were people here who were vehemently opposed to it. I do 
not ever question motives as to why people are against things, 
but obviously that law was going to increase dramatically the 
ability of people to get registered and try and make the voting 
booth more accessible. Obviously, the success of that law 
depends upon States than getting the job done and seeing to it 
that when people registered to vote, when they went to the 
Motor Vehicles Department, that that information is then 
transmitted to the election officials within their State. We 
are hearing similar complaints to those that you have expressed 
are happening in Duval County. But I have my suspicions that 
too often that is not happening because people do not want it 
to happen.
    Ms. Brown. Absolutely. I have talked to people who have 
gone to the Social Security office, and one woman told me she 
filled out the forms three times, and to this day she has not 
received her card. So the system does not work, and that is one 
area.
    I want to talk a little bit about what happened in Florida 
as far as the disenfranchisement of African American voters. 
The State of Florida spent $4 million with a company, a 
Republican company out of Texas, asking them to go through the 
rolls and purge felons, $4 million. We did not spend $100,000 
on voter education. In fact, the Governor vetoed it. But we 
spent $4 million. The only problem, 60 percent of the people 
they identified were African Americans that had never been 
arrested, much less was a felon. And after the election, people 
have gotten letters in the mail that say, Oh, we made a 
mistake. That is unacceptable in this democracy.
    The experience that I had, a Congresswoman had on election 
day, I went to my precinct to vote. I went in, of course, I had 
to show my identification. Everybody in there knew me, and they 
said, Oh, you can't vote because you asked for an absentee 
ballot. Well, you know, that was in the primary, but more than 
that, that ballot was in Washington. They said, well, if you 
don't have the ballot, then you cannot vote.
    And so I was there for about an hour and a half trying to 
wait until they get in touch with downtown. It did not happen, 
so I got in my car, along with the TV cameras and went 
downtown. And finally I was able to vote. It took me 2 hours to 
vote.
    Well, when I went there, I ran into three young men that 
had come. When they went to their precinct to vote, they were 
told that they could not vote because they were felons. These 
young people had never been arrested, and they were determined 
that they were going to vote. So that problem, people being 
taken off of the roll, were not informed that they were taken 
off of the roll and had no recourse. And to get a ``Dear John'' 
letter after the election is not acceptable.
    I want to clear up one very important point. Florida did 
not clear up their problems with the bill. As the elected 
official for 19 years, when everything else fails, read the 
bill.
    Let me talk about provisional balloting, which is very 
important, and we all agree you have to have certain standards. 
In Florida, the devil is always in the details, particularly in 
Florida. You can go to a precinct--this is the new bill that 
they passed--and you can sign an affidavit. But if it is not 
your precinct, it will not count.
    Help me now. The reason why you are going to a precinct and 
signing the affidavit is that you are confused about whether or 
not it is your precinct. You are not sure where to vote. So I 
want to be clear that that problem has not been fixed.
    Now, let me talk about another area, the canvassing board. 
Each community has a canvassing board. In Duval County, our 
canvassing board was four members. No other place in the State 
of Florida has a four-member canvassing board. Four white men, 
all Republican, made the decision about what happened in 
Florida as to whether or not we have a recount.
    Let me just say that we had attorneys working during the 
election, also, and we were talking with the Supervisor of 
Elections Office. And the entire discussion centered around 500 
ballots, period. That is what the discussion was. On November 
the 10th, on the 11 o'clock news, I found out that we had 
thrown out 27,000 ballots.
    Now, the importance of the timing is that you have 72 hours 
in order to ask for a hand count or a recount. We were not told 
until after the 72-hour period had passed.
    So my people, over 10,000 votes were never counted, not one 
time, because the machines kicked them out.
    This is extremely hard for me and my constituents. We are 
standing on the shoulders of Martin Luther King and William 
Sawyer Cherry and all of those other people that have died so 
that we could have the opportunity to have our votes counted.
    And let me say one last thing about the military ballots, 
because I think it's very important that we count all of the 
ballots, not just the officers, the enlisted men's ballot also 
needs to be counted. But when I read in the New York Times that 
one military person from Duval County whose ballot was counted 
indicated that he mailed it on November the 8th, after the 
election, he wanted his vote to count for Bush. And he just 
mailed it in to see what was going to happen. And they counted 
it.
    But I have the grandmothers and all of those people that 
have been voting for years without problems, their votes were 
not counted. And one of the universities did a study, and I 
want to submit that study to the record, because the analysis 
shows that it was not the first-time voter that got their 
ballots thrown out. It was the same whether you were white or 
black. What was a determining factor, just like driving while 
black, was voting while black in Florida.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Brown follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Congresswoman. You know, I have 
tried to convey to my colleagues here a sense of passion about 
this issue, and I probably do not do a very good job. All of 
your constituents could not be here, but you have expressed to 
me--and I have seen you do it now on several occasions--the 
sense of hurt. I know there is also a sense of anger, but I 
think there is a deeper sense of hurt, on the part of those 
people who have made that extra sacrifice, who have gone out 
and registered, gone to the Motor Vehicles Department, taken 
all the steps necessary, shown up and walked in to express 
their choice and preference, it is an act of faith when people 
do this. It is an act of faith that they believe that their 
votes counts and they can make a difference. At a time when we 
are trying to encourage more than 50 percent of the eligible 
people in this country to choose our elected officials, it 
becomes awfully difficult, in succeeding elections to make that 
case when people hear about how people who have taken the extra 
steps to make sure that their vote counts in an election are 
denied that right.
    Ms. Brown. May I have 30 more seconds?
    The Chairman. Certainly.
    Ms. Brown. One other area, Seminole County, I represent 
Seminole County, and Seminole County and Martin County was on 
the news. That is because the Republicans went into the 
precinct and filled out forms for absentee, which was illegal. 
The unique thing about it, they decided not to throw out the 
ballots because they said these people were innocent.
    The unique thing about that was the supervisor of elections 
in Seminole County still does not know that that is illegal, 
because after they threw it out, she took the people that 
brought the suit to court and asked for payment for her legal 
fees. At least the court has the sense--not only did they not 
grant her that, they made her pay the other side.
    But that is illegal to have someone come from the outside, 
to come into the supervisor's office, and fill out forms. If 
that person, Mr. Chairman, was an African American supervisor, 
that person would be in prison today.
    The Chairman. Thank you very much, Congresswoman.
    Dale Kildee, by the way, has joined us. Dale, why don't you 
come up and sit at the table? We will work down the line here. 
But I see you sitting there, and I do not want you not to be up 
here.
    Now, Carrie or Peter, who is going to go next?

 STATEMENT OF HON. PETER DEUTSCH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Deutsch. Mr. Chairman, I am happy to go. We will just 
go right down the aisle.
    The Chairman. Welcome to the committee, by the way.
    Mr. Deutsch. Thank you, Mr. Chairman. Obviously, we 
appreciate your efforts and hopefully this work will yield 
results.
    I do not think any of us in a sense dwell on the election, 
but none of us has forgotten the election, and I think we can 
learn a lot about it and a lot about your legislation based 
upon what occurred. And I think it is not yet totally 
internalized in the entire country, but for those of us who 
lived it and for those of us who have spent time looking back, 
in the State of Florida, Al Gore and Joe Lieberman, in terms of 
people who went to the polls, did not win by 500 votes, did not 
win by 5,000 votes, but more likely probably won by about 
50,000 votes. And in a sense, I mean, again, from a historical 
perspective, it is important to sort of accept that and 
literally go forward from that point, because one of the 
perspectives is that the exit polls were, in fact, more correct 
about voter intent than the actual counting of ballots in 
Florida.
    Congresswoman Brown mentioned Duval County. In Broward 
County and Palm Beach County, in Leon County and other 
counties, we can look at specific results in terms of votes 
that were not counted. And, you know, that number is a 
significant number and it is very real.
    Some of us were saying that immediately after the election, 
but I am sure you aware of the Civil Rights Commission sort of 
post-election research. And I think what they uncovered, which 
we knew almost immediately, is that there was a racial factor 
in terms of which votes were not counted.
    What some people are not aware of, especially because most 
States are not Voting Rights Act States, in Florida race is on 
your voter registration card. When you register to vote in the 
State of Florida, because we are under the Voting Rights Act, 
because of past discrimination in the State of Florida, you 
self-designate your race on your voting card. When we say that 
we know which votes were not counted or what was the percentage 
of African American turnout in Florida, we are not doing it 
statistically. We are doing it factually in terms of people's 
voter registration cards.
    I guess this is a sub-point, but it goes to what you were 
saying on some of what was on the ground in a sense in Florida.
    Something very positive happened on election day in 
Florida. As Representative Brown mentioned, the African 
American population in the State of Florida is about 12 percent 
of the voting-age population. The African American community, 
which I am not aware of any other case where this occurred, 
although there very well might be cases where it occurred, 
actually voted in higher percentages than their percentage of 
the voting-age population. The African American turnout in that 
election was about 15 percent, which really is unheard of in 
American politics, that the African American community was 
voting at a higher percentage than their population, because 
they were energized and they got to the polls and were trying 
to get their votes to count.
    Let me also sort of follow up on something that you 
mentioned, the Voting Rights Act, and the Voting Rights Act 
really talks about results. I do not believe there is any 
question that the process in Florida in terms of individual 
counties and the way the counties set up their balloting 
process, because the results are discriminatory. The results 
are discriminatory. And so because the results are 
discriminatory, I think by definition--and, in fact, there is 
litigation going on right now which hopefully will yield those 
results through the legal process, through the court process, 
that will find Florida's election law today in violation of the 
Voting Rights Act, because, again, as you are well aware of, it 
was--I mean, the computer ballots were much more likely in 
counties that had higher African American population, those 
ballots, the percentage of those ballots being discarded was 
much higher than in other forms of balloting.
    So, again, it is irrefutable. You cannot really debate the 
issue of the results were racially discriminatory. If you were 
an African American, the chance of your vote not counting was 
probably about 300 times greater than if you were not an 
African American in the State of Florida.
    If you talk about a situation of why the Federal Government 
should be involved, I think you laid it out as well as anyone 
possibly could. There is a reason why there is a Voting Rights 
Act in the United States of America, because of discrimination 
and past discrimination. And it still is in enforced. And if we 
talk about a reason, this election is the reason for the 
Federal Government trying to effectively do fair elections. If 
we do not have fair elections, if there is not a sense of 
acceptance of results, then literally our entire society has a 
problem, and an incredibly serious problem in terms of the 
legitimacy of results.
    I think the reality is that the results--you know, we 
accept the President as the President. But I think when we look 
at the facts, we acknowledge--and I think we do acknowledge, 
and I think anyone objective acknowledges--that the results are 
illegitimate results at a variety of different levels.
    Let me just mention two other points----
    The Chairman. Are these votes I hear? Is that your beeper 
that is going off? I want to give Carrie a chance to----
    Mr. Deutsch. Let me just close very quickly. On a couple of 
other points related to that, one of the issues in terms of the 
balloting--and this is really a societal issue in terms of 
Federal involvement--is that on some of the ballots, like in 
Duval County, where there were two-page ballots, or there were 
other ballot issues, post-election it was analyzed that the 
average person to read a particular ballot might need, you 
know, a fourth or a fifth grade education. Well, what about if 
you do not have a fifth grade education? What do you do about 
that situation in the United States of America, which is very 
real? And one of the acknowledgments is that, unfortunately, we 
still live in a society where the chance of someone not having 
that is more likely for African Americans. And that is reality 
that we live with.
    The last thing or the last two things very quickly to 
mention is this whole issue on the felons. If there is an issue 
which still is out there--and you mentioned you do not care 
about intent. Well, I think we do care about intent to some 
extent, because the result of that purge was literally probably 
about 10,000 people who were eligible to vote, a majority of 
which historically would have voted for the Democratic 
candidate were people who were not felons who were denied the 
right to vote. Again, there still is a question that is out 
there. What was the intent of that? They could have chosen 
other paths. They chose to cast the net wider instead of 
narrower. And so they picked up people who they know--I mean, 
we know this now from press accounts that they had a choice of 
how to structure their purge, and they cast it wider rather 
than narrower. And why did they make that choice?
    Now, the last thing very quickly on the military ballot is 
that is clearly an issue. Florida, you know, has the latest--
which, again, many people are not aware of. Florida actually 
has the latest election in our runoff in October. Florida is 
under a Federal court decree in terms of overseas absentee 
ballots. The whole issue of counting the ballots after the 
election is because we have literally the latest election of 
any State in the country. Our runoff is the latest election in 
the country, the first Tuesday after the first Monday in 
October. And that is an issue, again, where clearly the Federal 
Government is already involved in terms of overseas absentee 
ballots of military personnel. And it needs to--there is 
absolutely an appropriate reason for the Federal Government to 
be involved.
    The Chairman. Thank you very much.
    Carrie, you have been very patient and I thank you.

STATEMENT OF HON. CARRIE P. MEEK, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mrs. Meek. Senator Dodd, I want to compliment you on your 
aggressiveness and your sincerity and following up and trying 
to bring about election reform. I am almost a skeptic because I 
think I have lived much longer than most of the people who will 
come before you to testify. And when they began to make 
comparative analysis of the negative impact of this on certain 
groups, I think they were very remiss and that they have 
forgotten lessons of history in that----
    The Chairman. Corrine, thank you very much. Thank you, 
Peter.
    Mrs. Meek. It is the black American who had to go through 
the poll tax and the literacy test and all of those things to 
detract them from voting. So I think that is a dimension that 
we must keep in proper perspective when you are trying to 
change for election reform.
    I am going to submit my longer statement to the record, but 
I must stay here to say a few things. Even if I am to miss this 
vote, I must say this.
    We accept the simple truth that our electoral system failed 
us. It is not the first time it has failed us. It has been 
failing us all over the country. But this is the first time 
that it failed us where everybody in the whole Nation and the 
whole world knows that we are pushing a system that is false.
    So I, too, express the outrage and exasperation of the 
people I represent, and the outrage and exasperation of the 
people I represent should be felt all over this country. And it 
is beginning to be so. If you do not feel it, then this 
catastrophe will happen again. And the next time it will be in 
some other Senator's back yard because it is already in there 
now.
    So there seems to be a lot of people who have forgotten 
about these lessons, and they tell us to get over it. We will 
never get over it. We will always have it in the back of our 
minds. We will always be looking for fairness, as we always 
are.
    This is sort of a funny thing that--this election was sort 
of a plaything for some people, and I just want to give you an 
excerpt of what appeared in Roll Call. I am from Miami, and 
Dade County was a very crucial place. South Florida could have 
won or lost this election in Dade County, Broward County, and 
Palm Beach County, the largest population in the State. But 
from this article, it is very clear to see that some people 
were sent to Dade County to disrupt the election. What did that 
mean? That meant to invalidate and to disenfranchise the people 
I represent. So that is why I will never forget what happened 
there.
    I was down there when they came. I want to quote a few 
things from the Roll Call article. It is called ``Miami 
Redux.'' And I quote: ``Several of the House GOP aides who 
rushed down to Miami at the behest of House Majority Whip Tom 
DeLay, Republican of Texas, to lead an effort that prevented 
local officials from recounting Presidential ballots behind 
closed doors helped to end Al Gore's quest for the Presidency. 
They had a little reunion in Southern Virginia last week. 
Sporting campaign buttons that said `No. 19,' that was the 
floor of the Miami-Dade government building where the mad rush 
through the hallway occurred. The House staffers parachuted in 
to make sure there was no funny business during the special 
election won by new Representative Randy Forbes, Republican,'' 
who incidentally won over a Democrat. End of that quote.
    ``When you are in a pressure cooker like this, you become 
fast and furious friends,'' Doug Hay, spokesman for 
Representative Richard Pombo, Republican of California, told 
Roll Call, ``and that makes you more likely to go to Virginia 
or anywhere else to help the party. Since Democrats have 
charged that the merry band of staffers were actually 
disenfranchising minority voters in Florida's Presidential 
fight, they were not amused by the meddling in Virginia, 
especially because race was a major factor in last week's 
contest.''
    So I want to be sure that this committee does not forget 
that race is an important factor in this contest, and we cannot 
overlook it. And it sounds like--and I end up that quote, and I 
am beginning another one. ``It sounds like the Republican 
Party's voter intimidation program is so successful that they 
have taken the show on the road.''
    Mr. Chairman----
    The Chairman. Do you want to make that article a part of 
the record?
    Mrs. Meek. I am leaving it as part of the record.
    The Chairman. I will make the announcement to make it part 
of the record.
    [The article follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Meek. This was by design that this voter intimidation 
occurred.
    The Chairman. I recall a photograph in one of the national 
newspapers of people down there banging on the doors, and then 
identifying them later. Most people thought, I guess, when they 
saw the photograph--I certainly did when I saw it the first 
time--that these were citizens and constituents within that 
congressional district.
    Mrs. Meek. They were not.
    The Chairman. I was shocked later to find them identified 
as people who had come from out of State. They had come from 
Washington.
    Mrs. Meek. They were hired hands sent there by the 
Republican Party, and I want to say on the record, when they 
come back again, we will be ready for them.
    But we cannot have a repeat of this. Too much is at stake 
here, and I am so proud to be an original cosponsor of the 
Dodd-Conyers Equal Protection of Voting Rights Act of 2001 and 
the Voting Rights Protection Action of 2001. It is going to be 
a great help in that you have outlined all of the needs that we 
could see right now that it would take for good election 
reform. I am only hoping and praying that you will be able to 
get it out of this body, and then, of course, there will even 
be more trouble when you get it into the House.
    As you know, I represent Florida's 17th Congressional 
District, which covers the largest portions of Miami-Dade 
County. There are more African American voters and more 
Hispanic voters in my district than in any other district 
combined in this State. It runs north of the cities of 
Homestead and Florida City and south to Broward County line.
    The 2000 election revealed something that each of us has 
known for a very long time, and I want to make this very clear. 
Not every qualified voter who wanted to vote had an equal 
opportunity to vote--my colleagues have demonstrated that--and 
to have his or her vote counted. Most of the studies you see--
and you will hear quite a few people in the majority party say 
that nothing really happened, that they were all not by design. 
I want the word ``irregularity'' explained because everything 
that happened that was a diminution of the African American 
vote was called an ``irregularity.'' Therefore, when the Miami 
Herald published their much heralded report called ``Democracy 
Held Hostage,'' their finding was that nothing illegal 
happened. Well, you have got to differentiate between 
irregularities and illegal. But I call to your attention there 
were a lot of things done, whether they were illegal or not by 
these definitions, the end result of it, people were not 
allowed to vote who should have been.
    One of the most hurtful things was to see Haitian Americans 
who had never voted before to line up--I was in that line--the 
Thursday before the election. We were inspiring people to vote 
early because we know there would be an overwhelming outpouring 
of African American voters in that election. So we pushed hard 
for everyone to vote.
    When they got up to the line, our elections department--
that is why we need a new federalism. We do need the Federal 
Government to be aware that these things do happen. You cannot 
expect what is going to happen from the Supervisor of Elections 
in Dade County, and it is not going to happen with any other 
Supervisor of Elections unless there is some national standard 
to be sure that people are given the right to vote when they 
get to the lines.
    Many of these Haitian voters were turned back because they 
told them they did not understand what they were saying, and 
after they tried to mark their ballot and it was marked 
incorrectly, presumably, they were not able to correct it. And 
they were just turned around.
    Now, that is not something that I read in the Miami 
Herald's report. I was there. I saw all of this. I saw the 
intimidation by Hispanic people who were not from Dade County, 
who were apparently bused in to disrupt the election as well. 
These are things that I saw and will stand anywhere and say 
this to be the truth.
    So not every qualified voter was able to vote. We were far 
more likely to have our votes invalidated. Few African American 
voters, Mr. Chairman, lived in counties with modern precinct 
optical techniques. When there was some problem at the polls in 
my district, they tried to call, if they felt like it, but if 
they did not, those people did not get a chance to vote. But if 
you went just across town to the polls in Coral Gables, an 
upper-class community, they had computers that they could get 
in touch with the Election Central. So I cannot put the 
election of the constituency on someone having a chance in 
these various counties to do the right thing.
    Now, they are not going to do the right thing. They have 
not done it all this time. I do not expect it to be done now, 
because this is not due all the time to a machine. You can 
throw out the punch card ballot, but you cannot throw out the 
people who are doing this. You cannot throw out the operators 
of these various machines. So there has to be some federalism 
here. There has to be some legislation passed on the Federal 
level that will standardize some of these things. You cannot 
standardize all of them, but you can give people the right to 
vote. You can give them the same equal protection that they 
gave the Bush administration. That is one of the many reasons 
why your bill is so desperately needed. The Equal Protection of 
Voting Rights would create a bipartisan commission to examine 
ways to improve voter participation, registration, and election 
technology. Grants from the Department of Justice would be 
awarded to States to meet the national requirements and to 
purchase voting equipment, train election personnel, educate 
voters, and help implement the commission's recommendations. 
This is a good bill, Senator Dodd. It is very inclusive. It 
covers a lot of things. Hopefully it can be passed.
    I also saw some of--I could say a great deal, but I wanted 
to talk a little bit about a piece of legislation that I have 
already filed because it has to do with improper purging of 
voters in Florida. This was done. No one took credit for it. 
The Governor's office said they had nothing to do with it. The 
Secretary of State pled immunity in it. The Supervisor of 
Elections said they had nothing to do with it. But it is a 
national problem that requires a national solution.
    As a result of that, to prevent improper purging from 
occurring again, last month I introduced House Resolution 1971, 
the Voting Rights Protection Act of 2001. My bill amends the 
National Voter Registration Act of 1993 to require notice and 
an opportunity to be heard before a registered voter may be 
removed from the voting rolls on the basis of an alleged 
criminal conviction. Such notice and opportunity to be heard 
will prevent improper purging of the voting rolls.
    States should not be able to remove a registrant from the 
official list of eligible voters for Federal office on the 
basis of inaccurate information that the voter is not given the 
chance to challenge. That is just basic fairness.
    Senator Dodd, in a nutshell, the African American community 
and minorities have a history of segregation. They have not 
received equal protection that the laws have given us. Through 
the type of legislation that you have filed, they will get the 
equal protection that is needed. So we will need to do it as 
soon as we can.
    I remember the Supreme Court laws before regarding 
education where they said we were to proceed with all 
deliberate speed, if you remember that.
    The Chairman. Yes.
    Mrs. Meek. What happened was not deliberate speed. It was 
with all deliberating speed. So the terminology is important, 
and if this Senate and this Congress is able to pass election 
reform and get it out in a timely fashion, I think it will help 
a great deal. We do not want to see some of the inaccuracies 
and the confusion of the past, and that is a very bad testament 
on those of us from Florida that the polls showed that 84 
percent of black voters in Florida believe a greater portion of 
African Americans were rejected or not counted than votes from 
Floridians of other races.
    I was elected to the Congress, first woman since 
Reconstruction. My constituents look to me to be able to do 
something about this. The talk is good, but they want to see 
some action. And the fact that you are having these hearings 
goes much further than anything we have had so far.
    I want to thank you and may God's spirit go with you.
    [The prepared statement of Mrs. Meek follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Carrie, Congresswoman, I thank you immensely, 
and your constituents are rightfully proud of you. I realize 
again, listening to Corrine and yourself, Eddie Bernice Johnson 
obviously speaking for the CBC--we are going to hear shortly 
from my good friend Maxine Waters and Congressman Gonzalez from 
Texas, Dale Kildee with whom I had the privilege of serving in 
the House many years ago--you really are capturing and putting 
a face on this story. Too often there can be a debate of 
numbers and statistics and theories and all sorts of 
projections, and that is valuable. I do not minimize it. But 
for the average person watching this and listening to this 
debate and trying to determine whether or not there is a 
problem, you have provided this committee with invaluable 
testimony to demonstrate the human level of all of this.
    I have been chairman now for all of about a week or 2 
weeks, whatever the time is, and I was determined that as the 
first time ever to be a chairman of a standing committee of the 
Senate, after 20 years here, that the very first action I would 
take would be on this legislation.
    Mrs. Meek. Thank you.
    The Chairman. My colleague Senator McConnell had a hearing 
actually on this matter earlier, and he wants to move quickly. 
I do as well, and you have stated that. It is important that we 
move quickly. But as I have stated over and over again, I know 
I could get a certain type of bill done quickly, but I also 
know it is important to get the right bill done quickly.
    Mrs. Meek. Yes.
    The Chairman. So, while I am determined to do it quickly, I 
am more determined to do it right. Because I do not know the 
next chance we will get to come back and do this. So while 
money is important to get back to our States and precincts so 
they can acquire the equipment and do the things that are 
necessary, my view is that if we do not also set some standards 
here, we will write the checks but we will not see the 
improvements made.
    I am deeply grateful to you for your presence here today 
and your continuing involvement. I am determined. My State is a 
long way from Florida. We are at one end of the east coast from 
each other. But I stand here today and tell you that I am 
determined to see to it that what happened in your State will 
never happen again or happen in any other State. And I am 
confident that a majority of my colleagues in both chambers 
will join us in this effort before it is over with.
    So we thank you.
    Mrs. Meek. Thank you, Senator.
    The Chairman. Thank you very much. You are welcome to stay.
    I see my friend from Texas, Congressman Gonzalez, here and 
my partner in so many efforts in the past, Maxine Waters, is 
here as well. Let me invite both of you to come on up and join 
Congressman Kildee. I am impressed that in this heat you have 
been running back and forth from chamber to chamber.
    Carrie, you are more than welcome to stay if you would 
like, but I know you may have other obligations. So we will 
certainly excuse you.
    By the way, if there are any additional questions, the two 
of you will have them submitted to you in a timely fashion. But 
I realize you have got busy schedules.
    Thank you all for being here. I have watched you come in 
and out of the room all day here, and, again, I know how 
difficult it is managing schedules, as complicated as they are, 
because I know all three of you very well. I will be calling 
you Congressman and Congresswoman and Congress-people, but, 
Congressman Gonzalez, our fathers served together in the 
Congress, and I had the privilege of serving with your Dad in 
the House of Representatives back in the 1970s. Maxine Waters 
and I have been great friends for a long time. I know her 
family well. They have been great public servants on so many 
different levels, and she is a person of great passion and 
belief. I love the passion that she brings to almost any debate 
and discussion. And Dale Kildee has been a tireless worker for 
so many years on so many different issues, and he is here today 
representing the Native American Caucus in the House. So I am, 
on a personal level, very grateful to all three of you and 
honored that, in my first hearings as chairman of this 
committee, you would be here, along with, I think, around 15 
others of your colleagues. Some 17 to 20 Members of the House 
will have appeared before this committee today, both 
Republicans and Democrats, expressing their support for us to 
do something about this. That is the good news.
    While there are some debates, obviously, about what we need 
to do, we always like to talk about the good news. The good 
news is that we are not debating whether or not we ought to do 
something, which is a major breakthrough here. The question is 
simply whether or not we will do the right thing or just try 
and do something and call it electoral reform. So I am anxious 
to hear your testimony, and however you want to proceed is 
fine. I do not know what your schedules are like and how you 
would like to go, but you all know each other well. Dale, if 
you want to start, I put the lights on here not to cut off your 
statements, but as sort of a reminder of where you are. So it 
is about a 5-minute light and you will get some sense of where 
you are in your statements.
    Dale, thank you for being here.

TESTIMONY AND PREPARED STATEMENTS OF A PANEL CONSISTING OF THE 
 HON. DALE E. KILDEE, A U.S. REPRESENTATIVE FROM THE STATE OF 
 MICHIGAN; HON. MAXINE WATERS, A U.S. REPRESENTATIVE FROM THE 
       STATE OF CALIFORNIA; HON. SILVESTRE REYES, A U.S. 
  REPRESENTATIVE FROM THE STATE OF TEXAS; AND HON. CHARLES A. 
    GONZALES, A U.S. REPRESENTATIVE FROM THE STATE OF TEXAS

STATEMENT OF HON. DALE E. KILDEE, A REPRESENTATIVE IN CONGRESS 
   FROM THE STATE OF MICHIGAN, CONGRESSIONAL NATIVE AMERICAN 
                             CAUCUS

    Mr. Kildee. Thank you very much, Mr. Chairman. Good 
afternoon.
    As co-chairman of the Congressional Native American Caucus, 
I am honored to be here today to speak on election reform as it 
affects Native Americans.
    According to an article written by Ms. Suzan Shown Harjo in 
Indian Country Today, in 1919, Congress authorized U.S. 
citizenship and the right to vote to any Indian veteran of 
World War I who requested that. Congress in 1924 extended dual 
citizenship and the right to vote to all other Indians. But it 
took 50 years for every State to permit Indians the right to 
vote.
    In her article, Ms. Harjo writes that Native American voter 
turnout in most tribal elections has ranged between 75 percent 
and 95 percent since the 1960s. By contrast, Indian voter 
participation in our national elections rarely hits 50 percent 
and did not do so in November 2000.
    Voter apathy on Indian reservations is high, according to 
Ms. Cate Montana's article in Indian Country Today, published 
after the 2000 election. In her article, Ms. Montana focuses on 
the Seminole tribe of Florida, which has 2,700 tribal members. 
She writes, ``Decades of shallow-voiced stumping by . . . 
politicians through the reservations at election time, followed 
by two to four years of cold indifference, has left many tribal 
members bitter and disinterested in the political process . . . 
. Without the impact of a solid voting block in any one 
district, [tribal] members say they . . . could not make a 
difference.''
    However, the events surrounding the election 2000 results 
may have changed voter attitude on the Seminole reservation and 
among the Seminole citizens. Since the margin of victory in the 
Presidential election was so slim, tribal members now believe--
and I am in constant contact with the Seminoles of Florida--
that their votes can make a difference.
    I anticipate that in future elections, particularly in 
Florida, the Indian vote will be very, very high.
    To assist tribal members participating in the voting 
process, the Seminole tribe has voting booths in the tribal 
offices and provides assistance to those members in need of 
language interpretation.
    Mr. Chairman, I am concerned that certain barriers exist 
that hinder large voter turnout from tribal members. These 
include but are not limited to the following areas:
    Rural accessibility. Oftentimes tribal members do not have 
access to ballots or polling places because the tribal 
reservations are generally located in remote areas far from the 
polling places. Tribal governments should be afforded the 
opportunity to establish polling places on the reservation.
    In my own city of Flint, if people have to walk more than a 
few blocks, they complain about not having a polling place and 
a polling place is put there. Very often with the Seminoles, 
they have to go miles and miles to vote. And I think that in 
your bill, if you could have a section perhaps on Indian 
voting, that could be very, very helpful.
    Another area is transportation. Getting tribal members to 
the polls is a difficult task for several tribes. During 
election 2000, the Cherokee Nation of Oklahoma used its own 
tribal resources to fund shuttle services for any registered 
voter wishing to cast a ballot on election day. Most tribes do 
not have the resources to provide shuttle service to its 
members.
    Another problem is language. The Navajo Nation Election 
Administration informed me recently that the tribe must provide 
interpreters for their members at the polling places located on 
the reservation. The Navajo interpreters often have a difficult 
time interpreting the ballots to the tribal members.
    Mr. Chairman, during World War II, one of the reasons we 
won that war, particularly in the Pacific, was because of the 
Navajo code talkers. It is a shame that the Navajo language 
becomes a barrier to balloting. And, again, I think perhaps 
your committee would like to look at that.
    Communication. I am concerned about the lack of 
communication between the tribes and local governments 
overseeing the election process. Very often in certain areas--
and Florida has not had a great relationship with its Indians 
on a number of matters. There has not been good communication 
between the local government, the township or the city, and the 
nearest Indian reservation.
    Also, there is no national data collection on Native 
American voter registration or voter turnout. Lack of 
information gives the impression that the Native American voter 
does not count, even in Indian communities.
    Tribes should be afforded the opportunity to apply directly 
for Federal resources to assist them in the administration of 
election for Federal offices. Tribes should also be provided 
technical assistance to assist them in fulfilling this goal.
    Mr. Chairman, I support all of the findings and concepts 
contained in S. 565. I suggest, however, that the bill treat 
tribes much as we treat other units of government. They are 
sovereign. I always carry with me, Mr. Chairman, two articles: 
the Constitution of the United States Article I, Section 8--you 
carry it probably, too. Okay. Very good.
    The Chairman. I carry it with me every day, Dale, as well.
    Mr. Kildee. Congress shall regulate commerce among the 
several States, with the foreign nations, and with the Indian 
tribes. We have a special obligation.
    Another thing I carry with me all the time is John 
Marshall's decisions on the rights of Indians, a very strong, 
strong decision. Unfortunately, Andrew Jackson did not carry it 
out, but the decision still stands.
    I think we have a special obligation here in the Congress, 
and the trust responsibility between the Indian Nations and the 
United States is not just with the BIA. It is with the entire 
United States Government, including the Congress of the United 
States and this Senate. And if you could include in some way 
Indians and their needs, particular needs in voting, I think 
that would be very helpful to assure their participation.
    [The prepared statement of Mr. Kildee follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I thank you, Congressman, very much. Those 
are good suggestions. We would like to hear from your caucus, 
maybe in conjunction with Senator Inouye, who chairs the Indian 
Affairs Committee of the United States Senate, and who is also 
a member of this committee. He was here yesterday for some 
opening comments when we started the hearing, as well as John 
McCain, who has been very active on these issues, and Ben 
Nighthorse Campbell, who is a great friend. I made a note to 
myself to talk to Ben and Dan Inouye about what we might do in 
this legislation that would accomplish what you have described.
    So I look forward to hearing directly from the caucus on 
some suggestions you may have to incorporate in the bill, and I 
will see that it gets done.
    Mr. Kildee. Thank you, Mr. Chairman.
    The Chairman. And you are more than welcome to stay, if you 
can. If not, if you have to get back to business, you are 
excused.
    Mr. Kildee. Thank you very much, Mr. Chairman.
    The Chairman. Well, my two colleagues are here. Again, I 
will leave it up to Maxine. Welcome. Nice to have you in this 
committee room.

 STATEMENT OF HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Waters. Thank you very much, Mr. Chairman, and I 
appreciate being here, and I am just delighted that you are 
holding these hearings.
    I think that the effort that you are making is going to go 
a long way toward us coming out of here with very good 
legislation that will address many of the problems that we have 
discovered.
    Let me just start by saying while the November elections 
are now behind us, the lessons of Florida remain. Last year's 
election revealed shortcomings in our election system which 
must be repaired to assure that voters do not lose confidence 
in our electoral process. The events in Florida highlighted 
these shortcomings on a national stage for the first time, but 
election officials and experts from around the country freely 
acknowledged that irregularities in our voting processes and 
equipment are not unusual. In fact, many of the deficiencies 
that were identified in Florida occur on a regular basis in 
other jurisdictions.
    Problems at the polls and computer glitches inevitably and 
routinely arise on election day. Protracted election returns 
and recounts are not uncommon. In many instances, voters are 
improperly denied the right to cast their votes on election 
day.
    Some of this you have probably heard already. During this 
last elected in one New Mexico county, election officials 
withdrew 58,000 ballots because of an error in the database, 
leaving that State's five electoral votes up in the air for 
days. In New Orleans, voters were not allowed to vote because 
the State's Department of Motor Vehicles never processed 
people's voter registrations, as the State's motor-voter law 
requires.
    In Maine, many voters were refused the opportunity to cast 
votes at the polls because they were improperly purged from the 
voter rolls. In Virginia, there were reports that voters were 
asked for multiple forms of identification before being given 
their ballots. In Gadsden County, Florida, a largely poor rural 
area, approximately one out of every eight ballots were thrown 
out as invalid. In Jacksonville, Florida, alone, 22,000 ballots 
were not counted because of overvoting, while over 10,000 votes 
were not counted in Miami-Dade County because of undervoting.
    Further, there were reports of voter intimidation, failed 
machinery, overwhelmed poll workers, and general confusion 
received from voters and election officials all over the 
country.
    We recognize that our election system involves a number of 
complex elements, and that uniformity may not be the answer in 
all circumstances. Nonetheless, reforms are necessary to ensure 
that eligible voters are afforded the opportunity to cast their 
ballots and to make sure that their votes are properly counted. 
The events in Florida suggest that the time is now to review 
our electoral process and gain the necessary insight and 
perspective to implement changes designed to restore voter 
confidence.
    Much has happened in the past few months since the 
Democratic Caucus heeded the call of the American people and 
formed the Democratic Caucus Special Committee on Election 
Reforms, and I was asked to chair that committee.
    Our committee has traveled to four States: Philadelphia, 
Pennsylvania; San Antonio, Texas; Chicago, Illinois; and 
Jacksonville, Florida. And we still have a long way to go. We 
plan on at least four more hearings in Cleveland, Los Angeles, 
Baltimore, and perhaps both Alabama and Mississippi. And I am 
confident that the results will lead to a voting system in 
which the people of our Nation can be proud.
    We Democrats in the House began this process hoping that 
the Republicans would join us in a bipartisan effort to reform 
our electoral system. After all, the right to vote is an issue 
that transcends partisan politics. It is the cornerstone of our 
democracy. Unfortunately, the Republican leadership did not 
agree to a bipartisan committee, and that is why we formed our 
very special Democratic----
    The Chairman. Did you seek to have a bipartisan committee? 
Was that the----
    Ms. Waters. Yes. We had numerous meetings trying to have a 
bipartisan committee. But we could not agree on a true 
bipartisan committee, so that is why we had to move forward 
with the Special Democratic Caucus Committee to try and get out 
into the American public and----
    The Chairman. I knew you had been out, and you have been 
offered tremendous evidence already just in the hearings you 
have had and with the schedule you have got in front of you. 
This committee is considering having some field hearings as 
well. I always think it is important to give average citizens 
an opportunity to be heard. Not that we are not average 
citizens, but too often in Washington, it is more difficult for 
average people to be heard. So I have great respect for the 
fact that you have made this extra effort, Congresswoman, to go 
around the country and listen to what people have to say, so 
that this goes beyond being a Florida issue and we look ahead 
to the future. I regret that you were not able to achieve a 
bipartisan committee in which to conduct these kinds of 
hearings.
    Ms. Waters. It is unfortunate. However, we find that 
Democrats and Republicans out in the State, our constituents, 
are all pretty much concerned about what happened, and people 
are shocked to find out that their vote may not count. And so 
we think that we have tremendous support out there for real 
reform.
    When we started this committee, we knew that we had some 
very special issues we must pay attention to: uniform voting 
systems, standardized ballots, standardized equipment, uniform 
poll-closing times, and the impact of television and network 
projections, alternative voting methods, a national holiday for 
Federal elections, weekend voting, week-long elections, instant 
runoff elections, voting equipment, punch card systems, optical 
scan systems, lever systems, touch-screen voting, Internet-
based voting, voter registration requirements and increasing 
voter participation, such as same-day registration, motor-voter 
laws.
    We looked at easing absentee ballot requirements, satellite 
voting facilities, drop-off locations, expedited mail delivery, 
overseas voters, alternative voting methods, easing application 
deadlines. We looked at--we knew that we were going to have to 
pay some attention to military balloting, ensuring timely 
delivery, expedited mail or other alternative delivery methods.
    We want to take a look at voter education issues, efforts 
by election officials to educate voters on voting procedures 
and equipment. Ballot design and literacy issues, to get rid of 
voter confusion and deal with voter sensitivities, voter 
disability issues, the difficulty in operating voting 
equipment, adequate design of polling locations.
    We want to look at non-partisan election officials to 
ensure voter confidence at the State and local levels, poll 
worker training and pay, such as incentive programs and use of 
city or county employees.
    We want to look at the precinct irregularities we have 
learned so much about, polls that open late or close early, 
precincts with an insufficient number of ballots, long lines, 
voters whose names do not appear on the precinct roster, and 
voters who are mistakenly turned away at the polls.
    Provisional balloting is something that you have already, I 
am sure, discovered is a real problem out there, and we first 
heard about it in our travels in Philadelphia. We know that in 
some States they have very easy provisional balloting rules. In 
California, if your name is not there, you just fill out a 
provisional ballot.
    We discovered when we went up to Philadelphia that if your 
name is not there and you insist that you are registered, they 
send you to the police station where a judge there decides 
whether or not you can fill out an affidavit. We know that is a 
deterrent to voting.
    And as you may already know, there are some States, some 
jurisdictions, where they have no provisional balloting 
whatsoever. So we know that that should be looked at as 
something that we can develop some uniform standards around.
    Voter intimidation, enforcement of voting rights laws, 
disenfranchisement issues such as standards for purging voters 
from the rolls. I will never forget in San Antonio a woman came 
and she said, ``I don't understand. I went to the polls. I have 
been registered for the past 30 years,'' I believe she said, 
``and they told me that my name was not there.''
    What she didn't know is she had been purged. And the purge 
laws are all over the place. Different States, different 
jurisdictions do different things.
    I know that a lot of it is driven by campaign consultants. 
I used to manage campaigns, and one of the things I learned was 
when you do a mailing, if you have a lot of dead mail of people 
that haven't voted for a long time, it increases the cost of 
sending out those mailings. So many consultants start to lobby 
for dropping people from the rolls so that they can reduce the 
cost of the mailings. And so the purging is a little bit 
outrageous in some places, and I think we can set some 
standards there also.
    I think people should feel that, if they haven't voted 
maybe for several elections, that their name will be there or 
that they will at least have an opportunity to understand that 
their names may be purged from the rolls.
    Let me just close by saying whether it was Chicago, 
Illinois, or Jacksonville, where we had our last hearing, some 
issues emerge as very important issues that we can set Federal 
standards on. I believe that I have alluded to some of those, 
such as purging and such as provisional balloting. But I want 
you to know this business of identification must be dealt with.
    Some States require identification, and I am not suggesting 
that we should usurp the State's role in determining these 
kinds of things, except I think we can do something to 
encourage or to leverage the resources we may be putting in to 
help with the payment of new machines, et cetera, to get people 
to understand you do not turn people away from the polls 
because you do not believe that the picture looks like the 
person that is before you. We have stories of people having to 
give two pieces of identification, polling workers not knowing 
what is acceptable identification, on and on and on. We think 
something can and should be done about that.
    Let me just close by saying that I am--we have joked for 
many years about elections problems. For example, we know all 
of the jokes that have been told about Chicago. We have joked 
about the dead voting. We have joked about the count, et 
cetera. Well, you know, we are all at fault for not having 
taken the problems seriously that were identified and that have 
been identified year in and year out.
    We have just kind of made political jokes out of it, but 
now it is time to get very, very serious. Florida helped us to 
understand how serious this is. It helped us to understand the 
difference that every vote could possibly make.
    And so we owe it to the American people, as you know, to 
fix the system, to fix the infrastructure of the system, to do 
everything that we can to make sure every vote counts. We have 
got to do everything from correct some of the problems that we 
are identifying, but we have got to respect the work that was 
done to get the Voting Rights Act and to enforce it, because we 
have a tool by which to guarantee that voters are not 
disenfranchised, that we do not have new laws and new rules 
that just substitute for literacy tests and poll taxes. And so 
we have the power to do it, and I think we can do it, and I 
thank you for the leadership that you are giving.
    Thank you very much.
    The Chairman. I thank you very, very much, Maxine. Again, 
my compliments to you and the other members who have traveled 
with you for, taking very important time out of your schedules 
to listen to people across the country talk about the issue. 
The point deserves being repeated. If there is faulty 
equipment, if the system is breaking down, and as a result of 
the system breaking down then voter error, as the other side 
likes to call it, occurs and people are disenfranchised, it has 
the same, effect of someone turning you away from the polling 
booth because of racial discrimination or some other outrage.
    Now, obviously, there may be intent in one, and a lack of 
intent, or a lack of resources, or simply a lack of commitment 
in the other. But the bottom line is that is creates the same 
result, that is, a voter whose vote was not counted. So what we 
are talking about here--again, I am not going to get into the 
intent game, although I am worried about it, but if we can set 
some standards here on some of these basic questions and 
provide resources--I am prepared to ask our colleagues for 
resources. Some have suggested earlier today--and I will ask 
Congressman Gonzalez and Congressman Reyes to comment on this 
as well. They said maybe a 50-percent match might work. Well, 
normally it would. But I have listened to some of our 
colleagues from the Republican side of the aisle talk about how 
difficult it is to get people to commit resources locally for 
voting efforts, because there is always a demand for a new 
snowplow or a new piece of equipment or the addition at the 
school--all very valid requests. But voting machinery and 
support for voting, as fundamental and as important as it ought 
to be in everyone's mind, does not always have the priority 
that other issues do.
    So if you are going to leave it to a 50-percent match or 
even a 10-percent match, without a mandate there at all, the 
likelihood that resources are going to be expended at the local 
level to make these improvements I think is very low. That is 
my opinion. But I want to hear from Congressman Gonzalez and my 
good friend Congressman Reyes as well on their thoughts. So why 
don't we hear from both of you?
    And I put the light on here, Silvestre, just as sort of a 
watch thing here, not to hold you to the lights.
    Who is going to go first?
    Senator Gonzalez. I yield to the chairman of the Hispanic 
Caucus.
    The Chairman. All right. Well, Silvestre Reyes is a great 
friend of mine and has just been identified as the chairman of 
the Hispanic Caucus in the House. He also has years of 
experience working in the border patrol areas of Texas. He and 
I just spent a long weekend together with our colleagues from 
Mexico in the Napa Valley, where we got to know each other even 
better. I was glad to be at that meeting with our fellow 
Mexican parliamentarians for many reasons, not the least of 
which, Silvestre, is I got to know you much better.

STATEMENT OF SILVESTRE REYES, CHAIRMAN, CONGRESSIONAL HISPANIC 
                             CAUCUS

    Mr. Reyes. Thank you. I appreciate the opportunity. I 
think, perhaps, the third time is a charm. I have been over 
here twice and had to rush off to vote.
    The Chairman. My apologies to you as well.
    Mr. Reyes. But thank you so much, Mr. Chairman. I want to 
thank you and other members of the committee for an invitation 
to come before you to testify on what I think is a very 
important issue and a need for a very positive and 
comprehensive revision that we all call election reform.
    It is important, Mr. Chairman, to I think set the issue in 
terms that the United States was founded on democratic 
principles, which are fundamental to the preservation of our 
basic freedoms. Our country has relied on the confidence of its 
citizens to defend these principles from all challenges and 
from all enemies. These principles are our rights as Americans, 
and we are privileged to be citizens of a free and democratic 
society.
    One of the most valued principles is the right to elect our 
leaders, as you have indicated, and others have indicated, 
today. The vote allows citizens to register their voice and 
express their will. It is a prime example of our ability to 
freely express ourselves in a democratic political process. 
Unfortunately, we have seen recently, through experience, some 
compelling evidence that our electoral process is tainted by 
barriers and obstacles that inhibit many Americans, not only 
from exercising the right to vote, but also in having that vote 
counted.
    The 2000 presidential election demonstrated the severity of 
those obstacles and brought attention to the fact that many 
voters across this country were not able to vote properly, 
within expected standards of fairness. Furthermore, minority 
communities suffered a large-scale and disproportionate 
disenfranchisement during the last election, which can be 
blamed on a flawed electoral system and the electoral process.
    Since 1965, Congress has addressed the issue of voter 
protection. The passage of the Voting Rights Act of 1965 
demonstrated that this country has no intolerance for voter 
intimidation and voter discrimination based on race and 
ethnicity. Yet, the struggle to ensure the voting rights of all 
citizens after the passage of this landmark continued for many 
decades. As a result of positive efforts to improve the way 
that we vote, Congress has since recognized that, not only is 
it inappropriate and against constitutional provisions to 
hinder a person's right to vote based on their race, but it is 
equally inappropriate to hinder a person's right to vote based 
on their ability to speak English.
    Amendments to the Voting Rights Act reflected this 
provision. Yet, in the year 2000 and in the elections of the 
year 2000, it was proven that these measures have been poorly 
enforced, with many jurisdictions across this country not 
complying with them. We must, once again, reconsider and review 
our election process in order to prevent the mistakes of this 
past year. We cannot have another election where the voices of 
our electorate are jeopardized in any way.
    This is why I am a strong supporter of your efforts, Mr. 
Chairman, and those of my friend in the House of 
Representatives, John Conyers. The Dodd-Conyers Election Reform 
Bill is exactly what America needs for reforming its electoral 
system. It is my belief that the essential elements for 
election reform include language accessibility at the polls and 
voting booths, accessibility for the disabled, voter access to 
provisional ballots, a system of education to inform voters and 
to also train election volunteers and poll workers, and a 
comprehensive system of accountability. The Dodd-Conyers bill 
takes great steps in achieving these goals, and I am proud to 
be a co-sponsor and to support this legislation.
    As chairman of the Congressional Hispanic Caucus, I 
represent a wide constituency of Hispanics who live all across 
the country. Currently, the Hispanic Caucus is working to 
develop its official principles on election reform. I am proud 
to say that many of the priorities discussed among our members 
on this issue of election reform are reflected in the 
provisions of the Dodd-Conyers bill, and I would like to 
recognize the hard work of my good friend and colleague, 
Representative Charlie Gonzalez, whose efforts in chairing the 
Hispanic Caucus's Civil Rights Task Force have helped outline 
the priorities of election reform for our caucus.
    As Representative Waters has indicated, Charlie and many 
other members have traveled across the country listening to 
first-hand testimony on the problems that occurred in last 
year's election. I wish to further recognize and thank 
Representative Steny Hoyer for the work on this issue as well. 
There are many, many of our colleagues, as you know, Senator, 
that are very much concerned about this issue, and I look 
forward to working with your committee, as well as all of our 
colleagues in the House and Senate, to pass effective election 
reform legislation.
    In the Hispanic community, we are celebrating the growth of 
our electorate. As our population grows, so does our voting 
strength. We often say, in Spanish, ``Su voto es su voz'' or 
``Your vote is your voice.'' However, without legislation to 
guarantee fair and accurate elections, the volume of our voices 
is muted. The Dodd-Conyers bill stands out as being especially 
sensitive to our Latino voters, as it recognizes and reaffirms 
the importance of making the voting process accessible to 
voters with limited English skills. And the Dodd-Conyers bill 
ensures fairness not only for Latinos, but also for elderly 
voters and first-time voters, for rural voters and urban 
voters, and for voters with disabilities. In short, this is a 
bill that fulfills the promise of voting franchise for all 
Americans.
    The battle to protect a citizen's right to vote achieved a 
major victory with the passage of the 1965 Voting Rights Act. 
However, it is evident that this battle continues to this day 
and will continue to resonate until we pass meaningful election 
reform that protects the right of all citizens to have their 
voices heard and to have their voices counted through their 
vote.
    It is our duty, I believe, to respond to this important 
issue, and I therefore have been urging both Senate and House 
leaderships to move swiftly and pass election reform 
legislation. The Dodd-Conyers bill will help ensure that all of 
our voices are heard. Let us ensure, Mr. Chairman, that future 
generations understand their rights and obligations to a free 
society by us recognizing our's today.
    I want to thank you for this opportunity to testify before 
your committee this afternoon. Thank you very much.
    The Chairman. Thank you very much, Mr. Chairman. And please 
pass along my thanks to the entire Hispanic Caucus; I know you 
express their views. How many members are there now in the 
Hispanic Caucus?
    Mr. Reyes. We have 18 members.
    The Chairman. Eighteen members.
    Mr. Reyes. Eighteen members.
    The Chairman. It is very heartening to hear your expression 
of support. We talk about language minorities in the country 
and immediately people think of Spanish-speaking minorities, 
because obviously that is the largest ethnic minority, if you 
will. Or even the, majority in some places in the country is 
the Hispanic Latino population. And their contribution to the 
richness of our Nation is being felt every single day. But I 
made the point when I spoke at a high school in my State 
recently, as we are all inclined to do. I spoke to about 150 
juniors and seniors, and the principal of the school wanted to 
make note of the fact that of the 150 students, I believe 
something like 45 different languages were spoken by the 150 
students in the room. They literally came from every country 
you could think of. First-generation families who had come to 
America, making their wonderful contribution, as my 
grandparents and great-grandparents did, coming from the 
European stock back in the 19th and the early part of the 20th 
century.
    So, when we talk about language minorities, obviously, the 
Hispanic community and Latino community is a significant 
percentage. But, as you pointed out and as Congressman Wu has 
pointed out: from the Asian American community and others to 
the Haitian American community, and maybe you would like to 
address this and maybe Charlie wanted to chime in as well on 
this, that what we are talking about here is a broad mosaic of 
people. The idea in this day and age that you cannot 
accommodate language minorities with the technology that 
exists. The standard is 10,000 people or 5 percent, but 
obviously in certain communities there may be language 
minorities that do not rise to that level. And the idea that in 
the 21st century you could show up and not be able to have 
immediately appear instructions on what to do in almost any 
language you could think of is archaic, in my view. But, I 
wonder if you might comment on that point.
    Mr. Reyes. Well, absolutely, and I would like to comment on 
two issues that you have brought up.
    The first one is, and I mentioned it in my testimony, the 
lack of training for our election judges, our poll watchers, 
the fact that it is already, for some members of minority 
communities, it is already an intimidating process because, in 
some cases, this is their first attempt at participating in the 
democratic process by voting. So it should be a voter-friendly 
environment, with individuals that are trained and that have 
the ability not just to answer questions, but to communicate 
with the electorate. That is vitally important.
    Secondly, as you say, in the age of technology, in the 
Information Age, I know that we have the capability to make 
sure that we do not--we cannot afford to subscribe to the 
cookie cutter, one-size-fits-all procedure or process. We have 
to make accommodations for the mosaic that we all recognize and 
proudly point to that is the strength of this country.
    I believe, when we talk about what is at stake here, we 
have to make that commitment to investment in ourselves, invest 
in our future. Because as we debate and talk about what has 
occurred, as we talk about the problems and the issues that are 
coming out through testimonials all across the country, our 
young people are watching. They are listening to a 
contradictory message: those of us that speak to them and tell 
them how important they are to our process, how important it is 
to this country that they are able to participate in the 
process, on the one hand, and on the other hand, a process that 
we have identified is very unfair, very unfriendly, and we want 
to make sure that the third component is not uncaring.
    So I, again, want to thank you for your leadership in this 
very vital area on behalf of the Hispanic Caucus, but really on 
behalf of Americans all across this country.
    The Chairman. Thank you, Silvestre. I take note that, while 
the audience has thinned out over the last 5 or 6 hours that we 
have been here, the room still has a fairly good number of 
people. And without having done a survey, when I look in the 
back of the room, it is mostly young people who are here. And 
yesterday, at the conclusion of the hearing, a group of them 
came up here and sat here all day.
    I had made the point that with, the events of last fall, 
everyone talks about what went wrong. But there is always a 
silver lining in things that go wrong. First of all, we are 
here. As I said earlier, I doubt we would be even talking about 
this had it not been for the events of last fall. We would have 
talked about it, but there would not have been this kind of 
interest.
    But, secondly, young people, I do not know if you saw the 
same thing in your districts, but in my State the interest that 
young people developed in the electoral process as a result of 
watching events unfold was really remarkable.
    Mr. Reyes. Absolutely.
    The Chairman. And these young people yesterday came up and 
said you do not know what a heightened degree of interest there 
is among young people to participate in the electoral process, 
as a result of what people saw last year.
    So, again, we do not want to have these events occur as a 
way of provoking interest, but it seems to me there is this 
silver lining in terms of, a heightened degree of interest 
among young people, about how they can be involved and whether 
or not they vote and their participating to make a difference.
    So you made the point. I just wanted to underscore it, that 
I think it is extremely worthwhile.
    Mr. Reyes. Thank you.
    The Chairman. Charlie, we thank you. You have been very 
patient. We have been joined now by two of our colleagues from 
the House, and I thank them immensely.
    Congressman Foley and I know each other very well. We have 
known each other for a long time. Congressman Sweeney, we do 
not know each other that well, but I welcome you to the 
committee and look forward to hearing from you as well. I thank 
you immensely for coming back and forth. I have seen Mark come 
in and out of the room I do not know how many times over the 
last 4 or 5 hours. And to those who may not understand all of 
this, between the votes in the House and the votes in the 
Senate, the best-laid plans do not always work out. So I am 
very grateful to you for your persistence in wanting to be 
here.
    Congressman Foley, whom you will hear from shortly, is a 
Congressman from Florida and a member of the Republican Party. 
We will also hear from Congressman Sweeney from New York, a 
member of the Republican Party as well. Some of your colleagues 
have been here today, and I made note of the fact that almost 5 
percent of the House has now testified before this committee 
today, which may be a record. I am going to probably worry some 
of my Senate colleagues that you guys were over here checking 
out office space. [Laughter.]
    Nothing makes a Senator more nervous than to have a 
Congressman show up over here to take a look at our digs. But I 
am deeply honored, that in my first role as chairman of this 
committee, and my first time to be a chairman of a committee in 
the Senate, that so many House members have come over to 
express an interest in this legislation. The good news is there 
seems to be a lot of interest about doing something, and we are 
not debating about whether we should be doing something.
    Congressman Gonzalez, again, thank you for your patience. I 
am anxious to receive your testimony.

  STATEMENT OF HON. CHARLES A. GONZALEZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gonzalez. Sure. And thank you very much, Mr. Chairman. 
It is a real pleasure to be here today.
    As chair of the Congressional Hispanic Caucus Civil Rights 
Task Force, I am charged with overseeing and making 
recommendations on election reform efforts, as they affect the 
Nation's Hispanic community. I can tell you today that the 
caucus fully supports uniform election technology modernization 
efforts. However, we feel strongly that updating machinery 
alone cannot be considered true election reform or a solution 
to the Nation's voting problems. Therefore, I would like to 
focus my comments today on election reform issues and 
recommendations of particular importance to the Hispanic 
community. We believe that these recommendations will serve to 
strengthen any election reform effort and the very foundations 
of our great democracy.
    Over the last several months, in discussions with members 
of the Hispanic Caucus, at a town hall meeting in my district, 
in meetings with election officials throughout and across South 
Texas, in field hearings across the country, and in meetings 
with representatives from some of the national Hispanic 
organizations, I have heard of voting experiences, as well as 
concerns and recommendations on election reform. I have heard 
reports of language minority voters requesting, but being 
denied, bilingual assistance or bilingual materials at the 
polls, a right guaranteed to them by the Voting Rights Act.
    There were reports of minority voters being asked for 
multiple forms of identification, while no such request was 
made of nonminority voters. And there were extremely troubling 
reports of Hispanic voters going to the polls only to find out 
that their names had been dropped or purged from the voter 
rolls since the last election, and in some cases, these voters 
were not informed of their legal right to a provisional ballot.
    To address these issues, the Congressional Hispanic Caucus 
has been actively developing a set of principles on election 
reform. The first and foremost principle is that Congress 
should move expeditiously to pass election reform legislation 
in time for the 2002 midterm elections, and I hope that we can 
do that, and we understand that you are going to do it very 
carefully.
    Election reform legislation would also include a Voters' 
Bill of Rights provision, which would ensure enforcement of 
bilingual language provisions of the Voting Rights Act, 
establish uniform provisional ballot standard, ensure 
disability access, and propose accountability measures for 
jurisdictions seeking Federal funds to upgrade their voting 
machines. A Voters' Bill of Rights should empower voters and 
encourage voters' participation through efforts to educate them 
about voter rights and the voting process. It should also 
include provisions to ensure election workers are properly 
trained. This is where we get into the biggest disagreement 
about mandates.
    Without any type of mandates, Senator, we are given 
localities an opportunity to opt out of enforcing the laws of 
this Nation and extending the rights to all citizens that 
reside in those localities. You are not going to get it any 
other way, even with incentives which, again, they can simply 
bypass and decide not to have any of their energies devoted in 
that area.
    Any election reform legislation must reinforce the language 
minority access provisions of the Voting Rights Act, which we 
have already covered and the necessary percentages. These 
measures seek to ensure that voters who have limited English 
proficiency do not face language barriers in the voting 
process. However, these measures have been poorly enforced, if 
at all. In many jurisdictions, they fail completely to comply 
with it.
    Earlier in my comments, I made mention of voters going to 
the polls on Election Day only to find that their names had 
been purged from the voter rolls, for no legitimate reason, 
since the last election. While we understand the need for 
purging the system, we feel strongly that the shortcomings of 
such a system and our inaccurate voter rolls should not result 
in those eligible voters being refused the opportunity to vote. 
Election reform legislation must guarantee the voters' right to 
a provisional ballot when a regular ballot cannot be issued.
    On the issue of disability access, little needs to be said. 
No one should be prevented from exercising their right to vote 
because of a physical disability, and you already pointed out 
that is more than just a ramp that allows access to the 
building.
    Finally, funds for improving election technology should be 
tied to requirements to implement a Voters' Bill of Rights and 
enforce the Voting Rights Act and the National Voter 
Registration Act.
    I would venture to guess that all of us here in this room 
today, at some point in our careers, participated in efforts to 
encourage American citizens to register and to vote, but in 
Latino communities, and especially Latino communities, as 
Chairman Reyes has already pointed out, we start that drive 
with ``Su voto es su voz,'' which simply again translated is, 
``Your vote is your voice,'' and it is a wonderful concept, and 
it just sounds beautiful. But if you were listening carefully 
on November the 7th, 2000, you heard the sound of silence. Why? 
Because far too many Latinos encountered difficulty in 
exercising their right to vote, and when successful in casting 
their votes, suffered the ultimate indignity of having their 
vote go uncounted.
    We learn from the past to ensure a better tomorrow. Again, 
thank you for this opportunity, and I have been speaking on 
behalf of the Congressional Hispanic Caucus, and I am 
authorized to have gone over this, Senator, but I am going to 
leave with maybe just two observations because I have a 
satellite feed regarding a panel presentation back in San 
Antonio.
    While I was sitting here, there were certain observations 
made by certain witnesses and other members of the committee. 
Without trying to make this into kind of any partisan debate, 
because I think there is enough here that we share that needs 
to be addressed, one of the observations was that this is not 
about race, this is not about ethnicity, not about bigotry, 
racism and so on. And I am going to agree to that. I am going 
to give everybody the benefit of the doubt where we had 
problems, that that was not what motivated individuals.
    But I do know what this is all about, and it really is 
about everyone, but especially minorities. If you think of the 
main thrust of this legislation and what problems we are trying 
to correct, who are we trying to protect? Who are we trying to 
make sure that they get their right to vote? Is it a voter that 
comes from the majority of the community? Is it a voter from 
the upper economic class? Is it a voter who is English 
proficient? Is it a voter that is not disabled? Or is it a 
voter who comes from the minority or who comes from the lower 
economic strata or who has limited English proficiency or 
suffers from physical disability? Make no doubt about it what 
we are trying to do here, and there is nothing wrong because 
that is where the problems really exist.
    I know there is an argument, but there are other things 
that are wrong with the system. There is fraud. We have felons 
that are out there registering to vote. We have people that 
vote two or three times, and I am going to agree that is wrong, 
that is illegal, and we need to prosecute. But at the present 
time we have a system that is hemorrhaging, and it is 
hemorrhaging at the cost of minority rights. That is where we 
have the hemorrhaging. Let us take care of that first, then we 
can take care of the rest of the ailments of this patient. But 
that which needs immediate addressing is what is happening to 
the minority voter throughout the Nation.
    And with that, again, I want to say thank you very much. I 
do have to leave, Senator, and thank you.
    The Chairman. I thank you for that. I would, just as you 
are packing up, make the point to you that I do not disagree 
with you at all about the fraud and those people who abuse the 
system out there, but I always find it somewhat intriguing. I 
have not suggested we ought to federalize the criminal statutes 
in this regard, although some may want to do that, but I have 
always found it to be interesting, when you talk to local 
prosecutors about whether or not they want to prosecute 
election fraud, none of them ever do. It is very difficult to 
get people to step up to the plate and go after these problems 
here.
    So I am not unsympathetic. I will be happy to include some 
language in our bill if they want to federalize this and have 
some mandates from the Federal Government on fraud. But do not 
ask me to do that and exclude federal mandates in other areas. 
After all, we have had them for 36 years. We did not make it 
optional to ban poll taxes. We did not make it optional to ban 
literacy tests. If an error is caused by faulty equipment or 
bad training or people who do not know what they are doing, and 
the net effect is someone is disenfranchised, then we ought to 
figure out a way to fix it. And the fact is, when something 
goes wrong in a presidential race or a race for the national 
legislature in one precinct in the country, and that affects 
the outcome of that presidential race it affects the entire 
country. The fact that we have done it right in some other 
State does not mean that citizens of that State have not been 
adversely affected by these problems. So, there is a national 
perspective on this that has to be kept in mind.
    I appreciate your testimony immensely.
    We have been joined by Sheila Jackson-Lee, who I see behind 
you. So, Sheila, why do you not come up and join your 
colleagues.
    We thank both of you. We thank you, Charlie, immensely. 
Thank you, Silvestre. And, Mark, I do not know who is more 
senior. I think you are more senior. He is more senior, is he 
not----
    Mr. Sweeney. He is certainly older, Senator.
    [Laughter.]
    The Chairman. I want you to know, Congressman, I have 
always had a particular affection for young Congressmen with 
gray hair.
    Mr. Foley. And it is getting grayer----
    The Chairman. It is getting grayer all the time, Mark.
    Sheila, we welcome you immensely, the Congresswoman from 
Texas, it is so good to have you here with us. Actually, as I 
said earlier, we have had almost 5 percent of the House of 
Representatives here. It is making my Senate colleagues nervous 
by this flood of members of the House coming over to look at 
the drapes. It is, no doubt, causing some concern. [Laughter.]
    But we thank you all for coming.
    And, Mark--Sheila, if it is all right with you, we are 
going to go with Mark. I will do it in the order in which you 
came on over here. So, Mark, we will hear from you. The lights 
are instructive only, just so that you get some sense--having 
Senators talk about limiting their time is a little bit of an 
oxymoron, as you know. The House members constantly remind we 
Senators of our verbosity.
    So we thank you for being here. Any statements you have, 
documentation, whatever you want to be included in the record, 
we will make sure it is part of it.

TESTIMONY AND PREPARED STATEMENTS OF A PANEL CONSISTING OF THE 
   HON. MARK FOLEY, A U.S. REPRESENTATIVE FROM THE STATE OF 
 FLORIDA; HON. JOHN E. SWEENEY, A U.S. REPRESENTATIVE FROM THE 
    STATE OF NEW YORK; AND HON. SHEILA JACKSON LEE, A U.S. 
             REPRESENTATIVE FROM THE STATE OF TEXAS

STATEMENT OF HON. MARK FOLEY, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Mr. Foley. First, thank you very much, Mr. Chairman, and as 
you can imagine, now you may understand, after Charlie's 
testimony, why Senator Teddy Kennedy and I have been doing 
Spanish lessons. We are trying to get up to----
    The Chairman. [Speaking in Spanish.] I want to say 
something to you in Spanish. [Speaking in Spanish.]
    Mr. Foley. Very good. Si, there you go.
    Thank you very much, Mr. Chairman. I used to have to 
describe where I am from, West Palm Beach, Florida, but since 
the election, no longer is that necessary. In fact, in Rome 
recently I asked for directions to St. Peters, and as I was 
being given directions, he said, ``Where are you from?''
    And I said, ``West Palm, Florida.''
    And he said, ``Well, then I better walk you there because 
you may not make it.'' [Laughter.]
    Obviously, the embarrassment and the attention focused on 
Florida 37-plus days was both regrettable and painful, but it 
could have been anybody's State.
    The Chairman. That is right.
    Mr. Foley. And I think after we have looked at many States, 
Illinois and others, you have seen even a greater degree of 
undervotes and overvotes in those same communities. Florida was 
about in the middle, but because there were 25 electoral votes 
at stake, there was a higher priority in trying to determine 
whether the election was properly conducted.
    There have been accusations by the Civil Rights Commission 
and others that the election was stolen at the behest of the 
governor of Florida or the secretary of State. Obviously, in 
Florida, every county's Elections Office is operated by an 
independently elected supervisor of elections. The butterfly 
ballot was in Palm Beach County, and that of course has been an 
office held by Democrats for 47 out of 67 years. There is 
enough credit and blame to go around the room as to what 
happened.
    We look back with regret. There is no question we do not 
want people to believe, under any circumstance, that their vote 
was ignored or that it was not counted. The suggestion Mr. 
Gonzalez made about multilingual ballots is a good idea, but 
again it is not always practical. There are 47 languages spoken 
in the Palm Beach County school system. It becomes a question 
of what are the languages to be printed and published? Is it 
that easy? Should it be Spanish, since that would be a larger 
minority? What does that say to the French person getting ready 
to vote. It may be their first time as a new American now given 
rights to vote. Should we translate the ballot in their 
language as well? These are the compelling questions we must 
address.
    We were barraged by jokes on nightly news, but you look at 
what can come out of this, and it is my hope and my fervent 
prayer when Alcee Hastings, and I, and others work together, we 
can make some things occur here. The questions are how do we do 
it and should the Federal Government play a role? There is a 
role to be played, and I think part of that is financial. I am 
not sure mandates work from Washington because oftentimes 
mandates are both difficult and burdensome on the localities. 
Local Government and local control has been the hallmark of our 
system.
    Let me describe for you, because I think now that Florida 
has witnessed or at least been party to history, we have also 
been in the forefront of election reform. Gov. Jeb Bush, 
against some objection by my own colleagues in the Florida 
legislature, advanced a bill that would do a number of things 
that I think bring us to a point where we will finally have 
some very, very important election reforms.
    The Chairman. You should know, Mark, there have been a 
number of expressions here, including my own, of compliments to 
the Florida legislature and the governor for moving 
expeditiously with their bill. There have been some who have 
raised some concerns about things that were not in the bill, 
but that aside, as we have been critical about what occurred, 
you should know that members up here have also been very 
complimentary about how fast Florida did move to address, at 
least many of the issues.
    Mr. Foley. And I hope other States follow our lead. This 
is, again, why I want to illustrate, while Illinois was never 
in question, it had 190,000 votes that were discarded. That 
begs the question, were those as important as the Floridians 
who may have voted incorrectly?
    Technology is so critical. I cannot underscore this enough. 
The lottery in Florida is a multimillion-dollar operation. 
Every week they come, and they fill in an optical scanner-type 
card, and every Saturday, without fail, Florida delivers 
results to the person, if they won or if they lost, but we will 
know at 11 o'clock Saturday what the week's total was, who got 
the prize, and if not, it rolls over. When it comes to 
elections, we seem to take for granted.
    I traveled to polling places throughout my region in 
Florida, which of course were alleged to have been confusing, 
difficult, blocked. Nowhere did I find problems during Election 
Day. I traveled between Century Village, Golden Lakes, from the 
wealthiest enclaves to the poorest, the same equipment used in 
each precinct, whether it was minority communities or the high-
brow Palm Beach, they got the same punch card technology. Yes, 
archaic. Bad, yes. Even acknowledged by our own supervisor of 
elections, ``Oh, we have known these problems existed. We just 
did not realize how critical they would become in one fell 
swoop.''
    So again, we are going to voting technology, that is 
important, and that is where again the Federal Government can 
help. Florida is stepping up to the plate with over $24 million 
in an attempt to buy new technology for the 67 counties. That 
is where I think the Federal Government could be immensely 
helpful in matching some of those dollars.
    Again, while I believe in my heart that States have the 
valid function of running the election, the Federal Government 
benefits from a strong State system because they obviously have 
been given the place on the ballot for Federal officeholders to 
run, the U.S. Senators, the members of Congress, and of course, 
the President of the United States.
    The other thing that troubles me is the lack of voter 
education. Motor Voter--and I think Senator McConnell mentioned 
this earlier and voter education was a concern I had in 1992 
when I served on the State legislature elections panel in 
Florida.
    We were not ever concerned with whether the person who is 
signing up to vote, be it at a driver's license bureau or at a 
welfare office, we never seemed to care if they were legal 
citizens of the country. That was troubling to me because we 
were starting to enroll people, consequently now as they are 
purging, they are trying to determine the accuracy of those 
individuals being eligible to vote. You have to have 
citizenship in which to cast ballots. That was a troubling 
aspect of Motor Voter that I do not think we fully vetted. That 
has to be tightened up.
    Also the education component is important, because there 
was a lot of bravado during our Florida elections about how we 
were getting people to the polls in record numbers. We brought 
the minority turnout, in Florida from 9 percent of the total 
vote cast by African-Americans to well over 15 percent in the 
2000 cycle. It was a dramatic increase of new voters, and that 
is heartening. Hopefully the younger people, as you mentioned, 
will join in that same increase in voter turnout.
    But regrettably, many had never voted before and were ill 
equipped to vote for the first time. Few were helping in the 
polls because of the crowds that were generated.
    So all of these lessons learned are instructive. They are 
helpful and they are important. That is why as we proceed down 
the path of the election reform, and I have urged my colleagues 
on both sides of the aisle to take this issue seriously. We may 
have, again, been embarrassed, but the embarrassment should 
bring about a heightened awareness that every vote counts, and 
no matter what the composition of the voter or where they may 
reside, the equipment should be uniform, the instructions 
should be, clearly, understood and given.
    At the end of the day when you close the polls you pray 
that all of the people that were eligible were able to cast 
their vote and nobody was singled out, nobody was treated 
differently, no one created a bias against them under any 
circumstance.
    [The prepared statement of Mr. Foley follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I thank you, Mark. Very good. That is very 
good advice and strong testimony. We have had a good 
representation from Florida here today. Your colleagues, 
Corrine Brown, Carrie Meek, Peter Deutsch, Congressman Wexler, 
and now yourself. I am heartened by it. While there are 
obviously some different opinions, I think all agree that this 
was not an event that occurred at just one time or in one 
place. This is a national problem, and it is one that has been 
going on for sometime.
    But it is so difficult. I do not need to tell you how hard 
it is at a local level with all the priorities mayors have, and 
town committees, boards of aldermen, city councils and 
governors, with the pressures on them to take scarce dollars 
and use them for education, transportation, health, we could go 
down a long list. We have not made enough of a case that an 
election infrastructure which provides the right to vote, which 
is the basis of all other rights, has as high a priority as 
some of these other issues.
    In my own State, we have not had a new voting machine in 20 
years, and we had some of the first voting machines in the 
country back in the 1950s. We have not bought a new one in that 
long length of time. Now they fix them and they work fairly 
well.
    But this is not a Florida issue, or a Connecticut issue, or 
New York or Texas. It is true across the country. Clearly, 
resources are going to be important.
    Now we heard this morning from your colleague, Congressman 
Blunt. He estimates that, if you are really serious about this, 
you are probably talking around $3 billion, maybe more, 
dollars, when you start talking about the thousands of 
precincts across the country and what has to be done.
    I question--if you are going to make that a match, whether 
local folks are going to want to do it and whether or not we 
are going to have, beyond this appropriations process, the 
commitment to appropriate those kinds of dollars even half of 
that, if you wanted to make it a match--without some 
requirement on at least some modest proposals, such as 
provisional voting, sample ballots, second looks and so forth. 
These would not be things that we can say, do it if you like; 
this is a mandate.
    Not to say, here is the voting machine; they get to choose. 
But among voting machines that are accessible to people and so 
forth. You could set national standards and still allow for the 
wonderful diversity that is America not to be lost in the 
process. So I am very anxious to find some common ground here 
we can work on.
    Congressman, you have been very patient. Where is the 22nd 
District?
    Mr. Sweeney. Saratoga primarily, up and down the eastern 
border of New York.
    The Chairman. Great terrific. Welcome.

STATEMENT OF HON. JOHN E. SWEENEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Sweeney. Senator, I appreciate the opportunity to be 
here. You may ask, why is an upstate congressman from New York 
here, and there are a number of reasons. I come primarily 
before the committee to offer my emphatic support for the 
bipartisan Federal Election Reform Act of 2001, a bill that I 
intend to introduce on the House side. I hope to introduce it 
with bipartisan support and a co-sponsor from the other side of 
the aisle.
    I also come to this committee with some experience in 
election law, as an attorney who practiced in New York in 
election law, as a former party official in New York, and as 
one of the folks on the ground in Florida who witnessed 
firsthand many of the problems that we faced there and who was 
deeply troubled by the process as it existed in Florida. As I 
recognized through my number of recounts that I had been a 
participant in in my prior life in New York and New York City 
more specifically, that there is indeed a role for the Federal 
Government and I welcome the opportunity to participate in what 
I think is going to be an important journey on behalf of all of 
us, Democrats and Republicans alike in really defining that 
Federal role and then providing real tangible and specific 
resources to that.
    I happen to agree with your statement earlier in terms of 
how much money it is going to cost, and I do not know over what 
time and specifically what it needs to be used for, but I think 
that this will begin that process of finding those parameters.
    This is an imperfect system, and the imperfections of this 
system are exacerbated substantially by our lack of wanting to 
provide foresight into any of this. This is, as I know, the 
first attempt, serious attempt, on behalf of Congress to step 
into the breach and try to begin to define that.
    As I said, I have worked in a number of areas and a number 
a places and recognized that in most instances many of the 
deficiencies exist because people just had not thought about 
the application of whatever it was that they needed to think 
about. But I also skeptically suspect that in many instances 
those deficiencies exist for purposes. I hope that is not true, 
but I think we are going to begin to define that more clearly.
    If I could, I am going to submit a statement formally that 
talks about the bill and talks about how important it is. I am 
pleased that my colleague from New York, Senator Schumer, has 
joined me, and in fact asked me to join on this bill with 
Senator McConnell, and I think that gives us substantial 
opportunity to pass it and bring public attention to it.
    The Chairman. We hoped you would also do it, Congressman--
Senator Schumer did, and of course, he is a co-sponsor of the 
Conyers-Dodd bill as well. So we would encourage you to co-
sponsor the Conyers bill.
    Mr. Sweeney. We will take a look----
    The Chairman. To truly emulate Senator Schumer----
    Mr. Sweeney. Senator, I just think you wanted to make sure 
I did not come over just for the purpose of measuring the 
drapes. But that is another discussion. [Laughter.]
    If I could respond to my friend Charlie Gonzalez too and 
what he spoke of. I agreed with substantially everything he 
said, and I would make this point, having done 15 years of 
election law and recounts. That we need to cure--we certainly 
need to treat all of the ailments of this patient, because any 
single one of them could be tragic and devastating. It 
certainly would shake the confidence of the American people.
    I think the ultimate in sausage making is the process of 
recounting an election because it does tend to point out all of 
the deficiencies in a system. We have gone far too many years 
not wanting to address those deficiencies. I think it is time 
we Republicans and Democrats, conservatives and liberals, need 
to step to the plate on this, because it is going to have, and 
I think it already has to some degree had a very substantial 
debilitating effect on the confidence of the American people. 
We cannot let that happen.
    With that, I too must return to the House.
    The Chairman. I understand.
    Mr. Sweeney. I want to thank you for the opportunity. I 
will submit my statement and any questions----
    The Chairman. It will be a part of the record, I promise 
you. I thank you for coming over, and I look forward to working 
with you.
    Mr. Sweeney. Thank you, Senator.
    [The prepared statement of Mr. Sweeney follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Sheila, welcome.
    Ms. Jackson Lee. Thank you very much.
    The Chairman. You are the clean-up hitter here. We have 
been at this for 10 hours over two days and we have had a lot 
of very worthwhile testimony. The fact that you are our last 
witness does not in any way diminish the importance of your 
participation and your contribution. You have been active on 
this issue for a long time. At every single press conference, 
at every single hearing that I have attended over the last four 
or five months on this issue, Sheila Jackson Lee has been 
there.
    So we thank you for your tremendous involvement on this 
question. We really are anxious to not only hear your testimony 
today but to count on your participation as we try as quickly 
and as thoughtfully as we can, to craft legislation that will 
be meaningful. And not merely by responding to a problem that 
clearly everyone has identified, but to do so in a way that 
really will have the desired effect of minimizing the kind of 
tragedy we saw occur in this country last year.

   STATEMENT OF HON. SHEILA JACKSON LEE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Ms. Jackson Lee. Chairman Dodd, I cannot thank you enough 
for the perseverance and determination that you have evidenced 
both by the calling of this hearing, marathon of two days, but 
as well the most thoughtful legislation that you have proposed, 
S. 565 and H.R. 1170. I am, I guess, described as being last 
but not least.
    The Chairman. Absolutely.
    Ms. Jackson Lee. I have left a Judiciary Committee markup. 
I appreciate the committee's indulgence and the fact that it 
was a marathon. We are marking up H.R. 7, Charitable Choice, 
and of course you realize the constitutional ramifications of 
that legislation.
    But I think that legislation may be symbolic of what we do 
here today. The people embrace the question of freedom of 
religion, but they also embrace the question of the fact that 
we are a nation that advocates and encourages the practice of 
one's faith. Those two dilemmas have to be joined together as 
to how we are able to maintain the concept of freedom of 
religion and at the same time possibly respect those efforts 
being made by the religious community.
    This hearing speaks to that dilemma, which is that it is 
well known that an election is a political process. You are in 
a race and you want to win. Invariably, many times the tactics 
that have been used are all attributable to the idea of, it is 
the best man or woman wins. Whoever can get to the finish line 
first, whose tactics overcome the final counting.
    But on the contrary, I think that we are blessed by the 
fact that we live in a democracy. Starting from the early days 
of our Founding Fathers where they characterized the importance 
of voting, one person, one vote. I know this hearing started 
out with a number of senators, and I appreciate the fact that 
we now are looking at the remaining senator who happens to be 
the chairperson. One might describe your leadership in many 
ways, but it might be characterized in this session as one 
vote, one person. And one person has the ability to move the 
world.
    So I view this hearing as an enormously important 
recharacterization of America's commitment to the Fifteenth 
Amendment, and a restatement that the Fifteenth Amendment, 
though narrowly described in its writing, applies to everyone; 
senior citizens in West Palm Beach who I spoke to, Hispanics in 
San Antonio who I spoke to, and traveling throughout the 
country on hearings, Polish in Chicago, and just plain folks in 
Philadelphia, who came forward in hearings that I participated 
in and argued that the system was broken.
    I spent more than 20 days in Florida, in a variety of 
capacities. One, overseeing the recount, being in the room when 
the judge in West Palm Beach called to the secretary of state 
at 7:14 on a Sunday night asking and begging, would you allow 
these final votes to be counted. Of course we know the story 
there. And I would suggest that Florida is not the only story. 
Those votes were not allowed to be counted because they had 
missed the 5:00 p.m. deadline set forth by the secretary of 
state of Florida when they were doing the recount.
    But I think what that emphasized for me was the fact that 
we could cavalierly discard a vote count, or the votes of any 
person. When I left that room I spoke to some senior citizens, 
who did not look like me, women who lived in West Palm Beach 
who said, I know for a fact I voted for the wrong person 
because of the butterfly ballot. Of course, we did not have 
that terminology then.
    So I believe that Federal standards are imperative. Because 
if I can go from Florida to Chicago to Philadelphia and back 
home to Texas and find that citizens are confused by balloting, 
then this rises above a question of race or ethnicity. It says 
that the American people are being denied their right to vote.
    I am always reminded of the civil rights movement when it 
was said, leave it to the States, States' rights, something we 
hear quite frequently in the House Judiciary Committee. But we 
know that it had to be the Federal Government who began to 
reaffirm the constitutional privileges and rights of all 
citizens. So Federal standards would not be a burden, and that 
is what the legislation that we have before us would emphasize, 
that Federal standards would be important.
    That the emphasis would not only be on technology, but it 
would be on a variety of elements to contribute to people 
understand how they could vote. The distribution of the sample 
ballots, so that one printed in the newspaper, which I have 
seen many voters bring to the polls, would not be completely 
contrary to what they would utilize in the polls.
    This past two months my office sat as a member of the team 
in Harris County trying to select who would be our electronic 
voting contractor. All energy was placed upon that source, of 
who it would be and the technical aspects of its particular 
usage.
    But in addition to that, we must ensure that the voter is 
confident and educated about voting. Standards help give us a 
sense of calm. Incentives help provide the encouragement to 
local governments, who may not be the New Yorks, or even the 
Houston Harris Counties, the Los Angeles, who have the 
resources possibly to do their own system. What about the 
hamlets, both urban and rural, who are in need of those kinds 
of incentives?
    I think it is important to have a commission to be able to 
secure data. I have legislation that includes that as well, but 
I think this is important to be able to do that. And I think we 
should emphasize the fact that we are here to elevate the 
Voting Rights Act of 1965, which I am clearly a product of. A 
product of that because it eliminated the last vestiges of 
preventing people of color, or inhibiting anyone on the basis 
of race, color, or creed, the right to vote.
    Out of that 1965 Voting Rights Act and the redrawing of 
districts in 1970, this very seat that I sit in was created, in 
1970, and therefore, the first holder of the seat was Barbara 
Jordan. This particular seat is only about 28 or so years old. 
It generated because it elevated the numbers of minorities who 
had the right to vote in Houston, Texas. So I believe that we 
benefit from the fact of having those requirements coming from 
the Federal Government.
    Might I also say that it is important that the teeth be put 
in this particular legislation by funding. I was disappointed 
to note, at least in the early stages of the President's 
budget, that there was no funding proposed for election reform. 
I do believe it is important on our behalf to secure that 
funding, and find it both in this body and in the House, though 
it is run by two different parties.
    Let me cite very briefly some indignities that were 
experienced by the individuals who did not vote in Florida, but 
also as I listened to testimony around the country we saw it 
everywhere. Citizens who were properly registered but were 
denied the right to vote because election officials could not 
find their names on the precinct rolls. That registered voters 
were denied the right to vote because of minor discrepancies 
and clerical errors.
    That first-time voters who sent in voter registration forms 
prior to the State's deadline for registration were denied the 
right to vote because their registration forms were not 
processed. That African-American voters were required to show 
photo ID while white voters at the same precincts were not 
subjected to the same.
    And while voters of color in Florida in particular were 
singled out because of some mishap we are told for suggesting 
that they had a criminal reason for not being able to vote, we 
are told that the computer company that was utilized had sent a 
corrected list to take off individuals and it had gone to the 
State. But yet in their testimony before the U.S. Civil Rights 
Commission they felt that it had not gotten to the local 
elected officials that were presiding over the local elections 
in the various counties and cities. That, however, denied a 
large number of individuals the right to vote.
    As I conclude let me simply say that the President himself 
has emphasized that this is an America that everyone deserves 
the right to vote. I would hope that what he is generating is a 
bipartisan effort to be supportive of this kind of legislation.
    For example, I would say that the provision dealing with 
provisional voting answers many questions, because it will 
answer the question of whether or not you can find someone's 
name who may be off because of clerical reasons that you may 
suggest. It might even allow a courageous person to go ahead 
and say, though you find a criminal reason, I am going to sign 
an affidavit because that is not me. I would encourage voters 
and citizens to do so. This legislation would allow such, with 
provisional voting, to be able to take that extra step.
    Interestingly enough, under the old Florida law you had to 
leave the polling place, as in many other jurisdictions, and go 
to a courthouse. In my community, you have to wait by a phone 
that has probably 3,000 phone calls coming into the county 
center, to get on the line and be able to argue your case. Most 
times you were never able to get through.
    So I encourage the use of provisional voting, and I would 
like to encourage the look for an additional provision. That 
is, the heinousness of purging.
    One of the most moving testimonies that I heard was a 
Hispanic woman who could still not speak English but had been 
in this country for many, many years. She came as a senior 
citizen. And when she went to vote, motivated and inspired by 
the election of 2000 she took her card, or took what she 
thought was a viable card, her address, and she went with all 
her dignity and courage in San Antonio, Texas to vote. And 
almost like saying there was no room at the inn, they told her 
she could not vote.
    But she could not speak English. And for the life of her, 
she knew she was a citizen, but she could not vote. Probably 
because she had not voted in one or two local elections.
    I would argue the consideration of a 10-year disallowance 
of purging for a citizen of the United States who is 
registered. By the new technology one could check whether or 
not they were still residing at maybe the same house; they 
could use their address. Therefore, even if they missed a local 
election--Federal elections are so important, that to purge 
someone off the list, and the notice may have gone to a 
previous residence, is really a deniable of citizenship rights. 
I would argue vigorously for some relief as it relates to 
purging.
    In my community alone, the State of Texas, we had some 
700,000 purged from the voting rolls. What an insult.
    I would also say that as it relates to education, I have 
legislation, H.R. 934, to ask for a holiday on the second 
Tuesday of the fourth year. Why do I say that, Mr. Chairman? 
Not only for a holiday for people to say that is frivolous, do 
not do that. But the level of opportunity for people of all 
walks of life to work at the polls. High school students, 
college students, white collar workers, blue collar workers, 
others who are otherwise obligated, as opposed to a Saturday, I 
think would be extremely helpful.
    The education of the voter would be helpful because you 
would then have people who might be spared at the polls to 
actually be there to help assist people, as opposed to the 
shortage that we usually have.
    Sometimes they say that lawyers and ministers have two and 
three times to close, but Mr. Chairman, I promise you that I am 
closing. Let me simply say that it is important to have 
legislation to emphasize the vitality of the right to vote. I 
do acknowledge the legislation by the ranking member, Mitch 
McConnell, and I thank him for introducing such legislation. I 
hope ultimately we will come to a conclusion to work together.
    But with my legislation of H.R. 934 and H.R. 60, I am 
certainly enthusiastic about the legislation that you have 
proposed along with my ranking member. I will simply say that 
the Fifteenth Amendment of the Constitution tells us that the 
Congress shall have the power to enforce this Article by 
appropriate legislation. Certainly jurisdiction precedes the 
creation of this legislation before us.
    I would like us to make a commitment to the American 
people, and to those of us who experienced gratification at the 
passage of the Voting Rights Act of 1965 and the Civil Rights 
Act. It changed my life and the life of my family, and the life 
of those who have had a history similar to mine.
    I believe that Americans should look at this election 
reform as their birthright, and it should not be color-coded. 
They should recognize that votes are important. Elections are 
political, but the right to vote is imperative, and I believe 
it is imperative that we pass this legislation. I look forward 
to the House Judiciary Committee holding such hearings and this 
legislation being passed post-haste, immediately.
    [The prepared statement of Ms. Jackson Lee follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very, very much. I should have 
noted as a matter of truth in advertising that your involvement 
and your time in Connecticut is something we cherish as well. I 
know that the folks at Yale University take great pride in your 
accomplishments over the years, Congresswoman.
    Barbara Jordan was a great friend of mine. I served with 
her on the House Judiciary Committee years ago and enjoyed her 
friendship immensely. We served on the same subcommittee 
together dealing with constitutional rights when I was a member 
of the House. So you come from a great tradition, and it has 
been a joy to serve with both of you. Your ability, both of 
your abilities, to articulate issues and to explain the 
feelings of people are tremendously important.
    I wanted to mention two things; one on the holiday issue, 
and I have talked about this. Senator Hollings here has 
expressed strong interest in a similar proposal, and others 
have as well, choosing different times.
    My feeling was that in part of my bill we form a 
commission, one serving for a relatively short period of time, 
to make some recommendations. Because there is some division 
over whether or not Election Day ought to remain the same, 
occur on a weekend, be a holiday. So we leave that for the 
commission to make some recommendations as part of a larger 
package of proposals. But certainly that is one that I think 
has great merit, and many countries have tried it.
    One of the things we ought to look at is what people are 
doing in other countries. We always send observers from America 
to watch how other elections occur. It might not be a bad idea, 
given the results of last year, and some of the stunning 
positive results in other countries. Brazil is one nation that 
has now a tremendously high voter participation rate and almost 
a non-existent fraud rate as a result of fundamental changes 
they have made in their process. We in this country can learn 
from others, just as they have learned from us. So it might be 
worthwhile.
    I had one question for you because of your wonderful 
knowledge of the Constitution and your role on the Judiciary 
Committee. Maybe I have not articulated this question well 
enough. It goes to the equal protection clause, but it also 
relates to the notion that elections are purely local matters. 
I have heard on numerous occasions over the last two days that 
historically we leave the conduct of elections to local folks. 
That these are local matters, and that the Federal Government's 
involvement is really an excessive intrusion into what has 
historically been a local decision-making matter.
    I have tried to make the case--and I am not asking you to 
necessarily agree with me, because you may disagree--but that 
certainly on presidential elections, and elections involving 
the national legislature, they are federal issues. Of course, 
they usually occur along with elections the effects of which 
are purely local in matter: deciding who will be on your local 
board of education, who may be the mayor of your town, or in my 
case, the first selectperson as they call them in Connecticut, 
which I know you are familiar with, or the State legislature. 
But rarely is there an election that occurs that does not have 
people being elected to local, State, and Federal offices. It 
happens occasionally, but on most elections on that day we are 
choosing people to serve at the national, State, and local 
level.
    So my point is that, particularly with the Electoral 
College, when there is a major collapse in one State, it 
affects the outcome of congressional or presidential elections. 
The point I have tried to make, and I do not think with 
necessarily any great success, is that that does affect the 
rights of a voter in another jurisdiction, even if that 
jurisdiction has not suffered from the same problems.
    So the idea that a failure at one level does not affect the 
results on other levels, or in other places, is just untrue, to 
put it mildly. But maybe you can articulate this better than I 
can, if you agree with me. That this idea that the Federal 
Government's role is really one that has no place here, I think 
is fundamentally flawed reasoning. But I wonder if you might 
comment on that?
    Ms. Jackson Lee. As you know, Mr. Chairman, we have gone 
through these arguments through the decades as it relates to 
the Federal Government's balance between State and Federal, and 
I would argue, surprisingly I guess, your position.
    I would view it from the perspective of the utilization of 
the Electoral College. No local election requires an extra 
body, on a school board, or selectperson, or council member, or 
State legislators, do not have to go somewhere else to be 
confirmed, if you will, as the President of the United States 
position that draws from the body politic of the entire Nation.
    Therefore, if one--this is probably--it may be more of a 
politic argument, and I will get to the legal argument. But if 
one aspect of the Electoral College is flawed, then it does in 
fact impact the ultimate result, which is a Federal question, 
political question.
    I have cited the Fifteenth Amendment which has to do with, 
at that time, the slave amendments, giving the right to vote. 
But it did provide the suggestion that legislation that might 
be necessary to ensure that, which is the basis upon which the 
Voting Rights Act of 1965 was crafted. There was no basis to be 
able to say, let's craft a colored person's initiative, might I 
be unpolitic, if you will. We had to find some grounding in the 
Constitution, or the legislators had to find some grounding in 
the Constitution.
    I believe you have grounding in the Constitution now 
because you are protecting the right of any person to vote, and 
that is regardless of color or creed. So this election reform 
rises to that level, Fifteenth Amendment, and might I say, the 
Fourteenth Amendment on equal protection. Because I would argue 
that your election reform legislation is to give equal 
protection to all because it is not labeled. Because if the 
little lady that I spoke to, Jewish lady in fact, who was in 
tears, that I met in West Palm Beach, who just knew that they 
had voted incorrectly once they left the polls and it dawned on 
them with their analysis that they did not vote properly. So we 
had an unequal opportunity for them to have their vote counted.
    I would say to my good friends who believe that all issues 
are States issues, that if nothing else, the Federal Government 
has a right to protect its American citizens. And if any way 
they feel violated, or that they feel that their right to vote 
has been denied, I think we have cause to come in and reform 
it, and fix it, because it provides or it adds to national 
policy.
    So I would argue that we do have grounding and that in many 
instances--and I think you have been very judicious in where 
you have emphasized the corrections; national standards. You 
have not tried to govern days in the local community, and when 
someone might vote, or how you run your elections, whether you 
are in a barnhouse or you are in a tent, I assume. There are 
certain national standards that we want to ensure that people 
have the right to vote. If they are in a tent voting or in a 
barnhouse voting, that is acceptable to us.
    So I think there is a distinction, and I would argue the 
case vigorously, but that this is somewhat analogous to the 
civil rights movement in that we were seeking to correct 
denials, and we are seeking to correct what has now been 
prohibitions or denials; language barriers, structural barriers 
as it relates to people with disabilities, who I have listened 
to who were appalled that they could not access places in 
Florida. Florida was highlighted. They probably could not 
access places in Chicago or places in Jackson, Mississippi. My 
friends who hear me calling the names of their cities, it is by 
no way a negative other than to cite examples; Houston, Texas, 
Dallas, Texas.
    So I think it is important that we try to correct the 
elements that would keep individuals from the right to vote.
    I started by saying that elections are political. The right 
to vote is not. I want to win on election day, and I may be in 
a different party. But the right to vote is not.
    The Chairman. Thank you immensely. I apologize for keeping 
you a little longer, but you are so articulate and explain 
things so tremendously well, that it was valuable to have your 
testimony. You are hardly the least. You may have been the 
last, but you are hardly the least.
    Ms. Jackson Lee. Your patience is very kind. Might I add my 
appreciation to you and your staff. They have been dutiful in 
their efforts in working with members. You already gave the 
percentages of members. That is why they are holding the vote 
in the House because they knew that we would be engaged 
elsewhere in front of this very, very august body. I thank you 
very much.
    The Chairman. Thank you very much, Congresswoman Sheila 
Jackson Lee from Texas. We thank you.
    That concludes the hearing. The record will stay open for 
additional questions or comments that people may have. We have 
some specific dates by which the questions should be submitted 
and responses should be made so that we can complete the 
hearing record on this day.
    We are going to have an additional hearing, at some point 
here after the July break, for members of the Senate. Senator 
Bond of Missouri has expressed an interest in being heard by 
the committee. I know that Senator Clinton of New York has 
expressed a similar interest. My colleague from Connecticut, 
Senator Lieberman, who had more than just a passing interest in 
the events of last fall, I am confident would like to be heard 
as well, and I know there are others. So I am going to try and 
allocate some time when members of the Senate can also be heard 
on this issue.
    Then my hope is to be able to have some field hearings, to 
take this issue out over the month of July and in August, maybe 
early September if necessary, with a goal in mind of working 
towards a markup of legislation in the very early part of fall, 
after the August break, to present to our colleagues at an 
appropriate time in consultation with the leadership, Senator 
Daschle and Senator Lott.
    But we will clearly have an opportunity to vote on these 
matters soon. My hope is that we can come to some meaningful 
compromise that will allow this legislation to go forward and 
be submitted to the President so that by the year 2002 there 
will be resources available and some clear guidelines, national 
guidelines, national standards, to improve the quality of our 
elections and increase the participation of all eligible 
Americans.
    With that, this committee will stand adjourned until 
further call of the chair.
    [Whereupon, at 3:33 p.m., the committee was adjourned.]
    [Submissions for the record appear in Appendixes 45-47 for 
the record.]













                            ELECTION REFORM

                              ----------                              


      FIELD HEARING IN ATLANTA, GEORGIA ON ELECTION REFORM ISSUES

                              ----------                             


                         MONDAY, JULY 23, 2001

                                       U.S. Senate,
                     Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:27 a.m. in room 
2306, Richard B. Russell Federal Building, 75 Spring Street, 
Atlanta, Georgia, Hon. Christopher J. Dodd (Chairman of the 
committee) presiding.
    Staff Present: Kennie L. Gill, Staff Director and Chief 
Counsel; Veronica M. Gillespie, Elections Counsel; Carole 
Blessington, Administrative Assistant; Mike Malone, 
Professional Staff Member; Laura Roubicek, Committee Intern; 
Marvin Fast, Senator Dodd Staff; Tam Somerville, Republican 
Staff Director; Brian Lewis, Republican Chief Counsel; Joel 
Whitley, Republican Staff; Bill Chapman, Senator Cleland State 
Director; Donnie Turner, Senator Cleland Staff; Thom Williams, 
Senator Cleland Staff; Jeff Schoenberg, Senator Cleland Staff; 
Patricia Murphy, Senator Cleland Staff; Matt McKenna, Senator 
Cleland Staff; Elsie Hand, Senator Cleland Deputy State 
Director; Trey Ragsdale, Senator Cleland Staff

OPENING STATEMENT OF HON. CHRISTOPHER J. DODD, CHAIRMAN, A U.S. 
             SENATOR FROM THE STATE OF CONNECTICUT

    The Chairman. Good morning. The Committee will come to 
order.
    This is a hearing of the United States Senate Committee on 
Rules and administration. My name is Chris Dodd, I'm a United 
States Senator from southern New England--I'll say that here, 
from the State of Connecticut. It is truly an honor to be in 
this great city and this great state and to be sharing this 
dias, if you will, with my wonderful friend, Max Cleland, who 
is a wonderful member of the United States Senate and does a 
remarkable job on behalf of the people of Georgia, as well as 
citizens all across this great country of ours.
    Just as a side note, I should tell you that being in the 
Richard B. Russell Federal Building is a unique and special 
pleasure, in that my father, who was a member of the United 
States Senate for a number of years back in the 1960s, was--his 
best friend in the United States Senate in those days, or one 
of his best friends in the United States Senate, was Richard 
Russell, Dick Russell of Georgia. And so the fact that his son 
is sitting in a courtroom named for Richard Russell in the 
state of Georgia holding a hearing this morning as Chairman of 
the Rules Committee is a very special honor and privilege. I am 
just truly honored to be in this great state.
    So I thank all of you for coming out here this morning, and 
I particularly thank my good friend, Max Cleland, for sharing 
the dias with me. I asked Max to be here, this is at my request 
as a Chairman. Max has graciously agreed to assist me in 
chairing these hearings here this morning and I appreciate the 
considerable effort that Senator Cleland has made, along with 
members of his staff, to welcome us here to Georgia this 
morning.
    This morning the Senate Rules Committee has come to Atlanta 
to conduct a hearing on the issue of election reform. To the 
Committee's knowledge, today's hearing is the first field 
hearing on this subject conducted by any Congressional 
committee in the 107th Congress--a field hearing. I might also 
add that this is the first time in the memory of the Committee, 
the staff, that the Rules Committee has conducted a hearing on 
a legislative issue outside of Washington, DC. So this hearing 
is unusual, if not unprecedented--and for good reason.
    Last year's election was, in its own way, unprecedented as 
well. The evidence is piling up--Florida was not an aberration. 
What happened in that state happened everywhere, north and 
south, east and west in our country. American's were deprived 
of their sacred and solemn right to vote, not by the hundreds, 
the thousand or even the tens of thousands, but by the 
millions. Just last week, researchers at two of those highly 
respected universities in our country--MIT and the California 
Institute of Technology--released a study on the November 2000 
election. Those studies or that study found that between four 
and six million Americans who would have or who tried to vote 
were unable to have their votes counted in that election. 
Millions of Americans trying to do their civic duty were turned 
away and denied.
    The reasons for their disenfranchisement ran the gamut, 
ranging from inaccurate registration rolls to polling places 
that could not accommodate the blind, the disabled, the 
language minorities, to faulty equipment and confusing ballots. 
Think of the ripple effect, if you will, of that kind of 
massive denial, the millions more who may have been discouraged 
from even trying to vote, based on the stories that their loved 
ones, friends, fellow employees were bringing home or to their 
offices on election day.
    Another analysis published last week in the New York Times 
showed that in Florida overseas absentee ballots, including 
from our men and women in uniform, were less likely to be 
counted if the voter was registered in a county with a 
Democratic majority than if he or she were registered in a 
county with a Republican majority. Instead of giving the 
benefit of the doubt to votes of overseas military and civilian 
voters, those votes were less likely to be counted if the 
voters were more likely to vote Democratic. That hardly seems 
fair to our men and women in uniform and others who cast their 
absentee ballots overseas.
    And lastly, a third recent study has shown that across the 
country, the votes of the poor and minority voters were more 
than three times as likely to go uncounted as the votes of more 
affluent, non-minority voters.
    So but for the closeness of the Presidential contest, what 
happened in Florida is not unlike what happened in Georgia. And 
what happened in Georgia is not unlike what happened in states 
throughout America. Let me emphasize as clearly and as 
unequivocally as I can that we are not here in Atlanta this 
morning to debate the outcome of the election of 2000. That 
contest has been decided and all of us respect the office of 
the presidency. We accept totally that the occupant of that 
office is George W. Bush and that his presidency is legitimate. 
Whether or not you voted for him or not, he is our President 
and our commander in chief, and that is not in debate.
    This hearing is not about a president or the legitimacy of 
a presidency. It is really about a process, a process that we 
have come to learn is deeply flawed; a process, in my view, 
that has become scandalous in this country and in deep need of 
reform. In a sense, there is no better place that this 
Committee could have traveled than to Georgia. We can learn not 
only about what went wrong last November, but just as 
importantly, we can learn what the people of this fine state 
are doing to make things right when the next election comes 
around.
    I am very well aware that Georgia is the first state in the 
nation to enact meaningful reform in the aftermath of the 2000 
election. The Governor, the Secretary of State who is with us 
here this morning, the state legislature and all of the state's 
citizens, in my view, from this Connecticut yankee, are to be 
commended for the tremendous effort you have made in Georgia. 
And I look forward to learning more about Georgia's reforms and 
how we at the Federal level can assist in implementing them.
    Senator Cleland is, in a sense, one of the Senate experts 
on this subject. As Georgia's former Secretary of State, he 
brings a unique understanding of election issues. For that 
reason, I am proud that he has co-sponsored legislation that I 
have introduced, along with John Conyers of the state of 
Michigan from the House of Representatives, Senate Bill 565, 
the Equal Protection of Voting Rights Act of 2001. Senator 
Miller, Zell Miller, the former Governor of this state and also 
our colleague in the Senate, has also co-sponsored that 
legislation.
    Senator Cleland has also introduced his own bill, the Make 
Every Vote Count Act. It would make grants available to the 
states for the purposes of updating and improving the voting 
systems and strengthening voter participation. And it would do 
something else that I think is critically important and must be 
included in any legislation that is adopted by the Congress of 
the United States, it would strengthen the law so that every 
soldier is afforded every chance to vote and have his or her 
vote counted. That is the least that we can do for our men and 
women in uniform.
    So I look forward this morning to working with Senator 
Cleland to hear the testimony of the witnesses who will appear 
before us, and then to go back to Washington and move forward 
on our legislation. It is critical that we do so soon, in my 
view, so the Federal Government can step up and play its part 
in assisting states like Georgia, our men and women in uniform 
and citizens across this country who were disenfranchised last 
November 7. It is critical that we do so before another Federal 
election is held, and it is critical to do so in a bipartisan 
fashion.
    I am pleased to announce this morning that the Equal 
Protection of Voting Rights Act has that kind of support. 
Republicans--John McCain in the Senate; Connie Morella in the 
House--have endorsed our bill's provisions. And just last 
Thursday, Independent Senator Jim Jeffords of Vermont joined us 
as a cosponsor.
    Just as you have done here in Georgia, we in Washington are 
committed to enacting meaningful reform that has the support 
across party lines. We understand that the states need 
resources to implement their own reforms and we need some basic 
minimum standards, in my view, so that every polling place 
allows every voter an equal opportunity to cast a vote and then 
to have that vote counted.
    Those are the kinds of standards that Georgia has already 
adopted. Hopefully, they are standards that the rest of the 
country will adopt as well. The first lesson we learn as 
children about being American citizens is that every vote 
counts. Last year showed that America has not yet put that 
lesson fully into practice. The time is long past due to 
guarantee to every eligible American an equal opportunity to 
vote and an equal opportunity to have that vote counted.
    I welcome our witnesses here today and before inviting them 
to join us at the panel in front of us, I would ask my good 
friend and colleague, Max Cleland, for some opening comments.

OPENING STATEMENT OF HON. MAX CLELAND, A U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Cleland. Thank you very much, Mr. Chairman. We want 
to welcome all of our guests this morning, especially our 
panelists. Thank you very much for coming to Atlanta and coming 
to Georgia because all the problems that you have articulated, 
in Florida and around the nation.
    We have our challenges and our problems, but Georgia has 
taken action and we look forward to hearing from Secretary of 
State Cathy Cox on some of the action that our state has taken. 
But the State still needs funding from the Federal level 
because basically when county commissions and city fathers get 
together, their first order of priority in terms of where they 
spend the property tax dollars is not better election 
equipment. There are so many other pressing needs--education, 
law enforcement and the like--that election equipment seems to 
become last.
    But here, we want to put it first because basically, as 
Patrick Henry has so aptly put it--Thomas Paine actually--the 
right of voting for representatives is the primary right by 
which other rights are protected. If we let this voting rights 
issue slip, if we do not act now in terms of capturing the 
moment when people are focused on the need for improving our 
voting process, it might be years before we really devote the 
time, attention and money that it is really going to take to 
straighten it out.
    I will say that the very first election I ever participated 
in as a voter was the presidential election of 1964 in my 
hometown of Lithonia in DeKalb County. Then, we had something 
called the brand new punch card voting system. Up until that 
point, we had used the old Thomas Edison voting machine 
invented around 1900, but the punch card system was new. And 
within a matter of months in the general election of 1966, it 
got DeKalb County and the Fourth Congressional District in deep 
trouble.
    So initially, as the voting on the punch card system was 
introduced in my home county, there was a Congressional race 
that was very close. Congressman Jim Mackey ran against Ben 
Blackburn. Mr. Mackey received some 1,200 over-votes--not 
under-votes. Back in those days, you could vote straight party 
and then go down the ticket and there was the candidate. On the 
punch card system, you could, in effect, vote twice. On the old 
Thomas Edison voting machine, you could not vote for the same 
candidate twice. So there were 1,200 over-votes. Those votes 
were thrown out and Mr. Mackey was unseated by 300 votes.
    So we had a Constitutional challenge right there as soon as 
the votomatic was introduced. I will say that later on when I 
became Secretary of State, we constantly had problems with the 
punch card system and now it gives me great concern that 
Georgia has some 18 counties still with the punch card system, 
including my home county of DeKalb. And we will hear from 
Vernon Jones, the CEO of DeKalb here in just a moment, but I 
think it is one of the reasons that Georgia had some 95,000 
under-votes in the last Presidential election. So I have been 
dealing with this problem myself personally for quite awhile.
    I was in the military and then I was in Vietnam and I had 
to struggle with that stylus and that punch card system on an 
absentee basis, and I guess now that I am in the Senate and 
involved with this legislation here that Senator Dodd is 
talking about, I want to finally provide a knockout punch to 
the punch card system.
    As many of our witnesses will testify, the good news here 
in Georgia is that we are now headed down a different path 
because of the leadership of Governor Roy Barnes and Secretary 
of State Cathy Cox. Both of them have been truly, Mr. Chairman, 
national leaders who have actually risen to the challenge 
during the debate on election reform. Not only has Secretary of 
State Cox conducted exhaustive research on the shortcomings of 
the last election, she has also provided solutions with 
bipartisan support and a results-oriented approach.
    While the choice of voting systems and the means for 
assuring the voting rights of service members and disabled 
citizens are primarily a matter for state and local 
decisionmaking, I do believe that an infusion of Federal funds 
can and will make a critical difference in helping states make 
the changes necessary. I think as a matter of fact, I have 
heard Secretary of State Cox and the Governor express the fact 
that if we do not get some Federal help, as well-intentioned as 
we are here in this state, we will not be able to make every 
vote count. That is why I am sponsoring legislation to provide 
a $1 billion Federal fund block grant to modernize voting 
systems, promote uniformity in voting equipment within states 
and require greater standardization in assuring the voting 
rights of military personnel abroad. It is designed to be 
complementary to other sweeping legislation, including your 
bill, Mr. Chairman, which I strongly support.
    The tragedy I think of the punch card system is that about 
a third of all the citizens in America have to undergo and 
endure this system. You see this on the chart right here to my 
right. My bill would give the states and counties, which choose 
to do so, the financial assistance really necessary to acquire 
these systems before the next general election.
    It is important to note that machines themselves are not 
the only problem. Because many voting errors are caused by 
inadequate training of election workers or education of voters 
in how to properly cast valid votes, my bill would allow up to 
one-third of the grant funds to be used for those purposes.
    On the issue of making every vote count on election day, we 
cannot go forward without considering how our service personnel 
are treated in this system. Having again been one who was out 
of this state for almost four years and certainly a year in 
Vietnam having to deal with the system in those days and seeing 
the challenges now, it is ironic that the very people we call 
upon to defend the ballot are the very people who might not 
feel comfortable now that their own ballot in their own country 
is counted. Witness what happened in Florida. Again, the New 
York Times just pointed out that not only was there a problem 
statewide in Florida, but that it depended on what county you 
were from, whether that ballot was accepted or not. So there 
were differences among counties. We really should not put our 
service personnel through that.
    So I have asked, along with Senator Warner, Levin and 
Hutchinson on the Armed Services Committee--I have asked the 
General Accounting Office to come back and give us a detailed 
study on how we might improve military voting. An interim 
report has concluded that there are problems in how the 
military has handled its voting program. I might say that in 
terms of Florida, the New York Times pointed out that these 
ballots were ``judged by markedly different standards, 
depending on where they were counted.''
    So in addition to our request to the GAO last November, 
Secretary of Defense William Cohen commissioned a report by 
DoD's Inspector General on how the department oversees absentee 
ballot program functions. As a matter of fact, the DoD IG found 
that the Federal Voting Assistance Program and the Services 
Voting Assistance Program had problems. The IG recommended 
several things: (1) Improved oversight of the program; (2) 
improved consistency among the various services; and (3) 
continuing to work to standardize and simplify the absentee 
ballot process.
    As a matter of fact, the IG report stated that several 
bills are being considered in Congress to improve the absentee 
voting process. The report indicated, ``We fully endorse,'' 
according to the report, ``any Federal or State actions that 
would lead to more uniform and simple voting procedures and 
requirements, thus reducing the burden on DoD voting 
assistance.''
    I have included some language in my proposal to improve 
ballot access for our military personnel. Section 3 of my bill 
is included in the Chairman's bill. These provisions require 
that for purposes of voting, no military member be deemed to 
have had a change of domicile or residence solely because he or 
she had to be absent due to military orders. Furthermore, that 
states and localities must permit absentee voting by uniformed 
service members in state and local elections as well as Federal 
elections.
    I believe any election reform proposal must seek to ensure 
the voting rights of our service men and women to protect those 
very rights.
    Finally, we have got to also recognize and respond to the 
difficulties in voting by people with disabilities. Based on 
figures compiled by the National Organization on Disability, no 
minority is more affected by the nation's inadequate voting 
system than those with disabilities. Example, an estimated 
eight million individuals of voting age with visual impairments 
have never been able to cast a secret ballot. In addition, 
polling place inaccessibility and machines that are difficult 
for voters with disabilities to operate are among the problems 
that must be solved as part of any Federal election reform 
effort.
    The goal of making every vote count should be one of the 
highest priority of all levels of government.
    Mr. Chairman, thank you for coming here to Georgia. Through 
your legislation and through this hearing, I think you are 
helping to move the ball forward and I thank you for your 
leadership on this issue and I look forward to hearing the 
testimony of our witnesses. Thank you very much.
    The Chairman. Well, thank you, Max, very, very much. You 
have added tremendously to this debate already and I will just 
tell you right here this morning that your provisions dealing 
with our men and women in uniform, we are going to include in a 
modified version of our own bill, in addition to what you have 
written, so that one way or another, those provisions are going 
to be a part of any legislation that is adopted by Congress.
    I should point out, by the way, that a good friend of yours 
and mine, the former Mayor of Atlanta, Mayor Maynard Jackson, 
has come into the room. Mayor, we enjoy seeing you here this 
morning, dear friend, welcome as always. Charles Lester, who is 
the co-chair of the Lawyers Committee for Civil Rights and the 
law, and a strong supporter of election reform is here as well, 
and we thank you for joining us this morning.
    I want to thank Senator Cleland's staff as well, who have 
been tremendously helpful in putting this hearing together this 
morning. There are a number of them and we will put their names 
in the record to reflect their participation. I want to thank 
Kenny Gill of my office; Ronnie Gillespie and others who have 
come down for the Rules Committee.
    Senator Mitch McConnell, the former chairman of this 
committee and my good friend from Kentucky is not here with us 
this morning. Senator McConnell has introduced legislation, 
along with Senator Schumer of New York and Senator Torricelli 
of New Jersey and others. There are a lot of similarities 
between our bills; there are differences that are included in 
the two pieces of legislation. But his staff are here with us 
this morning--Tam Somerville, Brian Lewis and Joel Whitley from 
the Republican staff of the Rules Committee, and I am very 
grateful to them for being here this morning to be a part of 
this hearing. Thank you for coming down, and I know Senator 
McConnell and others will be interested in the testimony that 
we hear this morning.
    And as Senator Cleland has pointed out, for those of you 
not familiar with all the provisions of these various bills, 
just to repeat, the bill that I have introduced along with 50 
other co-sponsors in the Senate and that Congressman John 
Conyers of Michigan has introduced in the House includes a 
mandate for national standards, a mandate of provisional 
voting, a mandate that would require voters to be able to see 
their ballots after they voted, and a requirement that there be 
sample ballots. There are provisions in there for a commission 
and other points, but those are the major points in the 
legislation.
    Again, these are not what I consider necessarily radical 
ideas at all, when you are talking about a Presidential 
election, election for the national assembly. Obviously, if in 
one jurisdiction, voters are denied the right to vote on a 
Presidential race, for whatever reason, that have a right to 
vote, then obviously voters all across the country are affected 
by that. These are not just decisions where we are talking 
about local decisionmaking. When there is a vote in the 
national assembly and those votes are denied, that affects the 
entire national assembly. And so the days when we talked about 
matters being totally local when it comes to election matters 
are long since behind us as the results of last fall and 
previously to last fall indicate.
    So with that, Max, let me invite our first panel of 
witnesses, and Juanita, my timing is beautiful. I know you had 
a hard time getting in here this morning and so we are grateful 
to you for making it. I was sort of filibustering here until 
you got along. I do not know if you know a Senate filibuster 
when you see one, but you just were witnessing one here a 
little bit. [Laughter.]
    But we are grateful to all of you. Let me introduce our 
first panel. These are people who are going to talk about what 
went on in terms of their own point of view as they saw it. I 
hope I pronounce this right, is it Anil Lewis; Ms. Diane Smith; 
Ms. Juanita Cribb. Mr. Lewis is the President of the Atlanta 
Metropolitan Chapter of the National Federation of the Blind, 
from Atlanta, Georgia; Ms. Smith joins us today from Rex, 
Georgia; and Ms. Cribb, who is a teacher, is from Stone 
Mountain, Georgia.
    I thank all of you for being here. Max knows this, Mr. 
Lewis, but I have a sister who is blind from birth and she has 
been a teacher for more than 30 years. She is on the state 
board and she just attended the national convention in 
Philadelphia for a week. So when Max talks about what it is to 
be a blind American, to try and cast a vote or something, I 
have grown up with it. So this has a personal poignancy for me, 
watching the indignity my sister has had to go through 
throughout her entire adult life. And whatever else may 
motivate you about this legislation, as you are going to hear 
from Mr. Lewis, this should not go on any longer. If we do not 
do anything else but this, it would be a change in the proper 
direction.
    So with that, I thank all of you for being here; very, very 
grateful to you. We will try and keep your testimony around 10 
minutes if you can. I am not going to hold you to a clock, but 
in order that we get the questions and give other members of 
the panel an opportunity to be heard, but anything you want to 
add to this record, we will include in the record. So even if 
you do not get a chance to provide or speak directly to the 
documentation, we will include it as part of the Senate Rules 
Committee record.
    With that, Mr. Lewis, we will begin with you, and we thank 
you for joining us.

TESTIMONY AND PREPARED STATEMENTS OF A PANEL CONSISTING OF THE 
HON. ANIL LEWIS, PRESIDENT OF THE ATLANTA METROPOLITAN CHAPTER 
 OF NATIONAL FEDERATION OF THE BLIND, ATLANTA, GEORGIA; DIANE 
 SMITH, VOTER, REX, GEORGIA; AND JUANITA SANDERS CRIBB, VOTER, 
                    STONE MOUNTAIN, GEORGIA

           STATEMENT OF ANIL LEWIS, ATLANTA, GEORGIA

    Mr. Lewis. You guys have already given my testimony in your 
opening statements and I appreciate the fact that this is going 
to be a lot easier process for me, although I probably will not 
be as good a presenter, because you took the fire out of my 
presentation.
    The Chairman. Do not let that happen now.
    [Laughter.]
    Mr. Lewis. But I want to--before I get into the meat of 
what I have here--go ahead and show my appreciation for you, 
Senator Dodd, and what you said earlier with respect to your 
statement revolving around disenfranchised voters. The 
population of people that I am here representing today are 
people that have been disenfranchised for quite some time, not 
just the 2000 election. And to you, Senator Cleland, I agree 
with you wholeheartedly, if we want to make every vote count, 
then we do need to act now. So I respect the fact that both of 
you are really committed to this process.
    To the Chair, Honorable Senator Dodd from Connecticut, and 
to our host, the Honorable Senator Max Cleland from Georgia, 
and to other distinguished panel members and participants and 
attendees, I appreciate the opportunity to participate today in 
this legislative process and to have my voice heard.
    My name is Anil Lewis, I am a counselor for the Georgia 
Client Assistance Program. I am the President of the local 
Atlanta Metropolitan Chapter of the National Federation of the 
Blind, I am the Chairman of the Board for the Disability Law 
and Policy Center, and I am also a board member of the 
Statewide Independent Living Council.
    I do not think it is my responsibility here today to quote 
statistics or even give you demographic information related to 
the voting habits of people with disabilities, because in my 
professional and civic and personal life I come in contact with 
people with disabilities on a regular basis and we share 
stories of trials and triumphs and that is what I want to do 
today, share some personal stories that I have and relate some 
personal experiences around voting that may have some direct 
relevance to Senate Bill 565, the Equal Protection of the 
Voting Rights Act of 2001.
    So with that, I will get into the meat of sharing a little. 
Before I lost my sight in 1989 due to retinitis pigmentosa, I 
was a citizen that actively participated and exercised my 
Constitutional right and civic responsibility to vote just like 
every other person. But that changed once I lost my sight. As a 
blind citizen, my voting experience drastically changed. I will 
give you some examples.
    My mother accompanied me on the first time I went to vote 
as a blind citizen and after being put aside for awhile while 
everyone went around trying to find out what exactly to do with 
this deviation, you know, how is this blind person supposed to 
vote, my mom finally asserted herself and said well, why do you 
not just let me help him in the booth, and of course, they 
conceded, but it was not out of their knowledge of the law that 
blind people have the right to have someone assist them in the 
booth; it was just out of frustration and actually relief that 
there was a remedy. So my mother and I, we successfully cast my 
vote that year. However, it was very humbling and, in 
retrospect, a very degrading experience for a 25-year-old man 
to need his mommy to go and help him vote. I do not want that 
to happen to anyone else.
    On my next trip to the polls, I took a friend and I was 
informed of my rights this time. So I went in ready to be 
proactive for myself and tell those poll workers that I have 
the right to have someone here to assist me and on and on, you 
know, I was ready.
    Unfortunately, I could not say the same for the poll 
volunteers. They did not have that knowledge. So we went 
through pretty much the same hassle again until we identified 
the proper person who knew the correct paperwork to sign and 
how to process everything for us to cast our vote. And once 
that was decided, they proceeded to hand my ballot to my 
friend. This spoke volumes to me. I mean, my ballot being given 
to someone else, it made me reflect and say well, is it my vote 
or is it his vote. And although I trust my friend dearly, it 
raised that question and continues to be raised today; is the 
vote that I cast mine?
    I thought it would be easier in subsequent trips to the 
polls to take advantage of the poll volunteers because I didn't 
want to continue to burden my friends with the responsibility 
of coming to help me vote and trying to coordinate that time 
hassle. And I went in but this particular solution had its own 
set of problems. To speak very candidly, I went and advocated 
for myself, I got the poll volunteer to help me in the polls 
and we went in and aside from the uncertainty of whether he is 
going to cast the vote as I so directed, we set up and--
specifically in the last election, there was a resolution 
pertaining to marine tax and the poll volunteer, whether he was 
fatigued or frustrated or whatever it was, could not seem to 
read that particular resolution correctly because in his first 
reading of it, I thought he was talking about taxing the 
military--Marines. And I insisted that he read it again and 
then I got a deeper understanding of what it was. Eventually I 
found out that it was just a resolution involving personal 
boats in the marina. So that, like I said, presented its own 
challenges.
    I have had many other experiences that have tested my 
patience and have made it necessary for me to educate and 
advocate my way through this voting process, which to an able-
bodied person is a time-consuming one but fairly simple.
    To share with you some of the other stories from personal 
testimony of other blind people that I have talked with.
    Jo Ann Weaver of Stone Mountain told me that she was 
unaware that she could have someone assist her at the polls, 
and although the laws are in place, many people with 
disabilities are not aware of their rights related to the 
polls.
    Melissa Imtiaz of Chamblee stated that the poll workers at 
the polling places were not very helpful because they did not 
know how to interact with people with disabilities. I mean, I 
am a frightening, intimidating person, as a blind person, to 
someone who does not know that I am just another individual. 
That speaks to the training of the poll people.
    Just like Patrice Lewis of Atlanta, Georgia; she, much like 
me, went to the polls, knew she had a right to bring someone, 
but the poll people denied her that right to use the person she 
brought to assist her in the polling booth. Here again, poorly 
trained poll volunteers and what-not really took it to the 
point where her rights were denied.
    Thelma Godwin of Atlanta, Georgia stated something very 
poignant. She stated that the person who assisted her actually 
tried to sway her vote. You know, this is common. You are 
sitting in the polls and you are saying such and such and such; 
no, I do not think you ought to do that. Well, here again, is 
it my vote or is it their vote. This speaks volumes. And this, 
you know, coupled with so many other problems go on to state 
why people with disabilities should be able to independently 
and privately cast their Constitutionally-guaranteed vote on 
their own.
    Please understand that these scenarios, these experiences, 
they are not limited to just the people I am talking about. 
These are shared by people with disabilities all over.
    To give you other examples, Patricia Puckett of Avondale, 
she uses a wheelchair. She informed me that when she went to 
the polls in her new district, she arrived and realized that 
they do not have any lower polling machines. So she could not 
cast her ballot independently. I really respect the ingenuity 
of the poll volunteers, they took the polling machine out of 
the booth and put it on a table so that she could have access 
to it. That is great, they allowed her to cast her vote 
independently, but they robbed her of her privacy. She is in 
the middle of a room casting a ballot there for everyone to 
see.
    If I may embellish just a little. Imagine the next time you 
went to the polls, you were confronted with a 10-foot vertical 
leap in order to get to the polling booth. Once you got there, 
you had to squeeze through a five-inch narrow corridor just to 
reach the polling booth and when you arrive there and you look 
at the ballot, you realize it is written in Swahili. Okay?
    The Chairman. Sometimes I think it is.
    Mr. Lewis. Marine tax. This may seem an exaggeration but 
for a person in a wheelchair, steps and narrow doorways, they 
may as well be a ten-foot vertical leap and a five-inch 
corridor. For a blind person to cast their ballot 
independently, without the assistance of someone else, the 
ballots today may as well be written in Swahili. Of course, the 
law does provide that you can have a person--you can bring your 
person that is proficient in Swahili to the polls with you or 
you can have that somewhat proficient Swahili person at the 
poll assist you, but it is still not right.
    I do not want to make it seem like I am beating up on the 
poll volunteers because I really respect the fact that they are 
doing this and they are working very ambitiously to make sure 
that people do have the right to exercise their right to vote. 
But what it does speak to is not so much their ability to 
assist us, it is our inability to vote independently for 
ourselves.
    Just like anything else I have to do on a regular basis as 
a person with a disability, there is no substitute for me being 
able to cast my ballot independently and privately on my own 
with no assistance--there is no substitute for that. All 
individuals, able-bodied, disabled, need to have that same 
right.
    Let us talk about what needs to come into place in order 
for this to happen. The notes that I made were very in line 
with the things that you have already stated. All of the 
polling booths must be accessible, this means properly 
constructed ramp access, widen doorways, lowered machines. Non-
visual access--that is a term which I love, Senator Dodd, 
throughout your bill. I just read it, and like I said, it just 
took my fire out because I am like, well, I am preaching to the 
choir, I do not need to go in and put on my angry face. So I 
thank you for that.
    Non-visual access, let me speak to that. It is allowing 
blind people, sure, access to that information. Most commonly, 
uniformly, it is audible access, meaning that you have spoken 
word access to the poll information. But this is accessibility 
for not just blind people, but people who do not speak English, 
people that are illiterate and also people with learning 
disabilities that cannot read printed material. I mean 
accessibility--people tend to think that accessibility means 
people with disabilities period. Accessibility-polling machines 
that are accessible to the disabled are accessible to the able-
bodied, and it just seems like a no-brainer to implement 
something like that.
    The other thing, Senator Cleland, that is stressed 
throughout your bill and also in Senator Dodd's bill, is just 
the training. And it is not just training, as you stated, of 
the poll volunteers in how to interact with people with 
disabilities, how to use the poll equipment, but also training 
of the voters themselves. Many of the disenfranchised, disabled 
voters do not have record of knowing that the polls are now 
accessible. Many of them, out of frustration, have refused to 
go to the polls to vote. They have not taken advantage of the 
absentee opportunity to vote as an absentee ballot, but by 
educating them that these accommodations are now in place, we 
are going to increase the vote turnout for people with 
disabilities. And this needs to be ongoing training.
    Overall, national accessibility standards--you mentioned 
standards talking specifically about accessibility standards, 
because by forming those overall national accessibility 
standards, we make it easy for the accessibility to be 
implemented on a national level, we make it easier for 
individuals to be trained on how to use that equipment and we 
also make sure that in the future, as upgrades come into place 
and the voting becomes even more accessible, as was highlighted 
in that Cal Tech study that you referenced, Senator Dodd, that 
is a lot of forward-thinking, but as Senator Cleland says, we 
need to act now. That will be easier with the standardization.
    But most of all, the most important thing to me, is what 
you both understand, the provision for the Federal granted 
funds to be contingent upon compliance with these accessibility 
standards is mandatory. I know we are not supposed to use that 
term, but it is very important. It needs to be done because 
that is going to be the true incentive for compliance and 
accessibility. We have had volunteer compliance standards for 
some time now, but a little over 50 of the states have actually 
complied to some degree. And not every state has a forward-
thinking, proactive, progressive Secretary of State like we 
have in Georgia's Cathy Cox. And we have to, you know, take 
credit for that, but we also have to have responsibility to 
make sure that those individuals who do not have that 
particular degree of representation also are not denied the 
right to vote in the future.
    I have submitted written testimony and revised it a little 
and also submitted that and would like to have that added to 
the record.
    The Chairman. It will be included.
    Mr. Lewis. But I also want to state that I am not here just 
in support. I want to highlight the needs of the people with 
disabilities, but I am not just here to support people with 
disabilities. I want to state that I encourage the passing of 
565, I love the language in it. I was glad to hear that you 
will be encompassing the provisions in Senator Cleland's bill 
relating to the Federal grants and the requirements on that 
level. It will be beautiful. But I am also here to support the 
voting rights of all individuals. I want to make sure that the 
people who are non-English-speaking citizens have access, 
people who have whatever barriers that prohibit them from 
exercising their right to vote have that right and their right 
is ensured.
    Finally, I want to state that I encourage and support the 
Voters Bill of Rights and the provisions set forth within it, 
with respect to the provisional ballots, the access to non-
English-speaking individuals, the posting of the Voters Bill of 
Rights at every polling place, the distribution of that 
information to the voters, the submission of the information on 
the ballots in an accessible medium prior to the election. All 
those things are important if we are going to empower 
individuals to take advantage of that opportunity to effect 
this process.
    I want to thank you both for the opportunity for me to 
participate in this legislative process. I want to appreciate 
you for letting my voice be heard, but I also want to stress to 
you that thousands upon thousands of other voters are echoing 
the same statements that I have made here this afternoon.
    I also want to reflect and make sure you understand that I 
have not done this using any statistics because no doubt you 
have already been provided with all of those. And I have not 
made any reference to the Florida election, I think you would 
appreciate that, you have probably heard enough of that. But I 
do want to reiterate that I respect and appreciate the efforts 
that both of you have taken to ensure my rights and the rights 
of those people in my situation--the population of people with 
disabilities--that they can participate and actively have a 
voice and affect some systemic change in this wonderful country 
called America.
    Thank you for your time and attention.
    [The prepared statement of Mr. Lewis follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Lewis, that was excellent, 
excellent testimony. We will have some questions for you in a 
minute.
    Let me turn to you, Ms. Smith. We thank you for being here 
and if you will pull that microphone up good and close so we 
can take your testimony. We thank you for joining us here this 
morning.

             STATEMENT OF DIANE SMITH, REX, GEORGIA

    Ms. Smith. Good morning, Your Honor. Okay, I am ready, can 
you hear me?
    The Chairman. Yes, thank you.
    Ms. Smith. I would like to thank everyone for being here 
today to hear my voice. I would like to speak on something that 
happened to me during election time and I hope that I do not 
cry.
    I registered when changing my driver's license in August of 
1999 and I received a voter registration card in the mail. I 
did not vote in the primaries. I went to the poll to vote on 
November 7 at the Norcross library. My name was not on the 
list. The poll worker called headquarters, she asked me where 
did I register to vote. I told her that I registered at Kroger 
grocery when I changed my driver's license. The poll worker 
said that when I got my driver's license, they probably did not 
check voter registration.
    She asked me for the voter registration card, but I could 
not find it at the time. The poll worker said that I have to 
register again and vote the next time.
    Later on, my husband called me and said that he could not 
vote at Norcross library, the poll where I had tried to vote 
earlier. However, I saw my husband's name and address on the 
list when I went to vote. They sent my husband to a Lutheran 
church and he was able to vote there. I went to the Lutheran 
church that my husband told me about and still I was not able 
to vote. I was not on the list at the Lutheran church, my 
husband's name was on both lists.
    I went back to work. I was so upset that my manager told me 
just go on home.
    I complained to the NAACP and I know that the NAACP 
received many complaints about voter problems on election day. 
Not all of these complaints involved voting equipment. And just 
for the record, I would like to submit a copy of the transcript 
from the public hearings regarding voting irregularities 
conducted by the NAACP in Georgia.
    [The prepared statement of Ms. Smith follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. We will make sure that is a part of the 
record, and we thank you, Ms. Smith, for that testimony.
    Ms. Cribb, thank you for joining us.

  STATEMENT OF JUANITA SANDERS CRIBB, STONE MOUNTAIN, GEORGIA

    Ms. Cribb. Thank you.
    Chairman Dodd, Senator Cleland and other distinguished 
members here. I would like to say good morning and to thank you 
for the opportunity to testify at this election reform hearing. 
Senator Dodd, do not be ashamed to stop me if I go over 10 
minutes, because I can talk. [Laughter.]
    I am not ashamed.
    The Chairman. You have got a good strong voice too.
    Ms. Cribb. And I will try to respect your time frame.
    I will not address the mechanics of voting because I am 
sure, as Mr. Lewis said, there are other people here who will 
address those statistics and the different mechanisms and 
possibilities for the remedies. As I see my Chairman here from 
DeKalb County, Mr. Vernon Jones, and our Secretary of State 
Cathy Cox, I am sure they have all that taken care of.
    My comments are directly related to the inconvenience, the 
lack of consideration and the downright frustration faced at 
the last election. I have resided in Georgia for approximately 
20 years. I lived in south Georgia most of that time. I was 
involved there as an elected official, I was an elected person 
as a county commissioner, and I served the county as well as 
the state. During that time, I felt so empowered because I 
thought I was one of those persons who was a part of the 
process of change and opening the doors and avenues of change.
    But with this last election, I felt this experience caused 
me to feel vulnerable, I felt assaulted and I also felt 
downright insulted, because I knew that there is a process and 
I knew that there is an opportunity for the citizens of this 
great country to express their right to vote. It goes without 
saying that as a citizen of the United States of America, it is 
an honor and a privilege to protect our basic right to exercise 
the act of voting. America is a country that is built around 
the premise that it is for the people, by the people and of the 
people. These statements are the core foundation of why it is 
crucial that we maintain the privilege of fair elections. Had 
this happened in south Georgia and it certainly happened to me, 
it would have been business as usual. But this happening 
throughout the state and this nation to me intimates sabotage.
    November 2000 was a nightmare in the history of this 
country and a travesty of justice to those who tried to express 
their choice by voting. We stood in the rain waiting for the 
polls to open. Of course, they opened late. We then were 
corralled up and down hallways, winding around corners and at 
times even having to go down a flight of stairs only to climb 
those same set of stairs to return to the opposite of the 
hallway. The voting precinct was Rock Chapel Elementary in 
Lithonia, Georgia. We also had to endure no heat or air. As we 
moved up and down hallways, sometimes we were in pitch black 
darkness because there were no lights on. We only had light 
that came from time to time from the doorways of the 
classrooms. We were told that there was a power failure and 
that Georgia Power had promised to have it on soon. Well, we 
were there from 7:00 a.m. to 2:00 p.m., and the power was never 
turned back on.
    The actual voting area was approximately three feet from 
the entrance to the school. However, since they were unprepared 
for such a large turnout, we were sent like mice through a 
maze. This added insult to injury. Once we got to the table 
where our names and addresses were verified, there was only one 
person checking IDs. Can you believe that?
    Once our IDs were checked, we were then sent to another 
table to fill out the form for a ballot. There were only two 
people at that table. After that, we were then put in another 
line, broken down by alphabet, and as you would suspect, only 
one person was assigned per group of alphabets, like A through 
D and E through H. Each one person checking for all of those 
thousands of people in line. I asked a question--is this sick, 
or what?
    If I did not know better, I would suspect that there was a 
plan to discourage us, Senator Cleland. Those of us who are 
die-hard voters will endure anything. But just like the people 
in South Africa, we stood for days. Yet there is a segment of 
the population who I know would be easily discouraged. Young 
people, first time voters, the elderly and the physically 
challenged. They cannot take that long wait. We were pulling 
chairs out of classrooms and moving the chairs along in the 
line so that the older people could have some level of comfort 
and not have to stand.
    There were also people that went through this long process 
only to be told, as Ms. Smith said, that they had to go to 
another precinct. They had tried to get a ballot and had been 
told that they were reassigned to another precinct. After six 
hours of being in line, they were being told to go to another 
place. I will guarantee you they did not vote.
    There were people turned away because the polls closed 
exactly at 7:00, though they opened a little late--7:00 p.m., 
that is. These people had been in line since early afternoon, 
because my adult children were two of them. I could not believe 
it.
    My questions then are these--not to belabor the time--if 
the schools are closed because of elections, then why are the 
schools not opened as a voting precinct? In my area, there were 
three other schools within an approximate mile or two--
Stephenson Elementary, Stephenson Middle and Stephenson High 
School. If DeKalb County is allowing construction of 
subdivisions on every corner, then I think that it behooves the 
Registrar's office to do a check of the numbers that are being 
registered per precinct and to make every effort to keep this 
to a manageable number.
    Well, I could go on and on, but I will allow others to 
express their experiences. Unlike November 2000, I would not 
deny the proper access to expression.
    Hopefully this information will help those naysayers that 
are saying that this did not happen and they are denying the 
problem. It happened, it was real, it is a shame and a black 
eye for America.
    I thank you for your patience and for this opportunity.
    [The prepared statement of Ms. Cribb follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much, Ms. Cribb. Very strong 
testimony. We thank you for being here.
    Let me just go to some quick questions, if we can, for some 
of you--all of you, rather. And the questions, in part anyway, 
have been addressed by your testimony.
    I should, first of all, tell you, Mr. Lewis, we have had 
testimony from I believe it was the National Federation of the 
Blind, or was it Disability Community--Association of Americans 
with Disabilities, excuse me. It was the national spokesperson, 
who mentioned the figure of 10 million people who are blind who 
did not vote. I am not talking now about people who showed up 
and sought to have their ballots cast by whatever means, but 
who actually did not show up at all to vote. The numbers we 
have cited from the Cal Tech/MIT study as well as the New York 
Times, the Civil Rights Commission and so forth, talk about 
people who actually showed up, were in line and then were 
denied the right to vote. We have not talked about the numbers, 
the hundred million in this country, who are eligible to vote 
who did not either register or who registered and did not show 
up that day. So when I hear the number of 10 million, it is a 
stunning number to me. Just if that block alone had cast their 
ballots, what a difference that would make in terms of 
participation.
    But one of the criticisms of our proposal--let me be the 
devil's advocate, if I can, on my own bill that I have 
introduced--is they say look, Senator, we have got a lot of 
laws on the books, we have the Voting Rights Act of 1965 that 
has been adopted that has all sorts of restrictions and 
prohibitions in it, eliminated poll taxes and literacy tests. 
As I read the 1965 Act, there are about 16 or 18 provisions in 
that bill that go down and enumerate the things that must 
occur.
    We have seen the Motor Voter legislation, the Americans 
with Disabilities Act--there is a whole slew of civil rights 
legislation as well as these other provisions that are on the 
books. So let me be the devil's advocate, Mr. Lewis.
    Why is it--I will make you the Senator--why is it we need 
to have your bill if we have got all these laws on the books, 
why do we not just enforce the laws you have got on the books 
and then would not everything else be all right?
    What is the answer to that if you were asked that?
    Mr. Lewis. First of all, that was the easiest election for 
Senator, I am sure, that has ever taken place, so I thank you 
for that. [Laughter.]
    How many bubbles in a bar of soap, you know. You mentioned 
earlier they said they got those records and the law there 
saying that's okay, we have eliminated all of these things, but 
that is a fallacy.
    Narrow doorways, steps, non-access to voting--that is just 
as Jim Crow as anything else. The only way that you are going 
to eliminate it is just through the legislation that is in this 
bill, and that is by allowing each and every individual to cast 
their ballot independently and privately, because there is no 
confirmation. And even more so now, there is even greater 
uncertainty from individuals who even have that right to cast 
their ballots independently as to whether it really is being 
counted.
    So to say that it is already there, let us enforce it, is 
not true. It is not there. It is only there if the machines and 
the polls are accessible to the degree that allows the person 
to actually participate and actually cast that vote.
    The Chairman. Let me ask you a further question. Some have 
suggested that this is really just a technology problem, that 
if you just improve the technology here, then you can satisfy 
the problem. Do you believe this is a technology problem or do 
you also think it is a civil rights issue?
    Mr. Lewis. Absolutely it is a civil rights issue, but 
everyone tries to over-simplify things. I mean it is simple to 
resolve if everyone gets on board, but it is not simple to 
state. Yeah, there is a technology problem because what is 
going to happen is if there are not national standards, one 
state is going to be doing things one way and another state is 
going to be doing it another way. Within the state different 
municipal districts are going to be doing it different ways and 
it is not going to allow that ability for individuals to vote 
properly.
    Is it a civil rights issue? It is a Constitutional rights 
issue. One man-one vote. I am not one man that has one vote. I 
should be, but as I stated in my testimony, when I go even if I 
take a close personal friend, he may be so adamant about 
wanting someone to be elected, that he might usurp my right and 
use it as an opportunity for him to vote twice.
    The Chairman. Let me tell you a side story. One of the 
witnesses we had who was blind talked about his wife that went 
in to vote for him and she said, you know--she said I have 
always known that you love me, but today, she said, I have 
learned that you completely trust me, because I am going to 
vote for this idiot you want me to vote for.
    [Laughter.]
    Mr. Lewis. And I am sure the big question mark in his mind 
was did you really vote for that idiot.
    [Laughter.]
    The Chairman. That is I am sure a question he was asking by 
implicitly suggesting that in his comments.
    You mentioned the training, and I want to underscore 
something you said, because too often we talk about this and I 
am sure we are going to hear from Cathy Cox and others. There 
are wonderful people across this country who volunteer, many of 
them volunteer or get basically minimum wage and it is not 
working for, you know, shifts of four hours, many of them are 
on duty for 12 hours, depending upon the state you are in, 
standing there in the cold of upper New England or Michigan or 
the heat of some other state, long hours under difficult 
circumstances, to make this work. And I want the record to 
reflect, and I am sure Max will comment on this as well, our 
deep appreciation for people every year who volunteer to go out 
and serve as poll workers across the country. This is not about 
them in a sense.
    One of the things you raised which I think is very 
worthwhile, we are talking about volunteers in many cases and 
it is not--the ability for them to understand what the law is 
and to make things work is not always there. And so I wonder if 
you might just expound a bit and maybe, Ms. Cribbs, since you 
have been involved on a local level as well, that you may want 
to comment on this as well--on what we might do to increase the 
skill levels, the education levels of poll workers, some 
suggestions you might have.
    Mr. Lewis. I threw that out as a red herring, you know, 
because people were looking for some other entity to put the 
blame on.
    The Chairman. Yeah.
    Mr. Lewis. So that is why I made examples of the poll 
volunteers. But as I stated in my testimony, if you remove that 
responsibility from them, then it is no longer an issue. But 
specifically in answer to your question, there does need to be 
ongoing training for these volunteers just like any other 
volunteer entity. I mean when people go to usher at the Fox 
Theatre, they receive some degree of orientation. But that 
needs to be addressed in a way where, I would imagine--this is 
again another statement that reinforces the standardization, 
because when you have the same voting procedure nationwide, you 
can develop technical assistance that can be disseminated on a 
local level at a smaller cost and also able to address those 
specific issues from a pool of people that are addressing these 
problems.
    So in answer to your question, to enforce the training, I 
think there does need to be national standards, compliance with 
those national standards, technical assistance developed around 
those national standards and then individuals within those 
local precincts can have the tools that they need to educate 
the individuals that are making those personal sacrifices to 
ensure the voting rights of individuals throughout the country.
    The Chairman. Ms. Cribb, before I ask you to comment on 
this, one of the things--when I talk about a national standard, 
Mr. Lewis, I am not talking about trying to pick and choose the 
type of ballot that may exist, whether it is Connecticut or 
Georgia or any other state. When I talk about national 
standards, I understand there are differences, that people have 
different customs and so forth on how they vote. So I am 
interested in whether or not the basic standards of making that 
accessible and so forth will apply. The actual piece of 
machinery, I understand there may be a wide variation in the 
kinds of specific equipment that people are more comfortable 
with in one place or another around the country. So I am not 
talking about a one size fits all. That is one of the 
complaints that people have raised about a national standard. 
It is the standard, it is not the equipment we are talking 
about. I want to make that as clear as I possibly can when 
people look at this legislation. So in terms of that point, it 
is important.
    Now Ms. Cribb, you have been at the local level and you 
understand this.
    Ms. Cribb. As I listen and hear the word standard, I guess 
what my concern is, is that in such a global society and the 
technology that we have now available to us, I do not know if 
we have a one size fits all solution. However, I do know you 
get what you pay for.
    Now volunteers are invaluable when it comes to elections. I 
have used them, you and Senator Cleland have used them. We know 
you cannot put a value on the impact of people who volunteer. 
However, I think that we can broaden the scope of those that we 
pay to make sure that this process is done in a fair and 
equitable way. Poll volunteers could be made a department. I 
mean, you know, I think that it is time for us to stop thinking 
that we can just get something for nothing. And then let those 
people who are paid staff people become a part of getting 
volunteers who show up for that day, let us say to run 
interference, but the actual operation should be handled by 
people who are paid. People have a loyalty--you know, when you 
get a house, the down-payment does nothing toward the value of 
the house, especially in programs with five, ten percent. When 
you buy a car, they want you to put something down.
    If you put something in, then you value what you have. If I 
give it to you, you do not value it. You know, there is an old 
proverb all of us talk about, a parable, that says if you give 
a man a fish, he eats for a day; you teach a man to fish, he 
will eat forever. So it is teaching us to be independent in our 
strive to have freedom.
    So I think that if we broaden some of the areas where we 
are not paying--I would love to see in each of the counties 
under the Registrar that there be a group of people who are 
paid and that these people would go and patrol each and every 
precinct. But it is going to take a total reorganization. It is 
very difficult to take a piece of chewing gum and once you chew 
it, it is so good, it is flavorful, but after awhile it loses 
its flavor and you throw it away. We cannot take this system 
and not be willing to add something fresh and new. We keep 
trying to reinvent the same thing. We might really need to have 
something fresh and different. And I am thinking that that is a 
problem.
    And when you say why these thousands of people will not go 
to vote. Well, when I was in advertisement, one of my main 
selling points was always to say to my prospective client that 
people will only use your services or buy your products if they 
feel welcome. When you do not treat a person courteously, they 
will not keep coming back. I have had stray dogs and cats in my 
neighborhood, the best way to get rid of them is I throw some 
water on them or you keep going out there saying scat, or you 
take a broom and hit at them. Sooner or later that dog or that 
cat will go away or think I cannot go to Ms. Cribb's house 
because she is going to get me.
    Well, when you do that to people who go to vote, when they 
have got to stand in these unusual circumstances and 
conditions, they are not going to come to vote but so many 
times. They will say well, it does not matter, they are going 
to get who they want to get, because they are not made to feel 
welcome.
    So I think that if we would pay and enlarge--and Ms. Cox, I 
am not trying to give you any more work--but I think we really 
do have to increase what the registrars are doing in each 
locality. That is where I think a lot of it happens because 
when you start to do it on every, every, every, every level, it 
is like lighting a candle and then after awhile everything is 
lit. That is where we will get the uniformity, when it is 
implemented on the local level.
    The Chairman. Very good. Max.
    Senator Cleland. Wow. The use of the word fire was used 
earlier. I think you all have lit a fire under us, no question 
about that.
    And personally, as somebody who has been involved in these 
issues I guess for 30 years or more, I wrote the law when I was 
a state senator in terms of access to public places built with 
public funds. And when I was Secretary of State, we tried to 
implement access to the polls for disabled and we implemented 
the motor voter law for Georgia and I am from Lithonia, but you 
all have really lit a fire under me here that tells me we do 
need a fresh look here, because it is obvious, it is painfully 
obvious, that this system is not as voter friendly as it should 
be.
    In terms of disability, Mr. Lewis, I think you are right on 
track. It is a shame that the one Constitutional right that all 
of us share has to be a right that is so difficult to achieve 
on election day for some of us who happen to be disabled.
    I have not particularly complained about my little polling 
place, but there is a ramp there that is about a 50 degree 
angle, you could launch a rocket----
    [Laughter.]
    Senator Cleland [continuing]. If I ever tried to go up it, 
I would never make it to the polling place. In my little 
precinct in Lithonia, they do have one smaller accessible 
voting booth, but I do feel very much exposed and vulnerable in 
the sense that I do not feel like there is any barriers or 
guards around--not physical guards, but I do not feel that I am 
voting in a real, shall we say, secret way. And so I can 
certainly identify with your problem.
    Ms. Smith, it pains me--as someone who implemented the 
motor voter law for Georgia and thought it was a great idea to 
be able to register when you revalidated your driver's license 
and set up a computer system in 159 counties and a central 
database so we would not have to have these problems on 
election day where you did register to vote but somehow you go 
to your polling place and they do not have your name and then 
you have got to go somewhere else and they do not have your 
name and yet your husband is there--you know, that kind of 
thing saddens me to hear that. That just tells me we have got a 
lot of work to do.
    And Ms. Cribbs, in terms of the growth in my little 
hometown there, it does seem that that whole polling place, 
especially with the power going out, was just an awful disaster 
that day. So we have got a lot of work to do.
    I would like to ask you, in terms of the system being 
voter-friendly, all of you; if you knew that the odds of going 
into a votomatic voting system, the odds were three to five 
percent of the time that your vote would not count, even though 
you had proper access, even though you exercised that 
Constitutional right of self-determination and secret ballot 
and even though you were registered properly, Ms. Smith, and 
even though the system was, Ms. Cribb, very voter-friendly--if 
you knew, using the votomatic system, that three to five 
percent of the time your vote that you actually exercised would 
not count, how would that make you feel, Mr. Lewis?
    Mr. Lewis. You are going to ask me the easy question. That 
would really upset me because it still introduces that degree 
of uncertainty. Would I not vote? That is not an issue. I would 
still vote, even if I thought that 70 percent of the time I 
went to the polls, my vote would not count. But I am not going 
to accept it. Three to five percent sounds minimal, but am I 
going to accept three to five? I am still going to try to work 
to ensure that every time anyone goes to the polls, that their 
vote counts, period.
    Senator Cleland. Right. Ms. Smith.
    Ms. Smith. I feel the exact same way. I would still vote 
even though I would have an inclination in the back of my mind 
saying I wonder if that vote was counted--I would still vote.
    Senator Cleland. Ms. Cribb.
    Ms. Cribb. I certainly would still vote, but I think I 
would feel almost like a victim. But I would still vote and I 
think we would then try to--I am an innovative person, I would 
try to come up with a solution as to how to make my vote count 
every time.
    Senator Cleland. Amen.
    Well, my understanding is that the votomatic system has 
that error built in, three to five percent of the time, whether 
you are a Ph.D. or not, whether you are able-bodied or not, 
when you use or we use or I use or we altogether use that punch 
card system, three to five percent of the time it has a built 
in error rate regardless of what you do. That makes me very 
insecure, it makes me know that that system is not very voter-
friendly and that we have got to do something about it, which 
is one of the reasons for this legislation, one of the reasons 
we have you here.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Max.
    Just one other point. The provisional voting, we talked 
about it in the bill and I know that Max and the Secretary of 
State and others understand it, but a lot of people do not 
understand how provisional voting works. Just to lay it out and 
then ask you briefly if any of you have any comments to make on 
it.
    Provisional voting would take a situation not unlike yours, 
Ms. Smith, where you showed up and there was this controversy 
over whether or not you were actually on the rolls or not. In 
that case, the poll workers, if there was some debate about it, 
you would cast a ballot, not unlike an absentee ballot, you 
would sign it--I guess you would do that--and set it aside in a 
separate box or someplace and then at the end of the election, 
if in fact, when you have a close election, they would then go 
to those ballots and then make an attempt to verify in fact 
whether or not you were registered, as you thought you were, or 
not. But you give the benefit of the doubt to the voter and so 
that actually a person who has been in line, stood there all 
day, can actually cast the ballot.
    We had the estimates just on the provisional voting, 
somewhere between, depending on which study you are looking at, 
at the very least, two million and maybe as many as four 
million people who, had they been allowed to cast a provisional 
ballot in the country. Those are huge numbers and if you are 
talking about three million, you are talking about the entire 
population of the state I represent. Imagine every man, woman 
and child in the state of Connecticut being denied--or in the 
case, if you take the MIT study, you are talking about the 
population of this. Imagine every man, woman and child in 
Georgia on election day being denied the right to cast a 
ballot.
    So the provisional voting, I find is drawing broad-based 
support, even people from the entire spectrum politically, for 
different reasons in some cases, are sort of rallying around 
the idea that provisional voting makes some sense. I wondered 
if you have any comments you would like to make about it. Are 
there any concerns you would have about provisional voting?
    Ms. Cribb, we will begin with you.
    Ms. Cribb. I think my concern about it is because of the 
statement said in case of a tie or there was a problem.
    If I registered and you gave me a ballot and just say when 
we go back we will check it to make sure you are registered, I 
think my vote should be counted whether you have a tie or not.
    The Chairman. Okay.
    Ms. Cribb. I think that is what my concern is, just about 
that provision for it. I think it ought to be--well, I will let 
the rest of them say something. That is my concern.
    The Chairman. Good point, excellent point. Diane.
    Ms. Smith. I was not even offered the provisional vote. So 
that was a concern right there, I was not offered that and then 
I was not allowed to vote and it was like come back next year, 
you know, next four years.
    The Chairman. Mr. Lewis, you have already sort of commented 
on this. You agree with provisional voting, you made that point 
in testimony.
    The last point I want to make is anecdotes are anecdotes 
and I do not want to suggest that this is scientific studies, 
but just to share with you. My wife and I have some friends in 
Arlington, Virginia who are Cambodian. They survived the Khmer 
Rouge and made it to the United States through all that terror, 
and became citizens. We know them through my wife's church. 
That is how we became friendly. And I sort of browbeat them--
they did not know that as citizens, they also had the right to 
vote. It is interesting, they became citizens and did not know 
they also could register to vote. So I browbeat them last year 
into registering to vote, two sisters.
    Last fall, they went to vote. Their English is not very 
good and they went to vote and were turned away at the polls. 
They had planned an evening with that small community of 
Cambodians, including their family, to celebrate the fact that 
beyond their wildest imagination that one day they would 
actually be allowed to cast a ballot for President of the 
United States, in their darkest days of terror in Cambodia, 
that one day, they would be citizens of the United States, 
allowed to choose who would be the President of the United 
States. And this was a huge deal to them.
    And when they were denied the right to vote, they were 
intimidated, were scared. They did not know if their 
citizenship was in jeopardy or whatever else. They did not call 
a lawyer, they did not go to see somebody else. They canceled 
their dinner that evening for their family--just the ripple 
effect. You know, I hope I am wrong about this, but my fear is 
that others in that community the next time around, having 
heard the experience of those two, will be so discouraged 
themselves that they do not step forward. That is--those sort 
of things really worry me very deeply when they go on.
    So in terms of you, Ms. Smith, you stayed with it and you 
are here today and you went back and your husband and you 
talked and you went back and you looked at other places and you 
went to that Lutheran church and you kept at it, but an awful 
lot of people quit and just give up on it. It is hard enough 
you have someone to take care of the children if you have got 
children, you get off for the day and getting a ride there--it 
gets complicated. And it is intimidating. You know, look, I am 
a United States Senator, I have been on the ballot seven times 
in my state and when I go to my little town of East Haddam, 
Connecticut and close that curtain, I want to make sure I do 
this right. I get a little nervous. Here I am sitting in the 
national legislature and I sit there with that machine and that 
thought, I hope I am going to do this right. And I suspect I am 
not alone in that, that everybody has those feelings.
    Well, imagine if you are somebody new or first time or 
unclear about this, what effect that has on you. And so your 
point I think one of you did, Ms. Cribb, about this being a 
place of user-friendly, of being welcome, in the sense that you 
belong here is extremely important.
    Senator Cleland. Just on that point, I go to my little 
ballot box and since we have the punch card, I take that little 
stylus and I just beat that hole to death. [Laughter.]
    I don't want no hanging chad, no halfway--we thank you all 
very much for being here.
    The Chairman. Thank you very, very much, very helpful 
testimony.
    We are going to take just a couple of minutes break here 
while our second and final panel comes up. So we will stand in 
recess for a couple of minutes.
    [Recess.]
    The Chairman. We appreciate your patience in waiting a 
minute here for us while we got ourselves together.
    I am very pleased to introduce our second and final panel 
here this morning and I thank all of you for being here. You 
are very, very gracious to take some time.
    This is a very distinguished panel of state, local and 
community leaders in the state of Georgia. Mr. Vernon Jones if 
the Chief Executive Officer of De Kalb County in Georgia. Mr. 
Jones, we thank you for your presence here this morning.
    Mr. Hans von Spakovsky--did I pronounce that correctly?
    Mr. von Spakovsky. Spakovsky.
    The Chairman. Is the Vice Chairman of the Fulton County, 
Georgia Board of Registration and Election. We thank you very 
much for your presence here.
    Ms. Cathy Cox, well known through the state of Georgia and 
she has many fans beyond this state as well, is the current 
Secretary of State for the State of Georgia and a recognized 
leader in the country in election reform movements.
    And the Reverend Dr. Joseph Lowery, who is a friend of 
mine, truth in advertising of longstanding. We have been 
involved in issues together for almost 20 years and I am deeply 
honored that you are here, Doctor, this morning to be a part of 
our discussion. Dr. Lowery is Chairman of the Georgia Coalition 
for the People's Agenda and the Black Leadership Forum. And we 
thank you immensely for your presence.
    I would also add that, of course, Dr. Lowery, for those who 
are not from Georgia or familiar with the civil rights 
movement, has been a great leader throughout many decades in 
the civil rights efforts of this country, and a protector of 
the right to vote for Americans of all races. It is truly an 
honor to have you here before us this morning.
    So with that, again, all information, data, background--I 
have read all of your testimony last evening--and I want you to 
know anything you want to add to this record, as I have told 
other witnesses, we will supplement your testimony with any 
documentation you think would be helpful for the Committee to 
have.
    I will just ask you to begin in the order I have introduced 
you and Mr. Jones, we will begin with you and again, thank you 
for joining us.

  TESTIMONY AND PREPARED STATEMENTS OF A PANEL CONSISTING OF 
VERNON JONES, CHIEF EXECUTIVE OFFICER, De KALB COUNTY, DECATUR 
 GEORGIA; HON. A. VON SPAKOVSKY, VICE CHAIRMAN, FULTON COUNTY 
    BOARD OF REGISTRATION AND ELECTIONS, ATLANTA, GEORGIA; 
  HONORABLE CATHY COX, SECRETARY OF STATE, STATE OF GEORGIA, 
    ATLANTA, GEORGIA; AND REVEREND DOCTOR JOSEPH E. LOWERY, 
 CHAIRMAN, GEORGIA COALITION FOR THE PEOPLE'S AGENDA, ATLANTA, 
                            GEORGIA

  STATEMENT OF VERNON JONES, CHIEF EXECUTIVE OFFICER, De KALB 
                        COUNTY, GEORGIA

    Mr. Jones. Thank you, Senator Dodd from the state of 
Connecticut, we appreciate you coming down to our great state 
of Georgia. We recognize, as you, that there is certainly a 
great need for voter reform--election reform--in our great 
nation. And so again, I appreciate you taking out time to come 
and hear the concerns from the grassroots people.
    Also to my Senator, Senator Max Cleland, I happen to 
represent the area where you grew up. I had opportunity also to 
serve with you when you were Secretary of State, I was in the 
Georgia General Assembly, in the House where all the action 
was. But to have you come back and certainly your leadership in 
this particular issue. As you know, De Kalb County is one of 
the growing counties--as a matter of fact, we are the second 
largest county in the state, your home county, you are very 
familiar with it and the growth that is taking place out there. 
So I appreciate again your leadership and you coming down and 
bringing this back home to Georgia to hear our concerns.
    And also to the participants that are here, including the 
media. An interesting thing, when I was coming in this morning, 
I was canvassed with media. I was excited by the fact that the 
media wanted to take this issue to the public and educate them 
on what is happening with voter reform or election reform, but 
I was a little disappointed when they realized that I was not 
Patrick Ewing----
    [Laughter.]
    Mr. Jones [continuing]. And they went the other way. 
[Laughter.]
    I do appreciate the press being here and recognizing how 
important this is and how much substance this case is as 
opposed to the other case.
    The Chairman. Max and I are not going to touch that last 
comment.
    Mr. Jones. I am Vernon Jones, the Chief Executive Officer 
of De Kalb County's government, and it is Georgia's most 
ethnically diverse and rapidly growing urban county. I was 
elected to the highest local office in De Kalb County in 2000 
and I am proud to represent the 700,000-plus citizens of this 
premier suburb of Atlanta. Prior to my election as County 
Executive, I served in the Georgia House of Representatives for 
eight years.
    I would like to thank the Committee for allowing me to 
provide testimony on behalf of voting reform. Local citizens 
have responded very favorably to the fact that this Committee 
chose to hold field hearings--versus Capitol Hill hearings--for 
the purpose of getting a true grassroots perspective of the 
concerns and recommended solutions for voting reform. I 
appreciate our distinguished U.S. Senator, again, Max Cleland, 
for his leadership in an area that impacts every voter in the 
state, in this region and, of course, the entire nation.
    I am pleased that on both sides of the aisle in Congress, 
there is cooperative interest in correcting the many wrongs 
associated with the current voting process for citizens. I 
would like to take this opportunity to thank every citizen who 
exercised his or her right to vote in our 2000 elections.
    De Kalb County has a proud and active voting constituency. 
Presently, De Kalb County has 167 precincts. The unprecedented 
growth in this county since 1998 has led our Voter Registration 
and Elections staff to conclude that the voting precincts are 
inadequate to serve an exploding population. Currently, our 
Elections Board and staff are working very closely with the 
State of Georgia's Reapportionment Department to secure 
additional facilities for voting.
    My goal before you here today is to seek assistance in 
achieving an accurate count of each and every vote in future 
elections, especially in De Kalb County. It is important that 
every citizen feels that his or her vote is counted and not 
discounted. In this exciting age of information technology, it 
is appalling that our citizens are using 30-year-old equipment 
to vote. As a matter of fact, when I entered college in 1979, 
my major was information technology and I was handed not a 
computer, but I was handed punch cards and that was the first 
process of computer programming. And here I am, as each and 
every one of you, we have on our desk work stations, computers, 
not punch cards. So look where we have traveled with that and 
now look where we have traveled with our voting equipment.
    This has resulted in many ballots being discarded. there 
have been too many variables in interpretations of subjective 
judgments about which ballots are valid and which were 
defective. On the day of November 2000 elections, my telephone 
and that of the Elections office were besieged with calls from 
voters who had concerns about long lines, names not being on 
the official rolls and a laundry list of other issues that 
caused them to be discouraged from voting. Most of our citizens 
did vote that day but only after enduring long lines and 
frustrations. The local problems included the various ``Get out 
the Vote'' campaigns in Georgia were hugely successful. In 
turn, it impacted De Kalb. As an example, more than 35,000 new 
registered voters in De Kalb County came on line in October; 
however, some of the voter registration campaigns, although 
well intended, did not connect to the official state and county 
election offices and newly registered voters were unable to 
cast their ballots.
    There were many web sites encouraging citizens to register 
to vote through them, but these sites were not authorized by 
the Secretary of State. Thus, the Secretary of State never 
received registration information to forward this information 
to counties.
    As permanent voter registration sites, the state Department 
of Motor Vehicles stalled. It did not provide the De Kalb voter 
registration department and others throughout the state with 
appropriate voter information.
    Registration cards from unauthorized voter registration 
drives held at various venues such as sporting events, through 
fraternities and civic organizations were never forwarded to 
the Secretary of State's office. Again, citizens thought they 
were registered when, in fact, they were not.
    We also encountered many delays due to our local balloting 
system. Some of the key problems were that first time voters in 
Georgia did not understand our voting system.
    We had extremely long ballots and voters were unfamiliar 
with the issues, especially amendments and referendums. And we 
have all served in legislatures and we know how sometimes those 
referendums are in legal terms and not in lay persons' terms 
and so it is kind of confusing to a lot of voters. This slowed 
down the process and made for longer times in the voting 
booths.
    Overworked poll officials contributed to voter 
frustrations. As a matter of fact, I would like also to call 
your attention to an area that I have not heard much debate 
about and that is the additional problem of most Americans are 
required to cast their votes within a 12-hour period, within 
that 12-hour period across this country. And with that, you 
look at the voter patterns, when you look at the lines and 
frustrations, when you look at people having to go from one 
location to another and all that has to be done within a 12-
hour period. You do not get a second chance to go back 
tomorrow. I would encourage or would like for you to consider 
the fact of maybe expanding that from a 12-hour period to maybe 
a two to three days period. It is a funny thing, we learn a lot 
from other countries who are friends of ours. They have a 
longer voting process. When you look at our country, we have to 
do it all within 12 hours. And you cannot possibly accommodate 
or work on many of the problems and issues that we deal with. 
Not only the training for the poll workers but also when you 
look at those people who are coming in with special 
requirements and special needs and what causes more 
frustrations of lines backing up. There is certainly a need to 
look at expanding that process, I think that could help.
    One of our problems during a recent election in my county 
was at certain precincts we had more people voting than 
resources and equipment that was available.
    We should make the voting process more convenient. One of 
the ways to accomplish this, as I mentioned earlier, is to 
expand that voting period. I would encourage you and your 
colleagues not only to address disenfranchised voters, but also 
make the process more convenient. Right now, it is more 
convenient for the government than for the voter.
    In my closing remarks to both Senators, my county, as I 
mentioned earlier, is over 700,000 people. We have a huge, huge 
ethnic population, a mixture I should say. We brought in a lot 
of refugees from other countries--Bosnians, Croatians, a lot 
from the Caribbean community, Asians, Hispanics. When you look 
at how diverse our county is and the special needs that we need 
to accommodate or to work with our diverse population, 
certainly voter reform is important. From training to education 
to being able to reach out and make those who are not 
necessarily old to the voting process, to make them feel more 
comfortable on how our election process works, getting them 
into the ballot box--getting them into the balloting booth so 
they can really exercise their right to vote and understand 
what is on the ballot, who is on the ballot.
    And if I can make one final plea, that is your financial 
assistance certainly is helpful. We know that it is expense, we 
are at the local level pulling together additional monies as 
well as looking forward to getting additional resources from 
the state and hopefully to get some more resources from the 
Federal Government. And we can, together--I do not want to say 
reduce this, but we can eliminate voter disenfranchisement and 
voter apathy.
    Thank you very much.
    [The prepared statement of Mr. Jones follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very, very much, Mr. Jones, we are 
very grateful to you for your testimony here this morning.
    We will now turn to your colleague, Mr. Spakovsky, we 
welcome you again to the Committee.

   STATEMENT OF HANS A. VON SPAKOVSKY, VICE CHAIRMAN, FULTON 
  COUNTY BOARD OF REGISTRATION AND ELECTIONS, ATLANTA, GEORGIA

    Mr. von Spakovsky. Thank you, Senator. I am Hans von 
Spakovsky, Vice Chairman of the Fulton County Board of 
Elections and Registration.
    We are the largest county in the state, we represent about 
10 percent of the vote. The Board is made up of citizens who 
are appointed to supervise the county department that is in 
charge of all voter registration and election.
    One of the biggest threats to voter rights and election 
integrity today is the condition of our voter registration 
rolls. Many jurisdictions now have more registered names on 
their voter rolls than they have voting age population within 
their borders. That is an invitation to fraud and chaos since 
the many invalid and multiple registrations that exist can 
serve as a source pool for fraud. Additionally, in an effort 
intended to reverse our long-term decline in voter turnout that 
we have experienced in the last 30 years, some states have 
adopted no-fault absentee balloting statutes. Unfortunately, 
when absentee ballots are combined with some of the 
restrictions imposed by the National Voter Registration Act of 
1993 or Motor Voter, absentee ballots make the job of voter 
thieves easier.
    The U.S. has a long history of voter fraud and it is 
important that we understand that, starting with an election in 
New York City in 1844 in which 135 percent of the registered 
voters turned out to vote, to a 1993 state senatorial election 
in Philadelphia, a 1994 election in Greene County, Alabama, a 
1996 commissioners race in Dodge County, Georgia and the 1997 
mayor's race in Miami. There have been numerous other cases of 
voter fraud, many of them furthered by some of the unfortunate 
and unintended side effects of the Motor Voter. While allowing 
registration at government offices is a very good idea, some of 
the other provisions of Motor Voter have caused a security hole 
in our voting process. For example, Motor Voter made it illegal 
for a state to check someone's identification before allowing 
them to register to vote and it mandated mail-in registration. 
When you combine absentee voting with those provisions, it 
means that an individual can register and cast an absentee 
ballot without any election official ever seeing them. This 
makes multiple registrations and multiple votes very easy and 
the chances of being caught are negligible.
    Absentee ballots also make vote buying and voter 
intimidation easier to commit and they make poll watching 
impossible. The secret ballot prevents coercion and helps 
prevent vote tampering. It was instituted in the U.S. in the 
late 1800s to prevent these very problems which were then 
prevalent in American elections. Absentee ballots are voted in 
unmonitored settings where there is no election official or 
independent election observer available to ensure there is no 
illegal coercion or intimidation. The ability of poll watchers 
to monitor polling sites is also very important to the 
integrity and security of our election process. That kind of 
transparency has to be maintained. No fault absentee ballot 
laws make it easier for campaign organizations to engage in 
tactics such as requesting absentee ballots in the names of 
low-income housing residents and senior citizens and either 
intimidating them into voting a particular way or casting votes 
for them. Residents of nursing homes are especially vulnerable. 
Absentee ballots also make vote buying easier because buyers 
can make sure that their votes stay bought, something that is 
not possible in traditional polling locations. We do make a 
necessary exception for military personnel or the physically 
disabled who cannot go to a traditional polling place. A recent 
study has also shown that absentee ballot laws do not increase 
voter turnout and in fact may lead to greater declines in 
turnout. Because of the security risks of absentee ballots, the 
recent study that the Cal Tech/MIT voting project released 
specifically recommended against no-fault absentee ballot laws 
and said they should remain an exception.
    Federal mandates are not the solution to the problems that 
we have. The mandates of the prior Federal intervention in 
elections, Motor Voter, have caused some of the problems we are 
experiencing today. However, Federal legislation such as the 
bipartisan McConnell-Schumer bill that would set up a new 
Election Administration Commission, I think is a good idea. 
Elections have always been handled locally on a very 
decentralized basis. That is because elections are local 
events, they are community events. Even when an election 
involves Federal offices, it is a communal act of the residents 
of the county or the city to choose their representatives or to 
decide issues. That is the way it was envisioned by our 
founding fathers and for good reason. America is a diverse and 
every-changing nation. Solutions, such as the choice of what 
voting equipment to use that may be relevant for a small county 
in Georgia of 5,000 voters may not be the correct solution for 
the City of Los Angeles with four million voters, the largest 
county in the country. However, such a new agency could best 
help local counties such as mine through (a) a program of 
Federal matching grants such as Senator Cleland has discussed, 
for voting equipment and registration system upgrades; (b) by 
creating a central clearinghouse for information on election 
equipment and system performance; (c) by creating more 
stringent and uniform standards for the performance and testing 
of new equipment, including providing research funds for the 
field testing of new equipment and the analysis of election 
system performance; and finally by encouraging the developing 
of a uniform format for the storage of public records so that 
different jurisdictions can easily compare those records to 
provide accurate voter registration lists, and the development 
of an interoperable data language for disparate voting systems 
that would allow the automatic exchange of election 
information.
    The right to cast our vote in a fair and secure election is 
our most precious right. Every American citizen who is eligible 
to vote should be able to do so with a minimum of 
administrative procedures and statutory requirements. None of 
the measures that can and should be taken to amend Motor Voter 
and tighten state election laws would infringe on the right of 
citizens to vote. Fraud can be deterred and prevented without 
diminishing voter turnout and our election system can be 
improved.
    Thank you.
    [The prepared statement of Mr. von Spakovsky follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very, very much for your testimony 
and I know you included some other data, at least in the 
testimony that I saw last evening. And we will make that part 
of the record.
    Mr. von Spakovsky. Yes, I included in my written testimony 
some recommends for Federal and State legislation.
    The Chairman. I saw that. We will see that that is part of 
the record.
    Let me mention, by the way, my colleague from Kentucky is 
not here with us today, Senator McConnell, but this record will 
remain open for questions that may be submitted in writing. We 
will do that for a reasonable period of time so that questions 
may be asked of you and if you would submit some answers in 
writing to the Committee. That will be true of all members of 
the Committee, but I wanted to specifically mention my 
colleague from Kentucky.
    Madam Secretary, thank you for being here today. You have 
got some great testimony and I really enjoyed reading it last 
night, very thorough. Thank you for coming.

   STATEMENT OF HON. CATHY COX, SECRETARY OF STATE, STATE OF 
                            GEORGIA

    Ms. Cox. Thank you, Mr. Chairman, and to my good friend, 
Senator Cleland, thank you for the opportunity to offer 
testimony as you evaluate and consider this very critical issue 
of election reform. I am grateful to have the chance to report 
to you on the progress that we are making in Georgia. You have 
my written testimony and I will be briefer here in my oral 
remarks and, of course, I will answer any of your questions.
    I am particularly grateful, Mr. Chairman, that you have 
taken the Rules Committee far outside the beltway to gather 
testimony and ideas for improvement from real Americans like 
the first panel that you heard here, to learn about their 
personal experiences with our inadequate voting system. Those 
you heard from on the first panel have shared their experience 
and have identified many of the critical issues that we face in 
improving election systems.
    We do need to work to ensure that counties have the human 
and technological resources to make sure that the long lines 
and the delays and the equipment failures that many voters, 
like Ms. Cribb, experienced simply do not happen again. I know 
that in my home county now, De Kalb County, my CEO Vernon Jones 
is dedicated to making those changes happen on the county 
level.
    Registering to vote when you get your driver's license is a 
wonderful convenience, but it has also added a new level of 
complexity and potential for error in the registration process. 
And the problems that Ms. Smith encountered are extremely 
troubling and the media reports suggest that these problems 
occurred in nearly every state during the 2000 election cycle. 
We are looking at ways here in Georgia to re-engineer the 
registration process at driver's license facilities. My staff 
recently created a new Internet-based poll locator service so 
that citizens can verify their registration on line and even 
get a map to their polling place. But we must also do a better 
job educating citizens on how they can check their status of 
registration and correct any problems before the actual 
election day.
    I am particularly pleased that you were able to hear from 
Mr. Anil Lewis today because difficulties that members of the 
disabled community encounter when casting their votes have been 
too often ignored. One of the real benefits of electronic or 
DRE voting machinery is that the interface can be readily 
designed to accommodate the visually impaired and those with 
other disabilities. You cannot do that on any of the other 
types of voting equipment available today. Making sure that 
every Georgian can cast a vote independently and privately and 
with the assurance that their choice has been properly 
registered is a goal that I know we can achieve.
    We are extremely pleased that you have chosen Georgia as 
the site for your first field hearing because in this area of 
public policy, I am pleased to report and appreciate your 
mention that Georgia is a national leader. In the aftermath of 
last year's Presidential election, Georgia was the first state 
in the nation to enact legislation to dramatically reform our 
election systems. After a careful analysis of the shortcomings 
in our existing technologies and procedure, our Governor and 
General Assembly acted swiftly and with nearly unanimous 
support from both Republicans and Democrats to pass my 
legislation that makes sweeping changes in the way Georgians 
will cast and officials will count votes in future elections.
    For the first time, this bill mandates a single, uniform 
system of voting throughout the state of Georgia. And while we 
are off to a good start, we recognize that there is a great 
deal of work ahead of us. Our journey has certainly only just 
begun.
    Over the past several months, our new 21st Century Voting 
Commission has met and begun to help us sort through the thorny 
issues of voting systems and technology. This Commission 
recently selected 13 Georgia cities, including Senator 
Cleland's hometown of Lithonia, to participate in a pilot 
project to test electronic equipment or DREs in municipal 
elections this November. And Mr. Chairman, we actually have one 
of the types of equipment, DRE system, set up over in the 
corner that will be used in some of the elections in Georgia 
this November. These 13 cities and towns who will participate 
in our pilot project represent broad geographic and demographic 
diversity of our state. We expect no less than five and maybe 
as many as seven different vendors of equipment to participate 
in this test, which will provide us with invaluable real world 
experience with these emerging technologies. Our office will be 
conducting extensive voter education programs before the test 
and a comprehensive exit poll analysis after the voting is 
completed.
    And while there is much more study to do, I happen to 
believe that this new electronic equipment, systems that are 
flexible, accurate, that accommodate the disabled, that prevent 
over-voting, that summarize a voter's choice at the end of the 
ballot and allow for corrections to be made, those that feature 
a paper audit trail to provide an additional level of accuracy 
in the case of a recount--these systems offer, by far, the best 
option for improving the reliability of our election systems. 
And because these systems which provide these features are 
readily available today from numerous manufacturers, four or 
five of which have already been certified in Georgia, it is a 
mystery to me why any state would not choose to use them.
    If we want to modernize elections and election equipment, 
State and Federal Government simply must provide the resources. 
And yes, we believe that funding and support from the Federal 
Government is critical. I can tell you from my conversations 
with state leaders and their review of the great demands placed 
already on our state budget, we will not reach our goal of 
modernized election systems by 2004 without significant Federal 
support.
    Mr. Chairman, I was in Washington earlier this year with 
Senator Cleland when he introduced and made the kickoff 
announcement for his legislation which I certainly support, and 
I also want to briefly address your legislation, Senate Bill 
565.
    I know there are some election officials who resist the 
idea of any new Federal standards or mandates. They want the 
Federal dollars, but they do not want any strings attached. I 
take a slightly different view. I believe that if we are going 
to invest significant Federal and State dollars in new election 
systems and voting equipment, we absolutely must make sure that 
those dollars are wisely spent. And we must make sure that 
those acquisitions result in the kind of improvements in 
accuracy and convenience that is our goal in this process.
    Indeed, the uniform and non-discriminatory requirements for 
each new voting system as set in our Senate Bill 565 are 
precisely the objectives that we have established for our new 
uniform system in Georgia.
    I am happy today to express my support for your 
legislation, I believe it would be a huge step forward in 
building the kind of election systems throughout this nation 
that we can be proud of and in which the citizens we serve can 
have confidence.
    Thank you for the opportunity to share my perspective this 
morning.
    [The prepared statement of Ms. Cox follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. That is great. Cathy, thank you immensely, it 
is excellent testimony and I know Max and I both will have some 
questions for you in more detail. But thank you very much for 
being here.
    Reverend Lowery, again, it is an honor to be in your 
presence this morning. We thank you. I want to be careful not 
to offend anybody, but we saved the best for last in many ways 
here. There is that Biblical the last shall be first and the 
first last----
    Rev. Lowery. When I am last, I always include in my 
presentation opportunity for you to make a contribution in the 
offering.
    [Laughter.]
    The Chairman. I think the Secretary just asked us for that 
as well.

 STATEMENT OF REVEREND DR. JOSEPH E. LOWERY, CHAIRMAN, GEORGIA 
      COALITION FOR THE PEOPLE'S AGENDA, ATLANTA, GEORGIA

    Rev. Lowery. Chairman Dodd, Senator Cleland, I mentioned to 
you earlier--I do not think I have had a chance to talk with 
you much since we were both interested in furthering democracy 
in Central America and a citizen from Wisconsin was held down 
there and I went down and prayed for him and met with him and 
congratulated that government for not having an electric chair 
hanging over his head, and they invited me to bring him back to 
the United States, but you went down and got him before I could 
get there. [Laughter.]
    By the time I got to Managua, you were in Washington with 
the prisoner. It is good to see you again.
    Senator Cleland, we think a sense of urgency for this 
reform is important, because we want it done by 2002 so there 
will not be any problem sending you back to where you belong.
    Good morning, and thank you for the opportunity to add my 
voice to the millions in this nation who cherish the ideas of 
democracy and eagerly support election reform. I will not read 
this testimony, I would like to suggest that the amended 
version would become a part of the record.
    The Chairman. So ordered.
    Rev. Lowery. The Washington style is to invite you to 
testify a week later but you have to have your testimony in 
within 10 hours. And so what I sent in is not--it needed to be 
amended and I thank you for that.
    No aspect of democracy is more sacred than the right to 
vote and to have those votes counted. In 1965, thousands of us 
marched from Selma to Montgomery to urge this nation to remove 
any and all barriers based on race and color and ethnicity 
related to the right to vote. The denial of the right to vote 
at that time cast a dark and ominous shadow across the body 
politic and threatened the viability, indeed the survivability, 
of our nationhood. It was my privilege to be assigned by Martin 
Luther King, Jr., with whom I co-founded the SCLC, to chair the 
delegation that delivered the demands of that march to Governor 
George Wallace. Among those demands was a call to cease and 
desist from policies and practices that prevented a goodly 
portion of citizens from registering to vote, from casting a 
vote, and even after casting a vote, being certain that that 
vote was counted. Martin set the stage for our demands when he 
said earlier: Give us the ballot and we will no longer worry 
about basic rights; give us the ballot and we will elect judges 
who do justly and love mercy; give us the ballot and we will 
place at the head of southern states governors and senators who 
not only felt the fang of the human but the glow of the Divine. 
The nation responded in glorious manner to our march and to our 
campaign for the right to vote with the 1965 Voting Rights Act. 
Courageous persons gave their lives in pursuit of that element 
of justice.
    Dr. King could not have anticipated that once we secured 
the ballot in 1965, that we would be back here in 2001 
demanding that our government now assure us that our votes are 
fairly and accurately counted. What we face today is a 
Constitutional and spiritual crisis in this country.
    At the beginning of this century, indeed millennium, the 
nation is called upon to respond again to the cries of its 
people for securing the right to vote by instituting essential 
reforms, reforms that not only protect the right to vote but 
assure the American people that our government has done all it 
can do to see that their votes are counted.
    The tragic experience in Florida must be a catalyst for 
substantive change and reform. Those who are continually 
calling for us to move on will not cause us to move away from 
vigilance, and the truth that we cannot ever take the right to 
vote for granted. The debacle in Florida might have happened in 
any state, including our own. We could have felt the same 
frustration and the integrity of our election process would 
have been subjected to scrutiny and scorn--94,000 voters or 
more in Georgia did not have their vote counted.
    And we must not overlook the fact that there are 
discrepancies in the rate of undercount among black and white 
voters. The Southern Regional Council study indicates appalling 
results which confirm that variations in the reliability of 
voting systems translated into substantial racial and partisan 
disparities in the uncounted votes. Nearly half of all the 
black voters in Georgia voted on the least reliable equipment, 
punch cards. Less than 25 percent of white voters had to use 
this inferior equipment. On the partisan side, 61 percent of 
Georgians who voted for Bush used the more reliable equipment, 
while only 37 percent of those who voted for Gore were able to 
cast their votes on that up-to-date equipment.
    It is not a southern issue, it is a national issue. And 
while states must assume responsibility for doing their fair 
share, the Congress must provide the legislative, moral and 
fiscal mandates to ensure confidence in an electoral system 
which is the heart of representative government. It must not be 
optional, it must be mandatory.
    As the world's greatest democracy, we cannot afford to 
allow the devaluation of the electoral process. It must forever 
remain a sacred priority. Our advances in space technology must 
not supersede our determination to assure the efficiency and 
integrity of our electoral system. Secure ballots are much more 
essential than smart bombs. Our expenditures in military and 
space technology must not leave the cupboard bare in the moral 
imperative to provide the necessary resources to strengthen our 
basic democratic institutions and give reverence to the right 
to vote. If we fail to understand that and to provide the 
resources, then we blaspheme our devotion to rights guaranteed 
in the Constitution of the United States.
    And so I thank you for the opportunity on behalf of the 
Georgia Coalition for the People's Agenda, a coalition of major 
advocacy movements in this state; the Black Leadership Forum, a 
consortium of major advocacy groups in the nation; and the 
National Coalition for Black Civic Participation, a common 
venture in maximizing political participation, to urge the 
Congress to move with bipartisan forcefulness and a great sense 
of urgency to hear the cries of the people from sea to shining 
sea for meaningful election reform.
    We support legislation sponsored by Senator Dodd and that 
by Senator Cleland and Conyers in the House, which includes the 
creation of national standards for election administration, 
voter education and for voting machines that represent the 
state of the art; and upgraded technology that enables voters 
to check choices and correct errors; that provide for casting 
of provisional ballots where eligibility is a question; that 
enhances the integrity of absentee ballots overseas and at 
home; and that introduces early voting across this nation. As 
the Executive Officer of De Kalb County said, there is no 
reason that we should limit our voting opportunity to 7:00 in 
the morning to 7:00 at night. Why not the whole weekend? Why 
Tuesday? Why not the weekend when more people are off from work 
and able to vote? What are we afraid of, that we do not make it 
so easy as we possibly can for people to enrich this democracy 
by a higher level of participation?
    We must ensure that every jurisdiction is in compliance 
with the Voting Rights Act of 1965, the National Voter 
Registration Act of 1993, Voting Accessibility for the Elderly 
and Handicapped Act and language considerations.
    We must provide for intensive training for poll workers and 
election officials to ensure fairness and competence. We do not 
know enough about our election officials. I doubt one person 
out of 1,000 could name a single election official in any 
county and yet these people are responsible for the sacred 
right to vote. We must train our officials to expect full 
turnouts. One of the problems in the last election was they did 
not expect so many folks to come out. Well we are coming out 
even more, we are not going to be discouraged by what happened 
in November 2000, we are going to be invigorated by it so 
election officials must be trained to prepare for a full 
turnout. Any preacher who does not expect his church to be full 
on Sunday morning has not prepared a good sermon. [Laughter.]
    We must expect the place to be full. We must provide 
standardization and enforcement of re-enfranchisement policies 
and procedures to prevent the denial of voting rights from ex-
offenders.
    We must provide standards and policies for updated voter 
rolls and prevent illegal purging.
    And we must provide resources that enable states to upgrade 
their systems that will empower citizens to exercise their 
rights and fulfill their dreams for a nation that lets justice 
roll down as waters and righteousness as a mighty stream.
    It is not just a matter of technology, it is also a matter 
of theology. This must remain a government of, for and by the 
people. There must be levels of accountability.
    I am shaken because we worked so hard to turn out the vote 
and to reach young people who lack interest in the democratic 
process. I cut a rap CD during November. I do not know whether 
you had the privilege of hearing it or not----
    [Laughter.]
    Rev. Lowery. I think it made the top 10--in my family 
anyway. [Laughter.]
    But I worked with some rappers and we played that rap song 
and young people turned out in numbers, and I almost wept when 
they came back and said you asked us to lift every voice and 
vote. They did not hear our voices, they would not even accept 
our vote. They have turned away in disgust and they say they 
will not be back again. Well, we must work with them and you 
must help assure them, in the Congress, that their votes are 
important and that you are going to institute those reforms 
that will let justice roll down as waters and righteousness as 
a mighty stream.
    And this nation under God will embrace a theology that 
guarantees the right to vote and the right to have those votes 
counted as we introduce a technology that facilitates that 
process.
    Thank you very much.
    [The prepared statement of Rev. Lowery follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Here, here. Reverend, thank you very much.
    You know, I was going to ask some questions, but I am not 
going to follow that. I will ask Max, my good friend, to pick 
up on that.
    Rev. Lowery. Well, we could just pick up the offering.
    [Laughter.]
    The Chairman. My good friend, Max.
    Senator Cleland. Thank you very much, Mr. Chairman.
    Mr. Jones, let me just start with you. Can you tell us a 
little bit here how important Federal funding is to what you 
have got going in De Kalb in your pursuit of reforms there. And 
then tell us a little bit about what you have got going with 
your Board of Elections or with your supervisors in terms of 
training or more precincts or things like that or improved 
technology.
    Mr. Jones. Thank you, Senator Cleland.
    I do have with me Linda Lattimore, who is our Elections 
Supervisor in De Kalb County.
    When I got elected back in 2000, I campaigned on a fresh 
start and that is exactly what we brought to county government, 
challenging our employees to think outside of the box. And one 
thing I mandated too, Senator, was customer service training 
for every single employee in De Kalb County's government 
because that is important. Because as we deliver services, we 
have to be mindful that those services that we deliver are paid 
for by the citizens, or the taxpayers.
    Senator, when you look at all our challenges, whether it is 
transportation, dealing with this heavily populated urban 
county--as a matter of fact, there are more people in my county 
than many states in this country. So we are dealing with 
transportation issues, we are dealing with providing those 
basic services, parks and recreation. We have just had to do a 
bond referendum to get money to preserve and acquire green 
space because that is a quality of life.
    Our monies are limited, just like the monies on the State 
level and the Federal level. Our economy, of course as you 
know, there are some challenges. Our revenues this year are not 
where they were last year. So certainly any funding or 
additional resources that we can get from the State and Federal 
Government, that will be helpful.
    One of the things that we are going to focus on, clearly, 
is training those poll workers that we get. First of all, train 
our employees and then train the poll workers with customer 
service; also, how to deal with those special situations. We 
are going to use our public access television station to 
educate more of our voters or our taxpayers or our citizens on 
the voting process, where to call to get information ahead of 
time, who can you talk to if you are in a situation where you 
are physically challenged or impaired in some sort, where we 
can know exactly who you are, how many there are out there, 
where you need to be, to make sure we have people in those 
precincts that can accommodate you.
    All of that is a part of thinking outside of the box. We 
were caught asleep, like many of us were across the country in 
terms of the turnout. We all talked about we wanted a drive, 
our voters to come out and we criticize our voters sometimes 
for not voting. Well, Senator, as you know, as many of us, this 
past election, we got slapped back in our faces because we were 
told, you know, you want us to come out but our vote cannot be 
counted.
    We want to make sure that every voter is treated with top 
quality customer service. We want to do things that can reduce 
that line. One of the issues we saw, Senator, there were a lot 
of uncontested races on the ballot, which made the ballot even 
longer--they were uncontested and they had already surpassed a 
deadline where there could not be a write-in candidate. Just 
that alone could have reduced the ballot.
    We want to be able to educate our voters on those 
referendums that appear on the ballot in lay person's terms so 
they can understand that and they can have a better feel for 
it. We want to disseminate more information. We want to be 
user-friendly and we want to use every available resource that 
our county has and certainly it makes a difference by having 
additional resources.
    You know, Senator, my dad, when he returned from World War 
II, he was not able to vote, he could not go down and vote. 
When I was born in 1960 and the Voters Rights Act of 1964 and 
1965 and then when I went to the polls to vote at 18, I was 
welcomed by a smile and I was welcomed, look, you have a 
Constitutional right. But imagine coming that far, but getting 
to the polls, casting that vote and that vote not being 
counted. We want to make sure that every citizen understands 
the voting process, the equipment and we have good people in 
place.
    Senator Cleland. Where are you now in terms of moving 
beyond the votomatic? De Kalb is the second largest county in 
the state that uses it, right behind Fulton. What is your time 
line in terms of replacing the votomatic with some other form 
of technology? Is it basically a question of financial support 
now for you, before you replace that?
    Mr. Jones. Well certainly that is one of them. But one of 
the crucial questions, Senator, is what equipment we are going 
to use. I mean there is so much out there. That is why we are--
in De Kalb County, we have two pilot sites, your hometown of 
Lithonia and Decatur. And we will be looking at equipment. That 
will give us an opportunity to see what equipment will best 
serve our citizens.
    The next step is the financial cost of that to cover our 
entire 167 precincts. And certainly that is when the financial 
responsibility has to be met. And we are closely working with 
our Secretary of State Cathy Cox, our Governor and the 
legislature, but certainly our delegation in Congress too.
    We will know fairly quickly right after that election, come 
November, which equipment would be better for us and the 
financial cost, so we can submit that information to the 
appropriate government agencies.
    Senator Cleland. Thank you very much.
    Mr. Spakovsky, you are on the Election Board with Fulton 
County, is that correct?
    Mr. von Spakovsky. That is correct.
    Senator Cleland. And you have got the largest county in the 
state, the largest county with the votomatic system.
    Mr. von Spakovsky. Right.
    Senator Cleland. Where are you in terms of moving beyond 
the votomatic system and investing in new technology?
    Mr. von Spakovsky. Senator, I am proud to say that last 
July--so I am talking about July of 2000--at a time when 
neither Congress, nor anyone in our state legislature was 
paying any attention to this issue, we realized on our Board 
that we needed new equipment. And we took a look at the kind of 
equipment that was available and in October of last year, prior 
to the November election, my Board sent a request to our Board 
of Commissioners asking them to give us the money to purchase 
new equipment. And what we asked for at the time was precinct 
count optiscan equipment.
    As you know, there are several studies that have come out 
recently, including the Cal Tech study, which have recommended 
that because it has the lowest under-vote rate of any equipment 
used, including in comparison to electronic voting equipment.
    I, fortunately--I and the other members of our Board--did 
not have to do any work convincing our Board of Commissioners 
they should purchase new equipment after the November election. 
But I have to tell you that in December, they would have vote 
on this, on our request in the beginning of January in order to 
give us the money for this year to purchase new equipment, and 
unfortunately what happened is in December, the air waves began 
to be filled with all the news about all these bills being 
introduced in Congress that would provide Federal grants. Our 
Secretary of State Cathy Cox went forward with a great idea to 
the State General Assembly, to try to convince them also to 
come up with the money and our Board of Commissioners did what 
county commissioners usually do when they suddenly see that 
there might be Federal or State money coming down the pike. 
They decided not to approve our request because they wanted to 
see if they were going to get any money from the State 
legislature or from the Federal Government.
    I was in Washington in May, I testified before one of the 
other Committees there, and when I mentioned this to Senator 
Joe Liebermann, he kind of rolled his eyes at me and said, the 
chances of getting any Federal money this year are pretty slim 
and there is no telling when these bills may get through.
    So I have to tell you that last week, my Board of Elections 
went back to the county commissioners and asked them to 
reconsider and to approve our budget request to lease precinct 
count optiscan equipment so that we can have it in place by the 
July 2002 primaries, because even if the State of Georgia is 
successful, Secretary Cox is successful, we are not getting new 
electronic equipment until 2004 and frankly, we do not want to 
go through another major election with punch card equipment. So 
I am hoping that they will approve our request so that we can 
have precinct optiscan equipment leased by the next election.
    Senator Cleland. Thank you for continuing to press forward 
in that cause.
    How important is it for you and your county to have some 
Federal funds to, in effect I guess, accelerate what you have 
already committed to do?
    Mr. von Spakovsky. Well, I think it is very important. As 
Commissioner Jones has said, county commissions have a lot of 
priorities and needs when they are deciding on their county 
budget, and any help from the Federal Government will 
accelerate the process, particularly if counties decide that 
they want to go to electronic equipment instead of optiscan 
equipment.
    When we went out and looked at the market, we discovered 
that that was about five times as expensive as precinct count 
optiscan equipment. So that takes a lot more money. Also, if 
you want to go to a system like what the Cal Tech/MIT project 
recommended. One of the things they said in their report--and I 
think it is a very good idea--is that in order to solve some of 
the problems at precincts with voter registration, they 
recommended that each precinct have not just a telephone so 
they can call in and check on a problem, but that they have a 
PC, a computer that is hooked up by modem so that they can 
check directly the voter registration list if there is a 
problem. Again, that is a lot of equipment that costs a lot of 
money, not just buying the PC, but making sure that you've got 
a network at every single precinct where you can hook into that 
and do it. Again, all of that takes money and with the kind of 
priorities the county governments have, any money from the 
Federal Government will help speed that up.
    Senator Cleland. Thank you very much.
    Madam Secretary, could you tell us a little bit about the 
test that you are going to conduct this November, this fall, 
and what you expect out of that and maybe some recommendations 
you might put forward to the Georgia legislature in January?
    Ms. Cox. The pilot project we will be doing in Georgia this 
November will involve 13 cities scattered all over the state 
and we hope to use as many as seven different manufacturers' 
types of equipment. The one in the corner is one of the seven 
that are currently going through certification in Georgia. We 
want to use as many as we can, so that we get as varied an 
experience and exposure to the systems, to the companies, to 
the educational efforts, to the voter response--the whole 
process. But we will actually--the State legislature funded 
this pilot project, so the state will actually pay to lease 
this equipment and put it in these 13 cities and have the 
voters actually vote in a binding form to elect their municipal 
officials this November in those 13 cities.
    Our legislation that calls for the pilot project also 
authorizes us to put together what we have labeled the 21st 
Century Voting Commission, which is a bipartisan commission 
composed of legislators and election officials and myself, to 
oversee the pilot project and to work on the voter education 
efforts, to work on the evaluation efforts. We are contracting 
with the University System in Georgia to do comprehensive exit 
polling so that we get good data on the backside of how voters 
really like this equipment, what worked, what did not, what was 
difficult, what was easy, from both a voter standpoint and the 
election official standpoint and we get some good hands-on 
experience with the various companies who make this equipment 
to find out who does a good job, who has the resources to put 
out a first rate product and service.
    After that pilot project, this voting commission will help 
us evaluate the good and the bad and make a recommendation to 
the Governor and General Assembly on which type of equipment we 
would like to put in place for all Georgia counties. As you 
well know, Georgia has 159 counties and we purposely wrote this 
legislation to say that all of those 159 would be on the same 
system, because we cannot have any effective voter education in 
this state until people are voting on the same system. Not to 
mention that we are also currently under a lawsuit which holds 
up the equal protection standards of the Bush v. Gore lawsuit 
that says we must have equal standards for counting those 
votes.
    We will move toward putting that equipment in place in all 
those 159 counties and we wrote into the legislation that the 
State would pay for it rather than the county, because number 
one, as you know, being a former Georgia legislator, the 
legislature was not likely to pass on an unfunded mandate to 
the counties. Many of our 159 counties can barely afford to pay 
the light bill at the courthouse, much less invest in new 
equipment. And even those that can afford it, have other 
priorities. So we felt like the only way we could ever achieve 
uniformity was to have the State pay for it. It is very 
important for the State to get assistance from the Federal 
Government, but we also did not want 159 De Kalb Counties to 
have to apply for Federal grants when we were all doing the 
same thing.
    But we fully intend in 2002 to get one portion of the 
counties, preferably the punch card counties, first, to replace 
them with new equipment, get more of the equipment in 2003 and 
get the remainder in 2004, so that by the Presidential election 
next, we have every county in Georgia on the same system.
    Senator Cleland. That would be an awesome accomplishment. I 
am going to work with you and members of this Committee and 
members of the Senate to do everything I can to make sure that 
happens.
    Mr. Jones mentioned something that was kind of disturbing, 
that De Kalb did not get notified about a lot of information 
that was--registration information--that should have been 
coming their way. You mentioned the State Department of Motor 
Vehicle stalled. Where are we on that? I mean it is obvious--it 
was painfully obvious when we went through the whole Motor 
Voter exercise that those of us who were very concerned about 
the theology and the concept and were all worked up about that, 
of one man-one vote, and making every vote count, that you take 
that to another agency, Motor Vehicles, and they are excited 
about the theology of motor vehicles, they are not excited 
about the theology of voting. And we understood that.
    Is there something there in the Motor Voter, 
administratively, legislatively, whatever, that--where there is 
all of a sudden bottleneck in an agency that is not excited 
about the theology that we are all excited about, that somehow 
is a cog in the system that is not working? Did the Motor 
Vehicle Department stall out and therefore end up with egg on 
the face of our registrars out there?
    Ms. Cox. Part of the problem is the actual design of the 
system. As you know, because when you were Secretary of State, 
you started this system and started the process, and Georgia 
was one of the first states in the nation to get Motor Voter up 
and running and to centralize our voter registration system. 
But part of the problem is that the then Public Safety 
Department called up the Secretary of State's office and said 
we are going on line with this system next week, and your staff 
had no opportunity to help design that system and we have had 
no opportunity since then. And the problem, without getting 
into too much detail, is currently when you go into a Georgia 
driver's license office, you tell them you want to register to 
vote, but you never sign anything, you never touch anything, 
you get no feedback at the driver's license office. You just 
hope that that license examiner entered a yes when they may 
have accidentally hit no or something like that. You do not get 
any kind of information or feedback there. You remember that 
you told them you wanted to register to vote and then a few 
weeks pass and you do not get anything in the mail, but you do 
not even know to look for anything in the mail. You show up at 
your neighborhood precinct and find out you are not registered 
to vote.
    The good opportunity we have in Georgia right now is that 
this July 1, the driver's license apparatus was moved into a 
new state agency, a new Department of Motor Vehicles, with all 
of the tag and title--everything related to motor vehicles as 
of July 1 is now in a new state department. And so we have 
already begun to work with the new commissioner and the new 
staff there and we very strongly informed them that the whole 
system needs to be overhauled so that perhaps a voter signs an 
electronic keypad at a driver's license office so, number one, 
we could get all their signatures in an electronic format, to 
better use, but that they also get some kind of printout on 
site, ``you have applied for voter registration, if you do not 
get a voter card in the next two weeks, call this number,'' or 
something, so the voter knows what is going on here and does 
not just rely on their memory.
    So there are a lot of kinks and there were some actual 
computer malfunctions prior to the November election where a 
number of people registered to vote and got a voter card in the 
mail, but then showed up at a polling place and their name was 
not on the list. So a lot of problems need to be addressed.
    Senator Cleland. Thank you very much.
    Mr. von Spakovsky. Senator, could I address that issue?
    Senator Cleland. Yes, sir.
    Mr. von Spakovsky. This is a related problem and it is 
caused by Motor Voter but it is unintentional. As Commissioner 
Jones mentioned, I think De Kalb County had problems with third 
party organizations like fraternities, who conducted voter 
registration drives and did not turn in the materials. We had a 
similar problem in Fulton County and we did not have that 
problem really before Motor Voter, and let me tell you why.
    Before Motor Voter, when a third party organization, 
whether it was the NAACP or the NRA, if they were going to 
conduct a voter drive, they had to do two things--one, they had 
to come to the local county department and whatever individuals 
at the group who were going to conduct the voter registration 
drive, they had to undergo training. We had a two-hour seminar, 
very easy to get to, in which we would train them on how to do 
the registration, what to look for, so that they knew what they 
were doing. The second thing was then they would tell us how 
many voter registration forms they needed and we would give it 
to them, whether it was 100 or 1,000. At the end of the voter 
registration drive, that organization had to bring back to us 
the same number of forms we had given to them. If it was 1,000 
forms and they had gotten 500 filled out and 500 not, they had 
to bring us back 1,000 forms. And if they did not bring it 
back, then we knew that there was some kind of problem and we 
could follow up with the organization.
    Because of Motor Voter, we cannot require that any more. 
Any group can come in, pick up as many voter registration forms 
as they want to, go out, conduct a voter registration drive and 
if they do not turn them in, if all of the forms end up sitting 
in a box in somebody's trunk because they forgot to mail them 
in, we are not going to know about it until election day when 
people start showing up at the polls saying well, I registered 
to vote, why can I not vote. And I do not think that third 
party organizations like that ought to be able to conduct voter 
registration drives unless they have had minimal training and 
there is some way of supervising to make sure that they get 
those forms back to us. And that is, I think, a problem that we 
have encountered also.
    Senator Cleland. That is a good point.
    Reverend Lowery, we are just delighted to be with you. I 
was a young intern in the summer of 1965 on Capitol Hill when I 
went over and watched President Johnson in the rotunda of the 
Capitol in front of Lincoln's statue sign the Voting Rights Act 
of 1965. The enthusiasm of that moment still rings in my memory 
as we speak. There was an excitement about the reverence, as 
you put it, for the right to vote and that we had come a long 
way.
    I am just as frustrated as you are here in 2001 that in 
many ways we are going back over some of the same ground. But I 
am encouraged by some of the testimony today.
    Can we talk a little bit about election day itself? I know 
it would cost a little more money if the polling hours were 
extended, but is there any merit, in your mind for the average 
Georgian out there, for the polls to be extended from say 7:00 
in the morning to 9:00 at night, or 6:00 a.m. to 9:00 or 
something like that? Is that something that is going in the 
right direction? Do you have any reaction to that?
    Rev. Lowery. I think, as I said in the testimony, I think 
we ought to consider weekends, we ought to consider two or 
three days leading up to the last day. I think there is 
something theologically deficient in our unwillingness to 
facilitate the voting process. I do not know why we are 
reluctant--well, I do know why, but we really ought to deal 
with that. I remember when we were trying to register to vote, 
it was not as much racial as it was--well, it was racial too, 
but there were politicians who did not want a whole lot of 
voters and the smaller the electorate, the better chance they 
had of getting elected, re-elected, re-elected. The seniority 
system--of course, I have changed my mind a little bit on the 
seniority system----
    [Laughter.]
    Rev. Lowery [continuing]. Now that we have got some 
African-Americans in the Congress. If the election had gone the 
other way, Charlie Rangel would have been Chairman of this 
Rules Committee over in the House. But nevertheless, we ought 
to facilitate the process of voting and I think everything we 
can do to do that enriches or democracy.
    When a small percentage of people vote, you get back to 
oligarchy and aristocracy, not democracy. I think the 
participatory element ought to be pushed at every level of 
government and we ought to make it easy to vote. And we ought 
to spend the money, I think it is worth--it is more important 
to spend the money on that than it is to play golf on the moon. 
I like to play golf, but I really do not see the multi-billion 
dollar expenditure so somebody can swing a pitching wedge on 
the moon to no avail.
    We need to reorder our priorities, I think, to make the 
expenditures for enriching the democratic process a top 
priority. And I think the American people are prepared for that 
and if there is any positive thing out of what happened in 
November 2000, it is that we cannot take this right for 
granted, that we have to make it a top priority, that it is at 
the core of our value system in terms of democracy. And I would 
urge Senators like the two of you and your committee and so 
forth to be aggressive, be bold, be adventurous, take chances, 
give us the leadership that we need to wake this country up. 
This was a wake-up call and if we do not wake up now--I said in 
Tallahassee on inauguration day, we had a service in 
Tallahassee on inauguration day and I am not--we have moved on 
in terms of the presidency, but we have not moved on in terms 
of truth and progress and enriching our democracy.
    The bridge that is going to take us over the troubled 
waters of the new millennium are in peril, threatened and 
weakened by corruption in government. And I think that flawed 
systems are a form of corruption. I think a failure to get the 
most efficient equipment, I think that is a form of corruption 
in government. And African-Americans have been the chief 
victims of corrupt government through slavery, segregation. 
Slavery was a public policy, you know. Say amen. So we have 
been the chief victims of public corruption and now I think we 
can address it because in this last election, we were not 
alone, a lot of white folks' votes were stolen and corrupted, 
and now maybe we can get down to the business of correcting the 
flaws.
    I think we have got to put--unless we are willing to put 
our money, you know, our love is flawed. My wife taught me that 
a long time ago. [Laughter.]
    If you are not willing to put the money where your love is, 
there is something flawed about your love. And I think this 
country needs to look at its priorities from a spiritual 
perspective, a theological perspective, and seek first the 
enrichment of our democratic process and then the technology 
can follow.
    Senator Cleland. Thank you very much for those eloquent 
words.
    Mr. Chairman.
    The Chairman. Thank you very much. Yes, Mr. Jones.
    Mr. Jones. I did want to do a footnote to the Senator's 
question to Reverend Lowery.
    As I mentioned in my testimony, I talked about expanding 
that window, between now and 2002, Senator, we are going to add 
another 15 to 20 polling places in our efforts to reduce the 
line, but the thing about voting, you cannot always anticipate 
the amount of turnout. And when you look at a person's voting 
pattern or the traffic pattern that particular day, again, that 
12-hour window, we can change or update the voting apparatus, 
but still there is a human interface with that voting 
apparatus, still we are going to have to educate and train 
voters and the election team, employees if you will. But with 
all that being said, we still have to look at making it 
convenient because when it is not convenient, that deters 
people from voting or their experience, their initial 
experience, if it is an inconvenience, they will not come back.
    And so again, I did want to re-stress if you could look at 
that or have more debate about that--I know in our own 
legislature, and our Secretary of State can talk about it more, 
but there have been many attempts to expand the window and to 
expand the time frame to vote. And it has all been all but 
bottled up in committee or never got out of committee, as you 
know. So that is something that we certainly think could really 
help in a number of ways, and that is expanding that window.
    Senator Cleland. Thank you very much.
    The Chairman. Well, let me thank you, Max. A lot of good 
questions have been asked.
    First of all, I should have noted, I just wanted to also 
express my gratitude to Governor Barnes, with whom I had a nice 
breakfast this morning, and his leadership. And Madam 
Secretary, you pointed that out as well, and I saw Attorney 
General Baker as well, who I know has also been interested in 
this subject matter.
    But I mention Zell Miller, our colleague in the Senate, who 
is not with us today but we talked about being down here and 
was a co-sponsor of the Dodd bill, Dodd-Conyers bill. I am very 
grateful to Zell for his leadership and obviously the former 
Governor of this state is very much aware of events here.
    I spoke a couple of weeks ago at the National Convention of 
the NAACP on this issue and there was a strong delegation from 
Atlanta at that convention and my old colleague in the House, 
Andy Young, who I see from time to time, and Julian Bond--I 
mentioned Maynard Jackson was here earlier--this state has had 
such a rich political tradition. I mentioned Richard Russell, 
for whom this building is named, but also Sam Nunn, with whom I 
served in the Senate for a number of years.
    President Carter, we talked about elections overseas and 
how you can have a conversation about elections and not mention 
President Jimmy Carter and his strong interest in--I think, 
Max, you mentioned last night some 30 different elections that 
he has observed and monitored around the world. That may be a 
low number. In fact, Reverend Lowery, I was with President 
Carter in Nicaragua to monitor the elections there more than a 
decade ago, and he is working on a commission now with 
President Ford, going to make some recommendations, through the 
Carter Center and others. So I should have mentioned his name 
right at the very outset for his longstanding commitment to 
this process of better elections.
    I note with some interest that there are many so-called 
third world countries that are ahead of us. I read recently a 
report on the election process in Brazil, which had serious 
problems, Max, and has now come up with a system of voting in 
that country which is virtually fraud free, gets immediate 
results and there, they have a significant percentage of their 
population which are illiterate and yet they have a system that 
allows people to vote based on the colors associated with 
parties, even some animal figures associated with political 
parties and nations, and where screens actually have the faces, 
pictures of candidates themselves, so after they have voted, 
they can verify that that is the picture of the person for whom 
they wanted to vote.
    It is sad commentary in a way that countries that are 
nowhere near as advanced as we are technologically are doing a 
better job than we are. I read, I think it was your testimony, 
Madam Secretary, that talked--or one of your testimonies--that 
talked about how we go to a gasoline station today and put in 
credit cards and get receipts to verify what we have done. ATM 
machines, I mean this goes on and on, of our ability today to 
conduct activities that only a few years ago we could not have 
dreamed of and yet we still are confronting a process by which 
we elect local, state and national figures that is in some 
cases as old as the republic. When you look at the map of how 
people vote on paper ballots in some counties around the 
country.
    I want to just make a couple of points, if I could. First 
of all, on the issue of voter fraud, which is obviously an 
issue we need to address, but too often voter fraud is equated 
with voter error. And there is voter error, someone showing up 
at the wrong polling place, someone that has an improper 
address and so forth is quoted as voter fraud. And that is not 
voter fraud, that is voter error, and a lot of it gets 
anecdotal and we certainly need to address it, but it becomes a 
red herring, in my view, when we focus attention on that at the 
expense of creating a system that allows for people to vote or 
to register to vote in a more accessible way.
    I noted, Max, last night you and I over dinner with your 
mother and father that I think you mentioned to me in passing 
that as a result of the Motor Voter legislation here in 
Georgia, there are well over a million additional people who 
were put on the registration rolls. And I noted, just as a 
result of studies done by the Federal Elections Commission, in 
June of this year, the report shows that the statute is 
actually pushing many jurisdictions to confront problems and 
there are lists of maintenance procedures.
    In the last two years, over 13 million names were removed 
from voter registration lists and another 18 million names are 
deemed inactive and subject to removal in 2002 if those persons 
do not vote. This is all as a result of the Motor Voter 
legislation. And you, Madam Secretary, pointed out some of the 
problems with this, it is not a perfect system and needs to be 
worked on, but I hope we do not digress from what needs to be 
done in making the voting equipment accessible to people user-
friendly by trying to divert into an area that needs some 
attention, but is not as dominant, in my view, as the others.
    Let me ask in that regard, because I come back to this 
point, and there is the difference between the bill that 
Senator McConnell has introduced and the one that I have 
introduced in one major way--there are a lot of similarities. 
We both have commissions in the bill, we talk about provisional 
voting and these other matters. And there is the mandated 
issue. And I am not enthusiastic about mandates, I do not think 
it is something we ought to jump to, but Mr. Spakovsky, you 
mentioned in your testimony, and I quote you, you say that 
``Elections are local events, they are community events. When 
an election involves federal officers, it is a communal act of 
residents of a county or city to choose their representatives. 
That is how it was envisioned by the founding fathers, for good 
reason.''
    How do you address the question--work on an assumption for 
a second that the people in my state of Connecticut go out and 
vote on the Presidential race and do so in a system that is 
fraud-free and accessible to all, and vote their electorates 
for the President. And in some other jurisdiction, there is a 
system which is either fraudulent or is so user-unfriendly in a 
way that the votes in that community are undercounted or people 
are not allowed to vote when they should have the right to 
vote. It is a local event in that jurisdiction where those 
problems have persisted, but can you honestly make the case 
that the people in my state have not been adversely affected by 
a decision made in another jurisdiction that diminishes the 
value of that voter's vote in Connecticut? How do you make that 
case that it is purely a local event, without having national 
implications when it comes to a Presidential race or election 
to the national assembly, the Congress of the United States?
    Mr. von Spakovsky. Well, Senator, with due respect, I think 
you are mischaracterizing my testimony. What I have said is 
that I do believe there is room for the Federal Government in 
this, in particular I think there is a need for establishment 
of national and very uniform standards for the kind of 
equipment that is used, for upgrades to voter registration 
systems.
    The Chairman. We agree on that.
    Mr. von Spakovsky. We agree on that, but I do not believe 
that the Federal Government should be passing statutes that 
say, for instance, that every state in the country will use 
this particular type of equipment.
    The Chairman. Oh, you and I have no disagreement on that--
none whatsoever.
    Mr. von Spakovsky. And ask to--it is already a violation of 
law for someone who has a right to vote not be allowed to vote. 
I mean that is against the law, not just federally under the 
Voting Rights Act, but that is certainly against the law in 
this state. And actions like that can be prosecuted and I can 
tell you that when my county election board is made aware of 
violations of the law like that, we refer and have referred 
actions like that to our county prosecutor for prosecution.
    The Chairman. Let me come back to it, I hope I made that 
clear, when I talk about a national standard, I do not mean a 
national machine. I am not talking about a national--this 
particular piece of equipment over here may be a very fine 
piece of equipment and work very well in Georgia. I have not 
looked at the equipment, but people in my state may find that 
unattractive to them, for whatever reason. I do not want to 
force voters in Connecticut to have to use that particular 
piece of equipment. I would look them to make sure the 
standards which are applied to that piece of equipment, that my 
voters would have the same standards apply to them. So there is 
a distinction, very clear in my mind, between a one piece of 
equipment or one type of voting machinery as opposed to 
national standards that allow that person who is in a 
wheelchair or who is blind to have access to that ballot. I 
hope there is no distinction on that.
    Here is the problem that I come down to, the difference 
between a mandate or just a carrot. In 1965, and we have talked 
about the Voting Rights Act of 1965, there were various local 
decisions that were made on poll taxes, on literacy tests. We 
did not leave that--we did not say if you get a Federal dollar, 
you have got to eliminate the poll tax or eliminate the 
literacy test. We said that you have got to change that. I do 
not care what county you are in, what precinct you are in, 
literacy tests and poll taxes are just flat out wrong and it is 
not a question of local choice on that matter, or whether or 
not you got a Federal dollar. That is just wrong.
    How do you distinguish between that and a process today 
where we have heard where thousands of people--millions--are 
denied de facto, if not de juri, the right to vote, and leaving 
that up to some sort of voluntary carrot approach, rather than 
saying there is a national mandate that says that that ballot 
has to be accessible to all Americans regardless of their 
physical condition?
    Mr. von Spakovsky. The situation in 1965 was greatly 
different in degree and I agree with you that there were basic 
constitutional issues at stake there and we had to do 
everything we could from the Federal Government to guarantee 
the right to vote. I understand that very well, Senator, 
because I have a very unusual name for somebody who was born 
and raised in the south. That is because I am a first 
generation American and my mother grew up in Nazi Germany and 
my father had to flee communists twice in order to avoid being 
killed. So I grew up with lots of stories about why it was 
important to vote.
    The Chairman. Right.
    Mr. von Spakovsky. And I take that very seriously.
    The Chairman. Oh, I do not question that.
    Mr. von Spakovsky. But what has happened today is that we 
have--we are looking, for instance, at different kinds of 
election equipment and, you know, I have not seen any evidence 
anywhere that there was, for instance, an intentional--that it 
was intended that people not be able to vote and that is why 
certain kinds of equipment was used. What we have got is that 
large numbers of counties are continuing to use equipment 
which, at the time it was first introduced in 1964--and in 
fact, Fulton County was the first county in the entire country 
to install punch card equipment back then--it was considered an 
innovation. And unfortunately it has continued to be used and 
as newer innovations have come on the market, they did not 
replace it.
    But even today, there is fundamental disagreement around 
the country about what is the best kind of equipment that we 
should replace this with. You know, Florida put together a task 
force and they looked at this issue and they came out and 
recommended optiscan equipment. Georgia is leaning towards 
electronic voting equipment and there is no perfect voting 
technology, and it is clear that people are going to have a 
difference of opinion there.
    I think that uniform standards are the best way to address 
the issue and you can use the carrot approach if you want to 
get Federal grants, you are going to have to meet these 
standards, and that will change the situation all over.
    The Chairman. I appreciate that. That brings up a second 
question. Maybe I can ask the Secretary this, and you, Mr. 
Jones, being at state and local.
    I just know in Connecticut--I do not think our 
jurisdictions--we all talk about great differences, there are 
also tremendous similarities around the country. And I just 
know in my own little town where I live, they are sitting on 
that local finance board and those issues are coming up in 
Connecticut, buying that new plow for the winter or whatever 
else or the Little League field and so forth, or the new voting 
equipment; I do not need to tell you how the finance committee 
comes out with these decisions. I mean the politics locally are 
it is always better to get the plow or the new fire engine or 
the new Little League field than it is to get the new piece of 
equipment. That is just human nature. I do not think 
Connecticut is any different than any other jurisdiction when 
it comes down to this.
    My concern is if we end up with sort of matching dollars, 
even if it is matching, that you still have to have that 
commitment, even for 50 percent or 20 percent. My view, when 
the Federal Government mandates something, if we are going to 
mandate national standards, if we are going to mandate 
provisional voting, then I think the Federal Government bears 
the responsibility to local and state government to general 
finance its mandates. And this idea of having sort of unequal 
access is dangerous to me. Again, I am not going to argue 
racism here, but in poorer communities, rural and urban, that 
cannot afford the better equipment, there is less than an equal 
opportunity to cast a ballot. And I want to eliminate the 
economic reason for people having disparate opportunities to 
vote. It seems to me that where Presidential elections or 
national assembly elections are involved, that the Federal 
Government then bears the responsibility to level that playing 
field, so that people have that equal opportunity to vote.
    And I do not know if you want to comment on this or not, 
but I was just curious, just in your own personal observations 
whether or not Connecticut is any different than Georgia or any 
other state, based on your own experience and background. Madam 
Secretary, do you want comment?
    Ms. Cox. I would agree completely with you, Senator Dodd. I 
think your individual voter is almost no--there is almost no 
difference than the individual Georgia voter. And I think it is 
in the national interest that we have every state using 
upgraded equipment that we know is accurate and we know can 
accommodate all of these various features that we all agree 
need to be included. And the only way we can guarantee that it 
will get there on a uniform basis is with full Federal funding.
    Just last week, the National Association of Secretaries of 
State met and we included that sentence in a resolution which 
we adopted unanimously, that Federal mandates should include 
Federal funding. But I think without full Federal funding, you 
may have 48 states that get around to it and another two that 
do not and you are in the same situation you were in in 2000 
with Florida.
    The Chairman. Yes.
    Ms. Cox. That is what we set up for.
    The Chairman. Mr. Jones.
    Mr. Jones. Thank you, Senator.
    First of all, it is a U.S. Constitutional right to vote, 
every citizen should have that right.
    When you talk about the Federal Government is involved, 
certainly having served in the state legislature, I thought 
statewide and so certainly we would want to make sure that 
everybody across our state are given the same opportunity, a 
level playing field. You, as a United States Senator, you 
really draft and set policy for the entire country, which means 
you set standards. And when we elect our United States Senator, 
when we elect our Congress persons and when we elect our 
President, then that puts the Federal Government in it whether 
they want to be in it or not. And I think that you have the 
responsibility to set the least basic standards, and serving in 
state legislature, we do not like unfunded mandates and this is 
the one time we certainly appreciate that mandate that is being 
accompanied by resources.
    And finally--I thought about something when the Senator was 
talking about earlier, the price tag, what it would cost. There 
is no price tag for someone's Constitutional right. It is not 
about money, it is about ensuring that person their 
Constitutional right that they have an opportunity to vote and 
that that vote be counted. And money--you can put a price tag. 
As far as equipment, I hope that that equipment over there will 
be outdated in 10 years, because as technology increases and 
improves and as the market drives, certainly there is a need 
now for accurate, vast and easy to use technology. We hope that 
that is outdated in 10 years, which drives the cost down on the 
equipment. So at least we should have a system in place that is 
as accurate as possible but at least also strives toward making 
sure that that equipment, through information technology, is 
constantly improved upon, will we eventually again assure the 
rights and maintain the rights of every citizen.
    The Chairman. Let me just--Madam Secretary, you pointed out 
that there was a greater undervote gap in counties that use the 
optical scanning voting systems than using the punch card 
machines. That sort of runs contrary to what the national 
impression is. In fact, when I talked to the Governor this 
morning, he was pointing out some of the real problems with the 
optical scanning. You really have to fill in the entire box or 
it can--you can end up with an undercount there.
    In wonder if you could share some thoughts just quickly on 
that. Based on your findings, I mean this is--what are your 
concerns about that?
    Ms. Cox. Well, I think the bottom line is that Georgia is 
one of the few states that has actually done a precinct-level 
analysis of what was happening in individual precincts. When 
you look at a state's overall undervote rate, Georgia was bad 
enough, we were at 3.5 percent compared to Florida at 2.9 
percent, but then when you start looking at individual 
counties, it is really deceiving until you get down to the 
precinct level and find out what is going on. And what we found 
out in Georgia, much to our surprise, was that in a punch card 
county, for example, between majority black and majority white 
precincts--and we looked at almost 200 precincts in the state 
that were 80 percent or greater black and 80 percent or greater 
white within the same county, using the same equipment. And in 
those punch card counties, the difference between black and 
white precincts was, in most cases, maybe a half percent--it 
was bad and the overall rate was, you know, five to seven 
percent in most punch card counties, an error rate. But in a 
white precinct, it might be 4.5 and in a black precinct, it 
might be 5.8 and so the gap between black and white precincts 
was fairly marginal.
    But when you went to optiscan systems, you would find 
majority white precincts that had 0.5 percent or 1.2 percent 
error rate and black precincts in the same county that had 
eight percent, 12 percent, 15 percent. One down in middle 
Georgia, in Columbus, 21 percent error rate with optiscan. And 
we don't know the reasons why, but it screams out at us for the 
need for some better system that voters can understand easier 
how to use and that they can get some feedback to know when 
they have made a mistake and be given an opportunity to correct 
that.
    That is what I like so much about the new electronic 
equipment. You do not have to get another ballot and go back 
and revote a whole ballot like you have to do with optiscan. 
Even when it rejects the ballot, you are told right there in 
the voting booth, you skipped a race, you get a chance to go 
back right then and correct it. You get a summary before you 
leave that voting booth of everybody you chose to vote for, to 
make certain that your vote gets counted.
    And that is a major problem right now with Georgia having 
almost 94,000 votes that were not counted for President.
    The Chairman. You know, I hope you will keep us posted on 
your--this is I think a terrific thing you are doing with the 
13 I think you mentioned counties or communities where you are 
going to run this. This is going to be a tremendous help to us 
as we--even if we pass legislation, it is going to be very 
important this issue not be seen as a pass a bill in this 
Congress and then move on. I think we have got to pay a lot 
more attention to this over a period of time. And we are not 
going to solve it all or learn everything just in this one 
window. I think the learning curve has to move and we have got 
to stay on top of this.
    I mean Connecticut has not bought a new voting machine I 
think in 23 years. In fact, they do not even make them any 
more, the kinds of equipment we use in our state. I think we 
just found a company that can marginally fix them if they 
break.
    So we should never allow this kind of thing to happen 
again. As Reverend Lowery and others pointed out, I mean there 
is always a silver lining in every dark cloud, my mother taught 
me and what happened last fall, the silver lining is we are 
here. And we would not have been here--we would not--I would 
not be here as the Rules Committee, in Atlanta, Georgia, we 
would not have held hearings, Mitch McConnell would not have 
held hearings had there not been this event of last fall. So we 
have been given an opportunity now to try and do something 
about it and more than just one time to try to stick with it.
    So I hope that we can learn from the kinds of examples you 
are setting here in Georgia on this particular----
    Ms. Cox. Mr. Chairman----
    The Chairman. Yes.
    Ms. Cox [continuing]. I might add also what we are doing 
with our pilot project is exactly what the Cal Tech/MIT study 
recommended. Contrary to a lot of the media reports, they did 
not just recommend that everyone go to optical scan, they said 
they recommended optical scan or electronic equipment that was 
field tested. And so that is exactly where we are going.
    The Chairman. No, I know. You know, there is a young 
Congressman that Max knows well, from Rhode Island, Congressman 
Langevin, who is a quadriplegic. He was Secretary of State in 
Rhode Island. I had a long conversation the other day, Rhode 
Island is one of the most progressive states in the country now 
on voting, simply because Jim was sitting there as Secretary of 
State and in a very personal way learned about accessibility. 
We were talking, there is not a single ballot I can find in 
America, for instance, that is in Braille--not one, not in a 
single place in America. And you go into any elevator in a 
building built in the last few years and you can find what 
floor you belong on by Braille. But it is stunning to me that 
as we begin the 21st century, that a person cannot walk into a 
voting booth and read my name of Max's name or our opponent's 
name in Braille. I do not know how hard that is to achieve, but 
just in terms of accessibility.
    So there are a lot of good ideas out there of things that 
we need to do.
    One last question--there are so many things and I will 
submit some more in writing--provisional voting very quickly, 
Mr. Jones--in favor of provisional voting? I would just like to 
get some quick assessment.
    Our bill has four points--provisional voting, national 
standards, the sample ballots and allowing people to be able to 
review their ballot. Those are the four questions. Put aside 
mandates or not, just for a second, whether or not you think 
these things ought to be adopted, either by carrot or by stick, 
if you will.
    Mr. Jones. I think it should be.
    Mr. von Spakovsky. I would add two provisos.
    The Chairman. Yeah.
    Mr. von Spakovsky. The first is that you need to 
understand, Senator, that within an hour of the polls closing, 
we start getting calls from people wanting to know the results. 
And if we have a large number of provisional ballots that are 
cast, it may delay the results of an election for weeks and if 
the number of provisional ballots is enough to affect the 
election, then they are going to be examined under the same 
kind of political nightmare circumstances as they were in 
Florida, potentially.
    The other point I would make is that if you are going to 
have provisional ballots, you need to amend Motor Voter to 
allow election officials to check the identification of the 
individual who is registering at the poll and voting, because 
provisional balloting is basically the same as same day 
registration, which a number of states have. And if you do not 
change it to allow them to do that, then what you are inviting 
is the kind of situation you had in Wisconsin during the last 
election where, as you know, about 150 University of Wisconsin 
students admitted that they had voted numerous time, some of 
them as many as four or five times, by using that technique. 
And so you have got to allow election officials the ability to 
check someone's ID and then let them register and vote.
    The Chairman. Did you have something?
    Ms. Cox. We very much are in favor of provisional voting. 
In fact, Mr. Charlie Lester and the ABA Bar Committee is 
helping us look at various versions of provisional voting laws 
around the country, so that we can decide what might best work 
in Georgia. We will be presenting something to the legislature 
in January.
    I think your idea about producing and disseminating a 
sample ballot is an excellent idea, one that we have been 
looking at with sort of a voter's guide that a number of states 
do right now. It is a great expense for Georgia with almost 
four million active voters, that is at least a several million 
dollar enterprise, in and of itself, but I think it would be 
extremely useful to the voters.
    The Chairman. Reverend Lowery.
    Rev. Lowery. No question about it, I think it is absolutely 
essential that we include provisional voting and not shy away 
from it because it has some challenges in its administration.
    And while I have got the floor, Mr. Chairman, let me--I 
would not want to go through this without commending our 
Secretary of State. I am very proud of her stewardship. She is 
bold and innovative and creative and she listens. That is a 
very interesting characteristic that you do not find too often.
    But do not yield on the minimum standards. God knows we do 
not want to go through--I would hate to see--of course, the 
Supreme Court kind of wiped out states' rights in its ruling in 
the last election and maybe that will influence some people to 
think about the efficacy of states' rights. They wiped out what 
the Florida Supreme Court said as though it did not make any 
difference, but I do not what--we cannot depend on the various 
states. Just like in the state, you cannot depend on all these 
counties. We might still be in slavery if we had to depend on 
some of the states. Mississippi has just refused--you know, 
they just voted to keep the flag and I am not sure we would 
have got rid of it in Georgia if it had not been a legislative 
mandate that we had to put in a referendum. I think the minimum 
standards from the Federal Government's perspective is 
absolutely essential.
    And the last thing I want to say is that I went with 
President Carter to Jamaica in the last election they had down 
there. They had several shootings and fatalities before we went 
down to observe the election, and our presence--I did not go 
with Jimmy Carter, I went with Evander Holifield to the 
precincts where they were voting, where there might be 
violence.
    The Chairman. You went with good company.
    Rev. Lowery. Yeah, I thought he needed my chaplaincy. 
[Laughter.]
    But they had, in spite of the threats, an 82 percent 
turnout. And they were disappointed that they did not have a 
higher rate.
    It just seems to me that we ought to look south a little 
bit for some inspiration and guidance about the electoral 
process. I was a little embarrassed that at the election before 
that in the City of Atlanta, I think it was 39 percent and they 
were 82 percent and disappointed.
    So that ought to be a challenge, it seems to me, to 
political leadership and other leadership in this country to 
inspire our people and make it accessible and facilitated for 
our people, so that we can have a much higher percentage of 
turnout in the great democracy that we are in this country.
    The Chairman. Thank you very much, Reverend.
    Max, anything else?
    Senator Cleland. Thank you, Mr. Chairman, for coming here 
and I thank our panelists. It has been a marvelous hearing, the 
first field hearing I have ever been part of but what a 
wonderful subject to pursue. And we thank you very much, Mr. 
Chairman, you and your staff.
    The Chairman. Well, Max, I thank you. I am very fortunate--
I said at the outset, but I will say it at the conclusion as 
well, I think Georgia is lucky to have Max Cleland in the 
Senate, but Connecticut is lucky to have you in the Senate. 
This is a national Senator, he keeps an eye on Georgia, but he 
also keeps a good eye on the country and we are blessed to have 
you as a member of our body.
    I thank all of you as witnesses. You have been very, very 
helpful. We may submit some additional questions to you, but I 
thank you for your presence here today.
    This Committee will stand adjourned.
    [Whereupon, at 12:41 p.m., the Committee was adjourned.]
    [Submissions for the record appear in Appendixes 48-52 
submitted for the record.]

</pre></body></html>
